No. 20-366

In the Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., APPELLANTS
v.
STATE OF NEW YORK, ET AL.
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

JOINT APPENDIX

JEFFREY B. WALL
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

DALE E. HO
American Civil Liberties Union
125 Broad Street
Director, Voting Rights Project
New York, N.Y. 1004
dale.ho@aclu.org
(212) 549-2693
BARBARA DALE UNDERWOOD
Solicitor General
28 Liberty Street
New York, N.Y. 1005
Barbara.underwood.ag.ny.gov
(212) 416-8016

Counsel of Record
for Appellants

Counsels of Record
for Appellees

JURISDICTIONAL STATEMENT FILED: SEPT. 22, 2020
CONSIDERATION OF JURISDICTION POSTPONED
AND APPEAL EXPEDITED: OCT. 16, 2020

TABLE OF CONTENTS

Page
District court docket entries (20-cv-5770) ............................ 1
District court docket entries (20-cv-5781) ..................... 36
Plaintiffs’ local Rule 56.1 statement of material facts
as to which there is no genuine issue to be tried
(Aug. 7, 2020) ....................................................................... 40
Exhibit 3: Declaration of Allison Arwady .......................... 52
Exhibit 4: Declaration of Marc Baldwin in support of
plaintiff state of Washington ............................................. 58
Exhibit 11: Declaration of Susan Brower .......................... 72
Exhibit 14: Declaration of Steven K. Choi ......................... 83
Exhibit 15: Declaration of Michael E. Cline ...................... 98
Exhibit 17: Declaration of Sara Cullinane ....................... 103
Exhibit 18: Declaration of Cesar Espinosa...................... 108
Exhibit 26: Declaration of Samer E. Khalaf .................... 120
Exhibit 28: Declaration of Monterey County
supervisor Chris Lopez .................................................... 131
Exhibit 31: Declaration of Melissa McCaw...................... 139
Exhibit 34: Declaration of Bitta Mostofi .......................... 147
Exhibit 35: Declaration of Doug Murray ......................... 155
Exhibit 36: Declaration of Theo Oshiro............................ 160
Exhibit 37: Declaration of Robert Rapoza ....................... 174
Exhibit 41: Declaration of Joseph J. Salvo ...................... 178
Exhibit 42: Declaration of Monica Sarmiento ................. 190
Exhibit 43: Declaration of Jenny Seon ............................. 195
Exhibit 44: Declaration of Vatsady Sivongxay ................ 213
Exhibit 45: Declaration of Rosamaria Y. Soto
(aka Rosemary Soto) ........................................................ 225
Exhibit 46: Declaration of Jonathan Sternesky .............. 232
Exhibit 47: Declaration of Gustavo Torres ...................... 238
Exhibit 56: Expert declaration of Matthew A.
Barreto Ph.D. .................................................................... 251
(I)

II
Exhibit 57: Expert declaration of Mr. John
Thompson .......................................................................... 321
Exhibit 58: Expert declaration of Dr. Christopher
Warshaw ............................................................................ 338
Expert declaration of John M. Abowd Ph.D. ................... 422
Declaration of Albert E. Fontenot, Jr. .............................. 432
Defendants’ response to plaintiffs’ local Rule 56.1
statement (Aug. 19, 2020) ................................................ 437
Exhibit 62: Supplemental declaration of Cesar
Espinosa ............................................................................ 445
Exhibit 63: Supplemental declaration of Theo Oshiro.... 452
Exhibit 64: Supplemental declaration of Jenny Seon ..... 456
Exhibit 65: Expert reply declaration of Matthew A.
Barretto, Ph.D. ................................................................. 461
Exhibit 66: Expert reply declaration of Mr. John
Thompson .......................................................................... 490
District court order (Aug. 31, 2020) ................................... 498

UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK
(FOLEY SQUARE)

Case No. 1:20-cv-05770-JMF
STATE OF NEW YORK; STATE OF COLORADO; STATE
OF CONNECTICUT; STATE OF DELAWARE; DISTRICT OF
COLUMBIA; STATE OF HAWAII; STATE OF ILLINOIS;
STATE OF MARYLAND; COMMONWEALTH OF
MASSACHUSETTS; STATE OF MICHIGAN; STATE OF
MINNESOTA; STATE OF NEVADA; STATE OF NEW
JERSEY; STATE OF NEW MEXICO STATE OF NORTH
CAROLINA; STATE OF OREGON; COMMONWEALTH OF
PENNSYLVANIA; STATE OF RHODE ISLAND; STATE OF
VERMONT; COMMONWEALTH OF VIRGINIA; STATE OF
WASHINGTON; CITY OF CENTRAL FALLS; CITY OF
CHICAGO; CITY OF COLUMBUS; CITY OF NEW YORK;
CITY OF PHILADELPHIA; CITY OF PHOENIX; CITY OF
PITTSBURGH; CITY OF PROVIDENCE; CITY AND
COUNTY OF SAN FRANCISCO; CITY OF SEATTLE;
COUNTY OF CAMERON; COUNTY OF EL PASO; COUNTY
OF HIDALGO; COUNTY OF MONTEREY; UNITED STATES
CONFERENCE OF MAYORS; STATE OF MAINE; STATE
OF WISCONSIN AND HOWARD COUNTY, PLAINTIFFS
NEW YORK IMMIGRATION COALITION; CASA;
AMERICAN-ARAB ANTI-DISCRIMINATION COMMITTEE;
ADC RESEARCH INSTITUTE; MAKE THE ROAD NEW
YORK, CASA; FIEL HOUSTON INC.,
CONSOLIDATED PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; UNITED STATES
DEPARTMENT OF COMMERCE; WILBUR L. ROSS, IN
HIS OFFICIAL CAPACITY AS SECRETARY OF
COMMERCE; BUREAU OF THE CENSUS;
(1)

2
STEVEN DILLINGHAM, IN HIS OFFICIAL CAPACITY AS
DIRECTOR OF THE UNITED STATES CENSUS BUREAU
DEFENDANTS

DOCKET ENTRIES
DATE

7/24/20

DOCKET
NUMBER PROCEEDINGS

1

COMPLAINT against Bureau of
the Census, Steven Dillingham,
Wilbur L. Ross Jr., Donald J.
Trump, United States Department of Commerce. (Filing Fee
$
400.00,
Receipt Number
ANYSDC-20838691) Document
filed by County of El Paso, County
of Cameron, State of Washington,
State of Illinois, City of Philadelphia, State of Colorado, Commonwealth of Pennsylvania, State of
New York, State of Rhode Island,
City and County of San Francisco,
State of Oregon, City of New York,
City of Phoenix, City of Pittsburgh, State of New Mexico, Commonwealth of Virginia, City of Columbus, State of Michigan, City of
Seattle, County of Monterey, State
of Minnesota, City of Central
Falls, City of Chicago, State of
New Jersey, City of Providence,
State of Hawaii, State of Connecticut, Commonwealth of Massachusetts, State of Nevada, State of

3
DATE

DOCKET
NUMBER PROCEEDINGS

North Carolina, State of Maryland, State of Delaware, County of
Hidalgo, State of Vermont, District of Columbia. (Attachments:
# 1 Exhibit 1 (Presidential Memorandum of July 21, 2020)). (Colangelo,
Matthew)
(Entered:
07/24/2020)
*
8/3/20

34

* * * *
AMENDED
COMPLAINT
amending 1 Complaint against Bureau of the Census, Steven Dillingham, Wilbur L. Ross Jr., Donald J. Trump, United States Department of Commerce. Document filed by County of El Paso,
County of Cameron, State of
Washington, State of Illinois, City
of Philadelphia, State of Colorado,
Commonwealth of Pennsylvania,
State of New York, State of Rhode
Island, City and County of San
Francisco, State of Oregon, City
of New York, City of Phoenix, City
of Pittsburgh, State of New Mexico, Commonwealth of Virginia,
City of Columbus, State of Michigan, City of Seattle, County of
Monterey, State of Minnesota,
City of Central Falls, City of Chicago, State of New Jersey, City of

4
DATE

DOCKET
NUMBER PROCEEDINGS

Providence, State of Hawaii, State
of Connecticut, Commonwealth of
Massachusetts, State of Nevada,
State of North Carolina, State of
Maryland, State of Delaware,
County of Hidalgo, State of Vermont, District of Columbia,
United States Conference of
Mayors, State of Maine, State of
Wisconsin, Howard County. Related document:
1 Complaint.
(Attachments:
# 1 Exhibit 1
(Presidential
Memorandum)).
(Goldstein,
Elena)
(Entered:
08/03/2020)
*
8/3/20

43

* * * *
ORDER re:
(42 in 1:20-cv05781-JMF) Letter, filed by Wilbur L. Ross, Jr., United States
Department of Commerce, Bureau of the Census, Donald J.
Trump, Steven Dillingham, (37 in
1:20-cv-05770-JMF) Letter, filed
by United States Department of
Commerce, Bureau of the Census,
Wilbur L. Ross Jr., Steven Dillingham, Donald J. Trump. In
their joint later dated August 3,
2020, the parties state that they
agree that 20 Civ. 5770 and 20 Civ.

5
DATE

DOCKET
NUMBER PROCEEDINGS

5781 should be consolidated pursuant to Fed. R. Civ. P. 42(a)(2).
20-CV- 5770, ECF No. 37, at 1; 20CV-5781, ECF No. 42, at 1. In
light of that, and because the actions involve common questions of
law and fact, it is hereby ORDERED that, pursuant to Rule
42(a)(2) of the Federal Rules of
Civil Procedure, the two cases are
consolidated under the case number 20-CV-5770 (JMF).
The
Clerk of Court is directed to consolidate 20-CV-5770 (JMF) and
20-CV-5781 (JMF) under case number 20-CV-5770 (JMF), and to close
20-CV-5781 (JMF).
All future
filings should be in 20-CV-5770
(JMF) alone. (Signed by Judge
Jesse M. Furman on 8/4/2020)
Filed In Associated Cases: 1:20cv-05770-JMF,
1:20-cv-05781JMF (nb) (Entered: 08/04/2020)
*
8/5/20

58

* * * *
LETTER MOTION for Leave to
File Plaintiffs’ request for a statutory three-judge court pursuant to
28 U.S.C. 2284 addressed to Judge
Jesse M. Furman from Matthew
Colangelo dated August 5, 2020.
Document filed by State of New

6
DATE

DOCKET
NUMBER PROCEEDINGS

York.
(Colangelo, Matthew)
(Entered: 08/05/2020)
*
8/6/20

62

* * * *
AMENDED
COMPLAINT
amending 1 Complaint against
Bureau of the Census, Steven Dillingham, Wilbur L. Ross Jr., Donald J. Trump, United States Department of Commerce. Document filed by American-Arab
Anti-Discrimination Committee,
Make the Road New York, Casa,
CASA, ADC Research Institute,
New York Immigration Coalition.
Related document: 1 Complaint.
(Ho,
Dale)
(Entered:
08/06/2020)

*
8/6/20

65

* * * *
LETTER RESPONSE to Motion
addressed to Judge Jesse M. Furman from AUSA Allison Rovner
dated August 6, 2020 re:
58
LETTER MOTION for Leave to
File Plaintiffs’ request for a statutory three-judge court pursuant to
28 U.S.C. 2284 addressed to Judge
Jesse M. Furman from Matthew
Colangelo dated August 5, 2020.
Document filed by Bureau of the

7
DATE

DOCKET
NUMBER PROCEEDINGS

Census, Steven Dillingham, Wilbur L. Ross Jr., Donald J. Trump,
United States Department of
Commerce.
(Rovner, Allison)
(Entered: 08/06/2020)
*
8/7/20

68

* * * *
REQUEST TO THE CHIEF
JUDGE OF THE U.S. COURT
OF APPEALS FOR THE SECOND CIRCUIT FOR APPOINTMENT OF A THREE-JUDGE
PANEL PURSUANT TO 28
U.S.C. § 2248(b) granting 58 Letter Motion for Leave to File
Document. Plaintiffs request is
GRANTED, substantially for the
two reasons set forth in their lettermotion. Accordingly, and substantially for the reasons set forth
in Plaintiffs letter-motion, the
Court respectfully requests that
the Chief Judge of the United
States Court of Appeals for the
Second Circuit promptly appoint a
three-judge panel to preside over
the claims presented by this litigation. Should the Chief Judge of
the Second Circuit need any additional information or have any inquiries, this Court is available any
time.
Respectfully Submitted.

8
DATE

DOCKET
NUMBER PROCEEDINGS

(Signed by Judge Jesse M. Furman
on 8/7/20) (yv) Transmission to Appeals Clerk. Transmission to Office of the Clerk of Court for processing. (Entered: 08/07/2020)
*
8/7/20

74

* * * *
MOTION for Partial Summary
Judgment [PLAINTIFFS’ MOTION FOR PARTIAL SUMMARY JUDGMENT OR PRELIMINARY
INJUNCTION].
Document filed by ADC Research
Institute, American-Arab AntiDiscrimination Committee, CASA,
City and County of San Francisco,
City of Central Falls, City of Chicago, City of Columbus, City of
New York, City of Philadelphia,
City of Phoenix, City of Pittsburgh, City of Providence, City of
Seattle, Commonwealth of Massachusetts, Commonwealth of Pennsylvania, Commonwealth of Virginia, County of Cameron, County
of El Paso, County of Hidalgo,
County of Monterey, District of Columbia, FIEL Houston Inc, Howard County, Make the Road New
York, Casa, New York Immigration Coalition, State of Colorado,

9
DATE

8/7/20

DOCKET
NUMBER PROCEEDINGS

75

State of Connecticut, State of Delaware, State of Hawaii, State of Illinois, State of Maine, State of Maryland, State of Michigan, State of
Minnesota, State of Nevada, State
of New Jersey, State of New Mexico, State of New York, State of
North Carolina, State of Oregon,
State of Rhode Island, State of Vermont, State of Washington, State
of Wisconsin, United States Conference of Mayors. (Colangelo,
Matthew) (Entered: 08/07/2020)
RULE
56.1
STATEMENT.
Document filed by ADC Research
Institute, American-Arab AntiDiscrimination Committee, CASA,
City and County of San Francisco,
City of Central Falls, City of Chicago, City of Columbus, City of
New York, City of Philadelphia,
City of Phoenix, City of Pittsburgh, City of Providence, City of
Seattle, Commonwealth of Massachusetts, Commonwealth of Pennsylvania, Commonwealth of Virginia, County of Cameron, County
of El Paso, County of Hidalgo,
County of Monterey, District of
Columbia, FIEL Houston Inc,
Howard County, Make the Road

10
DATE

8/7/20

DOCKET
NUMBER PROCEEDINGS

76

New York, Casa, New York Immigration Coalition, State of Colorado, State of Connecticut, State
of Delaware, State of Hawaii,
State of Illinois, State of Maine,
State of Maryland, State of Michigan, State of Minnesota, State of
Nevada, State of New Jersey,
State of New Mexico, State of
New York, State of North Carolina, State of Oregon, State of
Rhode Island, State of Vermont,
State of Washington, State of Wisconsin, United States Conference
of Mayors.
(Colangelo, Matthew) (Entered: 08/07/2020)
DECLARATION of Matthew
Colangelo in Support re: 74 MOTION for Partial Summary Judgment [PLAINTIFFS’ MOTION
FOR PARTIAL SUMMARY
JUDGMENT OR PRELIMINARY INJUNCTION]. Document filed by ADC Research Institute, American-Arab AntiDiscrimination Committee, CASA,
City and County of San Francisco,
City of Central Falls, City of Chicago, City of Columbus, City of
New York, City of Philadelphia,
City of Phoenix, City of Pittsburgh, City of Providence, City of

11
DATE

DOCKET
NUMBER PROCEEDINGS

Seattle, Commonwealth of Massachusetts, Commonwealth of Pennsylvania, Commonwealth of Virginia, County of Cameron, County
of El Paso, County of Hidalgo,
County of Monterey, District of
Columbia, FIEL Houston Inc,
Howard County, Make the Road
New York, Casa, New York Immigration Coalition, State of Colorado, State of Connecticut, State
of Delaware, State of Hawaii,
State of Illinois, State of Maine,
State of Maryland, State of Michigan, State of Minnesota, State of
Nevada, State of New Jersey,
State of New Mexico, State of
New York, State of North Carolina, State of Oregon, State of
Rhode Island, State of Vermont,
State of Washington, State of Wisconsin, United States Conference
of Mayors. (Attachments: # 1
Exhibit 1, # 2 Exhibit 2, # 3 Exhibit 3, # 4 Exhibit 4, # 5 Exhibit
5, # 6 Exhibit 6, # 7 Exhibit 7,
# 8 Exhibit 8, # 9 Exhibit 9, # 10
Exhibit 10, # 11 Exhibit 11, # 12
Exhibit 12, # 13 Exhibit 13, # 14
Exhibit 14, # 15 Exhibit 15, # 16
Exhibit 16, # 17 Exhibit 17, # 18
Exhibit 18, # 19 Exhibit 19, # 20

12
DATE

8/7/20

DOCKET
NUMBER PROCEEDINGS

77

Exhibit 20, # 21 Exhibit 21, # 22
Exhibit 22, # 23 Exhibit 23, # 24
Exhibit 24, # 25 Exhibit 25, # 26
Exhibit 26, # 27 Exhibit 27, # 28
Exhibit 28, # 29 Exhibit 29, # 30
Exhibit 30, # 31 Exhibit 31, # 32
Exhibit 32, # 33 Exhibit 33, # 34
Exhibit 34, # 35 Exhibit 35, # 36
Exhibit 36, # 37 Exhibit 37, # 38
Exhibit 38, # 39 Exhibit 39, # 40
Exhibit 40, # 41 Exhibit 41, # 41
Exhibit 42, # 43 Exhibit 43, # 44
Exhibit 44, # 45 Exhibit 45, # 46
Exhibit 46, # 47 Exhibit 47, # 48
Exhibit 48, # 49 Exhibit 49, # 50
Exhibit 50, # 51 Exhibit 51, # 52
Exhibit 52, # 53 Exhibit 53, # 54
Exhibit 54, # 55 Exhibit 55, # 56
Exhibit 56, # 57 Exhibit 57, # 58
Exhibit 58, # 59 Exhibit 59).
(Colangelo, Matthew) (Entered:
08/07/2020)
MEMORANDUM OF LAW in
Support re: 74 MOTION for Partial Summary Judgment [PLAINTIFFS’ MOTION FOR PARTIAL SUMMARY JUDGMENT
OR PRELIMINARY INJUNCTION]. Document filed by ADC
Research Institute, American-Arab
Anti-Discrimination Committee,
CASA, City and County of San

13
DATE

DOCKET
NUMBER PROCEEDINGS

Francisco, City of Central Falls,
City of Chicago, City of Columbus,
City of New York, City of Philadelphia, City of Phoenix, City of
Pittsburgh, City of Providence,
City of Seattle, Commonwealth of
Massachusetts, Commonwealth of
Pennsylvania, Commonwealth of
Virginia, County of Cameron,
County of El Paso, County of Hidalgo, County of Monterey, District of Columbia, FIEL Houston
Inc, Howard County, Make the
Road New York, Casa, New York
Immigration Coalition, State of
Colorado, State of Connecticut,
State of Delaware, State of Hawaii, State of Illinois, State of
Maine, State of Maryland, State of
Michigan, State of Minnesota,
State of Nevada, State of New
Jersey, State of New Mexico,
State of New York, State of North
Carolina, State of Oregon, State of
Rhode Island, State of Vermont,
State of Washington, State of Wisconsin, United States Conference
of Mayors.
(Colangelo, Matthew) (Entered: 08/07/2020)
*

*

*

*

*

14
DATE

DOCKET
NUMBER PROCEEDINGS

8/10/20

82

8/10/20

83

ORDER of USCA (Certified Copy)
USCA Case Number 20-2630.
ROBERT A. KATZMANN, Chief
Circuit Judge: Having received
a 68 request from United States
District Judge Jesse M. Furman
to appoint a three-judge panel to
hear the above-mentioned matter
pursuant to 28 U.S.C. § 2284(b)(1),
I hereby designate United States
Circuit Judge Richard C. Wesley
and United States Circuit Judge
Peter W. Hall to serve as members of the Court to hear and determine the action. Robert A.
Katzmann, Chief Circuit Judge.
Catherine O’Hagan Wolfe, Clerk
USCA for the Second Circuit.
Certified: 08/10/2020 (nd) Modified on 8/10/2020 (nd). (Entered:
08/10/2020)
MANDATE of USCA (Certified
Copy) USCA Case Number
20-2630.
ROBERT A. KATZMANN, Chief Circuit Judge:
Having received a 68 request from
United States District Judge
Jesse M. Furman to appoint a
three-judge panel to hear the
above-mentioned matter pursuant
to 28 U.S.C. § 2284(b)(1), I hereby
designate United States Circuit

15
DATE

DOCKET
NUMBER PROCEEDINGS

Judge Richard C. Wesley and
United States Circuit Judge Peter
W. Hall to serve as members of
the Court to hear and determine
the action. Robert A. Katzmann,
Chief Circuit Judge. Catherine
O’Hagan Wolfe, Clerk USCA for
the Second Circuit. Issued As
Mandate: 08/10/2020 (nd) Modified on 8/10/2020 (nd). (Entered:
08/10/2020)
*
8/12/20

86

* * * *
ORDER. On August 10, 2020,
Chief Circuit Judge Robert A.
Katzmann appointed a threejudge panel to hear this matter
pursuant to 28 U.S.C. § 2284(b)(1).
See ECF Nos. 82-83.
Section
2284(b)(3) provides, in relevant
part, that [a] single judge may conduct all proceedings except the
trial, and with specified exceptions
not yet relevant here enter all orders permitted by the rules of civil
procedure. Nevertheless, mindful
that the three-judge requirement
in 28 U.S.C. § 2284 is jurisdictional, Kalson v. Paterson, 542
F.3d 281, 287 (2d Cir. 2008), and
for avoidance of any doubt, the
Court hereby adopts the orders

16
DATE

DOCKET
NUMBER PROCEEDINGS

previously entered in this matter,
including but not limited to the
scheduling order of August 5,
2020, see ECF No. 53, and the
consolidation order of August 4,
2020, see ECF No. 43. Further,
the Court grants to Judge Furman
authority to act on the Court’s behalf with respect to any pro hac
vice motions filed in this matter.
SO ORDERED.
(Signed by
Judge Jesse M. Furman, United
States Circuit Judge Richard C.
Wesley and United States Circuit
Judge Peter W. Hall on 8/12/20)
(yv) (Entered: 08/12/2020)
*
8/14/20

106

8/14/20

107

* * * *
MOTION for Leave to File Brief
of The U.S. House of Representatives as Amicus Curiae in Support
of Plaintiffs/Notice of Unopposed
Motion for Leave to File Brief.
Document filed by U.S. House of
Representatives. (Letter, Douglas) (Entered: 08/14/2020)
MEMORANDUM OF LAW in
Support re: 106 MOTION for
Leave to File Brief of The U.S.
House of Representatives as Amicus Curiae in Support of Plaintiffs/
Notice of Unopposed Motion for

17
DATE

DOCKET
NUMBER PROCEEDINGS

8/14/20

108

8/14/20

109

Leave to File Brief. Document
filed by U.S. House of Representatives. (Attachments: # 1 Exhibit (Proposed) Brief of The U.S.
House of Representatives as Amicus Curiae in Support of Plaintiffs).
(Letter, Douglas) (Entered: 08/14/2020)
CONSENT MOTION for Leave
to File Amici Curiae Brief of The
League of Women Voters of the
United States, The League of
Women Voters of Texas, The
League of Women Voters of Florida, and The League of Women
Voters of California. Document
filed by The League of Women
Voters of the United States, The
League of Women Voters of
Texas, The League of Women Voters of Florida, The League of
Women Voters of California.
(Attachments:
# 1 Proposed
Amici Curiae Brief ). (Sills, Robert) (Entered: 08/14/2020)
MEMORANDUM OF LAW in
Support re:
108 CONSENT
MOTION for Leave to File Amici
Curiae Brief of The League of
Women Voters of the United States,
The League of Women Voters of

18
DATE

8/14/20

DOCKET
NUMBER PROCEEDINGS

Texas, The League of Women Voters of Florida, and The League of
Women Voters of California.
Document filed by The League of
Women Voters of California, The
League of Women Voters of Florida, The League of Women Voters
of Texas, The League of Women
Voters of the United States.
(Sills,
Robert)
(Entered:
08/14/2020)
LETTER MOTION to File Amicus Brief addressed to Judge
Jesse M. Furman from Antony L.
Ryan dated August 14, 2020.
Document filed by Margo Anderson, Andrew Beveridge, Rachel
Buff, Libby Garland, J. Morgan
Kousser, Erika Lee, Natalie Molina, Steven Ruggles. (Attachments:
# 1 Proposed Brief ).
(Ryan,
Antony)
(Entered:
08/14/2020)

110

*
8/19/20

117

* * * *
MOTION to Dismiss. Document
filed by Bureau of the Census,
Steven Dillingham, Wilbur L.
Ross Jr., Donald J. Trump, United
States Department of Commerce.
Responses due by 8/25/2020 Return Date set for 8/28/2020 at

19
DATE

DOCKET
NUMBER PROCEEDINGS

8/19/20

118

8/19/20

119

11:59 PM. (Davis, Elliott) (Entered: 08/19/2020)
MEMORANDUM OF LAW in
Opposition re: 74 MOTION for
Partial
Summary
Judgment
[PLAINTIFFS’ MOTION FOR
PARTIAL SUMMARY JUDGMENT OR PRELIMINARY INJUNCTION]., 117 MOTION to
Dismiss. Document filed by Bureau of the Census, Steven Dillingham, Wilbur L. Ross Jr., Donald J. Trump, United States Department of Commerce. (Davis,
Elliott) (Entered: 08/19/2020)
DECLARATION of John M.
Abowd in Opposition re: 74 MOTION for Partial Summary Judgment [PLAINTIFFS’ MOTION
FOR PARTIAL SUMMARY
JUDGMENT OR PRELIMINARY INJUNCTION]., 117 MOTION to Dismiss.
Document
filed by Bureau of the Census,
Steven Dillingham, Wilbur L.
Ross Jr., Donald J. Trump, United
States Department of Commerce.
(Attachments: # 1 Supplement
John M. Abowd Professional Resume). (Davis, Elliott) (Entered:
08/19/2020)

20
DATE

DOCKET
NUMBER PROCEEDINGS

8/19/20

120

8/19/20

121

DECLARATION of Albert E.
Fontenot, Jr. in Opposition re:
74 MOTION for Partial Summary
Judgment [PLAINTIFFS’ MOTION FOR PARTIAL SUMMARY JUDGMENT OR PRELIMINARY
INJUNCTION].,
117 MOTION to Dismiss. Document filed by Bureau of the Census, Steven Dillingham, Wilbur L.
Ross Jr., Donald J. Trump, United
States Department of Commerce.
(Davis,
Elliott)
(Entered:
08/19/2020)
COUNTER STATEMENT TO 75
Rule 56.1 Statement. Document
filed by Bureau of the Census,
Steven Dillingham, Wilbur L.
Ross Jr., Donald J. Trump, United
States Department of Commerce.
(Davis,
Elliott)
(Entered:
08/19/2020)
*

8/20/20

124

* * * *
LETTER MOTION to File Amicus Brief addressed to Judge Jesse
M. Furman from Gina M. D’Andrea
dated 08/20/2020. Document filed
by Immigration Reform Law Institute.
(Attachments:
# 1
Proposed Brief ).
(D’Andrea,
Gina) (Entered: 08/20/2020)

21
DATE

DOCKET
NUMBER PROCEEDINGS

*
8/25/20

149

* * * *
DECLARATION of Elena Goldstein in Support re: 74 MOTION
for Partial Summary Judgment
[PLAINTIFFS’ MOTION FOR
PARTIAL SUMMARY JUDGMENT OR PRELIMINARY INJUNCTION].
Document filed
by ADC Research Institute,
American-Arab Anti-Discrimination Committee, CASA, City and
County of San Francisco, City of
Central Falls, City of Chicago,
City of Columbus, City of New
York, City of Philadelphia, City of
Phoenix, City of Pittsburgh, City
of Providence, City of Seattle,
Commonwealth of Massachusetts,
Commonwealth of Pennsylvania,
Commonwealth of Virginia, County
of Cameron, County of El Paso,
County of Hidalgo, County of
Monterey, District of Columbia,
FIEL Houston Inc, Howard
County, Make the Road New
York, Casa, New York Immigration Coalition, State of Colorado,
State of Connecticut, State of Delaware, State of Hawaii, State of Illinois, State of Maine, State of
Maryland, State of Michigan, State

22
DATE

8/25/20

DOCKET
NUMBER PROCEEDINGS

150

of Minnesota, State of Nevada,
State of New Jersey, State of New
Mexico, State of New York, State
of North Carolina, State of Oregon, State of Rhode Island, State
of Vermont, State of Washington,
State of Wisconsin, United States
Conference of Mayors. (Attachments: # 1 Exhibit 60 (Awawdeh
Declaration), # 2 Exhibit 61 (Mendelsohn Declaration), # 3 Exhibit
62 (Supplemental Espinosa Declaration), # 4 Exhibit 63 (Supplemental Oshiro Declaration), # 5
Exhibit 64 (Supplemental Seon
Declaration), # 6 Exhibit 65 (Barreto Expert Reply Declaration), #
7 Exhibit 66 (Thompson Expert
Reply Declaration)). (Goldstein,
Elena) (Entered: 08/25/2020)
MEMORANDUM OF LAW in
Opposition re: 117 MOTION to
Dismiss. Plaintiffs’ Consolidated
Memorandum of Law in Opposition to Defendants’ Motion to Dismiss and Reply in Support of
Plaintiffs’ Motion for Partial
Summary Judgment or Preliminary Injunction. Document filed
by ADC Research Institute,
American-Arab Anti- Discrimination Committee, CASA, City and

23
DATE

DOCKET
NUMBER PROCEEDINGS

County of San Francisco, City of
Central Falls, City of Chicago,
City of Columbus, City of New
York, City of Philadelphia, City of
Phoenix, City of Pittsburgh, City
of Providence, City of Seattle,
Commonwealth of Massachusetts,
Commonwealth of Pennsylvania,
Commonwealth of Virginia, County
of Cameron, County of El Paso,
County of Hidalgo, County of
Monterey, District of Columbia,
FIEL Houston Inc, Howard
County, Make the Road New
York, Casa, New York Immigration Coalition, State of Colorado,
State of Connecticut, State of Delaware, State of Hawaii, State of Illinois, State of Maine, State of
Maryland, State of Michigan,
State of Minnesota, State of Nevada, State of New Jersey, State
of New Mexico, State of New
York, State of North Carolina,
State of Oregon, State of Rhode
Island, State of Vermont, State of
Washington, State of Wisconsin,
United States Conference of
Mayors.
(Colangelo, Matthew)
(Entered: 08/25/2020)
*

*

*

*

*

24
DATE

8/28/20

DOCKET
NUMBER PROCEEDINGS

REPLY MEMORANDUM OF
LAW in Support re: (117 in 1:20cv-05770-JMF) MOTION to Dismiss.
(Defendants’ Reply in
Support of Motion to Dismiss).
Document filed by Bureau of the
Census, Steven Dillingham, Wilbur L. Ross, Jr., Donald J. Trump,
United States Department of
Commerce, Bureau of the Census,
Steven Dillingham, Wilbur L.
Ross Jr., Donald J. Trump, United
States Department of Commerce.
Filed In Associated Cases: 1:20cv-05770-JMF,
1:20-cv-05781JMF.
(Mauler, Daniel) (Entered: 08/28/2020)

154

*
8/31/20

158

* * * *
ORDER. At the oral argument
scheduled for September 3, 2020
at 10:00 a.m., the parties should be
prepared to address the following
topics and questions as further set
forth in this Order. Each side
should anticipate having 20-30
minutes for its oral argument.
Only one lawyer from each side
will be permitted to speak on a
given issue.
SO ORDERED.
(Signed by United States Circuit
Judge Richard C. Wesley, United

25
DATE

DOCKET
NUMBER PROCEEDINGS

States Circuit Judge Peter W.
Hall and Judge Jesse M. Furman
on
8/31/20)
(yv)
(Entered:
08/31/2020)
*
9/10/20

164

* * * *
OPINION AND ORDER re: 74
MOTION for Partial Summary
Judgment [PLAINTIFFS’ MOTION FOR PARTIAL SUMMARY JUDGMENT OR PRELIMINARY
INJUNCTION].
filed by County of El Paso, City of
Central Falls, City of Seattle,
State of Rhode Island, State of
Minnesota, United States Conference of Mayors, State of Michigan,
City of Phoenix, State of Vermont,
City of Philadelphia, State of New
Jersey, State of Illinois, Commonwealth of Virginia, ADC Research
Institute, City of Providence, New
York Immigration Coalition, State
of North Carolina, State of Maine,
State of Delaware, Howard County,
City of Pittsburgh, CASA, City of
New York, State of Maryland,
FIEL Houston Inc, Make the
Road New York, Casa, State of
Hawaii, Commonwealth of Pennsylvania, State of Connecticut,
Commonwealth of Massachusetts,

26
DATE

DOCKET
NUMBER PROCEEDINGS

State of Nevada, County of Monterey, County of Hidalgo, State of
Oregon, City of Columbus, District of Columbia, County of Cameron, American-Arab Anti-Discrimination Committee, State of
Wisconsin, City and County of San
Francisco, State of New Mexico,
State of New York, State of Colorado, State of Washington, City of
Chicago, 117 MOTION to Dismiss. filed by Donald J. Trump,
Steven Dillingham, Bureau of the
Census, Wilbur L. Ross Jr., United
States Department of Commerce.
There is no dispute that the President has “accustomed supervisory powers over his executive officers,” Franklin, 505 U.S. at 800,
and thus retains some discretion
in the conduct of the decennial census and resulting apportionment
calculation. Nevertheless, where
the authority of the President (or
other members of the Executive
Branch) to act is derived from
statutes passed by Congress, the
President must act in accordance
with, and within the boundaries of,
the authority that Congress has
granted. For the reasons discussed above, we conclude that

27
DATE

DOCKET
NUMBER PROCEEDINGS

the President did not do so here
and that the Presidential Memorandum is an ultra vires violation
of Congress's delegation of its constitutional responsibility to count
the whole number of persons in
each State and to apportion members of the House of Representatives among the States according
to their respective numbers under
2 U.S.C. § 2a and 13 U.S.C. § 141.
Accordingly, Plaintiffs’ motion for
summary judgment with respect
to their statutory ultra vires
claims is GRANTED, Defendants
(other than the President) are
ENJOINED as set forth above,
and the Presidential Memorandum is DECLARED unlawful.
We need not and do not reach the
merits of Plaintiffs’ other claims
and need not address their request, in the alternative, for a preliminary injunction. Finally, Defendants' motion to dismiss for
lack of jurisdiction is DENIED
and their motion to dismiss for
failure to state a claim is DENIED as moot. The Clerk of
Court is directed to terminate
ECF Nos. 74 and 117 and to close
this case.
SO ORDERED.

28
DATE

9/10/20

DOCKET
NUMBER PROCEEDINGS

165

(Signed by United States Circuit
Judge Richard C. Wesley, United
States Circuit Judge Peter W.
Hall and Judge Jesse M. Furman
on 9/10/20) (yv) Transmission to
Orders and Judgments Clerk for
processing.
(Main Document
164 replaced on 9/14/2020) (ab).
(Entered: 09/10/2020)
FINAL JUDGMENT AND PERMANENT INJUNCTION: Final
judgment is entered for Plaintiffs
and against Defendants on Plaintiffs’ claims arising from an ultra
vires violation of 2 U.S.C. § 2a and
13 U.S.C. § 141 (namely, the Fifth
Claim for Relief in the Governmental Plaintiffs’ Amended Complaint and Count Two in the NGO
Plaintiffs’ Amended Complaint).
The July 21, 2020 Memorandum
on Excluding Illegal Aliens from
the Apportionment Base Following the 2020 Census (the “Presidential Memorandum”), announcing that it is the policy of the United
States to exclude from the apportionment base aliens who are not
in a lawful immigration status, is
DECLARED unlawful as an ultra
vires violation of Congress’s delegation of authority to conduct the

29
DATE

DOCKET
NUMBER PROCEEDINGS

decennial census and apportionment calculation pursuant to 2
U.S.C. § 2a and 13 U.S.C. § 141.
The Secretary of Commerce in his
official capacity, the Director of
the Census Bureau in his official
capacity, the U.S. Department of
Commerce, and the U.S. Census
Bureau, and any successors to
those offices, together with their
agents, servants, employees, attorneys, and other persons who
are in active concert or participation with the foregoing, see Fed.
R. Civ. P. 65(d)(2), are PERMANENTLY ENJOINED from including in the Secretary's report
to the President pursuant to Section 141(b) any information permitting the President to exercise
the President's discretion to carry
out the policy set forth in section 2
of the Presidential Memorandum
that is, any information concerning the number of aliens in each
State who are not in a lawful immigration status under the Immigration and Nationality Act. SO
ORDERED. (Signed by Judge
Richard C. Wesley, Judge Peter
W. Hall and Judge Jesse M. Fur-

30
DATE

9/14/20

DOCKET
NUMBER PROCEEDINGS

man on 9/10/2020) Filed In Associated Cases: 1:20-cv- 05770-JMF,
1:20-cv-05781-JMF (kv) (Entered:
09/10/2020)
ERRATA ORDER: The Court
has substituted a new version of
its September 10, 2020 Opinion
and Order of at 20-CV-5770, ECF
No. 164, to correct the following
three typographical errors . . .
(See ORDER.) (Signed by Judges
Jesse M. Furman, Richard C.
Wesley, and Peter W. Hall on
9/14/2020) Filed In Associated
Cases: 1:20-cv-05770-JMF, 1:20cv-05781-JMF (ab) (Entered:
09/14/2020)

166

*
9/16/20

170

* * * *
CORRECTED NOTICE OF APPEAL re: (61 in 1:20-cv-05781JMF, 168 in 1:20-cv-05770-JMF)
Notice of Appeal, (164 in 1:20-cv05770-JMF) Memorandum &
Opinion (165 in 1:20-cv-05770JMF, 55 in 1:20-cv-05781-JMF)
Judgment.
Document filed by
Bureau of the Census, Steven Dillingham, Wilbur L. Ross, Jr., Donald J. Trump, United States Department of Commerce, Bureau of
the Census, Steven Dillingham,

31
DATE

DOCKET
NUMBER PROCEEDINGS

9/16/20

171

9/16/20

172

Wilbur L. Ross Jr., Donald J.
Trump, United States Department of Commerce. Filed In Associated Cases:
1:20-cv-05770JMF,
1:20-cv-05781-JMF.
(Mauler,
Daniel)
(Entered:
09/16/2020)
MOTION to Stay re:
(165 in
1:20-cv-05770-JMF, 55 in 1:20-cv05781-JMF) Judgment (Motion
for Stay of Judgment Pending
Appeal). Document filed by Bureau of the Census, Steven Dillingham, Wilbur L. Ross, Jr., Donald J. Trump, United States Department of Commerce, Bureau of
the Census, Steven Dillingham,
Wilbur L. Ross Jr., Donald J.
Trump, United States Department of Commerce. Filed In Associated Cases:
1:20-cv-05770JMF,
1:20-cv-05781-JMF.
(Mauler,
Daniel)
(Entered:
09/16/2020)
MEMORANDUM OF LAW in
Support re: (64 in 1:20-cv-05781JMF, 171 in 1:20-cv-05770-JMF)
MOTION to Stay re:
(165 in
1:20-cv-05770-JMF,
55
in
1:20-cv-05781-JMF)
Judgment
(Motion for Stay of Judgment

32
DATE

DOCKET
NUMBER PROCEEDINGS

Pending Appeal).
Document
filed by Bureau of the Census,
Steven Dillingham, Wilbur L.
Ross, Jr., Donald J. Trump,
United States Department of Commerce, Bureau of the Census, Steven Dillingham, Wilbur L. Ross
Jr., Donald J. Trump, United
States Department of Commerce.
Filed In Associated Cases:
1:20-cv-05770-JMF,
1:20-cv05781-JMF.
(Mauler, Daniel)
(Entered: 09/16/2020)
*
9/18/20

174

* * * *
NOTICE OF APPEAL TO THE
SUPREME COURT from (164 in
1:20-cv-05770-JMF)
Memorandum & Opinion (165 in 1:20-cv05770-JMF, 55 in 1:20-cv-05781Document
JMF) Judgment.
filed by Bureau of the Census,
Steven Dillingham, Wilbur L.
Ross, Jr., Donald J. Trump,
United States Department of
Commerce, Bureau of the Census,
Steven Dillingham, Wilbur L.
Ross Jr., Donald J. Trump, United
States Department of Commerce.
Filed In Associated Cases: 1:20cv-05770-JMF,
1:20-cv-05781-

33
DATE

DOCKET
NUMBER PROCEEDINGS

JMF.(Mauler, Daniel) (Entered:
09/18/2020)
*
9/23/20

176

* * * *
MEMORANDUM OF LAW in
Opposition re: 171 MOTION to
Stay re: (165 in 1:20-cv-05770JMF, 55 in 1:20-cv-05781-JMF)
Judgment (Motion for Stay of
Judgment
Pending Appeal).
Document filed by ADC Research
Institute, American-Arab AntiDiscrimination Committee, CASA,
Make the Road New York, Casa,
New York Immigration Coalition.
(Ho, Dale) (Entered: 09/23/2020)

*
9/29/20

180

* * * *
OPINION AND ORDER re:
171 MOTION to Stay re: (165 in
1:20-cv-05770-JMF, 55 in 1:20-cv05781-JMF) Judgment (Motion
for Stay of Judgment Pending
Appeal). filed by Wilbur L. Ross,
Jr., United States Department of
Commerce, Wilbur L. Ross Jr.,
Bureau of the Census, Donald J.
Trump, Steven Dillingham. In
sum, Defendants have not come
close to carrying “the[ir] burden
of showing that the circumstances

34
DATE

10/16/20

DOCKET
NUMBER PROCEEDINGS

181

justify an exercise” of our discretion to grant a stay. Nken, 556
U.S. at 433-34. They fail to show
that they are likely to succeed on
the merits or that a stay would be
in the public interest. And more
significantly, in the face of their
own prior admissions that a final
resolution of these cases in 2021
would cause no harm because the
President could revise his apportionment statement to Congress,
Defendants’ arguments about irreparable harm and urgency are
frivolous. Accordingly, Defendants’ motion for a stay is DENIED. The Clerk of Court is directed to terminate ECF No. 171.
SO ORDERED.
(Signed by
Judge Jesse M. Furman on
9/29/2020)
(ks)
(Entered:
09/29/2020)
ORDER of USCA (Certified
Copy) as to (63 in 1:20-cv-05781JMF, 170 in 1:20-cv-05770-JMF)
Corrected Notice of Appeal, filed
by Wilbur L. Ross, Jr., United
States Department of Commerce,
Wilbur L. Ross Jr., Bureau of the
Census, Donald J. Trump, Steven
Dillingham. USCA Case Number
20-3142.
The Government has

35
DATE

DOCKET
NUMBER PROCEEDINGS

appealed to this Court and to the
Supreme Court to challenge the
judgment and permanent injunction issued on September 10, 2020
by the three-judge district court.
The Government now requests
that the Court hold this appeal in
abeyance pending the Supreme
Court's resolution of New York v.
Trump, Supreme Court Docket
No. 20-366.
Both sides agree
that this appeal should be held
in abeyance. IT IS HEREBY ORDERED that the motion is
GRANTED.
If the Supreme
Court determines that this Court
is the appropriate forum for appellate review of the district
court’s judgment and permanent
injunction, the parties shall immediately alert this Court. Catherine O’Hagan Wolfe, Clerk USCA
for the Second Circuit. Certified: 10/16/2020. Filed In Associated Cases:
1:20-cv-05770JMF, 1:20-cv-05781-JMF.
(nd)
(Entered: 10/16/2020)
*

*

*

*

*

36
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK
(FOLEY SQUARE)

Case No. 1:20-cv-05781-JMF
NEW YORK IMMIGRATION COALITION; CASA;
AMERICAN-ARAB ANTI-DISCRIMINATION COMMITTEE;
ADC RESEARCH INSTITUTE; MAKE THE ROAD NEW
YORK, CASA; FIEL HOUSTON INC., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; UNITED STATES
DEPARTMENT OF COMMERCE; WILBUR L. ROSS, IN
HIS OFFICIAL CAPACITY AS SECRETARY OF
COMMERCE; BUREAU OF THE CENSUS, AN AGENCY
WITHIN THE UNITED STATES DEPARTMENT OF COMMERCE; STEVEN DILLINGHAM, IN HIS OFFICIAL
CAPACITY AS DIRECTOR OF THE UNITED STATES
CENSUS BUREAU, DEFENDANTS
DOCKET ENTRIES
DATE

7/24/20

DOCKET
NUMBER PROCEEDINGS

1

COMPLAINT against Stephen Dillingham, Wilbur Ross, Donald J.
Trump, United States Bureau of
the Census, United States Department of Commerce. (Filing
Fee $400.00, Receipt Number
ANYSDC-20842473) Document filed
by FIEL Houston Inc, American­

37
DATE

DOCKET
NUMBER PROCEEDINGS

Arab Anti-Discrimination Committee, CASA, ADC Research Institute, The New York Immigration Coalition, Make The Road New York.
(Freedman, John)
(Entered: 07/24/2020)
*
9/16/20

63

* * * *
CORRECTED NOTICE OF APPEAL re: (61 in 1:20-cv-05781JMF, 168 in 1:20-cv-05770-JMF)
Notice of Appeal (164 in 1:20-cv05770-JMF) Memorandum &
Opinion (165 in 1:20-cv-05770JMF, 55 in 1:20-cv-05781-JMF)
Judgment.
Document filed by
Bureau of the Census, Steven Dillingham, Wilbur L. Ross, Jr., Donald J. Trump, United States Department of Commerce, Bureau of
the Census, Steven Dillingham,
Wilbur L. Ross Jr., Donald J.
Trump, United States Department of Commerce. Filed In Associated Cases:
1:20-cv-05770JMF,
1:20-cv-05781-JMF.
(Mauler, Daniel) I (Entered:
09/16/2020)

*
9/18/20

67

* * * *
NOTICE OF APPEAL TO THE
SUPREME COURT from (164 in

38
DATE

DOCKET
NUMBER PROCEEDINGS

1:20-cv-05770-JMF)
Memorandum & Opinion (165 in 1:20-cv05770-JMF, 55 in 1:20-cv-05781JMF) Judgment. Document filed
by Bureau of the Census, Steven
Dillingham, Wilbur L. Ross, Jr.,
Donald J. Trump, United States
Department of Commerce, Bureau of the Census, Steven Dillingham, Wilbur L. Ross Jr., Donald J. Trump, United States Department of Commerce. Filed In
Associated Cases:
1:20-cv05770-JMF, 1:20-cv-05781-JMF.
(Mauler,
Daniel)
(Entered:
09/18/2020)
*
10/16/20

69

* * * *
ORDER of USCA (Certified
Copy) as to (63 in 1:20-cv-05781JMF, 170 in 1:20-cv-05770-JMF)
Corrected Notice of Appeal, filed
by Wilbur L. Ross, Jr., United
States Department of Commerce,
Wilbur L. Ross Jr., Bureau of the
Census, Donald J. Trump, Steven
Dillingham. USCA Case Number 20-3142.
The Government
has appealed to this Court and to
the Supreme Court to challenge
the judgment and permanent injunction issued on September 10,

39
DATE

DOCKET
NUMBER PROCEEDINGS

2020 by the three-judge district
court. The Government now requests that the Court hold this appeal in abeyance pending the Supreme Court’s resolution of New
York v. Trump, Supreme Court
Docket No. 20-366. Both sides
agree that this appeal should be
held in abeyance.
IT IS
HEREBY ORDERED that the
motion is GRANTED. If the Supreme Court determines that this
Court is the appropriate forum for
appellate review of the district
court’s judgment and permanent
injunction, the parties shall immediately alert this Court. Catherine O’Hagan Wolfe, Clerk USCA
for the Second Circuit. Certified: 10/16/2020. Filed In Associated Cases:
1:20-cv-05770JMF, 1:20-cv-05781-JMF.
(nd)
(Entered: 10/16/2020)

40
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
Aug. 7, 2020
PLAINTIFFS’ LOCAL RULE 56.1 STATEMENT OF
MATERIAL FACTS AS TO WHICH TEHRE IS NO
GENUINE ISSUE TO BE TRIED

Pursuant to Local Civil Rule 56.1, Plaintiffs the State
of New York et al. and the New York Immigration Coalition et al. submit the following statement of material
facts as to which there is no genuine issue to be tried.

41
EXCLUDING UNDOCUMENTED IMMIGRANTS
FROM THE APPORTIONMENT BASE AFTER THE
2020 CENSUS WILL DEPRIVE CALIFORNIA AND/OR
TEXAS OF CONGRESSIONAL SEATS

1. Since 1790, no decennial census has excluded
any category of persons who usually reside in the United
States on their basis of their citizenship or immigration
status for purposes of apportioning congressional representation. See, e.g., 2020 Decennial Census Residence Rule and Residence Situations, 80 Fed. Reg.
28,950, 28,950, (2015); Thompson Decl. ¶ 8 (Ex. 57). 1
2. Millions of undocumented immigrants live in the
United States and many have lived in the United States
for many years. See Office of Immigration Statistics,
U.S. Dep’t of Homeland Sec., Population Estimates:
Illegal Alien Population Residing in the United States:
January 2015 at 2 (Dec. 2018), https://www.dhs.gov/
sites/default/files/publications/18_1214_PLCY_pops-estreport.pdf.
3. California and Texas are consistently the two
states with the largest populations of undocumented
residents. Id. at 4-5.
4. According to the Department of Homeland Security, California had 2.9 million undocumented residents and Texas had 1.9 million undocumented residents
in 2015. Id. at 2.
5. As of the most recent Congressional reapportionment following the 2010 Decennial Census, the average population of each U.S. House district is 710,767
Citations to “Ex. __” are to the exhibits to the accompanying Declaration of Matthew Colangelo dated August 7, 2020.
1

42
people. See Kristin D. Burnett, Congressional Apportionment, U.S. Census Bureau (Nov. 2011), https://www.
census.gov/prod/cen2010/briefs/c2010br-08.pdf (last visited July 30, 2020).
6. According to the United States Census Bureau,
as of July 1, 2019, the population of the United States
was estimated to be 328,239,523. U.S. Census Bureau,
Annual Estimates of the Resident Population for the
United States, Regions, States, and Puerto Rico: Apr.
1, 2010 to July 1, 2019 (NST-EST2019-02), https://www.
census.gov/data/tables/timeseries/demo/popest/2010sstate-total.html (last visited July 30, 2020).
7. If the July 1, 2019 Census Bureau estimate of the
total United States population is divided by the total
number of seats in Congress (435), the quotient is
754,574. See id.
8. The Memorandum states that “[i]ncreasing congressional representation based on the presence of aliens who are not in a lawful immigration status would
also create perverse incentives encouraging violations of
Federal law.” Memorandum on Excluding Illegal Aliens From the Apportionment Base Following the 2020
Census, 85 Fed. Reg. 44,679, 44,680 (July 23, 2020) (the
“Memorandum”) (ECF No. 1-1).
9. The Memorandum states: “Current estimates
suggest that one State is home to more than 2.2 million
illegal aliens, constituting more than 6 percent of the
State’s entire population. Including these illegal aliens
in the population of the State for the purpose of apportionment could result in the allocation of two or three
more congressional seats than would otherwise be allocated.” Id.

43
10. A state in which 2.2 million people represent 6
percent of the population would have a total population
of more than 36 million residents.
11. According to the United States Census Bureau,
as of April 1, 2010, the total population of the State of
California was 37,253,956. U.S. Census Bureau, Annual Estimates of the Resident Population for the
United States, Regions, States, and Puerto Rico: Apr.
1, 2010 to July 1, 2019 (NST-EST2019-02), https://www.
census.gov/data/tables/timeseries/demo/popest/2010sstate-total.html (last visited July 30, 2020).
12. According to the Census Bureau, as of July 1,
2019, the total population of the State of California was
39,512,223. Id.
13. The second most populous state in the United
States is Texas. Id.
14. According to the United States Census Bureau,
as of April 1, 2010, the total population of the State of
Texas was 25,145,561. Id.
15. According to the United States Census Bureau,
as of July 1, 2019, the total population of the State of
Texas was 28,995,881. Id.
16. After California and Texas, the next most populous state is Florida, which, according to the Census Bureau, had a total population of 18,801,310 as of April 1,
2010, and an estimated total population of 21,477,737 as
of July 1, 2019. Id.
17. Based on the Census Bureau’s 2019 estimate, 2.2
million people would constitute approximately 7.6 percent of the estimated total population of Texas as of July
1, 2019. See id.

44
18. Based on the Census Bureau’s 2019 estimate, 2.2
million people would constitute over 10 percent of the
estimated total population of Florida as of 2019. See id.
19. The Memorandum anticipates that excluding undocumented immigrants from the apportionment base
would deprive California of at least one seat in the
House of Representatives. See 85 Fed. Reg. at 44,680.
20. Dr. Christopher Warshaw modeled the effects of
excluding undocumented immigrants from the population count used to calculate Congressional reapportionment after the 2020 Census. See Warshaw Decl. at ¶
11 (Ex. 58).
21. According to Dr. Warshaw, if undocumented immigrants are excluded from the apportionment basis,
the probability that Texas will lose a seat in the House
of Representatives is 98.3%. Id. § 5.2, Tbl. 7.
22. According to Dr. Warshaw, if undocumented immigrants are excluded from the apportionment basis,
the probability that California will lose a seat in the
House of Representatives is 72.1%. Id.
THE POLITICAL INFLUENCE OF PLAINTIFFS CONSTITUENTS WILL BE DIMINISHED BY THE MEMORANDUM’S EXCLUSION OF UNDOCUMENTED IMMIGRANTS FROM THE APPORTIONMENT BASE

23. Plaintiff the City and County of San Francisco,
represented by and through its City Attorney, is a municipal corporation organized and existing under and by
virtue of the laws of the State of California, and is a charter city and county. Gov’t Pls.’ Am. Compl. ¶ 42 (ECF
No. 34).

45
24. Residents of the City and County of San Francisco will lose political power because of California’s loss
of at least one seat in the House of Representatives due
to the exclusion of undocumented immigrants from the
apportionment base. See Warshaw Decl. § 5.2, Tbl. 7
(Ex. 58).
25. Plaintiff Monterey County, California is a political subdivision of the State of California. See Gov’t
Pls.’ Am. Compl. ¶ 48 (ECF No. 34).
26. Residents of the Monterey County will lose political power because of California’s loss of at least one
seat in the House of Representatives due to the exclusion of undocumented immigrants from the apportionment base. See Warshaw Decl. § 5.2, Tbl. 7 (Ex. 58).
27. Plaintiff Cameron County, Texas is a political
subdivision of the State of Texas. Gov’t Pls.’ Am.
Compl. ¶ 44 (ECF No. 34).
28. Residents of Cameron County will lose political
power because of Texas’ loss of at least one seat in the
House of Representatives due to the exclusion of undocumented immigrants from the apportionment base.
See Warshaw Decl. § 5.2, Tbl. 7 (Ex. 58).
29. Plaintiff El Paso County, Texas is a political subdivision of the State of Texas. Gov’t Pls.’ Am. Compl.
¶ 45 (ECF No. 34).
30. Residents of El Paso County will lose political
power because of Texas’ loss of at least one seat in the
House of Representatives due to the exclusion of undocumented immigrants from the apportionment base.
See Warshaw Decl. § 5.2, Tbl. 7 (Ex. 58).

46
31. Plaintiff Hidalgo County, Texas is a political
subdivision of the State of Texas. Gov’t Pls.’ Am.
Compl. ¶ 46 (ECF No. 34).
32. Residents of Hidalgo County will lose political
power because of Texas’ loss of at least one seat in the
House of Representatives due to the exclusion of undocumented immigrants from the apportionment base.
See Warshaw Decl. § 5.2, Tbl. 7 (Ex. 58).
33. Plaintiff American-Arab Anti-Discrimination
Committee (“ADC”) is a membership-based not-forprofit organization. Khalaf Decl. ¶ 4 (Ex. 26).
34. ADC has several thousand dues-paying members nationwide, with members in all 50 states including
California and Texas. See New York, 351 F. Supp. 3d
at 608; Khalaf Decl. ¶ 5 (Ex. 26).
35. Dr. Souhail Toubia is a member of ADC and a
resident of Orange County, California. Khalaf Decl.
¶ 17 (Ex. 26).
36. George Majeed Khoury is a member of ADC and
a resident of San Diego, California. Id.
37. Because Dr. Toubia and Mr. Khoury reside in
California, they will lose political power because of California’s loss of at least one seat in the House of Representatives due to the exclusion of undocumented immigrants from the apportionment base. See Warshaw
Decl. § 5.2, Tbl. 7 (Ex. 58).
38. George Majeed Khoury is a member of ADC and
a resident of San Diego, California. Khalaf Decl. ¶ 17
(Ex. 26).

47
39. Because Dr. Toubia and Mr. Khoury reside in
California, they will lose political power because of California’s loss of at least one seat in the House of Representatives due to the exclusion of undocumented immigrants from the apportionment base. See Warshaw
Decl. § 5.2, Tbl. 7 (Ex. 58).
40. Plaintiff FIEL Houston Inc. (“FIEL”) is a membership-based not-for-profit organization based in Houston, Texas. Espinosa Decl. ¶ 2 (Ex. 18).
41. Today, FIEL has approximately 11,000 members in the greater Houston area. Id. ¶ 3.
42. Deyanira Palacios is a member of FIEL and a
resident of Montgomery County, Texas. Id. ¶ 19.
43. Because Ms. Palacios resides in Texas, she will
lose political power because of Texas’ loss of at least one
seat in the House of Representatives due to the exclusion of undocumented immigrants from the apportionment base. See Warshaw Decl. § 5.2, Tbl. 7 (Ex. 58).
44. Karen Ramos is a member of FIEL and a resident of Harris County, Texas. Espinosa Decl. ¶ 20 (Ex.
18).
45. Because Ms. Ramos resides in Texas, she will lose
political power because of Texas’ loss of at least one seat
in the House of Representatives due to the exclusion of
undocumented immigrants from the apportionment
base. See Warshaw Decl. § 5.2, Tbl. 7 (Ex. 58).
46. Plaintiff Ahri for Justice (“Ahri”) is a membershipbased not-for-profit organization based in Los Angeles,
California. Seon Decl. ¶ 2 (Ex. 43).
47. Ahri has roughly 220 individual members, with
most residing in Southern California, and particularly in

48
Orange and Los Angeles Counties. Some but not all of
these members are U.S. citizens. Id. ¶ 4.
48. Julie Kim is a member of Ahri and a resident of
Orange County, California Id. ¶ 20.
49. Because Ms. Kim resides in California, she will
lose political power because of California’s loss of at
least one seat in the House of Representatives due to the
exclusion of undocumented immigrants from the apportionment base. Id.
50. Simon Lee is a member of Ahri and a resident of
Los Angeles County, California. Id. ¶ 21.
51. Because Mr. Lee resides in California, he will
lose political power because of California’s loss of at
least one seat in the House of Representatives due to the
exclusion of undocumented immigrants from the apportionment base. See Warshaw Decl. § 5.2, Tbl. 7 (Ex.
58); Seon Decl. ¶ 21 (Ex. 43).
DATED:

Aug. 7, 2020

Respectfully submitted,
/s/

DALE HO
DALE E. HO
Davin Rosborough
Adriel I. Cepeda Derieux
Jonathan Topaz
Sophia Lin Lakin*
American Civil Liberties Union
Foundation
125 Broad St.
New York, NY 10004
(212) 549-2693

49
dho@aclu.org
drosborough@aclu.org
acepedaderieux@aclu.org
jtopaz@aclu.org
slakin@aclu.org
/s/

SARAH BRANNON* ***
SARAH BRANNON
Ceridwen Cherry*
American Civil Liberties Union
Foundation
915 15th Street, NW
Washington, DC 20005-2313
(202) 675-2337
sbrannon@aclu.org
ccherry@aclu.org
Julia A. Gomez
Peter Eliasberg*
ACLU Foundation of Southern California
1313 West 8th Street
Los Angeles, CA 90017
(213) 977-9500
jgomez@aclusocal.org
peliasberg@aclusocal.org
* Admitted pro hac vice
** Designates pro hac vice application
forthcoming.
*** Not admitted in the District of
Columbia; practice limited pursuant to
D.C. App. R. 49(c)(3).
Attorneys for the Plaintiffs in 20-CV-5781

50
/s/

JOHN A. FREEDMAN
JOHN A. FREEDMAN
R. Stanton Jones**
Daniel F. Jacobson**
Chase Raines**
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., N.W.
Washington, D.C. 20001
(202) 942-5000
John.Freedman@arnoldporter.com
Stanton.Jones@arnoldporter.com
Daniel.Jacobson@arnoldporter.com
Chase.Raines@arnoldporter.com
Steven C. Wu
Deputy Solicitor General
Judith N. Vale
Senior Assistant Solicitor General
Eric R. Haren, Special Counsel
Of Counsel

/s/

PERRY GROSSMAN
PERRY GROSSMAN
pgrossman@nyclu.org
New York Civil Liberties Union
Foundation
125 Broad Street
New York, NY 10004
Phone: (212) 607-3329
Andre Segura**
Edgar Saldivar**
Thomas Buser-Clancy**
ACLU Foundation of Texas, Inc.

51
P.O. Box 8306
Houston, TX 77288
Telephone: (713) 942-9146
Fax: (713) 942-8966
asegura@aclutx.org
esaldivar@aclutx.org
tbuser-clancy@aclutx.org
LETITIA JAMES
Attorney General of the State of New York
By:

/s/ ELENA GOLDSTEIN
ELENA GOLDSTEIN
Deputy Chief, Civil Rights Bureau
Matthew Colangelo
Chief Counsel for Federal Initiatives
Morenike Fajana, Special Counsel
Fiona J. Kaye, Assistant Attorney General
Office of the New York State Attorney General
28 Liberty Street
New York, NY 10005
Phone: (212) 416-6057
elena.goldstein@ag.ny.gov
Attorneys for the Plaintiffs in 20-CV-5770

52

Exhibit 3

53
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF ALLISON ARWARDY

Pursuant to 28 U.S.C. § 1746(2), I, Allison Arwady,
hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. My name is Allison Arwady, M.D., and I make
this Declaration in connection with State of New York,
et al., v. Trump, et al. I was confirmed by the Chicago
City Council as Commissioner of the Chicago Department of Public Health (“CDPH”) in January 2020. I
lead the City’s public health response to the COVID-19
pandemic, ensuring through data analysis, testing, case
investigation and contact tracing, quarantine/isolation,
health care system support, and the dissemination of
public guidance that the outbreak has remained well
controlled. Under my leadership, CDPH has also been
instrumental in enacting an expansion of services and
strengthened policies for mental health, violence prevention, and environmental health. CDPH is now preparing to launch Healthy Chicago 2025, a four-year plan

54
created with more than 200 partner organizations and
residents to advance health equity by reducing the city’s
racial life expectancy gap.
3. As the chief executive of CDPH, my primary responsibility is to assure the health and wellbeing of Chicago’s 2.7 million residents. My duties include managing
the human, financial, and physical resources of CDPH to
reduce health inequities while improving the health of
the entire population. CDPH does this by establishing
policies, developing systems, and implementing programs that meet community health needs.
4. To assure the health and wellbeing of Chicago
residents—prioritizing the populations and neighborhoods of greatest need—CDPH relies on complete and
accurate census data. Monitoring the health status of
Chicago residents requires citywide and subpopulation
level data, such as the numbers of individuals by race/
ethnicity, age, gender, socioeconomic status, and neighborhood of residence. Without accurate census data,
CDPH will have difficulty assuring appropriate allocation of resources to the most appropriate populations
and neighborhoods. We also will be unable to track
progress or identify the best possible interventions to
achieve our overarching goal of reducing the city’s racial
life expectancy gap.
5. The census data for Chicago is particularly important in 2020 as there have been unprecedented sociodemographic population shifts by race, ethnicity, and
geography over this last decade. These changes include
greater economic stratification, with many Latinos moving to different neighborhoods due to gentrification, African Americans leaving the city in record numbers, and
the population of young, upper-income White residents

55
on the rise. An incomplete count would strike at the
core of our work as these underlying population numbers are how we calculate disease prevalence rates, measure racial and geographic disparities, and adjust rates
for differences in population distribution by age. We
use this data to monitor birth outcomes (e.g. teen birth),
mortality (e.g. heart disease, diabetes, infectious disease), and morbidity (e.g., HIV, lead poisoning prevalence, opioid overdose rates, asthma ED visits, traffic
crash injury, mental health hospitalizations).
6. Complete and accurate data is critical to CDPH’s
response to the COVID-19 pandemic. This data affects
where we target our interventions including testing, communications, and policies to strengthen the local safety net
and increase access to care. In the coming years, we
will also use this data to inform how and where we provide vaccines to stop the virus from continuing to spread
in Chicago.
7. CDPH uses decennial census data to weight our
Healthy Chicago Survey and the Youth Risk Behavioral
Survey data so that the survey sample accurately reflects the entire population. All estimates of behavior
(e.g. smoking), health screening (e.g. mammograms), access to care (e.g. regular doctor visits), and percent of
the population with certain health conditions (e.g. obesity, hypertension, diabetes) would be compromised by
undercounts in Census 2020.
8. CDPH uses citywide and subpopulation disease
and health behavior prevalence rates to:
a.

Determine disease and health behavior disparities for geographic, racial/ethnic, gender, and socioeconomic subpopulations;

56
b.

Inform where to provide services directly. For
example, CDPH locates our clinical services (e.g.,
immunizations, STI, mental health) in high-need
neighborhoods and focuses public awareness campaigns in communities with high rates of disease
or disease promoting behaviors;

c.

Allocate financial resources. CDPH defines
and prioritizes high-risk populations and neighborhoods and requires applicants to describe
their ability to provide services for these populations; and

d.

Identify and respond to outbreaks of disease.
CDPH uses population data to establish and monitor baseline patterns of disease so that aberrations in disease patterns can be detected and appropriate interventions can be implemented.
As mentioned, this data is especially important
to our response to the COVID-19 pandemic.

9. An incomplete count or inaccurate information
on demographics from the census would undermine the
interpretation of health data until at least the next decennial census (2030). Both today and a decade from
now, lacking comparable data to previous years would
make it much more difficult to track trends, particularly
in sensitive areas where we as a city are at a critical
juncture in making progress, like youth quality of life,
HIV incidence, youth vaping, and, crucially, the chronic
diseases that increase mortality rates from COVID-19.
10. Understanding and monitoring the relationship
between health outcomes and the social determinants of
health could be impacted by an incomplete or inaccurate
census count. The decennial census is the gold-standard

57
data source for measuring population and neighborhood
characteristics related to factors such as poverty, employment, use of public benefits, housing, educational outcomes, and commuting behaviors, with an eye toward
the needs of vulnerable populations like the disabled, elderly individuals living alone, and those who face impediments to mobility. The proposed change to census apportionment, and its resulting impact on census data
counts could have a profound impact on interventions
related to community development—and on emergency
preparedness to deal with outbreaks and other urgent
threats.
I declare under penalty of perjury that, to the best of
my knowledge, the foregoing is true and correct. Executed on this 4th day of Aug., 2020
/s/

ALLISON ARWADY
ALLISON ARWADY
Commissioner, Chicago Department of
Public Health

58

Exhibit 4

59
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF MARC BALDWIN IN SUPPORT
OF PLAINTIFF STATE OF WASHINGTON

Pursuant to 28 U.S.C. § 1746(2), I, Marc Baldwin,
hereby declare as follows:
1. I am over the age of eighteen and, unless otherwise noted, I have personal knowledge of all the facts
stated herein.
2. I am an Assistant Director for Washington
State’s Office of Financial Management (OFM). I
oversee OFM’s Forecasting and Research Division,
which includes the Population Unit. The Population
Unit is the section of OFM that is working to ensure a
complete count during the 2020 Census. I have been
employed by OFM since 2013.
3. OFM’s Population Unit is the primary state
agency responsible for the compilation and maintenance
of population data for Washington State. We provide
Washington’s official demographic data and information
to other state agencies, local governments, tribal governments, local planning agencies, institutions of higher

60
education, special purpose districts, and the public.
Nearly all of our daily work relies on census data or
analyses derived from census data, most of which fall
under the broad umbrellas of population estimates and
population forecasts.
Efforts to Ensure a Complete Count in the 2020 Census in
Washington State

4. The Population Unit oversees Washington’s annual population estimate (which is largely based on the
decennial census) and also serves as the official state liaison to the Census Bureau. The Population Unit has
managed the state’s Complete Count Committee since
2018. The Unit oversees the Committee’s 2020 budget
of $15 million, which is allocated to support community
efforts to promote and ensure a complete count in the
2020 Census. Washington’s $15 million budget represents one of the largest state investments nationwide for
census efforts (and sharply contrasts with 2010, when
Washington invested no state dollars in the national census effort). The Washington Legislature made the decision to allocate these funds to the 2020 Census complete count efforts after various stakeholders raised
concerns that federal funding, procedures, and policies
would disadvantage our state’s diverse populations.
5. In the last two years, the Complete Count Committee effort has generated a complete statewide network of local complete count committees and organizing
activity run by local and tribal governments and community organizations. The Population Unit has worked
with this network to provide information and resources
needed to enable local trusted messengers to raise awareness about the importance of the 2020 Census and to instill confidence in the confidentiality of responses as a

61
means of encouraging participation in the 2020 Census.
Washington has seen a heightened need for these efforts
as national activity around the 2020 Census has called
into doubt how the federal government may use census
information in other contexts and whether sufficient resources have been allocated to national efforts to ensure
an accurate count of hard-to-count populations.
6. Since October 2018, Washington’s Complete
Count Committee has met nine times. Its existence
has led to the establishment of local Complete Count
Committees throughout the state, representing local
and tribal governments, regions, or specific ethnic or
professional groups. Over 300 local and tribal governments and community organizations have mobilized
statewide to train trusted messengers, to organize
Questionnaire Assistance Centers at food banks and
drive-thru events, to sponsor Census challenge events
or competitions, and to hold live social media events and
regularly post reminders to complete the Census on social media. In addition, approximately $2.5 million in
state funds have been invested in advertising and production of promotional materials.
7. Washington State’s self-response rates have
been relatively high since the start of the 2020 Census.
As of the end of July, Washington ranks 6th in the nation
with 68.2 percent self-response. However, closer examination of the self-response locations clearly indicates
that census tracts with traditionally hard-to-count populations (people of color, renters, lower income households, rural communities, foreign born, etc.) are a large
part of the 31.8 percent who have not yet responded to
the 2020 Census.

62
Impacts of the Presidential Memorandum and COVID-19
on Response Rates

8. Reports to our office out of both King and
Snohomish counties, which contain significant urban
populations, indicate that the July 21 Presidential Memorandum raised alarm within the immigrant communities there and cast a chill on our state and local continuing efforts to encourage self-response. People are renewing their concerns about the confidentiality of their
responses and are confused about the impact of the
Presidential Memorandum on the ongoing Census. As
a result, a new toolkit for community organizations was
hastily produced to provide new assurances to reinforce
the message that there is no citizenship question on the
census.
9. Census coordinators in both King and Snohomish
counties report receiving alarming calls from community partners expressing concerns and confusion after
the Presidential Memorandum. For example, one concerned census advocate in an email to our office stated:
“I’ve heard from some people who have expressed some
regret in participating in the census and even fear as to
where they will be getting the information to determine
how many and who is here legally.” Several statewide
meetings of community organizations have been convened to strategize on how to respond to these community concerns.
10. Traditionally, Census workers reach out directly
to follow up with hard-to-count populations to encourage
full census participation. COVID-19 has impaired such
efforts; specifically, the inability to send individuals into
communities due to COVID-19 has hampered the

63
trusted messenger strategy of encouraging Census completion through face-to-face interaction. Equally concerning, Washington has been forced to close libraries,
churches, and community centers due to COVID-19,
which in turn eliminated these important venues for
community contact. The Commerce Department’s temporary suspension of its “Update Leave operation” due
to COVID-19 has particularly impacted response rates
in Washington’s more rural counties, which have high
numbers of immigrant farmworkers, which did not receive invitations to participate in the census until as late
as the end of June. In addition, response rates are
lower in urban census tracts that have higher concentrations of immigrant communities, such as south King
County.
11. Educating the public in light of the Presidential
Memorandum presents enormous challenges, particularly with the Census deadline potentially sooner than
anticipated; the primary Census educational and awareness materials were printed and published long ago. Despite this, OFM has produced and disseminated information on the Presidential Memorandum and its impact
on Census data collection despite the additional costs
and challenges. The additional cost has been mainly
staff time to research and prepare talking points and
toolkits and to convene stakeholders for strategic communications.
12. The chilling effect of suggesting that immigrant
status would be identifiable and lead to exclusion cannot
be viewed in isolation from the pattern of administrative
uncertainty that emerged early in the 2020 Census effort with the potential addition of an immigration status

64
question. The Presidential Memorandum has resurfaced and exacerbated many respondents’ concerns and
mistrust, requiring redoubling of efforts to remind respondents that the census does not contain the proposed
citizenship question.
13. The Memorandum’s focus on immigration status
may have a uniquely toxic effect in Washington given
the state’s history with internment and Japanese communities. 1 The state has invested significant resources
and made extensive efforts to assure Washingtonians
that their data is safe, that it will not be used for purposes outside the census, and that their community
characteristics will be accounted for. The Presidential
Memorandum seriously undermines that investment
and those efforts. Washington’s Use of Census Data
and the Importance of Data Quality
14. OFM is also responsible for producing annual
state, county, and city population estimates for state
planning and fund distribution. About 200 million dollars of state shared revenues are distributed to counties
and cities on a per capita basis annually. We rely on
the decennial census data for these estimates because it
is the only available count of the entire population for a
single time point, repeated with a consistent methodology over time. The federal census is the definitive
source from which almost all other demographic data
analyses are based, even demographic products sold by
See, e.g., J. Burton, et al., A Brief History of Japanese American
Relocation During World War II, (Nat’l Park Serv., Apr. 1, 2016),
https://www.nps.gov/articles/historyinternment.htm;
Inside-Out:
Japanese Americans during World War II, (Wash. State Univ.
Libraries Digital Exhibits), http://digitalexhibits.libraries.wsu.edu/
exhibits/show/jaincarceration/jaincarcerationintro.
1

65
private companies. Conducting a census is prohibitively expensive for most governments and private companies, leading almost everyone to rely on the national
decennial census.
15. OFM produces annual estimates of state population by age, sex, race and ethnicity, Small Area Estimates of total population and housing, and Small Area
Demographic Estimates, which include the characteristics of age, race, gender and ethnicity. We also produce estimates of populations with Limited English Proficiency. All of these estimates rely heavily on the accuracy of the decennial census data. For example, decennial census counts of county and city population
housing by characteristic are the foundation of our annual county and city estimates program. Although an
oversimplification, our annual estimates can be thought
of as federal census data plus locally reported change.
The impact of the accuracy of the decennial census data
extends beyond just the population totals, as OFM derives household size and occupancy rates from the census for use in these local estimates. Even small deviations in these rates, after being applied to all housing
units in the state, can cause large inaccuracies. These
issues last for the entire decade, likely getting worse as
time goes on. At a minimum, bad data will certainly
lead to inaccurate distribution of funding within Washington, impacting all levels of government for a decade.
These estimates also form the foundation for all of our
other estimates products, making any baked-in inaccuracies even more impactful.
16. OFM produces our Small Area Estimates and
Small Area Demographic Estimates using the decennial
census as a base. Our Small Area Estimates apply to

66
statutorily defined areas and are used for planning and
revenue distribution such as highway urban areas, public transportation benefit areas, and the thermal electric
generating facilities area and non-statutory areas such
as water resource inventory areas, hospital districts and
fire protection areas. Our Small Area Demographic
Estimates—which rely heavily on accurate census age,
sex, race, and origin data—are distributed to every local
health jurisdiction in the state through the Washington
Department of Health’s Community Health Assessment
Tool or in reports such as the Washington Department
of Social and Health Services Community Risk Profiles.
17. In addition to these estimates, OFM also produces annual forecasts that again rely on census data.
We annually produce a state population forecast by age
and sex with a 30-year horizon. On years ending with
a 2 or 7, we also produce a county population forecast
series to satisfy the state’s Growth Management Act requirements (Ch. 36.70A, Wash. Rev. Code). Among
other things, Washington’s Growth Management Act is
a unique economic development statute that guides
planning for development and land preservation within
the state, and it relies heavily on the geographic and demographic data in the census.
18. Our primary forecast model is a cohort component model, which uses the most detailed age and sex
data available from the census combined with birth,
death, and migration data from other sources. The
census age and sex data is a key piece of this model because it determines how a population will age forward,
how many women are of childbearing age, and how many
people are at risk of dying. This state-level forecast is

67
the baseline for all of our other forecasts. Even a difference of 0.25% in the state total population in 2020
would result in a difference of over 20,000 people just 20
years later in 2040 under current assumptions.
19. Our Growth Management Act forecast extends
our statewide forecast to the county level, which entails
an increased level of detail and a greater need for accuracy in census data. Accurate census age, sex, race and
ethnicity data are essential for understanding, estimating, and forecasting county populations because the differences within those characteristics play a large part in
determining why counties increase or decrease in population size over time. For example, Whitman County
has an extremely high proportion of men and women in
their low twenties. Census group quarter counts help
us understand how many of these young people are attending Washington State University and if they are
likely to move upon graduation. Unlike young people in
other parts of the state, Washington State University
students are historically unlikely to settle in Whitman
County and raise families there. A break in the data
series caused by poor-quality decennial census data
would skew the historic patterns and relationships we
use to estimate and forecast population at the county
level, resulting in more uncertainty for counties and
other end-users of our data.
20. Many of the models we use to inform these forecasts rely on the relationships of the federal census counts
from one decade to the next. Consistency in counting is
extremely important for trend analysis and statistical
modeling. Again, small differences in these relationships can result in large differences in predicted value
when applied to hundreds of thousands of households

68
over many years. Accordingly, the U.S. Census Bureau recognizes the importance of consistency and has
historically used a very rigorous process to assess the
impacts of even the smallest changes in their questionnaire. This is one reason why the Census Bureau’s announcement that it will cut short the Nonresponse Followup (NRFU) operation is very disturbing: this lack
of follow up with hard-to-count populations will almost
certainly compromise the quality of 2020 Census data,
resulting in potentially exponential errors.
21. OFM strives to provide the highest-quality, unbiased demographic data possible so Washington decision-makers have the best information available to do
their work. Accuracy is a driving force in our work and
it is why we have participated in every available 2020
Census preparation program.
22. In addition to the specific state responsibilities
listed above, our office works closely with the Census
Bureau. We are the lead census State Data Center, the
official Federal State Cooperative for Population Estimates representative, and the state certifying office for
city boundaries and annexation boundary changes that
are submitted through the Boundary Annexation Survey and Boundary Validation Program. We have represented Washington State by participating in every
2020 Census program available to us, including: Local
Update of Census Addresses, Count Review Operation,
Early Nonresponse Followup, New Construction Program, Participant Statistical Areas Program, Group
Quarter and Transitory Location Identification project,
and Urban Growth Area Boundary Delineation program. Our office has been the lead organization for the
2020 Census State Complete Count Committee, which is

69
dedicated to achieving a true count of the population,
specifically through increasing self-response and awareness of non-response follow up.
Reduced Census Self-Response Rates Undermine Data
Quality

23. A census, by definition, is a count of everyone.
If 2020 Census follow-up efforts are cut short, it will no
longer be a census, but instead a sample. As the name
“sample” implies, not everyone will be counted—and
certain areas will suffer more as a result, because response rates are different across population groups in
different areas.
24. We know variation in response rates is not randomly distributed. The U.S. Census Bureau has done
extensive research and documented which areas had low
self-response rates in the 2010 Census and which areas
are likely to have low response rates in the 2020 Census.
Their predictive “Hard To Count” scores are a guide to
which communities are likely to be adversely impacted
by an incomplete census. The Census Bureau itself
notes that these communities are likely to have higher
concentrations of racial and ethnic minorities, people
with lower incomes, homeless individuals, undocumented
immigrants, children and young people, those with less
consistent internet access, and those with higher levels
of distrust for the government, among other characteristics. The current 2020 Census self-response rate map
and data show many of the predicted Hard To Count areas do indeed have lower 2020 response rates at this
time. If the 2020 Census is rushed or ended early, areas with low rates now are likely to have low rates when
the census is complete. In the end, areas that are under-counted are likely to receive fewer resources than

70
they deserve because the census data will show proportionally fewer people there.
25. In terms of modeling, a botched census will impact population forecasts for years. A general rule of
thumb in forecasting is that you need an indicator that
goes back in time as far as you are forecasting forward
in time. As mentioned above, OFM annually creates a
30-year population forecast by age and sex. As a result, the 2020 census data will be used in forecasting until at least the 2050 census data is available, and probably longer. Many estimate and forecast models rely on
information about changes in trends over time. An inaccurate census this year will change the relationships
in the data between censuses and make all future estimates and forecasts based on these trends less accurate.
Those communities with low response rates are more
likely to have less accurate estimated and forecasted
populations than areas with consistent complete counts.
Unreliable census data will impact the resources areas
receive based on estimated or forecasted population.
26. Many of our estimates and forecasts use a “top
down approach” (which the Census Bureau also uses for
its own estimates). With the top down approach, we
first estimate or forecast the state’s total population,
and all political subdivisions are aligned with (or “fit”) to
the state total. This fitting is not random: it is based
on existing data sources. The federal decennial census
is one of the most important data sources in that process. Fitting is often done on a proportional basis. If
federal census counts are low in some but not all areas,
the areas with low counts are likely to be allocated fewer
people over time.

71
27. To take an example, local officials in several communities in Eastern Washington have reported that, following a series of fires there in 2014 and 2015, they were
denied FEMA aid because too few people were reported
to live there—a result directly attributable to low census
self-response rates that resulted in an undercount in
2010. While anecdotal, this example illustrates how
low self-response rates, resulting in low official population counts, can impact communities during times of crisis.
28. Poor quality census data will harm Washington’s
ability to carry out the population data functions required by law both in the short term and the long term.
We have been working with state and local partners for
decades. OFM has very good working relationships
because we produce high quality data products people
can rely upon. A poor census could jeopardize those
relationships as inaccurate or unreliable census data filters into our estimates, reflecting poorly on us. Broken relationships and lost trust are not in the State’s
best interest: they will cost the state in the long run.
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
Executed on this 5th day of Aug., 2020.
/s/ MARC BALDWIN
MARC BALDWIN, PH.D.

72

Exhibit 11

73
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF SUSAN BROWER

Pursuant to 28 U.S.C. § 1746(2), I, Susan Brower,
hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein. Because I have
not yet served as State Demographer during a redistricting cycle, some of what I know and expect to occur
related to my role in redistricting is based on information available to me as State Demographer, including
business records.
2. I obtained my Ph.D. in sociology and population
studies from the University of Michigan.
3. I am the State Demographer for the State of
Minnesota. As State Demographer, I oversee the Minnesota State Demographic Center (“the Center”). By
statute, I am appointed by the Commissioner of Administration. Minn. Stat. § 4A.02(a). My duties are identified in Section 4A.02(b), and include gathering and developing demographic data relevant to the state; serving
as the liaison to the United States Bureau of the Census;

74
coordinating state and federal demographic activities;
and aiding the state legislature in preparing a census
data plan and form for each decennial census. I have
been employed as the Minnesota State Demographer
since 2012.
4. The Center works to ensure a full count and reduce non-response rates and undercounting. In Minnesota, the groups that are more likely to be undercounted include: (a) those with language barriers; (b)
residents who are highly mobile and/or homeless; (c)
residents who are lower income; (d) residents with lower
education levels; (e) children; (f ) people of color because
of the correlation with high mobility, low income, and
low education levels; (g) rural populations; and (h) immigrants and non-citizens.
5. Based on the 2010 census mail return rates,
150,000 Minnesota residents (or about 2.5%) are considered hard to count. See https://www.censushardtocount
maps2020.us/; https://www.censushardtocountmaps2020.
us/img/Census2020HTCmap_overview_Sept2017.pdf;
https://mn.gov/admin/demography/census2020/ccc/hard
tocount/.
6. You can also estimate hard to count numbers by
using the ROAM database. This is a census bureau database called the 2018 planning database. ROAM visually maps the 2018 planning database. Using a regression analysis, ROAM estimates what proportion of
each tract will not respond to the census by mail. For
Minnesota, the estimate is 941,000 (or about 17%).
These individuals are those who are not likely to return
their mailed census forms, and require additional follow
up to obtain survey responses. This is based on the
American Community Survey, that reflect changes that

75
have occurred in Minnesota since the last census. See
U.S. Census Bureau, 2018 Planning Database, Minnesota State Demographic Center Population Estimates.
7. Over the past few years, thousands of Minnesotans representing non-profit groups, communities of
color, communities of faith, the business community,
tribal nations, and local governments have been working
together with the Center to reduce non-response rates
and make sure all Minnesotans are counted in the 2020
Census. By making sure we count each resident of
Minnesota, we ensure that Minnesota gets proper representation in the federal government, state legislative
districts are drawn to take into account all the people
who live there, and assure the proper allocation of over
$15 billion in federal funds that help support Minnesota’s schools, hospitals, agriculture, first responders,
roads, businesses, and households.
The Center’s
budget for these efforts is a total of $1,885,00, across
three years; that does not include the $95,000 budgeted
for the Local Update of Census Addresses program.
8. The Center’s efforts to ensure a complete count
have included hiring additional communications staff;
grants and training for local Complete Count Committees; targeted mailing of print materials to residents
with PO boxes; sending over 1 million text messages to
residents on Census Day; apartment canvassing; working with the Minnesota Department of Commerce to
provide Census information with LIHEAP application
materials; working with the Minnesota Department of
Revenue to provide Census information with communications about low income tax credits; and training librarians to set up questionnaire assistance centers.

76
9. Once the COVID-19 pandemic began, the Center
shifted its efforts to mailing print materials and online
phone banking. The Center has been tracking response rates and targeting residents living in areas with
the lowest response rates.
10. To date, approximately 30% of Minnesotans still
needs to be counted. This group largely consists of the
hard-to-count populations described above. The recent decision to shorten the non-response follow up period by one month will make a complete count even more
challenging.
11. Furthermore, I anticipate that the Presidential
Memorandum about who will be counted for apportionment will have a negative impact in Minnesota. Based
on my training, education, and experience, I am concerned that Minnesota residents will be less likely to respond to the census due to the Presidential Memorandum. The Memorandum sends the message that undocumented immigrants do not count, which conflicts
with our “We Count. Minnesota.” messaging that emphasizes “Counting Every Minnesotan.”
See, e.g.,
https://mn.gov/admin/2020-census/.
12. In addition, the Memorandum could harm the
quality of the census data. If the Census Bureau were
to rely more heavily on proxy responses in the 2020 Census, it would degrade the quality of the data and impact
the usability of the data for Minnesota. The Census
Bureau’s own research shows that proxy responses have
higher item non-response than those responses collected by household members. This means that detailed information such as race, age, sex is more likely

77
to be left unanswered with some types of proxy respondents. See https://www.census.gov/pred/www/rpts/O.5.
PDF
13. For questions that are answered by proxy respondents, there is evidence that some types of information are reported less accurately. Data on the age
of household members, for example, are more likely to
reported in numbers ending in 5 or 0 when a proxy is the
respondent. See http://www.asasrms.org/Proceedings/
y2005/files/JSM2005-000443.pdf This type of rounding
error, called “age heaping” has a range of implications
for the usability of the data. It degrades the quality of
the data for any purpose that relies on accurate information about the age of residents—including rates of
death, disease prevalence, disability, and rates geographic
mobility, among many others.
14. The Center needs accurate age data to be able to
produce high-quality population projections which are
then are used by the state, regional planners, counties
and school districts to plan for future transportation, education, and housing needs. For example, the Center
has provided the following services that would be impacted by poorer quality census data:
•

State planning related to COVID-19. I recently provided an analysis for a state agency
based on census data to show the number of children to parents of essential workers and the
number of children and families potentially impacted by school closings.

•

The Center has provided race and ethnicity data
to the state courts, to ensure racial proportionality in jury pool selection.

78
•

The Center has detailed differing local community conditions (poverty, age structure, labor
force participation, etc.) to help equitably distribute resources, such as the Small Cities Development Grant program and Public Facilities
Authority infrastructure funds, both administered the Minnesota Department of Employment and Economic Development.

•

The Center has compiled age and sex data annually for the Minnesota Department of Health’s
biennial report to the MN Legislature describing the burden of cancer.

•

Detail the number and percent of children under
age 18 living in poverty for the Minnesota Department of Education’s needs assessment of
the Preschool Development Grant.

•

The Center has estimated the migration of
young Minnesotans to help the Minnesota Office
of Higher Education understand the implications of setting up college savings accounts for
young children.

•

The Center has produced estimates of the voting-age population by city for the Minnesota
Secretary of State’s office.

15. A Census undercount will also negatively affect
redistricting in Minnesota. As liaison between the Census Bureau and the State of Minnesota with respect to
redistricting, I inform the Census Bureau about the type
of and format of data the State of Minnesota needs and
wants to complete its redistricting. In order to identify
what the State needs and wants in connection with redistricting, I anticipate communicating with the State of

79
Minnesota legislative redistricting committees. Those
committees have not been formed yet for the 2020 Census; based on the process for redistricting following the
2010 census, I expect each party caucus (one Republican
and one Democratic Farmer Labor (“DFL”)) to form
one committee per legislative chamber, such that there
are four redistricting committees. I also anticipate
working with the redistricting committees to send them
the census data file from the Census Bureau and help
them understand the data.
16. The federal decennial census has an effect on redistricting. Public Law 94-171 establishes that the Census Bureau must provide population data to all states
within one year of the day the census is conducted. In
Minnesota, upon receipt of the population data, the Governor then files a certified copy of the official census
population counts with the Office of the Secretary of
State. Minn. Stat. § 600.18. Those certified census results are the official counts that are used to determine
the population of every political subdivision in Minnesota. Minn. Stat. § 600.18. Specifically, the Minnesota
Legislature and local governments use “block” population counts to redistrict election districts.
17. State statute also provides that the political subdivisions of the state “for all purposes . . . shall be
deemed to have the population thereby disclosed [in
the certified copy of the federal census].” Minn. Stat.
§ 600.18.
18. In Minnesota, congressional and state legislative
districts are redrawn after each U.S. Census. Even if
the number of federal districts remains the same, the
district borders are changed to make sure each district
has approximately the same number of people in it. In

80
Minnesota, there are 67 state senate districts; each senate district is divided into two house districts, for a total
of 201 state legislative districts. Right now, Minnesota
has eight congressional districts. Minnesota’s nonpartisan Legislative Coordinating Commission is responsible for assisting the legislature in carrying out its redistricting responsibilities under Minn. Stat. § 2.91. New
congressional and legislative districts must be determined at least twenty-five weeks before the primary
election in the year ending in two (i.e., 2022). Minn.
Stat. § 204B.14, subd. 1a. The redistricting process
may happen through consensus among the four legislative caucuses (House Republican Caucus, House DFL 1
Caucus, Senate Republican Caucus, and the Senate
DFL Caucus), which is then passed by the legislature
and signed by the Governor. Or, the redistricting process may occur as a result of a special redistricting panel
appointed by the Minnesota Supreme Court Chief Justice, which occurred following the 2010 census.
19. A census undercount would negatively affect
Minnesota’s representational interest. For example, if
residents do not participate in the census, due to higher
numbers of noncitizens in Minneapolis, an undercount
means that Minneapolis will likely lose representation in
the state legislature, and other parts of the state will
have greater representation. Cities in Minnesota with
the highest number of noncitizens are Rochester, Brooklyn Park, Minneapolis, and St. Paul.
20. A loss of representation in the state legislature
would harm residents in Minneapolis and other cities
DFL stands for Democratic-Farmer-Labor, Minnesota’s Democratic party.
1

81
where the population is undercounted, because residents
of those undercounted areas have less voice in their
state government, and the one person, one vote standard is potentially violated.
21. I am also aware of the impact of decennial census
population counts on state/local funding and budgets.
A number of programs use the census data in formulas
for distributing funding.
22. For example, the distribution of road funds is affected by the decennial census. See Minn. Stat. §§ 162.09
(census determines populations of cities for municipal
state-aid street fund), 162.13 (funds are distributed in
part based on the percentage that the population bears
to the total population of all cities qualifying for municipal state-aid street fund). In 2017, $173,218,364 in municipal state-aid street funds were apportioned by the
State to 148 municipalities. See http://www.dot.state.
mn.us/safinance/appmt/mnutdf-2017.pdf. Trunk highway funds are distributed based on population. Minn.
Stat. §§ 161.081, subd. 3, 162.081, subd. 4. In 2017,
$1,214,069,182 in trunk highway funds were spent by the
State.
23. Education funding is also affected by census
data. The population of a school district is to be certified from the most recent federal census, except in any
year in which no federal census is taken. Minn. Stat.
§ 275.14. Community education programs provide learning and involvement opportunities for people of all ages
including providing school district residents with the opportunity to utilize educational facilities and programs
during non-school hours. The amount of money available to school districts for community education funding

82
is affected by the district’s population, as defined by
Section 275.14. See Minn. Stat. § 124D.20.
24. Local Government Aid (“City LGA”), one mechanism to determine “population” is the “most recent federal census.” Minn. Stat. § 477A.011. The funding
provided to cities and towns is a function of their population. See Minn. Stat. §§ 477A.011, subd. 34 (city revenue “need” is determined by population, or housing
percentage, which is defined by Census data), 477A.013,
subd. 1 (town aid based in part on population), 477A.013,
subds. 8-9 (city funds based in part on funding “need”).
In 2018, the total amount of LGA certified for all cities
was $534,398,012. Minn. Stat. § 477A.03, subd. 2a.
25. In my experience, these funding formulas are
designed based on the Legislature’s intent to target
funding to certain populations—of certain sizes or specific characteristics. If the funding formula assumptions are incorrect—for example, based on inaccurate
census data numbers—then the funding will not be distributed consistent with the Legislature’s intent. It also
means certain residents will not have access to the same
amount of funding they would otherwise be entitled to,
had the count been accurate.
I declare under penalty of perjury that, to the best of
my knowledge, the foregoing is true and correct.
Executed on this 6th day of Aug., 2020
/s/

SUSAN BROWER
SUSAN BROWER
Minnesota State Demographer

83

Exhibit 14

84
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF STEVEN K. CHOI

STEVEN K. CHOI, pursuant to the provisions of 28
U.S.C. § 1746, declares under penalty of perjury as follows:
1. I am the Executive Director of the New York
Immigration Coalition (“NYIC”). In that capacity, I
am responsible in part for NYIC’s education and outreach efforts around the 2020 Census. I am also one of
the NYIC executives responsible for the organization’s
budgeting, fundraising, and policy priorities. I have
been the Executive Director of NYIC for over seven

85
years. I am over 18 years old. I have personal
knowledge of the facts set forth in this declaration.
2. NYIC is an umbrella policy and advocacy organization for nearly 200 groups in New York State, representing the collective interests of New York’s diverse
immigrant communities and organizations. NYIC is
headquartered at 131 West 33rd St, New York, NY
10001.
3. NYIC’s mission is to unite immigrants, members, and allies so that all New Yorkers can thrive.
NYIC envisions a New York State that is stronger because all people are welcome, treated fairly, and given
the chance to pursue their dreams. NYIC pursues solutions to advance the interests of New York’s diverse
immigrant communities and advocates for laws, policies,
and programs that lead to justice and opportunity for all
immigrant groups. It seeks to build the power of immigrants and the organizations that serve them to ensure their sustainability, improve people’s lives, and
strengthen New York State.
4. As Executive Director of NYIC, I have extensive
familiarity with NYIC’s membership and I am aware
that NYIC’s 200 plus member and partner organizations
that are committed to advancing work on immigrant justice, empowerment, and integration. NYIC’s member
organizations—located throughout New York State and
beyond—all share NYIC’s mission to serve and support
the empowerment of immigrant communities. NYIC’s
members include grassroots community groups, social
services providers, large-scale labor institutions, and organizations working in economic, social, and racial justice. Representatives of NYIC’s member organizations
serve on the NYIC Board of Directors.

86
5. The Decennial Census is a critical and
constitutionally-mandated data-gathering instrument,
used to distribute hundreds of billions of dollars in federal resources and to apportion political power at the
federal, state, and local levels. NYIC has an ongoing
commitment to promoting engagement in the 2020 Decennial Census among its members and constituents because a complete and accurate Census count is critical
to ensuring that our members receive the government
funding and full political representation to which they
are entitled to. We, our members, their members, and
all New Yorkers benefit when our state has its full complement of Congressional representatives and electoral
votes, as well as adequate funding for the facilities, programs, and services they use which receive Censusguided federal funding. These facilities and services
include parents with children enrolled in schools that receive funding under Title I of the Elementary and Secondary Education Act; families whose children benefit
from insurance funded by the State Children’s Health
Insurance Program; drivers who use interstate highways and mass transit on a daily basis and thus depend
on federal highway funds to perform their jobs; and people who rely on housing assistance through various
funding provided under Section 8, among other Censusguided funding streams. Promoting Census response
can help ensure that the programs, services, and facilities that our members rely upon are adequately funded.
6. As such, NYIC, its member organizations, and
the communities we serve all have a fundamental interest in ensuring as complete and accurate a Decennial
Census as possible.

87
7. I have been extensively and personally involved
in the research, development, and implementation of
NYIC’s 2020 Census education and outreach programs.
To develop programs that achieve NYIC’s goals of encouraging greater Census participation in the communities we serve, I have researched and gained familiarity
with the importance of data gathered from the Census
in apportioning political representation and the allocation of some government funding sources. I have researched the concerns of our members and the communities we serve around the Census for the purpose of developing effective Census communications directed at
immigrant communities. I have also researched how
the communities we serve would be impacted by an undercount toward the end of designing communications
and organizing strategies that address those concerns
and increase their civic engagement, and Census participation in particular.
8. Because a complete and accurate count is critical
to ensuring that our member organizations and the communities they serve receive the government funding and
full political representation to which they are entitled,
NYIC has an ongoing commitment to promoting engagement in the Decennial Census among individuals
served by its member organizations.
9. Because the Decennial Census requires a direct
inquiry of every person in the United States, NYIC has
invested significant organizational resources in encouraging our members and the immigrant communities we
serve to respond to the Census.
10. NYIC’s education and outreach efforts for the
2020 Census have been underway for more than two
years now. Since the beginning of 2018, it has helped

88
form New York Counts 2020, a growing, non-partisan
coalition of more than 100 diverse organizational stakeholders across New York to advocate for a fair and complete enumeration, for which it serves as facilitator and
convenor. This broad-based coalition, which was formally launched in March 2018, is composed of racial, ethnic, immigrant, religious, health, education, labor, housing, social services, and business groups working in
partnership with state and local government officials.
NYIC has invested resources to solidify the work and
reach of New York Counts 2020 through robust advocacy, outreach, and mass educational forums, including
coordinating “train the trainer” sessions throughout the
state to equip leaders with tools to educate their communities on the importance of the Census; devising effective messaging to convince hard-to-reach communities to participate; empowering coalition members to assist their communities in completing the Census online;
hosting conferences; developing and disseminating toolkits and advocating to ensure that there are no unnecessary barriers impeding marginalized communities from
being counted while also ensuring their privacy is protected.
11. NYIC has also invested in Census education and
outreach work in addition to the organization’s work
with the New York Counts 2020 Coalition. This work includes, among other things, general education programs,
workshops for members, presentations to service organizations, such as legal service organizations, at “Key to
the City” Events, and person-to-person outreach through
phone and text-banking. We have also engaged in digital organizing around the Census, including through
webinars and presentations streamed over Facebook

89
Live. NYIC has continued Census education and outreach during the pandemic and plans to continue encouraging people to fill out the questionnaire, and supporting its membership in doing so, until the response
period closes.
12. Our education and outreach efforts to encourage
our members and people in the communities we serve to
respond to the Census emphasizes two essential purposes of the headcount: (1) Determining political apportionment, including the number of representatives
each state will have in Congress, the number of electors
per state in the electoral college, and the boundaries and
composition of Congressional districts; and (2) Determining how much government funding communities will
receive for matters such as education, public housing,
transportation, and health care. Our education and
outreach efforts also emphasize that the Census counts
every resident of the United States, regardless of age,
citizenship status, or ability to vote. This message is
important because it affirms the humanity and dignity
of all Americans and the responsibility that all Americans, including undocumented Americans, bear for responding to the Census and ensuring that their home
states and communities are allocated their fair share of
political power and government funding. An example
of one of our Census education and outreach documents
is available at https://newyorkcounts2020.org/nyic-gettingimmigrants-counted/.
We have relied upon information provided by the United States Census Bureau
and other government agencies in drafting this document and other materials.

90
13. NYIC has been and remains committed to Census education and outreach work in part because immigrants and communities of color have been historically
undercounted by the Census. Through my work and
the work of my colleagues in immigrant communities, we
understand that one reason that immigrants and communities of color have been undercounted is their reluctance to trust government officials and their fear of
turning over personal information to the government
due to potential adverse consequences with respect to
their own immigration or the status of others in their
households.
14. NYIC has already faced a challenging environment for conducting outreach and encouraging immigrant communities to respond to the 2020 Census because of the heightened fear of immigrant communities
towards interacting with government workers as a result of the Trump Administration’s persistently hostile
and discriminatory actions and attitudes towards immigrants of color. Among the racist and xenophobic acts
that the Trump Administration has undertaken include
separating children from their families at the border
and keeping immigrant children in cages; banning individuals from six majority Arab and/or Muslim countries
from entering the United States; attempting to rescind
the Deferred Action for Childhood Arrivals program,
which allowed 800,000 individuals—90% of whom are
Latino—brought to this country as children to legally
reside and work in the United States; rescinding Temporary Protected Status programs for individuals from
El Salvador, Honduras, Nicaragua, Haiti, and Nepal;
calling for an end to the diversity visa lottery; dramatically increasing interior enforcement raids in communities across the United States; proposing to end family-

91
based immigration, which would disproportionately
harm immigrants from Latin America and Asia; referring to some undocumented immigrants as “animals”;
and attempting to include a citizenship question on the
Census. instituting the “Public Charge” rule or “wealth
test,” which has undermined access to critical
healthcare and deterred immigrant New Yorkers from
seeking important services; conducting ICE enforcement activity at City and State courthouses, which has
prevented immigrant New Yorkers from accessing justice; changing the rules of the asylum system, effectively
cutting off humanitarian relief for those who need it
most; attacking the family reunification immigration
system and implementing an executive order shutting
down most legal immigration into the United States.
NYIC has consistently fought these efforts to intimidate
and marginalize immigrants of color in the courts, in the
streets, and at the ballot box.
15. In the course of developing, implementing, and
supervising NYIC’s Census education and outreach
work with its members and the communities they serve,
including NYIC’s work with the New York Counts 2020
coalition, I have observed that New York immigrant
communities’ heightened fear of interacting with government workers has increased even further since the
issuance of the July 21, 2020 Presidential Memorandum
to the Secretary of Commerce on the subject of “Excluding Illegal Aliens from the Apportionment Base Following the 2020 Census” (“Presidential Memorandum”).
The Presidential Memorandum is making our efforts to
encourage Census participation more difficult. The
Presidential Memorandum is sowing confusion and fear
about the Census among the communities we serve.

92
16. The Administration’s decision to exclude some
non-citizens from the apportionment base directly and
severely undermines our Census education and outreach materials and programming by contradicting its
core messages and discouraging Census response.
17. First, by excluding undocumented people from
the apportionment count, the Presidential Memorandum creates confusion by contradicting one of the two
core purposes of the Census that NYIC, its members,
and its New York Counts 2020 coalition partners highlight in their education and outreach programming.
Because the President has said that the Census responses of some non-citizens will not be used for Congressional apportionment, some people may now neglect
or decline to fill out the Census because of its diminished
importance. The Presidential Memorandum dilutes
the efficacy of our existing materials and programming,
which will require NYIC to divert resources from other
programmatic areas to conduct additional education and
outreach to get the same number of people to respond to
the Census questionnaire. By contradicting the message that filling out the Census is important to Congressional apportionment, people in the communities will
discount the value of our current education and outreach
materials or programs, requiring us to make new materials or conduct new outreach that addresses the Presidential Memorandum. We have engaged in member
updates, press releases, press briefings and are now developing messaging and social media campaigns to address the fact that everyone can and should still be
counted in the Census. NYIC staff members have also
had to divert time from other activities to respond to inquiries from local media about this issue to assure peo-

93
ple that everyone, regardless of their immigration status, should fill out the Census questionnaire; that their
responses to the Census are private, confidential, and
will not be used against them by ICE or other law enforcement agencies; and that every person will be counted
for apportionment purposes.
18. Second, by excluding undocumented people from
the apportionment count, the Presidential Memorandum dehumanizes and marginalizes undocumented residents by excluding them from the category of “persons”
required by the Constitution to be included in the apportionment count. Furthermore, the exclusion of undocumented immigrants from the apportionment base in the
Presidential Memorandum indicates efforts by the Administration to identify where undocumented immigrants
live and their numbers in order to exclude them from the
Census. By undermining our messaging about the
purpose of the Census and further marginalizing and
confusing immigrants who are already among the population most often overlooked by the Census, the Presidential Memorandum makes it less likely that the immigrant communities and communities of color we serve
will be responsive to our Census education and outreach
efforts.
19. Third, NYIC has also received an increased number of questions from our member organizations and the
public about the privacy and confidentiality of responses
to the Census questionnaire since the Presidential Memorandum. NYIC’s members and members of the communities we all serve are concerned that the Presidential Memorandum’s exclusion of people “not in lawful immigration status” from the Census base count indicates
that the Administration will use information from the

94
Census to attempt to identify undocumented immigrants for deportation or other adverse consequences.
NYIC is planning to conduct more education and outreach than we would have otherwise to address those
concerns and to assure people that they can respond to
the Census without fear of immigration enforcement
consequences for themselves or their families.
20. NYIC and its members will be forced to expend
more resources than initially anticipated to try to reduce
the negative effect of the President’s announcement of
the decision to exclude undocumented immigrants from
the apportionment base on Census response rates in the
immigrant communities of color it serves. NYIC expects that it will need to interact with its constituents
more times than previously planned to try to convince
them to participate in the 2020 census. NYIC expects
that it will now need to spend more resources to reach
the same number of people, and that ultimately, it will
be less successful in convincing its constituents to participate in the 2020 Census due in large part to the Administration’s decision to exclude undocumented immigrants from the apportionment base.
21. NYIC will have to increase staff time and spending devoted to its Census education and outreach efforts
by approximately 20% percent over previously anticipated levels to address the Presidential Memorandum.
22. Because of the need to increase the time and
money spent on Census outreach due to the fear and/or
confusion generated by the Presidential Memorandum,
NYIC will need to divert resources from other areas
critical to its mission including civic engagement and
community organizing on other issues, including helping
the immigrant community navigate the impacts of

95
COVID-19 and the unfolding economic crisis/recession,
and preparing for the upcoming federal elections, which
are critical programmatic areas right now. I have personally spent at least ten hours on Census-related work
that I would have otherwise spent on other areas of
work, which includes the areas listed above in addition
to organizational management to our additional education and outreach efforts.
23. NYIC puts significant resources in Census education and outreach work because our members and the
immigrant communities we serve face significant negative consequences in the event of an undercount.
24. Unfortunately, NYIC will have less time than
anticipated to address the fear and confusion caused by
the Presidential Memorandum among the immigrant
communities that NYIC serves. The actual counting
period of the Census is only a few months, but the consequences of the Census in terms of political power and
funding allocation last for a decade. At the time the
President Memorandum was published on July 21, there
were 102 days remaining in the enumeration period,
which was then scheduled to end on October 31. However, on July 31, the Census Bureau abruptly accelerated the end of the enumeration period to September 30.
With only 55 days left in the headcount, every single day
remaining is a critical opportunity for NYIC, its members, and its coalition partners to conduct further Census outreach and increase response rates in New York
that have been below national averages, particularly in
counties with large immigrant populations. NYIC will
have to accelerate its remaining Census education and
outreach efforts to address the Presidential Memorandum’s negative effect on Census responses.

96
25. Since the Presidential Memorandum, NYIC has
had to divert resources to change its Census outreach
messaging to combat the misinformation about apportionment, as well as the discriminatory nature of the
Presidential Memorandum and the President’s remarks
accompanying the memorandum. NYIC has had to divert resources from other programs areas to increase its
outreach efforts to undocumented and other immigrant
communities in our organization’s Get-Out-The-Count
efforts. At this late stage of the enumeration, NYIC
had anticipated its Census efforts to be limited to education, strategy and outreach—with specific staff, including Muad Awawdeh, Meeta Anand, Wennie Chin,
Lovelie Tejada and Ivan Larios dedicated to Get-OutThe-Count Efforts; however, due the Presidential Memorandum, NYIC must now divert significant time from
senior leadership, communications, member engagement and communication engagement teams, constituting about 10 percent of their time, to combat the fear
and disinformation resulting from this memorandum.
26. As Executive Director, my decision to authorize
NYIC’s increased investment in Census education and
outreach work has been driven in part by the concerns
of our member organizations and the communities they
serve have raised about the Presidential Memorandum.
NYIC’s management, including Ms. Joshi and Ms. Anand,
remains in regular communication with staff and management at member organizations about the issues and
policies affecting immigrant communities in New York.
27. NYIC’s member organizations, including AMPHS,
Chhaya CDC, and Neighbors Link, have reported to Ms.
Joshi and Ms. Anand, who each work with me in making

97
decisions for NYIC regarding our investments in Census outreach, that our member organizations and our
communications teams are reporting that the immigrant
communities of color they serve are expressing reluctance to participate in the Census since the announcement of the Presidential Memorandum, which contributes to the culture of fear. They have also reported to
me through their work in NY Counts 2020 that counties
working on the Census in New York State are concerned
that the messaging around the Presidential Memorandum will depress the participation of immigrants in the
Census. In particular, Ms. Joshi, Ms. Anand, and other
NYIC staff have observed and reported to me that immigrants of color have expressed fear that the Presidential Memorandum indicates to them that answering the
Census will give a hostile administration information
that may be used by agencies like Immigration and Customs Enforcement or other parts of the Trump Administration that have been used to intimidate and marginalize immigrants.
I declare under penalty of perjury that the foregoing
is true and correct.
Dated: Aug. 6, 2020
New York, New York
/s/ STEVEN K. CHOI
STEVEN K. CHOI

98

Exhibit 15

99
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF MICHAEL E. CLINE

Pursuant to 28 U.S.C. § 1746(2), I, Michael E. Cline,
hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. I am the State Demographer of North Carolina
and work in the North Carolina Office of State Budget
and Management. Annually, I estimate the total population of 100 counties and 551 municipalities, the projection of state and county populations, and analyze the implication of demographic trends for state agency planning and budgets. I have been employed by the State
of North Carolina since 2017 and have worked, in varying capacities, with decennial census data since after the
1990 Census.
3. Housing, household, and demographic characteristics obtained every ten years are critical to the functioning of my office and the population estimates, population projections, and demographic analyses that I pro-

100
duce. In turn, my population estimates are used in formulas that are used to distribute state revenues to local
communities to support schools, transportation infrastructure, art programs, libraries, emergency services,
parks programs, and other things. In addition, annually, we produce county population estimates and population projections of up to twenty years into the future.
These population estimates and projections provide detailed data by sex, race, age, and ethnicity for the state
and for our 100 counties and are used within state government in order to plan for and fund schools, roads and
public transportation programs, aging services, public
health services, economic development, etc. In addition, local governments, nonprofit groups and private industry use our demographic projections for their own
programmatic and business planning.
4. There is no other source for comprehensive population, household, and housing counts than the decennial census. While our annual estimates are prepared
by using data from other sources (including vital statistics and administrative data) the census provides an important benchmark for which to validate and adjust our
models every ten years. Of our municipalities, 60%
(330) have populations of less than 5,000. The decennial census is the most accurate source of information to
obtain average household size and housing occupancy —
critical values needed for the estimation of municipal
populations (sample estimates produced by the American Community Survey for small areas such as these do
not provide precise estimates). Without this information, it will be more difficult to produce accurate population estimates for these smaller municipalities in future years.

101
5. In order to produce population projections, our
office needs detailed historical census counts—including
population by age, sex, race, and ethnicity. These data
are essential for understanding trends in the different
components of population change—natural increase
(births minus deaths) and net migration (in-migration
minus out-migration). These comprehensive historical
benchmarks every ten years combined with vital statistics data help us understand how our state and counties
in our state are changing in order to develop assumptions about future change (including assumptions regarding future birth, mortality, and migration rates).
Census population counts are used in denominators to
calculate rates and thus an undercount (or overcount) of
any particular population grouping (by race/ethnicity/
sex/age), can contribute to over- or underestimating certain populations and the total population overall. This
may lead to a greater risk of the state and local governments to either be unprepared for future population
needs (such as not building schools when school aged
populations are under-estimated) or building infrastructure that is not needed (when populations are over-estimated).
6. According to the US Census Bureau's own analysis of the 2010 Census, at 7.6%, North Carolina had the
seventh largest omission rate among the 50 states and
District of Columbia 1 . These omission rates were

Mule, Thomas, “Census Coverage Measurement Estimation
Report: Summary of Estimates of Coverage for Persons in the
United States,” U.S. Census Bureau, Decennial Statistical Studies
Division, May 22, 2012.
1

102
highly correlated with mail-in response rates (as response rates decreased—omission rates increased) 2 .
While imputation methods and differentials in undercounts may overcome these omissions, there remains a
risk that certain groups will be excluded from the final
2020 results. Those at risk of being excluded include
persons of color, young children, and rural populations 3.
Thirty-eight percent of North Carolina's population are
people of color—including rapidly growing Hispanic and
Asian populations and the second largest American Indian population east of the Mississippi River 4.
I declare under penalty of perjury that, to the best of
my knowledge, the foregoing is true and correct.
Executed on this 5th day of Aug., 2020
/s/ MICHAEL CLINE
MICHAEL E. CLINE
State Demographer of North Carolina
Office of State Budget and Management

https://www.gc.cuny.edu/Page-Elements/Academics-ResearchCenters-Initiatives/Centers-andhistitutes/Center-for-Urban-Research/
CUR-research-initiatives/Census-Self-Response-Rates-Mapped-andAnalyzed-2000,-2010,-and-(soon)-2020 (Accessed August 5, 2020).
3
Mule, Thomas, “Census Coverage Measurement Estimation Report: Summary of Estimates of Coverage for Persons in the United
States,” U.S. Census Bureau, Decennial Statistical Studies Division,
May 22, 2012.
4
https://files.nc.govincosbm/documents/files/Population-Dyarunic2020Report.pdf
2

103

Exhibit 17

104
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF SARA CULLINANE

Pursuant to 28 U.S.C. § 1746(2), I, Sara Cullinane,
hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. I am the co-founder and Director of Make the
Road New Jersey (“Make the Road NJ”), a communitybased immigrants’ rights organization with centers in
Elizabeth, Passaic, and Perth Amboy New Jersey—
three cities with significant foreign-born populations.
I have worked on immigrants’ rights issues for the past
fifteen years as a community organizer and an attorney.
As Director of Make the Road NJ, I oversee the organization’s community organizing and education programs,
as well as our legal services department, which represents individuals in immigration proceedings. Prior to
founding Make the Road NJ in late 2014, I represented
immigrants in labor and employment proceedings. I
am also a member of the Complete Count Committee of
Union County, Passaic, and Elizabeth, NJ. I served as

105
a commissioner for the New Jersey Complete Count
Commission.
3. Make the Road NJ’s mission is to build the power
of immigrant and working-class communities through
community organizing, legal services, policy advocacy,
and transformative education.
Annually, we serve
more than 10,000 immigrant families by providing Know
Your Rights trainings, legal services, worker safety
trainings, ESL classes, and youth development programs. The majority of immigrants we serve are noncitizens from Latin America.
We also convene a
statewide network of Deferred Action for Childhood Arrivals (“DACA”) recipients.
4. The Trump Administration’s immigration policies have made the immigrant communities that Make
the Road NJ serves reluctant to engage with federal or
state government representatives and have had a profound impact on immigrants and their U.S. citizen families in New Jersey.
5. Over the past year, our organization has held
more than 30 events to educate immigrant communities
about the census and to inform them of their responsibility to respond to the census. These activities include
town halls, community forums, a census march where
community members handed out thousands of flyers to
inform Passaic’s immigrant communities about the census, and online forums. Make the Road NJ has also
trained immigrant volunteers to become census outreach ambassadors to inform other community members about the importance of responding to the census.
I am a member of three local Complete Count Committees, and our staff serve on another two committees
(Middlesex and Passaic County). Our organization

106
also chairs a subgroup of immigrant community organizations that strategizes about how to conduct outreach
and share resources across the state. Through these
efforts, we have reached more than 10,000 individuals,
the majority of whom are immigrants, many of whom
may be undocumented.
6. Since President Trump issued the “Memorandum on Excluding Illegal Aliens From the Apportionment Base Following the 2020 Census” (the Presidential
Memorandum) on July 21, Make the Road New Jersey
has received numerous comments from community members, including immigrants and U.S. citizen family members of immigrants about the Presidential Memorandum. Our organizers have had conversations with more
than 50 community members about the Presidential
Memorandum and have shared information on social
media that has engaged more than 1,000 individuals.
7. The Presidential Memorandum states that it is
U.S. policy to “exclude from the apportionment base aliens who are not in lawful immigration status under the
Immigration and Nationality Act.” Community members have expressed fear and resignation, observing
that the Presidential Memorandum makes clear that
they will not be counted in the census. For example,
during a call with a number of members, a community
member told one of our organizers that she was not going to respond to the census because she would not be
counted.
8. In addition to fomenting fears about not being
counted among community members, the Presidential
Memorandum has reinforced fears about immigration
enforcement. The memorandum states that “many”
individuals who are being excluded from apportionment

107
“entered the country illegally in the first place” and that
counting them would “create perverse incentives encouraging violations of Federal law.”
Community
members have expressed fear that because of the Presidential Memorandum, information regarding their immigration status will not be kept confidential and will be
turned over to ICE. For example, a community member recently reiterated her fear that if she responded to
the census her information would not be protected from
ICE. I could tell she was frightened because her voice
trembled, and she told me she was scared. I worry that
other community members have similar fears.
9. Overall, based on my experience and observations, I anticipate that many immigrants and their U.S.
citizen family members will choose not to respond to the
Census as a whole because they believe that they will
not be counted regardless of whether they answer the
Census and they are frightened and anxious about what
might happen if they complete the Census (i.e., their information may be shared with immigration authorities).
This will lead to vast undercounting in communities of
color, immigrant communities, and low-income communities across New Jersey.
I declare under penalty of perjury that, to the best of
my knowledge, the foregoing is true and correct.
Executed on this 4th day of Aug. 2020
/s/ SARA CULLINANE
SARA CULLINANE
Make the Road New Jersey

108

Exhibit 18

109
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF CESAR ESPINOSA

Cesar Espinosa, pursuant to the provisions of 28
U.S.C. § 1746, declares under penalty of perjury as follows:
1. I am the Executive Director of FIEL Houston, Inc.
(“FIEL”). I am over 18 years of age. I have personal
knowledge of the facts stated in this declaration.
2. FIEL is a nonprofit membership organization based
in Houston. FIEL’s mission is to advocate for just
laws for immigrants and their families, access to higher

110
education for all people regardless of immigration status, and access to justice for the community. To do that,
FIEL engages in four core programs: access to higher
education, immigration legal services, civic engagement,
and community outreach.
3. FIEL has more than 11,000 members who reside in
Harris County and neighboring counties in the greater
Houston metropolitan area. FIEL maintains a very active membership comprised of individuals and families
who receive FIEL’s services and those who volunteer in
FIEL’s programmatic work, including door-to-door canvassing, community outreach initiatives, direct actions,
and public education.
4. In my capacity as Executive Director, I am responsible for managing the day-to-day operations of FIEL,
overseeing FIEL’s communications and media outreach, and developing FIEL’s programmatic work, including public education and outreach efforts around the
2020 Decennial Census. As the founding director, I
have been on staff at FIEL since May 2007.
5. FIEL members in Houston rely on a number of facilities and services the funding for which is allocated
based on the data generated by Decennial Census.
These facilities and services include parents with children enrolled in schools that receive funding under Tide
I of the Elementary and Secondary Education Act; families whose children benefit from insurance funded by
the State Children’s Health Insurance Program; drivers
who use interstate highways and mass transit on a daily
basis and thus depend on federal highway funds to perform their jobs; and people who rely on housing assistance through various funding provided under Section 8,
among other Census-guided funding streams.

111
6. Because a complete and accurate census count is
critical to ensuring that our members receive the government funding and full political representation to which
they are entitled, FIEL has an ongoing commitment to
promoting engagement in the Decennial Census among
its members and constituents. In preparation for the
2010 Census, FIEL committed resources to educating
immigrant communities on the importance of the Census. Since then, FIEL has been and remains committed to its Get Out the Count efforts and other Census
education initiatives in part because FIEL understands
that immigrants and communities of color have been
consistently and routinely undercounted by the Census.
7. In the last couple of years leading to the 2020 Census, FIEL has conducted outreach and engagement
work with immigrant communities in the greater Houston area to encourage Census participation. That work
consists of educating constituents about the Decennial
Census and its importance to the community—in particular, that the population count under the Census partially determines the level of governmental funding for
programs and schools that our members rely on and the
amount of political representation our members receive
at the federal, state, and local levels. Specifically, we
inform our members and the communities we serve that
it is important to participate in the Census to ensure
proper school funding and improve public education,
topics about which our immigrant communities care
deeply. Our education and outreach efforts also emphasize that the Census counts every resident of the
United States, regardless of age, citizenship status, or
ability to vote. This message is important because it
affirms the humanity and dignity of all Americans and

112
the responsibility that all Americans, including undocumented Americans, hear for responding to the Census
and ensuring that their home states and communities
are allocated their fair share of political power and government funding.
8. FIEL is also part of a coalition of organizations participating in Harris County’s Complete Count Committee, a local, community-driven initiative designed to improve the completeness and accuracy of the 2020 Census
count in Harris County. Prior to the COVID-19 pandemic, FIEL organized in-person forums and meetings
for the public, as well as for canvassers and community
leaders, aimed at educating Houston residents about the
purpose and uses of the Census as well as the importance of responding to the Census. During the pandemic, FIEL continues to develop programs and outreach strategies that incorporate Census education and
outreach efforts.
9. From our work in the community, we understand
that one reason that immigrants and communities of
color have been undercounted is a fear of contact with
the government and distrust of government officials.
This level of fear and distrust of government among immigrants and communities of color we serve has been
exacerbated by the Trump Administration and its officials’ hostility to these communities, such as their repeated attempts to rescind the Deferred Action for
Childhood Arrivals (“DACA”) program and their efforts
to deny benefits to immigrants based on their perception of immigrants as public charges. Now, Houston
immigrant communities’ heightened fear of interacting
with government workers has increased further due to
the Administration’s attempt to exclude undocumented

113
immigrants from the apportionment base. The Memorandum’s exclusion of undocumented immigrants creates an incremental obstacle to Census participation because it ties the fear and distrust of government that immigrant communities of color have directly to the Decennial Census count. By pursuing policies designed
to dissuade or confuse individuals about Census participation, the Trump Administration has created significant challenges to the work of FIEL and its members
who now have to overcome the community’s fear and
lack of trust in the Census process by committing more
personnel and time to public education and outreach
about the Census.
10. Based on my experience as FIEL’s Executive Director and through my regular contacts with our members, our organizing staff, our communications staff, and
the media, the July 21, 2020 Presidential Memorandum
to the Secretary of Commerce on the subject of “Excluding Illegal Aliens from the Apportionment Base Following the 2020 Census” (“Presidential Memorandum”) is
making our efforts to encourage Census participation
more difficult. The Presidential Memorandum is sowing fear and confusion about the Census among the communities we serve.
11. This fear and confusion is not unique to undocumented immigrants. Excluding undocumented immigrants from the apportionment base will deter Census
participation among the broader immigrant community,
including family and household members of undocumented immigrants who are actually citizens or non-citizens with legal status. By excluding undocumented
people from the apportionment count, the Presidential

114
Memorandum dehumanizes and marginalizes undocumented residents by excluding them from the category
of “persons” required by the Constitution to be included
in the apportionment count. Furthermore, the exclusion of undocumented immigrants from the apportionment base in the Presidential Memorandum indicates
efforts by the Administration to identify where undocumented immigrants live and their numbers in order to
exclude them from the Census. By undermining our
messaging about the purpose of the Census and further
marginalizing and confusing immigrants who are already among the population most often overlooked by
the Census, the Presidential Memorandum makes it less
likely that the immigrant communities and communities
of color we serve will be responsive to our Census education and outreach efforts.
12. Based on conversations with members of FIEL who
come from mixed-status households, I know that both
citizens and non-citizens with legal status have expressed concern that participating in the Census would
invade their privacy and expose their family, friends,
and neighborhoods to profiling by the law enforcement
agencies of an administration hostile to immigrants of
color. Members of the community we serve are concerned that the Presidential Memorandum’s exclusion
of people “not in lawful immigration status” from the
Census base count indicates that the Administration will
use information from the Census to attempt to identify
undocumented immigrants for deportation or other adverse consequences.
13. For example, different members of the community
we serve have expressed to me their confusion about our
messaging that the Census should count every person

115
regardless of immigration status based on the Administration’s efforts to not count undocumented immigrants. In some instances, members of the community
have questioned our credibility as a result of the negative messaging from the Administration about who should
count for the Census. Further, even in my own mixedstatus family, family members have questioned me on
whether they should participate in the Census as a result of their fears that the Government could probe into
the undocumented individuals in my extended family.
14. The Administration’s decision to exclude some noncitizens from the apportionment base directly and severely undermines our Census education and outreach
efforts by contradicting our core messages and discouraging Census response. FIEL is planning to conduct
more education and outreach than we would have otherwise to address those concerns and to assure people that
they can respond to the Census without fear of immigration enforcement consequences for themselves or their
families. FIEL’s increased investment in Census education, research, and outreach, has been driven in part
by concerns about the Census expressed by our members and the immigrant communities we serve. Because of the information we have received concerning
the heightened fear and suspicion among our members
and the communities we serve created by the Administration’s Presidential Memorandum, FIEL has recently had to refocus its programming and commit additional resources to its Census work. FIEL will be
forced to expend more resources than initially anticipated to try to reduce the negative effect of the Administration’s policies on the response rate in the immigrant
communities of color it serves. FIEL expects that it
will need to interact with its constituents multiple times

116
to answer questions and try to convince them to participate in the 2020 Census.
15. FIEL expects that for the remainder of the Census
outreach period it will need to spend more resources to
reach the same number of people and that ultimately it
will be less successful in convincing its constituents to
participate in the 2020 Census due to the Administration’s efforts to exclude undocumented immigrants from
the Census apportionment base. Unfortunately, FIEL
will have less time than anticipated to address the fear
and confusion caused by the Presidential Memorandum
among the immigrant communities that we serve. At
the time the Presidential Memorandum was published
on July 21, there were 102 days remaining in the nonresponse follow-up period, which was then scheduled to
end on October 31. However, on July 31, the Census
Bureau abruptly accelerated the end of non-response
follow-up to September 30. With only 55 days left in
the headcount, every single day remaining is a critical
opportunity for FIEL to conduct further Census outreach. FIEL will have to accelerate its remaining Census education and outreach efforts to address the Presidential Memorandum’s negative effect on Census responses. FIEL anticipates having to divert approximately $5,000 from other mission critical programs and
services to 2020 Census education and outreach as a result of the Presidential Memorandum.
16. To date, FIEL has set up both in-person forums and
online forums to educate the community about the Census. We have also made an effort to include language
about the Census in all of our online communications and
media appearances. FIEL’s active membership has
also spent over 750 personnel hours in the last year and

117
a half developing outreach strategies and researching
the impact of an undercount towards the purpose of informing our members and the public about the 2020 Decennial Census. We have also spent in-kind resources,
including printing material in-house and allocating air
time from our virtual studio, to explain the Census further. FIEL will have to increase staff time and spending devoted to its Census education and outreach efforts
by approximately 40% percent over current levels to address the Presidential Memorandum.
17. Because of this need to increase the time and money
spent on Census outreach, FIEL will need to divert resources from other areas critical to its mission, including
education, civic engagement, and community organizing
on other issues. FIEL has already diverted resources
from other areas in order to address concerns from its
constituents stemming from the Presidential Memorandum. For example, staff time and other resources devoted to FIEL’s Get Out the Count efforts and DACA
advocacy will be diverted to communications to combat
fear and disinformation resulting from the Presidential
Memorandum. Moreover, FIEL has already, and will
continue to, divert resources from its other organizational priorities, including its work on access to education for students, to address these concerns about decreased Census participation within immigrant communities.
18. Beyond the increased fear FIEL members face due
to the Trump Administration’s attack on undocumented
individuals, these members also face significant negative consequences in the event of an undercount. FIEL
members reside in Houston, the population of which includes some of the largest immigrant communities of

118
color in the state. An undercount of those populations
will deprive FEEL members and the communities it
serves of political influence and Census-guided funding
to which they would be entitled by a more accurate
count. Our members have communicated concerns to
me that the exclusion of undocumented immigrants from
the apportionment base will result in a significant underfunding of resources for all immigrant communities
in Houston.
19. One of the many FIEL members who will suffer injury due to the exclusion of undocumented immigrants
from the apportionment base is Deyanira Palacios.
Ms. Palacios is a lawful permanent resident and a resident of Montgomery County, Texas. Because Ms. Palacios resides in Texas, she will lose political power because of Texas’ loss of at least one seat in the House of
Representatives.
20. Another FIEL member who will suffer injury due
to the exclusion of undocumented immigrants from the
apportionment base is Karen Ramos. Ms. Ramos is a
resident of Harris County, Texas, where she works as a
realtor. Because Ms. Ramos resides in Texas, she will
lose political power because of Texas’ loss of at least one
seat in the House of Representatives. Ms. Ramos is
entitled to remain and work lawfully in the United States
through the DACA program. She is entitled to be
counted in the ongoing 2020 Decennial Census along
with all other residents of Texas, regardless of their immigration status.
21. While the Presidential Memorandum is deterring
Census participation and burdening our outreach efforts, potentially leaving little time to proactively en-

119
gage on the Census with the communities we serve, getting relief from a court to clarify the fear and confusion
sowed by the Administration will allow us to do meaningful outreach to our constituents. Every single day
available for us to carry our message to the community
that everyone will count in the Census would be helpful
to our outreach efforts.
I, Cesar Espinosa, declare under penalty of perjury
that the foregoing is true and correct to the best of my
knowledge and recollection.
Dated: Houston, Texas
Aug. 6, 2020
/s/ CESAR ESPINOSA
CESAR ESPINOSA

120

Exhibit 26

121
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

Civil Action No. 1:20-cv-05770-JMF
NEW YORK IMMIGRATION COALITION, MAKE THE
ROAD NEW YORK, CASA, AMERICAN-ARAB ANTIDISCRIMINATION COMMITTEE, ADC RESEARCH
INSTITUTE, FIEL HOUSTON INC., AHRI FOR JUSTICE,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, UNITED
STATES DEPARTMENT OF COMMERCE; WILBUR L.
ROSS., IN HIS OFFICIAL CAPACITY AS SECRETARY OF
COMMERCE, BUREAU OF THE CENSUS, AN AGENCY
WITHIN THE UNITED STATES DEPARTMENT OF COMMERCE; AND STEVEN DILLINGHAM, IN HIS OFFICIAL
CAPACITY AS DIRECTOR OF THE U.S. CENSUS BUREAU,
DEFENDANTS
DECLARATION OF SAMER E. KHALAF

I, Samer E. Khalaf, pursuant to the provisions of 28
U.S.C. § 1746, declare under penalty of perjury as follows:
1. I am the National President of the AmericanArab Anti-Discrimination Committee (“ADC”) and ADC
Research Institute (“ADCRI”). My responsibilities include overseeing all of the work of both organizations,
and leading our efforts regarding the 2020 Decennial
Census.
2. I am over 18 years of age and have personal
knowledge of the facts stated in this declaration. I

122
have acquired this personal knowledge after several
years as ADC and ADCRI President. During that
time period, I have familiarized myself with ADC’s internal records and processes, our membership, including where our members live, and the Arab-American
community nationwide and in specific areas in which
many Arab Americans and ADC members live.
3. Before the COVID-19 outbreak, I also spent a
good deal of time traveling the country and meeting with
ADC members and other members of the Arab-American community. Through this process, I have familiarized myself with prevailing views in the community concerning a number of issues, including the Trump Administration’s treatment of Arab and Muslim Americans
and immigration-related policies, and fears in the community about the policies of this Administration. I also
continue to meet with ADC members and other members of the Arab-American community through phone
calls and video conferences, and as part of this process,
I have gained personal knowledge about some of the
likely effects of the recent Presidential Memorandum
concerning undocumented immigrants and congressional apportionment on Arab Americans.
4. ADC is a civil rights membership organization
that is committed to defending and promoting the rights
and liberties of Arab Americans and other persons of
Arab heritage. Senator James G. Abourezk founded
ADC in 1980. Senator Abourezk was the first Arab
American to serve in the United States Senate, and he
founded ADC in response to stereotyping, defamation,
and discrimination directed against Americans of Arab
origin. ADC’s mission focuses on combating stereotypes and discrimination against and affecting the Arab-

123
American community in the United States and serving
as its public voice on domestic and foreign policy issues,
as well as educating the American public in order to promote greater understanding of Arab history and culture. ADC advocates, educates, and organizes to defend and promote human rights and civil liberties of
Arab Americans and other persons of Arab heritage,
from recent immigrants to citizens born in the United
States. ADC also participates in legal advocacy efforts
on issues that have a large impact on the Arab American
community.
5. ADC is the largest American-Arab grassroots
civil rights organization in the United States. As I detail
more below, ADC has several thousand dues-paying members nationwide, with members in all 50 states including
California, Texas, Florida, and New Jersey. Its members are also active through ADC’s 28 local chapters and
organizing committees, located in 20 states and the District of Columbia. Its members include both U.S. citizens and different types of noncitizens.
6. ADCRI was founded by Senator Abourezk in
1981. It is a corporation exempt from taxation under
Section 501(c)(3) of the Internal Revenue Code. ADCRI sponsors a wide range of programs on behalf of
Arab Americans and of consequence to the wider American community including programs train Arab Americans in the exercise of their constitutional rights as citizens. Its work includes sponsoring and promoting research studies and publications, seminars, and conferences, which document and analyze the discrimination
faced by Arab Americans in the workplace, schools, media and government agencies. These programs, publications and events also promote a better understanding

124
of the rich Arab cultural heritage by the public, policy
makers, and the new generations of Arab Americans.
ADCRI also publishes and distributes educational materials to Arab Americans, educators, academic institutions, policy makers, and the public at large.
7. ADC and ADCRI have a longstanding and ongoing commitment to promoting engagement in the Decennial Census among its members and constituents. Since
the 1980s, ADC has served in numerous capacities on the
Census Bureau advisory committees. In 2000, ADC reinvigorated its census campaign and policy initiatives,
actively educating Arab Americans and other minority
populations about the importance of the census and mobilizing participation and outreach events. In 2008,
ADC actively worked with the Census Bureau to identify classification concerns of Arab Americans on the
United States census. For the 2010 Decennial Census,
ADC and ADCRI created messaging about participating in the Decennial Census that was focused on the
Arab-American community including launching a national campaign advocating for the completion of census
forms and holding outreach events to counter concerns
of sharing of information with government and law enforcement agencies. ADC and ADCRI also engaged in
efforts to “get out the count” in that community as well,
hosted town halls and symposiums in select cities across
the country, and produced and published material for
distribution which encouraged participation in the 2010
Census. ADC also served on the U.S. Census Bureau’s
2010 Census Advisory Committee.
8. In line with this history, ADC and ADCRI have
been active in promoting and encouraging Arab Americans to respond to the 2020 Decennial Census, efforts

125
that I have personally led. I have led Census townhalls
across the country, including in Georgia, Michigan, New
Jersey, Florida, Texas, California, Washington, D.C.,
Virginia, and Maryland, to name a few. Since the onset
of the COVID-19 Pandemic, I appeared on and led dozens of online conversations with community members
about the Census. I have worked with our organizing
and media outreach staff to publish and promote informational material for our community encouraging them
to complete the Census. In the lead up to the end of
the Census period our office was planning multiple outreach events online, as well as phone banking, and email
follow up, encouraging completion of the Census. We
have and anticipate additional expenses related to the
online services needed to hold digital outreach events.
9. Despite these efforts, I know from my experiences as ADC’s President that ADC is already facing a
much more challenging environment for conducting outreach and encouraging Arab Americans, both citizens
and noncitizens, to respond to the 2020 Census than the
2010 Census. This is due in part to many of the policies
and statements of President Trump and his administration targeting immigrants of color, Muslim and Arab
Americans, and immigrants generally. Additionally,
the failed effort to add a citizenship question to the 2020
Census also helped created an environment of heightened fear and suspicion that has made encouraging census responses among Arab Americans more challenging.
10. I also understand from my role and experience
that there is also a particular fear among many Arab
Americans about how the data collected in the Census
will be used, including fears in areas with high concen-

126
trations of Arab Americans like Orange County, California. These concerns include use of the data for purposes
of deportation, censorship, and surveillance, including
the Department of Homeland Security targeting particular communities, as occurred after September 11, 2001.
11. Based on my experience as ADC’s President and
the knowledge I have gained from working with ADC
staff members, ADC members, and others in the ArabAmerican community, the July 21, 2020 Presidential
Memorandum to the Secretary of Commerce on the subject of “Excluding Illegal Aliens from the Apportionment Base Following the 2020 Census” (the “Memorandum”) is already making and will continue to make our
efforts to encourage Census participation much more
difficult.
12. The Memorandum has already generated significant fear and increased distrust about the Census in
Arab American communities. These reactions are not
limited to undocumented immigrants or other non-citizens, but also to family, household members, friends, and
community members of non-citizens, people for whom the
new policy articulated in the Memorandum has generated fear about responding at all and having those responses weaponized against their communities. The
new policy announced in the Memorandum to exclude
undocumented residents from the apportionment base
directly and severely undermines our Census education
and outreach also contradicts the messaging we have
tried to promote in those efforts, making it necessary to
expend more resources at the expense of other organizational priorities in the remaining months of the 2020
Census, including legal work, organizing, issue advocacy
efforts, and educational initiatives.

127
13. The Memorandum will likely make ADC/ADCRI’s
census work harder and more time consuming and
costly in several ways, including contradicting current
messaging, the fact that targeting undocumented immigrants creates fear, distrust, apprehension, and raises
greater concerns about privacy, and that it demoralizes
community members. The impact of the Memorandum
will be immediately felt. In addition to making work
related to the Census more difficult, it will lead to ultimately lead to a lower count in areas with minority populations, including centers with high Arab populations.
By changing the terms of the Census, it will give credence to the notion that the Trump Administration is not
being honest about their intention of the Census which
will result in decreased participation.
14. ADC has already been forced to expend more resources and will continue needing to do so to respond to
the Memorandum and expects that it will need to interact with community members many more times than
previously planned to try to convince them to participate
in the 2020 census. Even though the Memorandum will
cause ADC to expend more resources to reach the same
number of people, it unfortunately is likely that it will
have less success in convincing many community members in the 2020 Census due in large part to the Memorandum. ADC and ADRCI will have to increase staff
time and spending devoted its Census education and
outreach efforts by approximately 25% percent over
current levels to address the Memorandum. In addition to my work, I had to direct my National Organizer
and our Media Coordinator to divert some of their time
away from other priorities to do additional Census work

128
15. Because the Memorandum has caused and will
continue to cause ADC and ADRCI to spend more time
and money spent on Census outreach, ADC and ADCRI
will need to divert resources from other important programmatic areas, including pro bono legal services, voter
protection work, working with victims of hate crimes,
policy work related to upcoming elections, policy work
related to COVID-19, community organizing and outreach efforts, as well as educational programs typically
implemented at the start of each school year. These
are critical programmatic areas right now given the ongoing COVID-19 Pandemic, upcoming elections, and the
economic crisis. I have personally spent at least 35
hours on Census-related work since the release of the
most recent Memorandum, that I otherwise would have
spent on other areas of work, including on development,
implementation, overseeing daily operations, coordinating with partner organizations, and overall day to day
operations.
16. ADC puts significant resources in Census education and outreach work because our members and the
communities we serve face significant negative consequences in the event of an undercount. As noted above,
ADC has members in all 50 states plus Washington, DC,
as well as a national network of chapters. These include chapters in; Los Angeles and Orange County, California; Miami and Orlando, Florida; Austin and Dallas,
Texas; Northern New Jersey; New York, New York;
and Tucson and Phoenix, Arizona. ADC has Board of
Directors, most of whom membership elects, and all of
whom are also ADC members and represent a crosssection of the United States.

129
17. For example, ADC has members in California,
including Dr. Souhail Toubia, who is based in Orange
County, California, and George Majeed Khoury, a San
Diego, California member. I understand that California is likely to lose at least one seat in Congress if the
Memorandum is implemented. Therefore, these members will be directly harmed by the policy to exclude undocumented residents from the apportionment base, as
they will lose political representation. These members’ communities are likely to also lose federal funding
as a result of this policy, as they live in areas with significant populations of undocumented individuals and
noncitizens generally, who will also be less likely to fill
out the 2020 Census because of this policy as well.
18. ADC has members in Florida as well, including
Shata Atiya, who is based in Miami. I understand that
Florida is likely to lose at least one seat in Congress if
the Memorandum is implemented.
Therefore, Ms.
Atiya will be directly harmed by the policy to exclude
undocumented residents from the apportionment base,
as she will lose political representation. Ms. Atiya’s community is also likely to lose federal funding as a result of
this policy, as she lives in an area with a significant population of undocumented individuals and non-citizens
generally, who will also be less likely to fill out the 2020
Census because of this policy as well.
19. ADC also has members in New Jersey, including
Tawfiq Barqawi, who lives in Gloucester County, New
Jersey. I understand that New Jersey is likely to lose
at least one seat in Congress if the Memorandum is implemented. Therefore, these members will be directly
harmed by the policy to exclude undocumented resi-

130
dents from the apportionment base, as they will lose political representation. Mr. Barqawi’s community is
likely to also lose federal funding as a result of this policy, as he lives in an area with significant populations of
undocumented individuals and non-citizens generally,
who will also be less likely to fill out the 2020 Census
because of this policy as well.
I declare under penalty of perjury that the foregoing
is true and correct. Executed on Aug. 6, 2020, in Washington, D.C.
/s/ SAMER E. KHALAF
SAMER E. KHALAF

131

Exhibit 28

132
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF MONTEREY COUNTY
SUPERVISOR CHRIS LOPEZ

Pursuant to 28 U.S.C. § 1746(2), I, CHRIS LOPEZ,
hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. I am a member of the Board of Supervisors of
the County of Monterey, California, the elected decisionmaking body of the County. I represent District 3, located in Southern and Central Monterey County. District 3 is predominantly rural, agricultural, and is the
largest Supervisorial District in terms of geographic
area.
3. I grew up in the same District that I now serve.
Currently, I serve as the Chair for the Monterey County
Board of Supervisors and sit on several California Brown
Act legislative bodies, including the 2020 Census Steering Committee and Behavioral Health Commission, among
others.

133
4. Our Central Coast California region encompasses a diverse mix of coastal and inland areas best
known for agricultural production and tourist destinations. Accordingly, our largest employment industries
are in agriculture and hospitality. District 3 of Monterey County is home to a diverse population made up of
over 80% of Hispanic and Latino residents. Across
Monterey County, nearly 21% of the total residents are
noncitizens, including lawful permanent residents, refugees granted asylum, immigrants granted temporary
relief under the Deferred Action for Childhood Arrivals
(“DACA”) program, and other groups. According to
the Census estimate of 2018, Monterey County is home
to 437,907 people, with 30.4% of the residents being foreign born. Indeed, according to the Public Policy Institute of California, Monterey County has the highest
percentage of non-citizens of any California County.
Based on my experience in residing and working in District 3 my entire life, I estimate that nearly half the residents are undocumented or members of mixed status
household families.
5. The County’s dynamic immigrant population is
deeply integrated, both socially and economically; one in
four children in the County is an immigrant. Overall,
approximately 247,792 County residents live in a noncitizen or mixed citizen household per 2017 U.S. Census
Bureau figures.
6. Monterey County is one of the nation’s top agricultural producers. Agriculture is the County’s largest
economic and employment sector, generating $8.1 billion annually and providing 76,054 jobs. In District 3,
the Agricultural Sector is the leading employer. While

134
most crops across the United States are machine-harvested, many of the crops grown in Monterey County
must be picked, sorted, and/or packed by hand, so the
County is dependent on a large and skilled labor force.
7. The County’s “Hard to Count” communities are
well documented by the U.S. Census Bureau, with an estimated 35% of the population living in Hard to Count
neighborhoods compromised of populations historically
missed in the census at disproportionately high rates.
These populations include the majority of the residents
of my District: people of color, young children, and immigrants.
8. According to the Public Policy Institute of California, Monterey County’s overall poverty rate is approximately 17.4%. In District 3, a predominantly Hispanic community, 22% of the 67,399 people live in poverty. According to the U.S. Census Bureau, nearly one
in four households in our District lives in overcrowded
conditions. Our immigrant population includes a high
percentage of farm workers, both migrant and permanent. Farmworkers commonly face a variety of challenges, including difficulty accessing affordable housing, inconsistent seasonal income, and low wages relative to the cost of living. The farmworker population in
Monterey County, and in particular District 3, is plagued
by overcrowded living conditions. A 2018 Farmworker
Housing Study revealed that 54% of farmworker dwellings had joint or “extra” tenants and that less than half
lived only with family. This longstanding problem has
come into focus recently because such living conditions
greatly increase the risk of contracting COVID-19.
9. Monterey County depends on critical funding
from the Federal and State government to implement

135
and administer health, welfare, public safety, infrastructure improvement, and transportation programs. The
total Federal and State aid for fiscal years 2017-2018 is
estimated at 33% of total financing. Social Services and
Health programs administered by the County Health Department rely heavily upon this aid.
10. With my personal experience of growing up in
South Monterey County and ultimately serving the
County as an elected official, a role in which I oversee
critical government functions as a member of the Board
of Supervisors, I strongly believe that the recent executive decision to exclude undocumented immigrants from
the 2020 Census apportionment will have serious negative effects on the representation, health, safety, and
well-being of Monterey County residents.
11. Based on my experience overseeing the near $4
billion dollar annual County budget, critical federally
funded programs with funding allocations based on Census data would suffer substantial cuts affecting a variety
of social safety programs, including, school behavioral
health counseling programs, lunch programs, Limited
English Proficiency education, Children’s Health Insurance Program, Women, Infants and Children program,
public health research and interventions, transportation, roads and other critical infrastructure, as well as
affordable housing programs.
12. For example, California state law recognizes that
local governments play a vital role in developing affordable housing. The state of California mandates that
all cities, towns and counties plan for the housing needs
of its residents regardless of income. This mandate is
called Housing Element and Regional Housing Needs

136
Allocation, which is driven by Census data. The California Department of Housing and Community Development utilizes Census data to determine the total number
of new affordable homes that need to be built in each
local jurisdiction. Without accurate Census data, I believe that the availability of affordable housing may be
significantly and negatively impacted in Monterey
County.
13. District 3 is home to over two-thirds of the total
geographical area of the County of Monterey. Its size
and rural inland location makes public transportation,
and public infrastructure projects a critical part of our
residents’ ability to go to work, access healthcare services, and access education for their children. Our local government depends on high quality census data to
obtain funding to develop and build new schools, improve roads, highway safety, and adequately plan public
transportation routes and accessibility
14. Without accurate Census data, calculating appropriate class sizes in schools would be difficult, inhibiting children’s access to a quality education. For example, age information from the Census is vital to allowing Monterey to make appropriate decisions regarding
school funding and services. In the recent shutdown of
local schools in response to the COVID-19 pandemic,
Wi-Fi services were allocated based on Census data, in
order to make online learning possible for children without internet access.
15. Inaccurate Census reporting would also interfere with Monterey County’s children accessing critical
behavioral health services at local schools, a service provided by our County Health Department. In our Dis-

137
trict, King City Elementary School is the leading location for children to access Behavioral Health counseling
services for children suffering from psychological trauma.
This program is dependent on funding made available
by federal allocations, which are based on accurate Census counts. Given that our District has a high population of undocumented immigrants, deterring residents
from responding to the census could result in an undercount that would put programs like this at risk. For
some of the children accessing these services, school is
the only safe location for them to obtain this care.
Without it, children would be deprived of critical mental
health services, worsening their mental health outcomes
and potentially adversely impacting them for the rest of
their lives.
16. As District 3 Supervisor, I have first-hand
knowledge of the fear that exists in my community in responding to the 2020 Census. I am gravely concerned
that the recent action by the Trump Administration will
“chill,” or deter, participation in the 2020 Census by my
constituents, impacting the quality of the data that is ultimately reported. I have personally discussed with
my constituents the fear they face in participating in the
Census. In addition, my office and staff have received
calls regarding this issue.
17. District 3, like other parts of Monterey County,
is home to a hardworking and exceptionally skilled farmworker workforce, who hand-pick fresh strawberries,
lettuce, tomatoes, artichokes, kale, and brussels sprouts,
and broccoli for national consumption. Many of these
workers are recruited to come in from Mexico, while others have resided in the region over many generations.

138
The decision to exclude some of these hardworking residents from the 2020 apportionment count would send
the message that their representation deserves to be diluted and that their lives are somehow worth less. And
the pernicious effects of this redistricting would affect
everyone in the region, citizen or noncitizen, documented
or undocumented.
18. Given the nature of the Monterey County population, including the significant presence of farmworker,
undocumented, and immigrant families and individuals,
I expect that substantial efforts and resources will be
required to ameliorate the chilling effects on participation in the 2020 Census caused by the Administration’s
recently announced plans. The County will have to
dedicate significant resources to ensure participation
without fear, and to help the County obtain the funding
necessary to prevent its residents from going hungry,
homeless, or without access to healthcare.
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
Executed on this 3rd day of Aug., 2020
/s/ CHRIS LOPEZ
CHRIS LOPEZ
Monterey County Supervisor

139

Exhibit 31

140
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF MELISSA McCAW

Pursuant to 28 U.S.C. § 1746(2), I, Melissa McCaw,
hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. I am the Secretary of the Connecticut Office of
Policy and Management (OPM). Consistent with the
powers bestowed on me and my agency through Connecticut General Statutes 4-65a, et seq., I oversee budget
and policy matters on behalf of the Governor of the State
of Connecticut. I have been employed in this capacity
since January 2019.
3. Connecticut’s Office of Policy and Management
functions as the Governor’s staff agency and plays a central role in state government, providing the information
and analysis used to formulate public policy for the State
and assisting state agencies and municipalities in implementing policy decisions on the Governor’s behalf.
OPM prepares the Governor’s budget proposal and implements and monitors the execution of the budget as

141
adopted by the General Assembly. OPM provides the
Governor with a global overview of proposed policy initiatives, identifying the full range of financial and policy
implications of proposed actions. On the Governor’s
behalf, OPM analyzes and assesses financial, programmatic, and legislative proposals of state agencies, the
General Assembly, and the federal government. Under Connecticut law, OPM is also responsible for “all aspects of state staff planning and analysis in the areas of
budgeting, management, planning, energy policy determination and evaluation, intergovernmental policy, criminal and juvenile justice planning and program evaluation.” Conn. Gen. Stat. 4-65a.
4. In everything we do, OPM—like all of Connecticut’s state agencies—strives to be informed by the best
available data. U.S. Census Bureau data is indispensable to our work, and to that of the state agencies whom
we support and assist in budgeting and policy formulation and implementation. It is the sole available source
for a wide range of characteristic data—data on subgroups within the overall population—that are essential
to effective and accurate planning. In essence: In
many critically important areas, unless a Connecticut
resident participates in a state program or accesses a
service, the State has no way—other than the census—
of knowing critical characteristic data about the population.
5. Accurate characteristic data is particularly important in Connecticut, which has no county-level government and is subdivided into 169 municipalities. Even
small inaccuracies in characteristic data relative to our
overall population can have significant implications for
planning on the municipal and regional level, especially

142
where data must be disaggregated by multiple characteristics.
6. Because of OPM’s planning and budgeting role
for all Connecticut state agencies, I am familiar with
several instances in which either OPM or Connecticut
state agencies have relied and continue to rely on accurate characteristic data from the census to plan efficiently and effectively. Some of those include:
a.

Fighting COVID-19: Connecticut has developed
and deployed a statewide program of testing and
population-based control measures that have
helped us become a national leader in flattening
the curve and reducing sickness and mortality
due to the coronavirus and its associated sickness, COVID-19. Our Department of Public
Health makes targeted decisions about locating
testing sites based on characteristic data that
speak to COVID-19 risk factors including population density, poverty, and the race and ethnicity of residents. The accuracy of that data is a
matter of life and death, and impacts both Connecticut’s immediate-term public health and its
ability to reopen its economy and thrive in the
medium- and long-terms.

b.

School Construction: OPM works closely with
Connecticut’s Office of School Construction Grants
& Review (OSCG&R), which is responsible for
the grant administration of all Connecticut public school construction projects seeking authorization for a State grant commitment. Municipalities that seek State bonding for school construction must work with, and seek authorization from, OSCG&R. To ensure that state

143
bonding resources are used wisely, OSCG&R requires municipalities to document the need
for their requested facilities using enrollment
projections—including, most importantly, projected school-aged populations—that draw on
characteristic data including population age,
child-bearing rates, and mobility. I am particularly familiar with this process because Section
10-282 of the Connecticut General Statutes requires me, as OPM’s Secretary, to review
OSCG&R’s list of eligible projects and provide
comments and recommendations. In the absence of accurate data, Connecticut will be unable to make the best possible decisions around
where, and how, to build its next generation of
school facilities.
c.

Equal Employment Opportunities in State Government: Connecticut’s Department of Labor
(DoL) relies on accurate and detailed characteristic data to generate projections for policy and
planning purposes. To cite just one instance: To
promote equal opportunity in employment, Connecticut law requires that state agencies, municipalities, and some companies develop and implement affirmative action plans. In relevant
part, those plans articulate hiring and promotion
goals in light of the overall workforce by occupational category. Our DoL relies on occupational
data from the census—among other sources—to
promulgate accurate information and set goals
and benchmarks for state agencies to use in developing those Affirmative Action Plans. In
other words: Connecticut’s objective of increas-

144
ing equity and reducing barriers to equal employment opportunity depends, in part, on accurate characteristic data from the census. OPM
prepares a biennial Affirmative Action Plan that
is filed with the Commission on Human Rights
and Opportunities, relying on the census data provided by DoL to formulate our hiring and promotion goals.
d.

Labor, Employment and Economic Development
Trends: Other DoL uses of characteristic data
from the census include targeting job training to
particular populations and neighborhoods and
projecting both labor supply and consumer demand to assist in economic development activities. For example: Knowing the number of
people over a certain age helps DoL to project
demand for health care and assisted living facilities, while knowing the number of people under
a certain age in particular geographies helps
DoL to project the demand for employment in
education, daycare, and related industries. This
is all relevant to programmatic and funding decisions vetted and approved by OPM.

e.

Public Transportation: Connecticut’s Department of Transportation (DoT) relies on accurate
characteristic data to forecast travel demand,
identify commuting patterns, and forecast the
impact of new transportation projects across the
state. Characteristic data are also used to ensure transportation options are accessible and
do not discriminate based on demographic and
socio-economic factors such as race, color, income levels, vehicles available, or national origin.

145
For instance, census data on languages spoken
at home informs the development of signage and
materials in other languages for public involvement at various levels of the state’s transportation planning processes. As the Secretary of
OPM, I am the Secretary of the State Bond Commission, which approves funding through bonding
for eligible DoT projects. The State Bond Commission approves funding requests by DoT based
on demonstrated need, and the underlying travel
demand forecasts utilizing characteristic data
are often a component of that assessment.
f.

Revenue Projections and Budgeting: OPM is
responsible for analyzing big-picture trends that
may impact Connecticut’s long-term economic
and budget health. That analysis informs state
policy on issues ranging from revenue generation to economic development incentives. For
example, pursuant to Section 4-74a of the Connecticut General Statutes, OPM prepares an annual “Economic Report to the Governor” that relies on information on Connecticut’s population
and migration trends, drawing heavily on census
data on characteristics including income, age,
and migration, in order to make recommendations concerning the economy and appropriately
analyze the impact of both proposed spending
and proposed revenue programs on the employment, production and purchasing power of the
people and industries within the state.

146
7. In each of these instances, and in myriad others,
our planning will be less effective if it is informed by inaccurate data. In conclusion: census accuracy matters,
and it matters not just for total population counts but
also for characteristic data. The effectiveness and efficiency of our government—and the health and wellbeing
of our residents—relies on accurate characteristic data
from the census.
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
Executed on this 5 day of Aug., 2020
SECRETARY OF THE
OFFICE OF POLICY AND
MANAGEMENT
By:
/s/

MELISSA McCAW
MELISSA MCCAW

147

Exhibit 34

148
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
TRUMP, ET AL., DEFENDANTS
DECLARATION OF BITTA MOSTOFI

Pursuant to 28 U.S.C. § 1746(2), I, Bitta Mostofi,
hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. I am the Commissioner of the City of New York
(the “City”)’s Mayor’s Office of Immigrant Affairs
(“MOIA”). I have worked at MOIA since 2014, becoming Acting Commissioner in 2017 and appointed Commissioner in 2018. As Commissioner, I provide advice
and guidance to the Mayor, his staff in other divisions of
the Mayor’s Office, and other City agencies, on a range
of issues related to immigration. I also guide and oversee the work of approximately 70 City employees assigned to work on fulfilling MOIA’s mission.
3. MOIA, established in the Charter of the City of
New York in 2001 by referendum, develops and implements policies designed to assist immigrants across the
City by enhancing their economic, civic, and social integration into the community, including, encouraging participation in the Census. In order to achieve that mission, MOIA conducts research and analysis, provides

149
guidance to and partners with other City agencies, develops partnerships with community-based organizations, and advocates at all levels of government.
4. My office and I have been engaged in a variety
of efforts to increase the participation of the City’s immigrant community in the Census. I was Commissioner on the New York State’s Complete Count Commission after being appointed by Governor Cuomo in
January of 2019. The commission issued its final report in October of 2019. During my tenure at the Commission, I spent hours listening to testimony and concerns raised by local elected officials, community based
organizations, community members and others about
their concerns and needs for achieving a complete count.
These concerns consistently included specifically immigrant community fears and concerns about privacy, the
inclusion of a citizenship question, and distrust of the
federal government. It was difficult to overcome these
barriers and to focus on the benefits and importance of
getting counted.
Even after the Commission concluded, I have continued to work with the New York City
Census Team to advise on the issue of encouraging participation in our immigrant communities. I also continue to be involved in many community and press events
to ensure a complete count of the City’s immigrant communities.
5. My office has expended significant staff time
across teams in an effort to increase the participation of
the City’s immigrant community in the Census. MOIA’s
Outreach and Organizing team (“Outreach Team”) has
engaged in extensive community outreach related to increasing the participation of the City’s immigrant com-

150
munity in the Census. The Outreach Team has incorporated the Census into almost all of its activities. When
our organizers canvass neighborhoods and hold in-person and virtual events, they distribute Census materials
and include information about the importance of participation in the Census by all NYC residents, regardless
of their immigration status, in their remarks. Our organizers also participate in Census Days of Action coordinated by the New York City Census team. During
these Days of Action, held in neighborhoods with historically low response rates, our organizers often distribute
literature and speak to community members to encourage participation and dispel misinformation about the
Census, including reminding community members that
there will be no citizenship question and that the information contained in their Census responses will not be
shared with other parts of the federal government.
Many of our organizers have created informational videos on social media in several languages describing the
Census and providing information about where to get
assistance with completing the Census. They also use
various messaging applications favored by different immigrant communities to send out information on the Census to constituents about the importance of participation
and to answer any questions to dispel misinformation.
Recently, the Outreach Team held a five-hour virtual
telethon event, entitled “Que Cuente Mi Gente! (Make
My People Count!),” that included appearances by elected officials encouraging undocumented community
members to respond to the census and educating them
on its importance.
6. In support of this work, MOIA’s Policy Team
provides federal policy updates to teams across MOIA,

151
including updates on Census and the Census enumeration period. These policy updates keep MOIA staff informed, including the Outreach and Organizing team, so
that they have accurate information to convey when engaging with members of the community. Three members of MOIA’s policy team have already devoted several hours to analyzing and explaining the Presidential
Memorandum to MOIA’s staff.
7. In addition, MOIA’s communications team has
worked for over a year with the New York City Census
team on an outreach campaign focused on hard to count
communities, like immigrant communities, emphasizing
the importance of responding to the 2020 Census. The
joint efforts are focused on posting and elevating Census related content on social media, advising on the production of multimedia messaging campaigns specifically
targeted towards immigrant communities, fielding media inquiries, developing talking points and fact sheets,
and conducting a series of roundtables with community
and ethnic media outlets across New York City discussing the Census.
8. Throughout its Census outreach efforts, MOIA
has faced a number of challenges, many of which stem
from the City’s immigrant communities’ distrust of the
federal government, and by association, any other government entity. With the anti-immigrant rhetoric contained in the July 21, 2020 Presidential Memorandum
excluding undocumented immigrants from the apportionment count, President Trump sowed fear, mistrust,
and confusion amongst the immigrant communities in
New York City. Official Presidential statements that
undocumented persons don’t count cultivate distrust
and resentment of the federal government throughout

152
immigrant communities, which has a chilling effect on
immigrant response to the Census. As a result, the
July 21, 2020 Memorandum is a significant setback to
our efforts to ensure that immigrant communities respond to the Census.
9. Despite the recency of its promulgation, the
Trump Administration’s Census Apportionment Memorandum has already proven to be a barrier to the City’s
efforts to increase participation in the Census among
immigrant communities. News of the Trump Administration’s most recent memo has spread through immigrant communities in New York City incredibly quickly,
and MOIA is concerned that the current news cycle will
continue to make immigrants, specifically those who are
undocumented, afraid or reluctant to complete the Census. Though the memorandum has only been published for roughly two weeks, members of our Outreach
team have already encountered individuals in the community expressing concerns, fears, and confusion about
completing the Census. In one instance, a member of
our Outreach team shared information about the Census
with a constituent during the NYC Census Week of Action, held from July 27, 2020 to August 2, 2020. The
constituent asked whether individuals who are undocumented had to complete the Census because she had
heard that the President had stated that undocumented
immigrants did not have to be counted. Another constituent who works as a street vendor expressed to another
Outreach team member that she did not think she had
to fill out the census because she was not born in the
United States and that she had heard in the news that
people who are undocumented do not count. In another
example, a community member from Jackson Heights expressed specific concerns about the federal government’s

153
plan to exclude undocumented persons from the Census.
She also expressed that the Trump administration would
punish undocumented persons who filled out the Census
by tracking and deporting them. She further explained
that many within her community have the same concerns. Since the promulgation of the new memo, a member of the Outreach team has encountered individuals
who are undocumented as well as those living in mixed
status households who have expressed concerns about
the security of their identifying information being shared
with the federal government, specifically expressing
concerns that the Trump Administration would seek to
use Census information against them.
10. Regardless of whether the Trump Administration’s memo is successful in excluding immigrants from
the apportionment count, it is impossible to ignore the
chilling effect that this memo is already having on the
completion of the Census among immigrant communities in New York City.
11. In response to the Presidential Memorandum,
our teams have had to devote more time and energy to
combatting misinformation, fear, and confusion, and we
expect to continue expending more energy than previously anticipated on these efforts. In engagements
with community members since the Presidential Memorandum, our Outreach team has increasingly had to engage in very personalized and community specific outreach to build a level of trust that is much higher than
necessary in their outreach on other services or topics.
Likewise, our communications strategy moving forward
will continue to prioritize messaging that explains why
it is important for everyone to fill out the Census, that

154
in fact everyone can get counted regardless of their immigration status and there is no citizenship question on
the census, and that the information provided to the
Census Bureau is confidential and protected. For example, I will be authoring an Op-Ed in the Queens
Chronicle’s Immigration Corner column on the right of
every New Yorker, regardless of immigration status, to
be counted in this decennial Census. The Presidential
Memorandum undercuts this messaging and makes it
harder for our office to encourage immigrants to respond to the census.
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
Executed on this 5th day of Aug., 2020
/s/

BITTA MOSTOFI
BITTA MOSTOFI
Commissioner,
Mayor’s Office of Immigration Affairs

155

Exhibit 35

156
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF DOUG MURRAY

Pursuant to 28 U.S.C. § 1746(2), I, Doug Murray,
hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. Under July 31, 2020, I served as the Director of
Community Affairs for Mayor Andrew Ginther in the
City of Columbus. I oversaw numerous city initiatives
including acting as the City’s census coordinator, community outreach to various neighborhoods in the city,
and have been involved in the City’s national search for
new Police and Fire chiefs. I have been employed by
Mayor Ginther in the City of Columbus since 2018.
3. In order to obtain a full count of all people residing inside the City of Columbus, I have worked with various public and private partners to ensure all people who
reside inside the City respond to the census. This includes leading the Columbus/Franklin County 2020 Census Complete Count Committee chaired by Mayor Ginther

157
and the President of the Franklin County Board of Commissioners. This committee included various social services agencies, non-profit groups, the Columbus City
Schools, the Ohio State University, One Columbus, and
various civil rights and community groups such as the
Columbus Chapter of the NAACP, and community
groups representing immigrant and New Americans.
4. The City supported the committee’s work to ensure a complete count of Franklin County’s population
of approximately 1.3 million residents by providing communications and community outreach support, funding
a census micro-grant program, hosting numerous promotional events, and providing City office space to the
Census Bureau for employee training purposes. In total, the City allocated $300,000 for the census, including
$150,000 for micro-grants, $100,000 for a marketing and
community outreach contract, and $50,000 for supplies
and services. The City developed its own 2020 Census
“Columbus Counts” branding and printed hundreds of
thousands of promotional handouts and items for volunteer committee members to distribute. Promotional
materials and digital communications were translated
into five different languages including Spanish, Somali,
Bhutanese, and Nepali. The City hired a marketing
firm to develop and implement a comprehensive digital,
in-person, radio, and TV marketing and communications
strategy to encourage census participation among Franklin County’s hard to count (HTC) populations. Further, the City allocated $150,000 through the United
Way to provide over 40 community-based non-profits
with micro-grants to conduct census outreach and communications to HTC communities. Mayor Ginther,
Franklin County Commissioner Kevin Boyce, and other
local elected officials hosted various social media events

158
and in-person events with national organizations like the
National Association of Latino Elected Officials.
5. Columbus and Franklin County residents have
expressed concerns and fears regarding completing the
2020 Census. Our message has been “Columbus Counts”
which has been used for years to build trust and encourage all people to complete the census. We have noticed
that, as a result of the Trump Administration decision to
try and add a citizenship question to the 2020 Census
and a Presidential Memorandum prohibiting the counting of undocumented individuals for purposes of redistricting, that there has been an increase in confusion and
fear among our residents. For example, immigrant
and New American residents have expressed concerns
to City employees and committee members about not
being counted in the 2020 Census because of the Presidential Memorandum. In order to try and counter this,
we have had to increase our social media presence
and emphasize that the census counts all people in the
country—not just citizens or permanent residents.
Our response rates compared to 2010 are down and we
have been working to increase it.
6. As a result of public health restrictions in place
due to COVID-19, the Census Bureau has significantly
delayed non-response follow-up operations. The committee has communicated to residents for years that inperson counting would begin in the spring of 2020 and
many communities are confused about the continued delays. In particular, committee members representing
immigrant communities and organizations note that their
constituents, including many Latino, Somali, and West
African communities, are confused about census operations. Moreover, response rates are down in Columbus

159
census tracts with significant immigrant, Latino, and
African American populations.
7. As noted above, we have noticed that there is
concern in our immigrant and New American communities specifically as a result of the Presidential Memorandum excluding noncitizens from the reapportionment
numbers. Several committee members have heard directly from residents that they are confused about the
census as a result of the Presidential Memorandum and
have concerns about completing it. Response rates to
the census have traditionally been lower among our immigrant and New American communities due to distrust
of government. This distrust of government and general lack of awareness of the census have been exacerbated by the Presidential Memorandum excluding noncitizens from the reapportionment numbers. Moreover,
many residents believe that completing the census will
negatively impact their government benefits.
8. The City and its community partners will continue to adjust messaging to reflect that all residents,
regardless of immigration status, count in the census.
The City notes that the U.S. Constitution clearly states
that all people count, not just citizens.
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
Executed on this 5th day of Aug., 2020
/s/ DOUG MURRAY
DOUG MURRAY

160

Exhibit 36

161
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF THEO OSHIRO

THEO OSHIRO, pursuant to the provisions of 28
U.S.C. § 1746, declares under penalty of perjury as follows:
1. I am the Deputy Director at Make the Road
New York (“MRNY”). I have been on staff at MRNY
since 2005. I am over 18 years of age. I have personal
knowledge of the facts stated in this declaration.
2. MRNY is a nonprofit membership organization
with offices and service centers in Brooklyn, Queens,
Staten Island, Suffolk County, and White Plains. MRNY’s

162
mission is to build the power of immigrant and workingclass communities. To do that, MRNY engages in four
core strategies: Legal and Survival Services, Transformative Education, Community Organizing, and Policy Innovation. MRNY has more than 24,000 members
who reside in New York City, Nassau County, Suffolk
County, and Westchester County. These members
lead multiple organizing committees across numerous
issues and program areas of concern to the organization.
Members take on leadership roles in the campaigns, determine priorities, and elect the representatives who
comprise most of the Board of Directors. MRNY members include individuals who do not have lawful immigration status.
3. In my capacity as Deputy Director, I am responsible for overseeing our census work and our services
teams, which include our legal, health, and adult education departments. I am also part of the Executive
Leadership Team of MRNY and am responsible for
fundraising and shaping many of MRNY’s organizational priorities. Throughout my tenure with MRNY,
I have been in regular contact with MRNY members and
I frequently meet with members in the communities in
which they reside where I learn about their neighborhoods, their needs, and their concerns to inform communications, organizing, and civic engagement programs
for MRNY. During my 15 years at MRNY, I have also
familiarized myself with MRNY’s internal records and
processes; our staff and their responsibilities; our programs and program areas; and our members, and their
needs.
4. The Decennial Census is a critical and
constitutionally-mandated data-gathering instrument,

163
used to distribute hundreds of billions of dollars in federal resources and to apportion political power at the
federal, state, and local levels. MRNY has an ongoing
commitment to promoting engagement in the 2020 Decennial Census among its members and constituents because a complete and accurate Census count is critical
to ensuring that our members receive the government
funding and full political representation to which they
are entitled. Our members in New York benefit when
our state has its full complement of Congressional representatives and electoral votes, as well as adequate
funding for the facilities, programs, and services they
use, which receive Census-guided federal funding. These
facilities and services include parents with children enrolled in schools that receive funding under Title I of the
Elementary and Secondary Education Act; families whose
children benefit from insurance funded by the State
Children’s Health Insurance Program; drivers who use
interstate highways and mass transit on a daily basis,
and thus, depend on federal highway funds to perform
their jobs; and people who rely on housing assistance
through various funding provided under Section 8, among
other Census-guided funding streams. Promoting Census response can help ensure that the programs, services, and facilities that our members rely upon are adequately funded.
5. I have co-led MRNY’s strategy and work around
the 2020 Census including our education and outreach
programs. To develop programs that achieve MRNY’s
goals of encouraging greater Census participation in the
communities we serve, I have gained familiarity with the
importance of data gathered from the Census in apportioning political representation and the allocation of
some government funding sources. I am familiar with

164
the concerns of our members and the communities we
serve around the Census for the purpose of developing
effective Census communications directed at immigrant
communities. I am also familiar with how the communities we serve would be impacted by an undercount toward the end of designing communications and organizing strategies that address those concerns and increase
their civic engagement, and Census participation in particular.
6. Because the Decennial Census requires a direct
inquiry of every person in the United States, MRNY has
invested significant organizational resources in encouraging our members and the immigrant communities we
serve to respond to the Census. This work includes,
among other things, general education programs, workshops for members, presentations in schools, and personto-person outreach. We have also engaged in digital
organizing around the Census, including through webinars and presentations streamed over Facebook Live.
To date, we have called over 100,000 people and have assisted with or confirmed participation by over 7,500 people. MRNY has continued Census education and outreach during the pandemic and plans to continue encouraging and assisting people in filling out the questionnaire until the response period closes.
7. Our education and outreach efforts to encourage
our members and people in the communities we serve to
respond to the Census emphasizes two essential purposes of the headcount: (1) Determining political apportionment, including the number of representatives each
state will have in Congress, the number of electors per
state in the electoral college, and the boundaries and

165
composition of Congressional districts; and (2) Determining how much government funding communities will
receive for matters such as education, public housing,
transportation, and health care. Our education and
outreach efforts also emphasize that the Census counts
every resident of the United States, regardless of age,
citizenship status, or ability to vote. This message is important because it affirms the humanity and dignity of
all Americans and the responsibility that all Americans,
including undocumented Americans, bear for responding to the Census and ensuring that their home states
and communities are allocated their fair share of political power and government funding. An example of one
of our Census education and outreach documents is attached as Exhibit 1, and is also available in both English
and Spanish, at the following link: https://maketheroadny.
org/census2020/.
8. MRNY has been and remains committed to Census education and outreach work among immigrants and
communities of color because those groups have been
undercounted. Based on my knowledge as a staff member at MRNY and a leader in these communities, including on Census issues, I understand that one reason that
immigrants and communities of color have been undercounted is a fear of contact with the government and distrust of government officials, particularly how they will
use the data they collect.
9. MRNY has already faced a challenging environment for conducting outreach and encouraging immigrants of color to respond to the 2020 Census because of
our members and constituents’ heightened fear of interacting with government workers as a result of the Trump
Administration’s persistently hostile and discriminatory

166
actions and attitudes towards immigrants of color.
Among the racist and xenophobic acts that the Trump
Administration has undertaken include separating children from their families at the border and keeping immigrant children in cages; banning individuals from six
majority Arab and/or Muslim countries from entering
the United States; repeatedly attempting to rescind the
Deferred Action for Childhood Arrivals program, which
allowed 800,000 individuals—90% of whom are Latino—
brought to this country as children to legally reside and
work in the United States; rescinding Temporary Protected Status programs for individuals from El Salvador, Honduras, Nicaragua, Haiti, and Nepal; calling for
an end to the diversity visa lottery; dramatically increasing interior enforcement raids in communities across
the United States; proposing to end family-based immigration, which would disproportionately harm immigrants from Latin America and Asia; instituting a draconian “public charge” rule to obstruct lawful immigration both domestically and through U.S. embassies and
consulates abroad, which disproportionately affects immigrants of color and has dramatically increased fear
among immigrant and mixed-status families; referring
to some undocumented immigrants as “animals”; and attempting to include a citizenship question on the Census. MRNY has consistently fought these efforts to intimidate and marginalize immigrants of color in the
courts, in the streets, and at the ballot box.
10. Based on my experience as an MRNY staff member regularly in contact with our members, our organizing staff, our communications staff, and the media, the
July 21, 2020 Presidential Memorandum to the Secretary of Commerce on the subject of “Excluding Illegal
Aliens from the Apportionment Base Following the 2020

167
Census” (“Presidential Memorandum”) is making our
efforts to encourage Census participation more difficult.
The Presidential Memorandum is sowing fear and confusion about the Census among the communities we
serve. Individuals contacted by our census team since
the Presidential Memorandum have stated that they no
longer believed they needed to complete the census and
even in some cases fear and concern that their completion of the census already may now expose them to penalties. The fear and confusion are not unique to undocumented immigrants or non-citizens with documented legal status, but also to mixed-status households in which
individuals are fearful that the census invades their privacy and exposes their family, friends, and neighborhoods to profiling by the law enforcement agencies of an
administration hostile to immigrants of color. When
MRNY’s census team encourages these individuals to
complete the Census despite these fears, we now confront questions about what the point is to taking this
risk—given that immigrants without lawful status will
now not be counted regardless.
11. The Administration’s decision to exclude some
non-citizens from the apportionment base directly and
severely undermines our Census education and outreach materials and programming by contradicting its
core messages and discouraging Census response.
12. First, by excluding undocumented people from
the apportionment count, the Presidential Memorandum creates confusion by contradicting one of the two
core purposes of the Census that MRNY highlights in
its education and outreach programming. Because the
President has said that the Census responses of some

168
non-citizens will not be used for Congressional apportionment, some people may now neglect or decline to fill
out the Census either because they no longer believe
they are supposed to fill out the census or because of
what they perceive as the diminished importance of
their participation. The Presidential Memorandum dilutes the efficacy of our existing materials and programming, which requires MRNY to divert resources from
other programmatic areas to strategize around how to
make our education and outreach effective and to get the
same number of people to respond to the Census questionnaire. By contradicting the message that filling
out the Census is important to Congressional apportionment, people in the communities will discount the value
of our current education and outreach materials or programs, requiring us to modify or make new materials or
conduct new outreach that addresses the Presidential
Memorandum. For instance, MRNY had to prepare and
share internal guidance on what the Presidential Memorandum means and how to respond to questions; we
also now have to revisit previous plans for outreach materials to address the concerns raised by this Memorandum. MRNY staff members have also had to divert
time from other activities to respond to inquiries from
Spanish-language media about this issue to assure people that everyone, regardless of their immigration status, should fill out the Census questionnaire and that
every person will be counted for apportionment purposes. For instance, a single one of MRNY’s Civic Engagement Coordinators has done over half a dozen
Spanish-language media interviews to address the confusion and deterrent effect created by the Memorandum.

169
13. Second, by excluding undocumented people from
the apportionment count, the Presidential Memorandum dehumanizes and marginalizes undocumented residents by excluding them from the category of “persons”
required by the Constitution to be included in the apportionment count. This has been reflected in constituents whom MRNY’s census team contacts asking “what
is the point” of completing the census, with the concomitant risks, when the President has made clear his intention to ensure that undocumented immigrants do not
count. By undermining our messaging about the purpose of the Census and further marginalizing and confusing immigrants who are already among the population most often overlooked by the Census, the Presidential Memorandum makes it less likely that the immigrant
communities and communities of color we serve will be
responsive to our Census education and outreach efforts.
14. Third, MRNY’s staff have also observed an increase in fear among immigrant community members
about completing the Census questionnaire since the
Presidential Memorandum. Members of the community we serve are concerned that the Administration will
use information from the Census to attempt to identify
undocumented immigrants for deportation or other adverse consequences. For instance, one member of
MRNY’s census team who regularly walks constituents
through completing the census while on the phone has
observed many more concerns since the Presidential
Memorandum about providing an address or phone
number. To address those concerns and to assure people that they can respond to the Census without fear of
immigration enforcement consequences for themselves
or their families, MRNY is being forced to revisit and

170
strategize about how to make its education and outreach
efforts effective, diverting staff time.
15. MRNY will be forced to expend more time than
initially anticipated to try to reduce the negative effect
of the President’s announcement of the decision to exclude undocumented immigrants from the apportionment base on Census response rates in the immigrant
communities of color it serves. MRNY expects that it
will now need to spend more resources to convince the
same number of people to complete the Census, and that
ultimately, it will be less successful in convincing its constituents to participate in the 2020 Census due in large
part to the Administration’s decision to exclude undocumented immigrants from the apportionment base.
16. Because of the need to increase the time and
money spent on Census outreach and media work due to
the fear and/or confusion generated by the Presidential
Memorandum, MRNY will need to divert resources
from other areas critical to its mission, including civic
engagement and community organizing on other issues,
such as obtaining crucial funding for excluded workers
and housing advocacy for people struggling with rent
during the pandemic, which are critical programmatic
areas right now due to the health pandemic and economic crisis.
17. MRNY puts significant resources in Census education and outreach work because our members and
the immigrant communities we serve face significant negative consequences in the event of an undercount.
MRNY members reside in New York City, Westchester,
Nassau, and Suffolk Counties, the populations of which
include immigrant communities of color that far exceed
state and national averages. An undercount of those

171
populations will deprive MRNY members of political influence and Census-guided funding to which they would
be entitled by a more accurate count.
18. The shortening of the census self-response deadline from October 31 to September 30, 2020 also negatively impacts MRNY because we anticipate it will cause
a further undercount of the immigrant communities that
we serve and from which our membership is drawn.
This change will also force MRNY to attempt to conduct
more outreach and media work in a shorter period of
time, straining our staff capacity and diverting staff
time from other priorities at a crucial time in the electoral calendar.
19. One MRNY member who will suffer injury due
to the Presidential Memorandum is Julissa Bisono. In
addition to being a MRNY member, Ms. Bisono is MRNY’s
Associate Organizing Director and has been an organizer at MRNY for nearly 20 years. I have known Ms.
Bisono personally for several years. I know that Ms.
Bisono is a resident of Queens County and the parent of
two children attending public school, in Community
School Districts 24 and 27, that receives Title I funding.
Because the number of Latino and immigrant residents
of Queens County far exceeds the New York state average, an undercount of Latino and immigrant residents
of Queens County will cause Ms. Bisono and other MRNY
members in Queens to be deprived of political power and
funding that will instead go to other states or other areas of New York State.
20. Another MRNY member who will suffer injury
due to the Administration’s decision to exclude undocumented immigrants from the apportionment base is
Perla Lopez-Liberato. In addition to being a member

172
of MRNY, Ms. Liberato is a Youth Organizer at MRNY.
I also have known and worked regularly with Ms. Liberato for several years. I know that Ms. Liberato is a
resident of Queens County, New York. Because the
number of Latino and immigrant residents of Queens
County far exceeds the New York state average, an undercount of Latino and immigrant residents of Queens
County will cause Ms. Liberato and other MRNY members in Queens to be deprived of political power and
funding that will instead go to other states or other areas of New York State.
21. Another MRNY member who will suffer injury
due to the Administration’s decision to exclude undocumented immigrants from the apportionment base is Yatziri Tovar. In addition to being a member of MRNY,
Ms. Tovar is a media specialist at MRNY. I also have
known and worked regularly with Ms. Tovar for several
years. I know that Ms. Tovar is a resident of Bronx
County, New York. Because the number of Latino and
immigrant residents of Bronx County far exceeds the
New York state average, an undercount of Latino and
immigrant residents of Bronx County will cause Ms. Tovar and other MRNY members in the Bronx to be deprived of political power and funding that will instead go
to other states or other areas of New York State.

173
I, Theo Oshiro, declare under penalty of perjury that
the foregoing is true and correct to the best of my
knowledge and recollection.
Dated: Aug. 6, 2020
Croton-on-Hudson, N.Y.
/s/ THEO OSHIRO
THEO OSHIRO

174

Exhibit 37

175
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
TRUMP, ET AL., DEFENDANTS
DECLARATION OF ROBERT RAPOZA

Pursuant to 28 U.S.C. § 1746(2), I, Robert Rapoza,
hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. I am the Executive Director for the Rhode Island Board of Elections. I oversee the regulation of
various aspects of the elections process within Rhode Island. I have been employed by the Rhode Island Board
of Elections since 1998 and was appointed Executive Director in 2017.
3. The mission of Rhode Island Board of Elections
is to protect the integrity of the electoral process and to
effectively and efficiently administer the provisions of
the election laws of the United States and the State of
Rhode Island.
4. The Rhode Island Board of Elections has an important interest in providing and ensuring for an accurate election and that persons who lawfully vote in an
election have their ballot counted. The manner in which
the State draws its redistricting lines also affects the

176
electoral process since it determines what candidates
may run in a given district and who may vote (and be
represented) in a given district.
5. Other sources of data for the purposes of redistricting is not possible, as use of Census data is mandated by the Rhode Island Constitution and by statute.
See R.I. Const. art. VIII § 1; R.I. Gen. Laws §§ 22-1-2
and 22-2-2. Census data is used to establish Rhode Island House and Senate districts. For example, the
Rhode Island Constitution states that “the general assembly shall, after any new census taken by authority of
the United States, reapportion the representation to
conform to the Constitution of the state”. R.I. Const.
art. VII § 1. Identical language is used with respect to
the Senate. See R.I. Const. art. VIII § 1.
6. As Executive Director, I have regular contact
with dedicated professionals throughout the state who
work to carry out the mission of the Board. Through
these contacts and through my duties as Executive Director, I have firsthand knowledge of the negative impact that an undercount will have on Rhode Island’s representational interest.
7. Furthermore, as someone who works to ensure
a fair and accurate electoral process in a state with a
large immigrant community, I can attest to the fact that
a Census undercount will negatively impact Rhode Island’s representational interest due to its diverse population. For example, due to higher numbers of noncitizens in the City of Providence, an undercount means
that Providence will likely lose representation in the
Rhode Island General Assembly, and other parts of the

177
state will have greater representation. Other communities with high numbers of noncitizens will similarly
suffer from undercounts and its representational effect.
8. Lastly, in executing my duties and responsibilities as Executive Director of the Rhode Island Board of
Elections, I have personal knowledge of the harmful impact that a Census undercount will have on providing for
and ensuring an accurate and fair electoral process in
Rhode Island. Residents of likely undercounted areas
such as Providence will have less of a voice in their state
and local governments and they will be denied equal protection of the laws.
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
Executed on this [5th] day of [8], 2020
/s/ ROBERT RAPOZA
ROBERT RAPOZA

178

Exhibit 41

179
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
TRUMP, ET AL., DEFENDANTS
DECLARATION OF JOSEPH J. SALVO

Pursuant to 28 U.S.C. § 1746(2), I, Joseph J. Salvo,
hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. I am the Chief Demographer for New York City
(the “City”), a post I have held since 1994. I was employed by the New York City Department of City Planning (DCP) from 1982 until February of 2020. I am now
employed (part-time) by the New York City Economic
Development Corporation and detailed to the Population Division of DCP as Chief Demographer. The Population Division serves as the City’s in‐house demographic consultant, providing expertise to agencies for a
whole host of applications involving assessments of need,
program planning and targeting, and policy formulation.
3. As Chief Demographer for the City, I head a
team at the Department of City Planning that has been
and continues to be the technical lead on the City of New
York’s census efforts. We were responsible for reviewing the address list used in the 2020 decennial census,

180
through participation in the Local Update of Census Addresses (LUCA) program, a function we have performed
since 1998, when the LUCA program was instituted.
We also provide demographic expertise in support of
census outreach efforts through a regular series of analytical reports on patterns of self-response to the census
by neighborhood. We produce and share these reports
so that outreach efforts throughout the City, such as
those coordinated by NYC Census 2020 (New York
City’s census outreach initiative), the Regional Office of
the United States Census Bureau, and other communitybased groups, can more efficiently target populations
with low self-response rates. I am also actively engaged at a national level, promoting the use of methods
that will provide a more accurate count for the nation’s
cities during the 2020 census.
4. As I have testified in previous litigation related
to the 2020 census, self-response is the most accurate
and efficient way to collect data in the census. 1 As of
July 23, more than four months into the 2020 census,
self-response rates in New York City have been lagging,
at just 53.7 percent, compared to 62.3 percent for the
nation. While any comparison with 2010 is limited by
the unique timetable the pandemic has imposed on the
2020 Census enumeration, it is safe to say that self-response rates for the City and the nation are below their

See, e.g., State of New York v. U.S. Department of Commerce,
18-cv-2921 (JMF), Nov. 6, 2018 trial transcript, at 292, 302, 325-26.
In addition to these excerpts, my entire testimony during the citizenship question trial supports this point as well as most of the
other assertions in this declaration. See id. at 288-453.
1

181
2010 levels for comparable periods. 2 Moreover, there
are substantial differences in self-response rates by
neighborhood within New York City. For example, there
is a pattern of lower self-response in black and selected
Hispanic neighborhoods.
5. If households do not self-respond (which can be
done at any point in the enumeration) the next best
thing is for them to cooperate with census enumerators
when they knock on the door during a process called
Non-Response Follow-Up (NRFU). Like self-responses,
responses provided in-person to census enumerators
come directly from the household being enumerated and
thus include self-reported data about both the number
of household members and their demographic characteristics (such as age, gender, and race), similar to households that self-respond by mail or online. But when
households neither self-respond nor answer the door for
census enumerators, the quality of the data regarding
such households significantly declines.
6. If no one responds to the knock on the door, the
Census Bureau will leave a “notice of visit,” and then
check administrative records from the postal service to
see if there is evidence that the unit is occupied. Field
workers will talk with neighbors, landlords, or others
who may serve as “proxy respondents,” by providing information on the number of persons and other characteristics of the non-responding household. Another
check of administrative records from social security, the
IRS, and from other sources, may help complete the
Based on a response rate comparison for 2010 and 2020, approximately thirty-seven days from the initial mailout (April 23), as cited
in Weekly Report on Self-Response (Rates Issued on April 23), NYC
Department of City Planning, Population Division, April 24, 2020.
2

182
enumeration for the household. But such records may
not exist, especially for historically marginalized groups
7. In cases where enumerators cannot obtain a response from a household after multiple visits, there are
no proxy respondents, and administrative records are
not available, the Census Bureau relies on its operation
of last resort: statistical imputation. Households in the
neighborhood that responded in the census (also known
as “donors”) are used in a statistical model as a substitute for the missing household. Since this form of imputation extrapolates data based on neighboring households, error is introduced because the demographic characteristics of households that do not respond are unknown and may differ substantially from the characteristics reported by households that do. In fact, it is a
maxim in statistical science that those who fail to respond in surveys are inherently different from those
who do respond. And since information on the actual
number of persons in the household that failed to respond is frequently speculative or unknown, the count
itself (in addition to the data on the characteristics of
household members) is likely to be increasingly compromised as imputation levels rise.
8. For these reasons, it is extremely important to
maximize census self-response rates and, failing that,
the rates at which households respond in-person to census enumerators during NRFU. Any action that lowers these rates, or that undermines efforts to increase
them, impairs the quality of the data collected during the
census. But President Trump’s July 21, 2020 “Memorandum on Excluding Illegal Aliens from the Apportionment Base Following the 2020 Census” does just that.

183
9. Immigrant communities already confronted serious challenges for the accuracy and completeness of
the 2020 census stemming from concerns about privacy,
a hostile environment facing immigrants on the heels of
efforts to add a citizenship question to the census, fear
of government authorities, and unprecedented language
diversity. On top of that, in March 2020 COVID-19
halted all manner of on-the-ground census outreach,
just as the census was about to begin. While “virtual”
efforts continued, on-the-ground outreach has always
been a vital part of promoting awareness of the census
and increasing self-response rates. The limitation on
physical outreach posed by COVID-19 makes it all the
more important—particularly with respect to traditionally hard-to-count groups such as immigrants—to avoid
any further disincentive to self-respond or cooperate
with enumerators and to maintain a clear message that
everyone counts in the census.
10. But instead, President Trump’s July 21, 2020
“Memorandum on Excluding Illegal Aliens from the Apportionment Base Following the 2020 Census” will further depress response rates in immigrant communities
because it discredits the essential message that everyone’s response matters and makes an already fearful
group more apprehensive about the perceived risks associated with responding. Time and time again, Census Bureau research and my own local experience have
confirmed that messages about the importance of the
census from “trusted voices” in the community are a major factor affecting response. It is a major impetus behind the emphasis on local area partnerships, which has
been codified in census implementation plans, starting
in earnest with the 2000 Census and continuing through
today. Also, it is one big reason why some immigrant

184
communities have higher response rates than others,
with Washington Heights in Manhattan being the best
example of a high response neighborhood, despite its
large non-English-speaking immigrant population but
with strong “trusted voices” and good community organization. Given that approximately one million individuals
live in mixed-immigration-status households in New
York City, 3 the President’s memorandum—by discrediting the “everyone counts” messaging, including from
“trusted voices” in the community, and by increasing
fears about the perceived risks of responding—will have
a chilling effect on census participation not only for the
undocumented, but for a wider net of the city’s more
than 3.1 million immigrants.
11. Moreover, the timing of the President’s memorandum compounds its negative impact. This disincentive to participation is occurring just as the Census Bureau begins its NRFU operations, where thousands of
census enumerators will begin knocking on doors of
those who have not responded. Making matters worse,
on July 30, 2020, it was reported that the Trump administration would be shortening the time during which the
Census Bureau will be allowed to conduct NRFU operations. As a result, those operations are reportedly
scheduled to end by September 30, 2020—one month
earlier than the planned October 31 end date, which the
Census Bureau had proposed earlier this year (at the
urging of local officials), in order to properly complete
the census enumeration during the pandemic. The compressed timeframe imposed on the NRFU operation, in
unprecedented circumstances that call for a much longer
See Mayor’s Office of Immigrant Affairs, State of Our Immigrant
City (March 2018), at 6, 12, available at https://on.nyc.gov/39QD8fT.
3

185
operation, further exacerbates the negative impact of
the President’s memorandum on census data quality and
count accuracy. The President’s memorandum disincentivizes self-response and cooperation with in-person
enumerators, and the compressed timeframe will magnify the impact of that disincentive as there will be less
opportunity for repeated enumerator visits.
12. For all these reasons, the July 21, 2020 Presidential memorandum is likely to make the Census Bureau resort to less-reliable methods, including statistical
imputation, more frequently in immigrant communities
than it otherwise would. As described above, this results in poorer quality (less accurate) data both in terms
of demographic characteristics as well as the actual count
of persons.
13. The decennial census is the statistical backbone
of our country, and from the standpoint of a local city
planning agency, if a decennial census fails to produce
accurate data, informed decision-making cannot occur.
This is because the census is more than just a count of
people. It also contains other information that helps
with school planning, guides policy decisions, assists in
the direction of city resources generally, and informs responses to public health emergencies and disasters.
And census data drive other surveys that are vital to
these areas as well. When the census characteristics
data are inaccurate—even if the total population count
is correct—cities cannot accurately target resources to
address needs, by creating, managing, and effectively implementing programs.
14. For example, the Population Division at DCP disseminates census data to the New York City Department of Health and Mental Hygiene (DOHMH). The

186
characteristics data on population subgroups form a
base for DOHMH’s calculation of disease and other
health-related event rates by population subgroups.
In addition, DOHMH conducts surveys to track progress toward the reduction of chronic diseases. Many of
these surveys rely on sampling and weighting designs
that are linked to the American Community Survey
(ACS), which is based on the decennial census. A
prime example is tracking the prevalence of uninsured
New Yorkers as a means of targeting programs for
health insurance enrollment. And, most recently, census data were used to create COVID-19 rates, for the
purposes of identifying relative incidence of the disease
in the City’s neighborhoods.
15. In addition, we regularly provide data and consultation to the New York City Department of Education (DOE) and the School Construction Authority
(SCA). DOE relies on our analysis of recent changes
in the composition of the population in neighborhoods to
inform decisions on how to change the zones around
schools as conditions demand, particularly new entrants
to the neighborhood and their characteristics, such as
the number of children. To perform that analysis, we
use data from the decennial census, the ACS, and vital
statistics. For the SCA, we use decennial census data,
along with counts of recently-constructed housing, to
project the number of school children who are likely to
be associated with new housing. SCA uses this information to plan for new schools and/or the expansion of
existing facilities.
16. Another example of the City’s use of demographic
characteristics data from the census involves planning
for the elderly. The population that is 65 years and

187
over is projected to increase nationally and in New York
City over the next 20 years. As part of the Agefriendly NYC initiative, a partnership between the City
of New York and the New York Academy of Medicine,
the Population Division uses age data from the decennial
census as a basis for projections of older population
groups by neighborhood. These data are used to target neighborhood services for the aged, and to help government agencies, elected officials, health care and social service providers, planners, funders, and researchers understand and analyze spatial and socio-demographic
patterns and trends involving the burgeoning older populations of the City. This neighborhood-level approach
is based—first and foremost—on data from the decennial census. Inaccuracies in population counts and
characteristics data from the census and from the ACS
compromise the City’s ability to target current services,
to determine priorities, and to ensure a more accurate
projection of older population for future years.
17. New York City also relies on demographic data
from the census and from the ACS for emergency preparedness. Whether it is COVID-19, coastal flood
events, or blackouts, City agencies need to be able to
quantify the size of affected populations for everything
from evacuations to pandemic response. Census and
ACS data at the neighborhood level for persons with mobility limitations and other disabilities, especially older
populations who require special assistance during pandemics or other natural disasters, are cases in point.
Teams evaluate these numbers on a continuous basis as
part of plans for mitigation in times of natural disasters
and in other emergencies, such as the activation of cooling centers for vulnerable populations when an extreme
heat wave strikes.

188
18. These examples of how New York City uses not
just total population counts but also demographic characteristics data from the census put into clear perspective why we cannot afford any federal actions that will
further depress self-response rates, make NRFU efforts
less effective, and result in poorer quality census data.
But the President’s order excluding undocumented immigrants from the apportionment does just that. The
President’s order will confirm immigrant’s fears about
the census, undermine efforts to alleviate those fears,
and provide immigrants with an additional disincentive
to answer the door when the Census Bureau comes
knocking.
19. This is the 4th decennial census I have worked
on in a professional capacity and I am very familiar with
the challenges we’ve faced in the past, some quite formidable; but, I can say without hesitation that the current
climate is unprecedented in its potential to affect the
enumeration. And, on top of a global pandemic, the
last thing we needed was an order from the President of
the United States stating that undocumented immigrants will not be counted. The July 21, 2020 Presidential memorandum will likely undermine outreach efforts
and depress response rates in immigrant communities
(both self-response and in-person response to enumerators), and thus lower the quality of data that the City
relies upon to make crucial policy decision impacting education, health, and emergency planning, among other
things.

189
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
Executed on this [4] day of [Aug.], 2020
/s/ JOSEPH J. SALVO
JOSEPH J. SALVO, PH.D.
Chief Demographer, Population Division
New York City Department of City Planning

190

Exhibit 42

191
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF MONICA SARMIENTO

Pursuant to 28 U.S.C. § 1746(2).
hereby declare as follows:

I, Monica Sarmiento,

1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. I am the Executive Director for the Virginia Coalition for Immigrant Rights (VACIR). I oversee a coalition of thirty-six member organizations and partnerships with nearly one hundred organizations in the immigrant rights movement. I have been employed by
VACIR since 2015. I also serve as a commissioner on
Governor Northman’s 2020 Complete Count Census
Commission.
3. VACIR has been preparing for the 2020 census
since 2016. In 2016, we organized community members
to comment on the correct terminology for language
use on the 2020 census, and successfully got Governor
McAuliffe to sign Virginia up to the Local Update of
Census Addresses Operation (LUCA) program. From

192
2017-2019 we participated in local, stale, and federal organizational meetings on how to create successful census outreach efforts in the immigrant community. We
also fundraised and gave out grants to local community
organizations to provide guidance and assistance to
those who needed help filling out the census. Finally
we worked with media outlets and government offices in
creating in language information for non-English speakers.
4. As a Commissioner on the Virginia 2020 Census
Commission I serve as the in house expert on providing
outreach to the Virginia immigrant community. Governor Northam has made it an initiative of his Administration to have all individuals counted, regardless of
immigration status, as has always been the practice by
the United States Census Bureau.
5. Members of the coalition and partners of the coalition have shared with me that the new memorandum
signed and promoted by President Trump has hindered
their efforts in getting members of the undocumented
community to fill out the 2020 census form. Organizational leaders have informed me that community members see this newest memorandum as a continued attack
on their ability to trust the Trump Administration to
make good decisions for an accurate and scare count.
Community leaden informed me that undocumented
Virginians feel that this memorandum dehumanizes
them, and does not acknowledge that they are worthy of
being counted. Personally, for me it echoed the shameful clause that enslaved African Americas would only be
counted as three-fifths of a person and would not be
counted as whole person. As I listed to community leaders share their stories I could hear the frustration and

193
hurt that so many undocumented Virginians, including
those who have U.S. citizen children that were born in
Virginia, have been left feeling scared and dehumanized
by the Trump Administrations stance to change the long
held practice of counting all who reside in the United
States for reapportionment (with the exclusion of tourists and temporary business travelers, as well as residents of the District of Columbia) and not just those
they categorized as worthy.
6. Coronavirus has forced all of us to change work
habits, and dramatically shifted on how business is carried out in our country. In Virginia organizations have
been forced to changed plans and grassroots outreach
efforts to ensure a complete count. Coronavirus has
made the census exponentially more difficult. Organizers are now doing outreach efforts at food banks,
phone banking, and mailing census literature instead of
canvassers knocking on people’s door. Unfortunately,
President Trump’s memorandum has exacerbated a
highly difficult situation to encourage every Virginian,
including undocumented Virginians, to fill out the census form Community leaders informed me that undocumented Virginians have told them explicitly that they
don’t see a benefit in filling out the form if they will not
be counted.
7. Organizational leaders have informed me that
community members have refused to fill out the census
form. They told me that they have had to spend more
time speaking with community members, and even with
the extra effort made many community members still
refuse to fill out the census form. Organizational leaders and community members repeatedly told me that
undocumented Virginians have been scared out or filling

194
out the 2020 census form. Longer conversations means
more staff time is spent on easing the fears and explaining to community members why filling out the census is
still important. With limited time and budgets organizations are reaching fewer people, and spending more
money on staff time to do so.
8. At VACR we have put out statement, informed
member organizations of the memorandum, and worked
with organizations on outreach efforts. The new memorandum has required that we use staff time in the midst
of a pandemic to address the concerns, issues, and distress this memorandum has caused.
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
Executed on this 3rd day of Aug., 2020

195

Exhibit 43

196
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, MAKE THE
ROAD NEW YORK, CASA, AMERICAN-ARAB
ANTI-DISCRIMINATION COMMITTEE, ADC RESEARCH
INSTITUTE, FIEL HOUSTON, INC., AND AHRI
FOR JUSTICE, PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF JENNY SEON

Jenny Seon, pursuant to the provisions of 28 U.S.C.
§ 1746, declares under penalty of perjury as follows:
1. I am the Legal Service Director for Plaintiff
Ahri for Justice (“Ahri”). I am a founding member of
Ahri and have been on staff since December 2019. I am
over 18 years of age. I have personal knowledge of the
facts stated in this declaration.

197
2. Ahri is a nonprofit membership organization
with offices in Los Angeles, California. Ahri is a fiscally
sponsored project of Tides Advocacy, a 501(c)(4) nonprofit organization. Ahri’s mission is to pave new pathways to justice through the power of community organizing, empowering youth, and creating radical change.
Through community education, direct legal services,
and civic engagement, Ahri seeks to provide individuals
with the tools and skills necessary to be progressive
agents of change in their communities and to improve
the lives of individuals and communities in Southern
California.
3. Ahri focuses on empowering low-income communities, immigrant communities, and communities of color.
It currently has a staff of seven and spends a large majority of its time on civic engagement work, including
substantial census-related outreach. As part of its
work, it also provides legal services to these communities, with a focus on immigration and employment. It
also has a hotline to address questions and community
concerns, including regarding census participation, and
receives approximately 320-350 calls per month. There
was a surge in the number of calls that Ahri’s hotline
received following news of the July 21, 2020 Presidential
Memorandum to the Secretary of Commerce on the subject of “Excluding Illegal Aliens from the Apportionment Base Following the 2020 Census” (“Presidential
Memorandum”). Community members called with concerns and confusion about the Presidential Memorandum and what it means for their households and the privacy and confidentiality of their Census responses.
4. Ahri has roughly 220 individual members, with
most residing in Orange and Los Angeles Counties.

198
Ahri’s members include U.S. citizens, legal permanent
residents, and individuals who do not have lawful immigration status. Members pay monthly dues to support
Ahri’s mission and volunteer for phone-banking and
other campaigns.
5. In my capacity as a founding member and Legal
Service Director of Ahri, I am responsible in part for community organizing and communications, including Ahri’s
education, outreach, and research efforts around the
2020 Decennial Census in the communities Ahri serves.
Throughout my tenure with Ahri, I have been in regular
contact with Ahri members to learn about their neighborhoods, their needs, and their concerns to inform communications, organizing, and civic engagement programs for Ahri. As a founding member, I have also familiarized myself with Ahri’s internal records and processes; our staff and their responsibilities; and our programs and program areas.
6. Ahri has an ongoing commitment to promoting
engagement in the 2020 Decennial Census among its
members and constituents because a complete and accurate Census count is critical to ensuring that our members receive the government funding and full political
representation to which they are entitled. Our members include parents with children enrolled in schools
that receive funding under Title I of the Elementary and
Secondary Education Act; drivers who use interstate
highways and mass transit on a daily basis and thus depend on federal highway funds to perform their jobs;
families that rely on food assistance programs; and people who rely on housing assistance through various
funding provided under Section 8, among other Censusguided funding streams. Promoting Census response

199
can help ensure that the programs, services, and facilities that our members rely upon are adequately funded.
7. I have been extensively and personally involved
in the research, development, and implementation of
Ahri’s 2020 Census education and outreach programs.
To develop programs that achieve Ahri’s goals of encouraging greater Census participation in the communities we serve, I have researched and gained familiarity
with the importance of data gathered from the Census
in apportioning political representation and the allocation of some government funding sources. I have researched the concerns of our members and the communities we serve around the Census for the purpose of developing effective Census communications directed at immigrant communities. I have also researched how the
communities we serve would be impacted by an undercount toward the end of designing communications and
organizing strategies that address those concerns and
increase their civic engagement, and Census participation in particular.
8. Because the Decennial Census requires a direct
inquiry of every household in the United States, Ahri
has invested significant organizational resources in encouraging our members and the immigrant communities
we serve to respond to the Census. This work includes,
among other things, phone banking and digital organizing such as webinars and presentations over Zoom. To
date, we have contacted over 4,000 people and have assisted many of them with filling out the Census questionnaire. Ahri has continued Census education and
outreach during the pandemic and plans to continue encouraging and assisting people in filling out the questionnaire until the response period closes.

200
9. Our Census education and outreach efforts inform community members on how billions of Censusguided dollars are allocated for public services and how
these funds go back into the community. We emphasize that all members of our communities, regardless of
age, citizenship status, or ability to vote, count and must
participate in the Census to receive the full funding and
resources they need to thrive. We also emphasize the
importance of a full Census count for determining political representation, including the number of representatives each state will have in Congress, the number of
electors per state in the electoral college, and the boundaries and composition of districts at all levels of government, from local school boards and city councils to state
legislatures and the House of Representatives. These
messages are important because they affirm the humanity and dignity of all Americans and the responsibility
that all Americans, including undocumented Americans,
bear for responding to the Census and ensuring that
their home states and communities are allocated their
fair share of political power and government funding. An
example of one of our Census education and outreach
documents is attached as Exhibit 1, and is also available
at the following link: https://www.instagram.com/p/
B-c2watlog1/. We have relied upon information provided by the United States Census Bureau and other
government agencies in drafting this document and
other materials.
10. Ahri has been and remains committed to Census
education and outreach work among immigrants and
communities of color because those groups have been
undercounted. Based on my knowledge as a staff member at Ahri and an organizer in these communities, including on Census issues, I understand that one reason

201
that immigrants and communities of color have been undercounted is a fear of contact with the government and
distrust of government officials, particularly how they
will use the data they collect. Households with immigrants are concerned that their information will be
shared with immigration and law enforcement agencies.
11. Ahri has already faced a challenging environment for conducting outreach and encouraging immigrants of color to respond to the 2020 Census because of
our members and constituents’ heightened fear of interacting with government workers as a result of the Trump
Administration’s persistently hostile and discriminatory
actions and attitudes towards immigrants of color and
Asian-Americans. The racist and xenophobic acts that
the Trump Administration has undertaken include the
Administration improperly referring to the COVID-19
pandemic as the “kung flu” or the “Chinese virus” amid
a surge in anti-Asian incidents and hate crimes; attempting to include a citizenship question on the Census; dramatically increasing interior enforcement raids
in communities across the United States; proposing to
end family-based immigration, which would disproportionately harm immigrants from Latin America and
Asia; separating children from their families at the border and keeping immigrant children in cages; threatening jurisdictions that enact undocumented immigrant
sanctuary policies, such as Los Angeles, with the loss of
federal funds; banning individuals from six majority
Arab and/or Muslim countries from entering the United
States; attempting to rescind the Deferred Action for
Childhood Arrivals (“DACA”) program, which allowed
800,000 individuals brought to this country as children
to legally reside and work in the United States; rescind-

202
ing Temporary Protected Status programs for individuals from El Salvador, Honduras, Nicaragua, Haiti, and
Nepal; calling for an end to the diversity visa lottery;
and referring to some undocumented immigrants as
“animals.”
12. Based on my experience as an Ahri staff member
regularly in contact with our members, our organizing
staff, our communications staff, and the media, the Presidential Memorandum is making our efforts to encourage Census participation more difficult. The Presidential Memorandum is sowing fear and confusion about the
Census among the communities we serve. The fear and
confusion are not unique to undocumented immigrants
or non-citizens with documented legal status, but also to
family and household members of non-citizens, who have
expressed concern that participating in the Census will
invade their privacy and expose their family, friends,
and neighborhoods to profiling by the law enforcement
agencies of an administration hostile to immigrants of
color. Our members and constituents that have already responded to the Census have likewise expressed
concern that they may have improperly responded to
the Census because they included undocumented individuals in their response, and are confused about what
to do and about whether there will be repercussions for
responding to the Census.
13. The Administration’s decision to exclude some
non-citizens from the apportionment base directly and
severely undermines our Census education and outreach
materials and programming by contradicting its core
messages and discouraging responses to the Census.

203
14. First, by excluding undocumented people from
the apportionment count, the Presidential Memorandum creates confusion by contradicting one of the key
messaging about the Census that Ahri highlights in its
education and outreach programming: political representation. Because the President has said that the Census responses of some non-citizens will not be used for
Congressional apportionment, some people may now neglect or decline to fill out the Census because of its diminished importance. The Presidential Memorandum
dilutes the efficacy of our existing materials and programming, which will require Ahri to divert resources
from other programmatic areas to conduct additional
education and outreach to get the same number of people to respond to the Census questionnaire. By contradicting the message that filling out the Census is important to Congressional apportionment, people in the
communities we serve will discount the value of our current education and outreach materials or programs, requiring us to make new materials or conduct new outreach that address the Presidential Memorandum. This
includes training staff and volunteers on how to address
these concerns, editing our hotline and phone banking
scripts, sending emails and mailers to members about
the Presidential Memorandum, and updating our website. Ahri staff members have also had to divert time
from other activities to respond to inquiries from
Korean-language media about this issue to assure people that everyone, regardless of their immigration status, should fill out the Census questionnaire and that
every person will be counted for apportionment purposes.

204
15. Second, by excluding undocumented people from
the apportionment count, the Presidential Memorandum dehumanizes and marginalizes undocumented residents by excluding them from the category of “persons”
required by the Constitution to be included in the apportionment count. Furthermore, the exclusion of undocumented immigrants from the apportionment base in the
Presidential Memorandum indicates efforts by the Administration to identify where undocumented immigrants live and their numbers in order to exclude them
from the Census. By undermining our messaging about
the purpose of the Census and further marginalizing
and confusing immigrants who are already among the
population most often overlooked by the Census, the
Presidential Memorandum makes it less likely that the
immigrant communities and communities of color we
serve will be responsive to our Census education and
outreach efforts.
16. Third, Ahri has received an uptick in questions
from the public concerning the privacy and confidentiality of responses to the Census questionnaire since the
Presidential Memorandum. Members of the community we serve are concerned that the Presidential Memorandum’s exclusion of people “not in lawful immigration status” from the Census base count indicates that
the Administration will use information from the Census
to attempt to identify undocumented immigrants for deportation or other adverse consequences. Ahri is planning to conduct more education and outreach than we
would have otherwise to address those concerns and to
assure people that they can respond to the Census without fear of immigration enforcement consequences for
themselves or their families.

205
17. Ahri will be forced to expend more resources
than initially anticipated to try to reduce the negative
effect of the Presidential Memorandum on Census response rates in the immigrant communities of color it
serves. Ahri expects that it will need to interact with
its constituents more times than previously planned to
try to convince them to participate in the 2020 census.
Ahri’s target is to contact at least 10,000 individual
households, and it expects that it will now need to spend
more resources to reach the same number of people and
that ultimately it will be less successful in convincing its
constituents to participate in the 2020 Census due in
large part to the Administration’s decision to exclude
undocumented immigrants from the apportionment
base. Ahri’s funding is based in part on meeting our
target, and Ahri will thus also have to divert resources
away from other priorities and program areas to meet
this target and avoid losing this funding. Ahri will have
to increase staff time and spending devoted its Census
education and outreach efforts by approximately 15 percent over current levels to address the Presidential
Memorandum.
18. Because of the need to increase the time and
money spent on Census outreach due to the fear and/or
confusion generated by the Presidential Memorandum,
Ahri will need to divert resources from other areas critical to its mission including civic engagement, community organizing, youth programs, and legal services.
In particular, Ahri will have to divert staff time away
from our advocacy and outreach campaigns on DACA,
ethnic studies, education funding, voter education and
outreach, housing insecurity related to the COVID-19
pandemic, and raising money for a COVID-19 community assistance fund, critical programmatic areas right

206
now during the COVID-19 and ahead of an important
general election. I have personally spent at least 35
hours on Census-related work that I otherwise would
have spent on other areas of work, including direct legal
services, to develop, coordinate, and implement our additional education and outreach efforts.
19. Ahri puts significant resources in Census education and outreach work because our members and the
immigrant communities we serve face significant negative consequences in the event of an undercount. Ahri
members reside in Orange and Los Angeles Counties,
the populations of which include immigrant communities
of color that far exceed national averages. An undercount of those populations will deprive Ahri members of
political influence and Census-guided funding to which
they would be entitled by a more accurate count.
20. One of the many Ahri members who will suffer
injury due to the Presidential Memorandum and the effects of this policy on Census response rates is Julie
Kim. I have known Ms. Kim for over 10 years. I
know Ms. Kim is a U.S. citizen and a resident of Anaheim, California, and that she works as a high school
guidance counselor in Orange County, California. I
know that Ms. Kim is a commuter and thus depends on
federal highway funds. As a resident of California, Ms.
Kim will also lose political power because of California’s
loss of at least one seat in the House of Representatives
and the loss of a presidential elector due to the Memorandum’s exclusion of undocumented immigrants from
the apportionment count.
21. Another Ahri member who will suffer injury due
to the exclusion of undocumented immigrants from the
apportionment base and the effects of this policy on

207
Census response rates is Simon Lee. I have known Mr.
Lee for eight years. Mr. Lee is a resident of Los Angeles, California, where he works for an accounting firm.
As a resident of California, he will also lose political
power because of California’s loss of at least one seat in
the House of Representatives and the loss of a presidential elector. Mr. Lee is entitled to remain and work
lawfully in the United States through the DACA Program. He is entitled to be counted in the ongoing 2020
Decennial Census and included in the apportionment
base along with all other residents of California, regardless of immigration status.
22. Unfortunately, Ahri will have less time than anticipated to address the fear and confusion caused by the
Presidential Memorandum among the immigrant communities that we serve. The actual counting period of
the Census is only a few months, but the consequences
of the Census in terms of political power and funding allocation will last for a decade. At the time the Presidential Memorandum was published on July 21, there
were 102 days remaining in the nonresponse follow-up
period, which was then scheduled to end on October 31.
However, on July 31, the Census Bureau abruptly accelerated the end of non-response follow-up to September
30. With only 57 days left in the headcount, every single day remaining is a critical opportunity for Ahri to
conduct further Census outreach. Ahri will have to accelerate its remaining Census education and outreach
efforts to address the Presidential Memorandum’s negative effect on Census responses.

208
I, Jenny Seon, declare under penalty of perjury that the
foregoing is true and correct to the best of my knowledge
and recollection.
Dated:

Aug. 5, 2020, in Los Angeles, California
/s/ JENNY SEON
JENNY SEON

209

Exhibit 1

210

211

212

213

Exhibit 44

214
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
TRUMP, ET AL., DEFENDANTS
DECLARATION OF VATSADY SIVONGXAY

Pursuant to 28 U.S.C. § 1746(2), I, Vatsady Sivongxay,
hereby declare as follows:
1. I am over the age of eighteen. This declaration
is made based on my personal knowledge and business
records kept by the Massachusetts Immigrant and Refugee Advocacy Coalition (“MIRA”).
2. I serve as the Director of Organizing and Census
Manager for MIRA. In this role, I develop, implement,
and manage MIRA’s statewide organizing and civic engagement strategies, including working closely with our
partner organizations. I joined MIRA in July 2019 to
lead its statewide outreach for the 2020 Census. Prior
to my work at MIRA, I served as the Director of Public
Policy for the City of Boston for two years. I have been
licensed as an attorney in the Commonwealth of Massachusetts for 8 years.
3. MIRA, founded in 1987, is the largest immigrant
and refugee advocacy organization in New England, representing approximately 130 organizational members,
including organizations that provide services for immigrants and foreign-born individuals such as community

215
health care centers, unions, English for Speakers of Other
Languages groups, faith-based and grassroots organizations, and ethnic groups and associations. Through
our membership and networks, MIRA represents around
1.2 million foreign-born people, many of whom are part
of the 1.6 million people in Massachusetts who are “hard
to count” for purposes of the decennial census. Since
our founding, we have worked diligently in collaboration
with our partners across the state and nation to build
trust, provide services and resources, and share critical
information with our immigrant communities. MIRA’s
mandate is to increase the economic, social, civil, and linguistic integration of foreign-born individuals and their
families in the Commonwealth.
4. MIRA has participated in past decennial census
efforts, including in the 2000 and 2010 censuses. MIRA’s
past census work centered on organizing outreach efforts
with partner organizations, including media and faithbased groups, to conduct door-to-door canvassing, disseminate translated materials in key spaces, and create
public service announcements and advertising to attempt to increase participation and reduce the amount
of any undercount.
5. For the 2020 Census, MIRA is the recipient of a
grant from the Secretary of the Commonwealth to assist
with community education and outreach aimed at ensuring a complete count of the residents of Massachusetts.
As a part of this work, MIRA convenes the Statewide
Complete Count Committee, which includes partner organizations from around the state, including MassCounts
(a coalition of nonprofits working on census outreach),
service providers, state agencies (i.e., Department of
Secondary Education, Council on Aging), faith-based

216
groups, immigrant-led organizations, local and regional
complete count committees, and other civic organizations, including ethnic groups and associations. MIRA
also coordinates census messaging with national and
state partners; trains local partner organizations on outreach to hard-to-count populations; produces educational, communication, and advertising materials for local distribution to encourage participation in the census;
and tracks response rates for planning and targeting efforts to increase response rates in historically undercounted areas and populations.
6. Notwithstanding our preparations and commitment to achieving a complete count, the 2020 Census has
been beset with challenges and barriers to participation
that were not present during the 2000 or 2010 census.
These issues include the ultimately unsuccessful attempt
to add an untested citizenship question to the 2020 census form, the COVID-19 global pandemic, and, now, a lastminute Presidential Memorandum directing the Department of Commerce to omit undocumented people from
the population count to be reported to Congress for the
purpose of apportioning seats in the U.S. House of Representatives.
7. These unforeseen challenges have seriously impacted implementation of the 2020 Census. For example, Non-Response Follow-Up (“NRFU”)—the critical,
in-person phase of the census designed to help count
hard-to-count populations and other non-responders—
was scheduled to begin in Massachusetts on May 13,
2020. However, due to COVID-19, NRFU will not begin
until August 11, 2020, for most of the state (however,
there are soft launches in certain areas that started on
and around July 30, 2020). In addition to this delay to

217
NRFU, Massachusetts census partners have had to reduce outreach activities due to coronavirus. Moreover,
many local partners lack funding and are working at reduced capacity. For instance, one entire region of our
state no longer has an organization to convene its local
Complete Count Committee because the convener’s funding for census-related activities ran out in July, when
NRFU was originally supposed to have been completed.
8. Additionally, we just learned on Friday, July 31,
2020, that the Census Bureau is shortening its timeline
for NRFU: it is now planning to conclude its efforts by
September 30 versus October 31, 2020, effectively halving the time to complete NRFU activities.
9. Each of these unprecedented challenges to the
2020 Census has also had real world consequences on
people’s trust in the confidentiality of the decennial census as well as their willingness to participate in the count,
particularly among Massachusetts’ immigrant communities.
10. Prior to the launch of the census in mid-March,
MIRA identified forty-five historically hard-to-count
municipalities for participation monitoring. These are
cities with large immigrant populations that had low
participation rates (less than 76%) in the 2010 census.
As COVID-19 surged in Massachusetts, we saw more
and more of these municipalities fall below the statewide
response rate; and, as of July 31, 2020, more than half
(26) had fallen below the statewide response rate. At
an even more granular level, there are nearly 300 census
tracts with immigrant populations of at least 30%, and
all of these tracts are below the statewide response rate.
These immigrant-rich communities in cities such as
Chelsea, Everett, Lawrence, Worcester, and Boston,

218
among others, are also some of the places that have been
hit the hardest by both the health and economic impacts
of COVID-19.
11. Presently, I am working to anticipate and address
the impact of President Trump’s July 21, 2020, memorandum (the “Memorandum”), which, among other things, directs the Department of Commerce to exclude undocumented residents from its transmittal of the population
count for purposes of apportionment in Congress. In
short, despite MIRA’s ongoing efforts to achieve a complete count and the efforts of our local partners and similar organizations nationwide, the President has directed that undocumented residents be retroactively disregarded for calculating Congressional apportionment.
12. We are very concerned that the Memorandum
will have the effect of discouraging undocumented individuals from participating in the census: if undocumented individuals will be erased from the count, why
should they participate at all? Moreover, a major component of our messaging thus far has been that census
participation is critical because it determines the allocation of resources and representation over the next decade. This is a simple and historically accurate message
that runs parallel to messaging from the Census Bureau. However, the Memorandum directly contradicts
this messaging.
13. We are also very concerned that the Memorandum discourages documented individuals, including U.S.
citizens, from participating in the census. Many documented individuals and U.S. citizens live with undocumented individuals. There is already pervasive fear
about participation in the census in immigrant communities, spurred on by the Trump Administration’s earlier

219
effort to include a citizenship question. A major component of our messaging—again borrowed from the Census Bureau—has been that the census is safe and confidential. We have highlighted the Title 13 protections,
which threaten severe financial penalties and imprisonment for any Census Bureau staff who discloses individuals’ data. Yet, the Memorandum undermines this message by directing the Census Bureau to identify and remove undocumented people from the apportionment
base. As we have heard directly from communities
across Massachusetts, given this latest development, immigrants are afraid that legal protections will be insufficient. They fear that if the President wishes to identify undocumented individuals, he will use any means to
do so, regardless of present assurances regarding census confidentiality. In fact, several partners, including
Agencia Alpha, are no longer willing to champion the security and confidentiality of the 2020 Census.
14. This Memorandum has been incredibly disruptive to MIRA’s complete count work, particularly in
light of the already significant delays and strained funding and resources for census outreach due to COVID-19.
15. Among other things, prior to the Memorandum,
MIRA had developed messaging that was consistent
with our national partners for use by local partners in
their outreach efforts. Following the issuance of the
Memorandum, we have had to spend time reconsidering
our messaging to evaluate if it is still accurate and if it
sufficiently addresses new concerns raised by the Memorandum.
16. At the very least, we know that this Memorandum will make our work and that of our partner organizations significantly more difficult as we continue to

220
work toward a complete count in Massachusetts. In
the first ten days following issuance of the Memorandum, my staff and I collectively spent more than 25
hours reviewing it, researching its impact on the census
and our own messaging, and meeting internally to discuss these issues and coordinate our response and external messaging. We also attended meetings with national partners such as Census Counts to stay on top of
the developments and ensure that our message to immigrant communities would stay consistent nationally.
17. I have spent significant time since the Memorandum was issued talking to local partner organizations
who contacted me concerned and confused about the
Memorandum and its impact on their census outreach
and on the communities they are helping to count. These
include Agencia Alpha, a faith-based non-profit serving
Latinos across the Commonwealth, the Immigrant Family Services Institute, a Massachusetts non-profit that
provides targeted academic and enrichment services to
immigrant children, and the Brazilian Women’s Group,
a non-profit serving the Portuguese-speaking community. We anticipate needing to provide additional training to our partner groups relating to this Memorandum
and have scheduled an emergency webinar for August 5
to address the Memorandum and other related operational changes by the Census Bureau. Additionally,
given the resource constraints, I am concerned that
even if we expend the necessary resources to produce
and run such trainings, some of our partners may not
have capacity to participate.
18. Prior to the Memorandum, we had created digital graphics and physical outreach materials, including
palm cards, for partners to distribute in the areas in

221
which they work. We ordered 30,000 of these cards in
mid-July and ordered another 30,000 in late July, which
cost approximately $6,000. To date, the total cost of
the creation of digital graphics and advertising, as well
as the staff time required to research and develop these
materials, is well over $60,000. Because of the Memorandum, I am concerned that these materials will not be
as effective, especially in our immigrant communities
and with mixed-status households. As I discussed in
paragraphs 12 and 13 above, the Memorandum critically
undermines our present messaging about the importance
of the decennial census for all inhabitants of our Commonwealth and its safety and confidentiality. There
was no way to anticipate the existence or issuance of this
Memorandum when we designed our outreach materials, so our current materials do not address any new
questions arising from the Memorandum. For instance:
“Is it safe for undocumented individuals to participate if
the government is going to investigate their status in order to exclude them for the purposes of apportionment?”
and “Why bother to be counted at all if the government
is just going to exclude you later?” While, out of necessity, our original messaging may still ultimately be used,
additional one-on-one conversations and relational outreach are necessary to maintain trust among communities and census partners to ensure confidence that census information will remain confidential and that there
are still important benefits to responding to the census,
such as ensuring receipt of critical federal funding.
19. At this stage, we do not have the time or funding
to replace the palm cards, translate new messaging to
reach our immigrant communities, hire additional outreach workers, or provide financial support to our partner organizations to conduct effective in-person, direct

222
outreach. Organizations, including government departments, are already overwhelmed by adjusting census
outreach plans during COVID-19. It is especially challenging to conduct the necessary outreach with limited
capacity during the shortened NRFU period.
20. The week of July 27 through July 31, 2020, was
supposed to be a huge organizing surge before NRFU
begins. However, I and other MIRA staff, as well as
our partner organizations, have had to divert time and
resources to dealing with issues related to the Memorandum rather than focusing on the planned surge. We anticipate that the loss of time dedicated to encouraging
residents to self-respond will result in a significantly
larger non-response rate on August 11, 2020, thereby increasing the necessary scope of the resource-intensive
NRFU process.
21. Moreover, MIRA partner organizations, including those mentioned in paragraph 17, are reporting that
they believe their outreach efforts will be less effective
because of the Memorandum, and that people who have
not responded to the 2020 Census to date are even less
likely to respond to NRFU efforts following the Memorandum. I share these concerns.
22. Since the issuance of the Memorandum, MIRA
and our partner organizations have received questions
and concerns from other census partners and community members. Local census partners reached out to
us to ask if the messaging and outreach needs to be
changed, in light of the Memorandum, to include special
messaging to immigrants who live in mixed-status households in order to avoid or reduce fear, misinformation,
or disinformation and clarify the directives in the Memorandum for these households. A few of our partners

223
have also specifically asked for guidance on communicating the impacts of the Memorandum to immigrants
who already took the census and feel that their information will no longer be kept confidential. As one example, Agencia Alpha’s outreach workers shared that
when they followed up with immigrant families, those
families asked whether or not they should be worried
about the information they had shared when they completed the census. Partners have requested simple and
clear talking points explaining: the importance of taking
the census; the present attempt by the Trump Administration to exclude undocumented individuals from the
apportionment base; that undocumented individuals will
still be included in the count for other purposes; and how
the Census Bureau could discern documentation status
data while maintaining confidentiality (to the extent that
an answer exists to this question). Grassroots partners have also shared that they anticipate an increase in
community fears that the census could be used to identify people for deportation, similar to the wave of fear
that followed the 2018 attempt to add a citizenship question to the 2020 census questionnaire.
23. Although MIRA and our partner organizations
are still planning the extent of our response to the Memorandum, it is clear that we must act to mitigate the anticipated negative impacts of the Memorandum on census response rates in Massachusetts. While this is a
novel situation, our years of experience in organizing
underscore our concern that an effective response will
require significant additional expenditures of time and
money, during a very short period of time, to develop
messaging and materials, as well as to ensure these materials reach the hard-to-count communities we are working to engage in the census.

224
24. Mitigating the negative impact of the Memorandum on response rates will be a costly, time-consuming
effort, which comes at a time when funding for census
outreach is essentially exhausted and time to complete
the census count is running out.
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
Executed on this 5th day of Aug., 2020
/s/ VATSADY SIVONGXAY
VATSADY SIVONGXAY

225

Exhibit 45

226
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF ROSAMARIA Y. SOTO
(AKA ROSEMARY SOTO)

Pursuant to 28 U.S.C. § 1746(2), I, Rosamaria Y. Soto
(AKA Rosemary Soto), hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. I am Management Analyst III for the County
Administrative Office for the County of Monterey. I
oversee special projects and strategic initiatives of the
Board of Supervisors, including the 2020 Census Complete Count Committee for Monterey County. I have
been employed by the County of Monterey since 2007.
3. The County is a partner of the California Complete Count Committee, Chaired by Secretary of State
Alex Padilla, and the County Administrative Office leads
a local Complete Count Committee (CCC) charged with
the task of educating, encouraging, and empowering
Hard-to-Count (HTC) populations in Monterey County.
My role has been to establish and manage the Monterey
County CCC, which was established in October of 2018

227
with the commitment of all incorporated cities, community leaders representing unincorporated communities,
elected officials, and community-based organizations.
The cross-sector membership of partners provided a
vast diversity of expertise in community organizing and
cultural awareness needed to reach the HTC populations who most feared and mistrusted government, and
exhibited the greatest reluctance to participate in the
2020 Census. I have led the development of strategies
for outreach and education: media messaging and recruitment of trusted voices to disseminate Census information and encourage HTC populations to participate in
the Census; the development of Census training curriculum; recruitment and training of volunteers; leading
the implementation of Census assistance kiosks to meet
the digital divide by providing access to the online questionnaire; answering questions; addressing concerns people might have about the Census questionnaire; ensuring completion and submission of the questionnaire by
participants; and developing and implementing strategies for the Non-Response Follow Up Period (NRFU),
this being the final effort to get out the count during the
last three months of the Census enumeration period.
4. For the 2020 Census, the County of Monterey
has invested $300,000 to support organizing, outreach, and
advertising efforts, leveraging California CCC funding of
$441,446 and local philanthropic contributions of $622,650.
Collectively, a total investment of $1,364,096 has been
made to ensure a complete count of all people living in
Monterey County.
5. Efforts to increase participation in the 2020 Census and reduce undercounting began with building partnerships with organizations and community leaders who

228
have deep connections with the HTC populations. Together we developed a social marketing campaign with
culturally relevant and linguistically appropriate key
messages to educate and inform communities about the
importance of the decennial Census, and its impact on
community resources through federal funding and the
apportionment of Congressional representation. Messages were centered on “Everyone Counts,” highlighting the U.S. Census Bureau’s own message of “Everyone living in the United States is required by law to be
counted in the 2020 Census.” Other key messages focused on education about the fact that the Census questionnaire does not ask about one’s citizenship or immigration status. Trusted messengers were recruited and
trained to disseminate key messages in a variety of forms
and through various outlets, including public service announcements, print images, social media memes and
graphics, radio show features, theater skits and “fotonovelas,” or photobook dramatizations of theater skits.
The social marketing campaign launched in April 2019
with an eleven-month series of community outreach activities conducted in census tracts where HTC populations reside and congregate, particularly Latino immigrant populations.
6. The Presidential Memorandum completely undermines our efforts to ensure a complete and accurate
count of everyone living in Monterey County and contradicts our social marketing campaign’s message. More
importantly, the Presidential Memorandum contradicts
the U.S. Constitution’s mandate to count whole persons
living in the United States, further increasing the deeply
rooted pre-existing mistrust of government of immigrant populations living in Monterey County.

229
7. The impacts of COVID-19 on Census outreach
has been significant: a series of planned community
events with mobile Census questionnaire assistance centers were canceled; public spaces previously frequented
by community members, such as recreation centers, public
libraries, shopping malls, school-based sporting events,
spring and summer social gatherings and celebrations,
all had to be canceled; all of our planned in-person outreach strategies were brought to a screeching halt. Many
of the volunteers were retirees who, because of their age
and/or underlying health conditions, were forced to
scale back or terminate their community outreach activities. The involvement of students and young adults
was constrained by their educational institutions’ adherence to State and County shelter-in-place ordinances,
further impacting our volunteer base and immobilizing
our outreach capacity and ability to implement our “get
out the count” strategies.
8. While our outreach strategies have shifted to
“virtual” online efforts, we have managed to operate
contactless questionnaire assistance centers in the census tracts with the highest rates of HTC populations.
9. Monterey County has the most census tracts
with high indexes of HTC populations of any region in
the central coast of California. Those high index census tracts are currently responding at rates below 50%,
among the lowest in the country. Many of the census
tracts are in either high density urban parts of the county
or in rural communities predominantly inhabited by Latino immigrant populations.
10. Computer literacy and internet access have
proven to be barriers for many if not all the HTC popu-

230
lations. The Census Bureau’s late start has exacerbated this challenge. Not only have the Census Bureau’s operations been delayed, there has been no apparent effort to shift their operations to virtual or contactless operations. As of July 30, 2020, Monterey
County’s response rate is at 60.1%, trailing behind the
state’s rate of 64.1% and the nation’s rate of 62.8%.
11. Since the Presidential Memorandum was issued
on July 21, 2020, our community partners have reported
an increase in concerns in immigrant communities. Confusion has set in about why our messages over the past
year highlighting the importance of counting everyone
in the decennial Census, and emphasizing the security
of Census data, are now contradicted by the U.S. President.
12. Immigrants and their families, including those who
do have legal status, have long lived in the shadows of our
society due to the fear that providing personal information
to the government would potentially expose them to harm.
After having heard messages of empowerment—to be
visible and counted for the sake of their community’s
future—the President’s words have renewed their fears,
and generated mistrust of the federal government’s
commitment to upholding their Constitutional right to
be counted in the Census and included in the apportionment of Congressional representation. Remarks I and
my colleagues have commonly heard following the issuance of the Presidential Memorandum while hosting mobile Questionnaire Assistance Kiosks at the open air
market La Cocina on Broadway Ave in King City, La
Princesa Market and EZ Wash & Dry both on N.
Sanborn Rd. in East Salinas, all locations in a high HTC
index census tract, include statements such as “if the

231
President can force a federal agency to manipulate the
Census count, what more can we expect he will do to destroy us and our access to resources that provide for our
basic needs”; “why would I fill out the Census, giving
you the address of where my family and I sleep, which
is supposed to be my safe place, knowing that all the
President has to do is issue an order and we could be
wiped out by the stroke of a pen?”; and, “We don’t matter, why be counted if at the end of the day being counted
doesn’t matter in terms of political power, which is where
we need it most.” Many such comments come from documented immigrants who have been discouraged and
dissuaded from participating in the enumeration process.
13. The Presidential Memorandum already has deterred many people in Monterey County from participating in the decennial Census and contributed to the
low response rate. We are once again forced to adjust
our outreach messaging and strategies to mitigate the
negative impact of the Presidential Memorandum. To
do so, we will need additional investment to augment funding to increase messaging through media outlets and inperson contactless outreach strategies. Such strategies will bear significant unexpected costs, but are imperative as we try, at the last minute, to address the challenges of carrying out our mission to count everyone.
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
Executed on this third day of Aug., 2020
/s/ ROSEMARY SOTO
ROSEMARY SOTO

232

Exhibit 46

233
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF JONATHAN STERNESKY

Pursuant to 28 U.S.C. § 1746(2), I, JONATHAN
STERNESKY, hereby declare as follows:
1. I am over the age of eighteen and have personal
knowledge of all the facts stated herein.
2. I am the Manager of Policy and Legislative Affairs for the New Jersey Housing and Mortgage Finance Agency (NJHMFA). In this role, I oversee
NJHMFA’s executive policy team and work directly
with NJHMFA’s programmatic divisions to develop and
implement new Agency programs, as well as analyze and
review the efficacy of existing Agency programs. I have
been employed by NJHMFA since 2018 and have a bachelor’s degree from Kean University and a master’s degree in public administration from Seton Hall University.
3. NJHMFA is the State of New Jersey’s primary
vehicle for developing and funding affordable homeownership and rental housing for New Jersey residents.
Agency staff rely heavily on data prepared by the United

234
States Census Bureau to administer federal and state
housing programs. Decennial Census and American
Community Survey data provide NJHMFA with socioeconomic and population characteristics (e.g., age, race
and ethnicity, individual and household income, employment, poverty, form of tenure (i.e., rental or ownership),
housing quality, rent and mortgage costs, and housing
vacancy), as well as aggregate characteristics of geographic areas (e.g., area median income; housing cost
burden; fair market rent; qualified low-income Census
tracts; and Difficult to Develop Areas). To operate most
effectively, NJHMFA needs accurate Census data, which
is directly or indirectly utilized to inform a significant
subset of programmatic targeting and policy determinations.
4. NJHMFA regularly relies on Census data for
policy and programmatic decision-making for two primary reasons. First, the Decennial Census is the government and policy-making reference point for better
understanding the diverse populations within communities across the United States, acting as the baseline for
key forward-looking economic and population estimates.
Second, the Decennial Census—unlike other data services and products provided by the United States Census Bureau—is an actual enumeration, or count, of the
total population of the country, providing a fuller, more
comprehensive point-in-time understanding of the population when compared to an estimate derived from a
sample.
5. Census data deeply influences the way that
NJHMFA designs and plans for the allocation of housing funds across the state. For example, the Agency
uses income, poverty, employment, housing density, and

235
housing vacancy data from the Census to direct its annual $20 million to $25 million allocation of federal 9%
Low-Income Housing Tax Credits (LIHTC). These
credits are then used to leverage roughly a ten-fold influx of private investment into equity for development
costs to both high-opportunity and high-need areas of
New Jersey.
6. Census data also determines the design and parameters of state-level programs. For instance, New
Jersey’s First-Time Homebuyer mortgage and down
payment assistance programs are targeted toward lowand moderate-income households, using Census-derived
data, including area median incomes and Urban Target
Areas, which are referred to as “Targeted Areas” or
“Targeted Area Residences” for federal purposes. Similarly, several special needs housing trust funds in New
Jersey rely on Census-informed area median incomes to
target units to the most vulnerable renters and to set
affordable rents.
7. Finally, we use Census data to evaluate our programs and determine whether we are serving low-income
and other historically marginalized or otherwise vulnerable populations effectively. Most recently, we carried
out a racial equity analysis on our down payment assistance program to determine whether we were serving
homebuyers of all races and ethnicities effectively. Without accurate Census data, including accurate data reporting the characteristics of the enumerated population, we would not be able to assess the Agency’s performance and make adjustments to be able to serve all New
Jerseyans in an equitable manner.

236
8. As illustrated in the preceding paragraphs, Census data underpins so much of NJHMFA’s program design, planning, and implementation that its accuracy is
necessary in order to make key decisions affecting affordable housing in New Jersey.
9. Poor quality Census data would have a deleterious effect on the residents of New Jersey. For example, NJHMFA is charged with distributing state and
federal resources critical to advancing the socioeconomic
opportunities of New Jersey’s most vulnerable residents.
Without an accurate representation of the State’s population, NJHMFA would be at risk of inadvertently diverting such resources away from the residents and
communities the programs are designed to serve. Inaccurate Census data would also place NJHMFA at increased risk of setting policies and goals that are responsive to the faulty data, instead of the actual needs
of these communities. Additionally, poor quality census data would compromise the calculation of maximum
permissible rents for both 4% and 9% LIHTC projects.
Those rents are calculated based on affordability for
families at different income levels. If data regarding the
number of households and area median income measures
are distorted because the Census disproportionately undercounts certain communities and income brackets or
because the quality of the Census data is otherwise degraded, there would be a direct impact on the maximum
rent calculations. For example, if poor-quality Census
data inaccurately reflected an inflated median income
for an area, maximum rent levels would be set higher
than what is truly “affordable” for low- and moderateincome families in those areas.

237
10. In sum, inaccurate Census data would produce
substantial harm to NJHMFA, compromising its ability
to effectively administer programs serving vulnerable
communities.
I declare under penalty of perjury that, to the best of my
knowledge, the foregoing is true and correct.
Executed on this fourth day of Aug., 2020
/s/ JONATHAN STERNESKY
JONATHAN STERNESKY

238

Exhibit 47

239
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF GUSTAVO TORRES

I, Gustavo Torres, pursuant to the provisions of 28
U.S.C. § 1746, declare under penalty of perjury that the
foregoing is true and correct:
1. I am the Executive Director of CASA de Maryland, Inc. (“CASA”). In this capacity, in which I have
served since 1994, my job is to lead an organization that
builds power and fights for justice alongside the immigrant, Latino, and working class community in the
United States. Over my 26 years at CASA, we have
grown from a small welcome center for Central Ameri-

240
can refugees to the mid-Atlantic’s largest immigrant advocacy organization, serving our community in Virginia,
Maryland, and Pennsylvania. Through that work, we
have grown our membership to over 110,000 lifetime
members. We have done this through providing services our community needs and deserves, through organizing working class immigrants from over 140 countries around the world whom we are proud to count as
members, and by standing with them in the streets, in
the halls of power, and in courtrooms as they fight for
justice, dignity, and the opportunity to thrive.
2. Based on my more than 25 years of professional
experience working for Latino and immigrant serving
organizations in both the public and private sectors, the
current outreach to immigrant communities I oversee in
my current capacity at CASA, and my conversations
with individual CASA members, I believe the Presidential Memorandum to the Secretary of Commerce on the
subject of “Excluding Illegal Aliens from the Apportionment Base Following the 2020 Census” (“Presidential
Memorandum”) will deter participation of many individuals in the Latino and immigrant communities, and result in a disproportionate undercount of Latinos. As a
result of the decision to add this question, CASA has diverted and will continue to be required to divert resources from core organizational priorities to additional,
remedial outreach to counteract the Presidential Memorandum’s negative effect on Census response rates in
our community.
3. The Presidential Memorandum will directly injure CASA members, many of whom live in areas of the
United States in which immigrants of color and other

241
communities of color exceed national and state averages. Specifically, they will be harmed because the exclusion on undocumented residents from the apportionment base will diminish their political power relative
to other parts of their states. In addition, they will be
harmed because the disproportionate undercount that
will result from the Presidential Memorandum among
immigrants of color will well as the amount of Censusguided funding those areas receive for key programs,
services, and facilities that our members and their families rely on to succeed in the communities in which they
live.
I.

CASA’s Mission and Activities

4. CASA is a non-profit 501(c)(3) membership organization headquartered in Langley Park, Maryland,
with offices in Maryland, Virginia, and Pennsylvania.
Founded in 1985, CASA is the largest membership-based
immigrants’ rights organization in the mid-Atlantic region, with more than 100,000 all-time members.
5. CASA’s mission is to create a more just society
by increasing the power of and improving the quality of
life of low-income immigrant communities. To advance
this mission, CASA offers social, health, education, job
training, employment, and legal services to immigrant
communities. CASA serves nearly 20,000 people a
year through its offices and provides support to additional clients over the phone and through email.
6. As Executive Director, I work to increase the
power of immigrant voices, including the political power
of these communities, by promoting voting rights and
participation by our communities in the democratic process. I oversee all aspects of CASA’s work, including

242
our community organizing, services, communications
and other departments and programs. I am deeply involved in all key decision making aspects of the organization, including our large scale Census outreach and
education efforts across Maryland, Virginia and Pennsylvania.
7. CASA works with members in navigating and
enrolling in public benefits for which they are eligible.
This work includes connecting members with public benefits related to health, education, and legal services.
CASA assists eligible members in enrolling in food assistance programs such as the Supplemental Nutritional
Assistance Program (SNAP), which provides food assistance to low-income individuals, and the Special Supplemental Nutrition Program for Women Infants and Children (WIC), which provides supplemental foods, health
care referrals, and nutrition education to eligible individuals. CASA also assists eligible members in enrolling for health care coverage through Medicaid, or enrolling their children in the Children’s Health Insurance
Program.
8. CASA’s Education Department works with families residing in dense immigrant neighborhoods to navigate them through the school enrollment process in Title 1 funded public schools serving these neighborhoods.
Staff also provide information about early childhood education programs available in the neighborhoods served
by CASA and partner with local providers to enroll eligible children in those programs.

243
II.

CASA’s Census-Related Work

9. CASA has an ongoing commitment to promoting
engagement in the Decennial Census among its members, constituents, and communities. Member participation in the Decennial Census advances CASA’s mission by increasing the political power of low-income immigrant communities.
10. Given CASA’s 35 year history working with immigrant communities throughout the Mid-Atlantic region and the trust it has developed with these communities as a result of this history, CASA has consistently
been a “go-to” organizational partner in conducting outreach and education around the Decennial Census and
other related activities.
11. In 2019-2020, CASA partnered with various state
and local government education and outreach campaigns
throughout Maryland, Pennsylvania, and Virginia. In
addition, CASA received dedicated funding from other
sources to conduct door-to-door outreach, facilitate group
educational sessions as well as conducting follow up outreach via phone and text message, and social media, and
ongoing work with local, ethnic media to inform, engage,
and encourage participation in the Census among Limited English Proficient, immigrant communities in the
region.
12. CASA’s messaging has focused on the importance
of the Decennial Census in ensuring that the political
power of the districts where our members live reflect the
total population of these areas. CASA has emphasized
that every person, regardless of citizenship status and
whether they are documented or not, is counted in the
Census for purposes of political apportionment and

244
Census-guided funding.
As part of these efforts,
CASA developed Census outreach materials in English
and Spanish, reaching the community through social
media and direct outreach, as well as by phone. We utilized physical and digital “Census pledge” cards, gathering commitments from community members to participate in the Census. These efforts were targeted particularly at the immigrant and Latino community, and
were specifically designed to reach individuals in families with mixed immigration status. CASA has an ongoing commitment to promoting our members’ engagement with the Decennial Census, because a complete
and accurate Census count is critical to ensuring that
our members receive the full political representation
and funding to which they are entitled.
III. Harm to CASA as a Result of the Exclusion of
Undocumented Residents from Apportionment

13. As described below, the Presidential Memorandum harms CASA members, as well as the organization
more broadly. The Presidential Memorandum is increasing already heightened levels of fear among immigrants. The Trump Administration’s anti-immigrant
policies and rhetoric have led to decreased engagement
with the government generally, and specific fear of participating in the Decennial Census. This latest step by
the Trump Administration to exclude undocumented
residents from the apportionment base is only serving
to increase this fear, and discourage participation in the
Decennial Census. This fear and decreased participation harms CASA as an organization, because it undermines our core messaging regarding the importance of
the Decennial Census, and is requiring us to divert our
resources to encourage participation in the Decennial

245
Census. In addition, this latest move requires us to
change our messaging after nearly 11 months of programming aimed at increasing participation in the Decennial Census.
A.

Fear in the Latino Immigrant Community under
the Current Administration

14. Based on our conversations and work in the community, immigrant members of CASA have felt targeted, bullied and attacked by the rhetoric and actions
of the Trump administration. Starting with the presidential campaign, through to its current policies, CASA
members have expressed fear, frustration and despair
over how they feel this administration has scapegoated
them. In particular, they have expressed fear over the
emphasis this administration has placed on increased
deportations and immigration enforcement.
15. Policies such as family separation at the border,
the “zero-tolerance policy” for immigrants entering the
United States without documentation, and the attempted
elimination of the Deferred Action for Childhood Arrivals (DACA) and the Temporary Protected Status (TPS)
programs have all increased the fear among immigrant
communities of being targeted by agencies such as ICE.
This fear has led to a chilling effect on the willingness of
immigrant communities of all types, regardless of immigration status, to interact with the federal government
in any way.
16. CASA and its partner providers have begun to
track a decrease in the number of individuals applying
for certain public benefits. Most troubling has been a decrease in the number of enrollments into benefits completely unrelated to as of yet announced policies, such as

246
a decrease in the number of immigrants applying for
health insurance made available through the Affordable
Care Act or a decrease in the number of Legal Permanent Residents applying for citizenship. We have also
noted a marked decrease in individuals accessing food
stamps, which has not only made families less food secure but also contributed to local schools systems losing
funding, because aid is tied in part to the number of children in the schools who are receiving food stamps. To
those of us at CASA, this decreased participation indicates that the Trump Administration’s policies are not
only affecting those directly targeted by these policies,
but are increasing fear among the immigrant community more broadly. Similarly, CASA has noticed a general distrust of government resulting in increased hesitancy among naturalized US Citizens and their family
members to register to vote for the first time.
B.

CASA Members are Less Willing to Engage with
the Decennial Census Due to Increased Fear

17. Under the current environment, CASA members have expressed fear of even a knock on their door
by a stranger given the high number of arbitrary immigration enforcement actions that have resulted in
the deportation of immigrants with little or no criminal
background in the communities CASA serves. During
CASA’s census outreach efforts, one of the most effective messages for ensuring that residents completed
their census forms was that by self-reporting, they would
avoid a surprise visit from a census bureau employee.
In addition, Many CASA members have expressed doubts
and fears about how information within the government

247
is shared, and whether an answer to a question on a particular document or application may lead to their family
being harmed or separated.
18. Following the announcement by the Trump Administration that they were seeking to exclude millions
of immigrants from the Census count, CASA was approached by a number of media outlets, including CNN,
to represent the reaction of our community. We conveyed how harmful the action is and our commitment to
ensuring that our members are fully counted.
19. The threat that undocumented residents will not
be counted for apportionment purposes even if they do
participate in the Decennial Census has further discouraged individuals from participating in the Census.
This action by the Trump Administration is the latest
iteration of its attempts to dehumanize undocumented
residents, by stating that they are not “persons” under
the 14th Amendment of the U.S. Constitution. In addition, this latest action has heightened concerns regarding the privacy and confidentiality of Census questionnaire responses. The announcement that the Administration will exclude undocumented residents from
the apportionment base has led to concerns that the Administration is gaining detailed information regarding
where undocumented residents reside, and could use
this information to target our members’ communities
with immigration enforcement actions or other adverse
consequences.
20. The Presidential Memorandum decreases the
likelihood that CASA members will participate in the
Decennial Census, where the perceived costs of potential adverse immigration enforcement actions appears to
outweigh the potential benefits, particularly when the

248
Decennial Census will not contribute to promoting the
political power of these communities.
C.

CASA is Diverting Resources to Encourage Participation in the Decennial Census

21. CASA recognizes the importance of the Decennial Census for its members and the broader Latino immigrant community. Participation in the Census is necessary to preserve the political power of these communities, and to ensure that these communities receive the
vital federal resources that so many of our members rely
upon. In order to combat the increased fear in the Latino immigrant community, and the unwillingness of
many CASA members to participate in the Decennial
Census, CASA has planned and is currently implementing a massive response to try and overcome the many
barriers to participation.
22. This latest action by the Trump Administration
to exclude undocumented residents from the apportionment base has diluted the efficacy of our Census outreach materials and programming, as it directly contradicts a key component of CASA’s messaging and outreach materials. As a result, CASA must now devote
additional resources to addressing the confusion and
fear that have resulted from this latest action after 15
months of preparation and action in our Decennial Census programming.
23. To address the fear and confusion raised by the
Presidential Memorandum in the immigrant communities, CASA will have to reorganize its communication
team, reassign staff to Census outreach and education,
and revise and redistribute messaging materials that
CASA has prepared regarding the Decennial Census.

249
Given that the significant additional funding for this
work was not anticipated, some of the resources required to do this work will have to be diverted from
other programs that are key to CASA’s mission, including community and issue organizing and other civic engagement efforts, as well as funded through other sources,
perhaps including CASA reserves, precious unrestricted
funds including membership dues, and leveraged with
volunteers. CASA’s outreach program was scheduled
to end at the end of July, but we have been forced to continue to dedicate staff time to respond to calls and questions, and to place additional funding into communications and digital work to reassure community members
and encourage them to complete their census form.
The increased focus on Census outreach and education
and need to revise all of CASA’s Census education and
messaging materials will necessarily divert CASA’s limited resources, resulting in less resources being allocated to other vital CASA programs.
24. Unfortunately, CASA will have less time than
anticipated to address the fear and confusion caused by
the Presidential Memorandum among the immigrant
communities that CASA serves. The actual counting
period of the Census is only a few months, but the consequences of the Census in terms of political power and
funding allocation last for a decade. At the time the
Presidential Memorandum was published on July 21,
there were 102 days remaining in the enumeration period, which was then scheduled to end on October 31.
However, on July 31, the Census Bureau abruptly accelerated the end of the enumeration period to September
30. With only 56 days left in the headcount, every single day remaining is a critical opportunity for CASA and

250
its members to conduct further Census outreach and increase response rates in the immigrant communities we
serve. CASA will have to accelerate its remaining Census education and outreach efforts to address the Presidential Memorandum’s negative effect on Census responses.
25. I declare under penalty of perjury that the foregoing is true and correct.
Executed: [Aug. 5], 2020
Prince Georges County, MD
/s/ GUSTAVO TORRES
GUSTAVO TORRES

251

Exhibit 56

252
Expert declaration of Matthew A. Barreto, Ph.D.
I.

Background and Qualifications

1. I am currently a Professor of Political Science
and Chicana/o Studies at the University of California,
Los Angeles. I am the co-founder and faculty director
of the Latino Politics and Policy Initiative (LPPI) in the
Luskin School of Public Affairs, a national research center that studies policy issues that impact the Latino and
immigrant community.
2. Before I joined UCLA in 2015, I was a professor
at the University of Washington for more than nine
years, where I was promoted to Associate Professor
with tenure, and then Full Professor with tenure. At the
University of Washington, I was an affiliated faculty
member of the Center for Statistics and the Social Sciences, and an adjunct Professor of Law at the UW
School of Law. I am also the co-founder of the research firm Latino Decisions.
3. Throughout my career, I have taught courses on
Immigration Policy, Racial and Ethnic Politics, Electoral
Politics, Public Opinion, Voting Rights, Chicano/Latino
History, Introduction to Statistical Analysis, and Advanced Statistical Analysis to Ph.D. students.
4. I earned a Ph.D. in Political Science at the University of California, Irvine in 2005, with an emphasis on
racial and ethnic politics in the United States, political
behavior, and public opinion.
5. I have published multiple peer-reviewed academic research papers on Latino participation in the
U.S. Census, immigrant public opinion and immigrant
political engagement (among other topics).

253
6. In 2018 I provided expert reports and testimony
in three federal lawsuits challenging the Department of
Commerce’s inclusion of a citizenship status question on
the 2020 Census, which included an extensive literature
review and evaluation of how immigrants react to changes
to the U.S. Census. In all three federal trials, the courts
recognized my expertise in studying immigrant political
and civic participation, and cited my literature review in
ruling in favor of the plaintiffs.
7. I have conducted research nationwide and in
New York, California, Indiana, Wisconsin, Pennsylvania, Alabama, Texas, North Dakota, and North Carolina
in connection with litigation assessing, among other
things, how the public responds to, and is affected by,
changes in the law. Courts have accepted my research
studies as viable and methodologically accurate instruments to understand how the public responds to changes
in state law. In particular, my previous research has
focused on understanding sub-group analysis to evaluate differential impacts by race and ethnicity. Recently in North Carolina, a federal court relied on my research in issuing an injunction against the state’s voter ID
law. In addition, the United States District Court for
the District of North Dakota stated in Brakebill v. Jaeger (No. 1:16-cv-008) that “the Court gives the findings
of the Barreto/Sanchez Survey, and the other studies
and data presented by the Plaintiffs, considerable
weight.” Prior to this, in 2014 in Veasey v. Perry (No.
13-CV-00193), the United States District Court for the
Southern District of Texas, and in findings affirmed by
the Fifth Circuit Court of Appeals, found that my survey
was statistically sound and relied upon my survey findings to evaluate the impact of Texas’s voter ID law.

254
Likewise, in Frank v. Walker (No. 2:11-cv-01128), a survey I administered and included as part of my expert
report was given full weight by the United States District Court for the Eastern District of Wisconsin in a
voter ID case in Wisconsin.
8. In Fish v. Kobach (No. 16-2105-JAR-JPO), the
plaintiffs retained me as an expert witness to evaluate
the methodology of the defendant’s survey, and the
United States District Court for Kansas found me to be
an expert on best practices of survey research and credible and qualified to discuss survey methodology.
9. I have also regularly presented my expert review and summary of social science literature as part of
expert witness reports and declarations, which have
been accepted as valid and relied upon by the courts.
Review of published social science literature is a wellestablished method among political scientists and social
scientists in general for drawing valid conclusions regarding the general consensus in the field. Literature
reviews are an essential component of all academic research and a requirement for publishing peer-reviewed
academic research because they establish the baseline
set of knowledge and expectations within the field. As
noted above, in litigation challenging the addition of a
citizenship question to the 2020 decennial census, three
federal courts in New York, California, and Maryland
relied upon my literature review as providing credible
and valid evidence to help the courts form their opinions.
10. Earlier in 2020, in New York v. Immigration
and Customs Enforcement, I provided an in-depth literature review examining how immigrant communities respond to increased immigration enforcement, surveillance and monitoring of undocumented immigrants.

255
11. My full professional qualifications and activities
are set forth in my curriculum vitae, a true and correct
copy of which I have attached hereto as Appendix A.
II.

Scope of Work

12. Plaintiffs in this action retained me to evaluate
whether the Presidential Memorandum (PM) issued by
President Donald Trump on July 21, 2020 to exclude undocumented immigrants from the apportionment base in
2020 would have a negative impact on the Census participation rates of immigrant communities, including undocumented immigrants, legal permanent residents,
and naturalized U.S. citizens. To conduct my evaluation, I reviewed two sources of information. First, I
compiled an analysis of news coverage of the PM to assess the reach of the announcement. Second, I conducted
a comprehensive literature review on survey methodology, response rates, sensitive questions and methodology, and census procedures addressing missing data and
imputation.
13. I worked on this project with Mr. Marcel Roman,
a Ph.D. student in the department of Political Science at
UCLA and Mr. Chris Galeano, a J.D. student in the
UCLA School of Law. Mr. Roman and Mr. Galeano both
helped me compile sources for the literature review and
news coverage of the aforementioned PM.
III. Executive Summary

14. Based on my review of the news coverage of the
PM, the extant literature published in the social sciences, and my own extensive experience with immigrant
civic engagement, I conclude that the July 21 PM will
reduce participation in the 2020 census, and ultimately
will reduce the accuracy of the 2020 census. The PM

256
generates the perception of real and immediate threat
for undocumented immigrants that will erode their trust
in the census, which will lead to increased non-response
in immigrant communities. Calling attention to the citizenship or immigration status of immigrants in a negative light causes immigrants to reduce their civic engagement. The new PM sends a signal of government
monitoring citizenship status as it relates to the 2020
Census population count, eroding trust that was restored after the threat of a citizenship question on the
Census was removed. The strength of that negative
signal is visible in coverage of the PM in Spanishlanguage media, which is a trusted source of news within
Latino and immigrant communities. Signals of a threat
to the status of undocumented immigrants generate a
well-documented “chilling effect” on public participation
for immigrants, i.e., the perception of threat will erode
trust that leads to a reduction in immigrant engagement
with government programs and officials. However,
subsequent official action to counteract such threats—
either court orders or changes in agency policy—have
positive effects on trust and engagement. The perception of immigration status-related threat generated
by the PM will make undocumented and mixed-status
households less likely to engage with the Census—
particularly with enumerators conducting in-person
Non-Response Follow-Up (NRFU). The reduction in
response rates among undocumented immigrant and
mixed-status households will result the Census Bureau
using proxy-response and imputation techniques that
are error-prone and tend to undercount immigrant
households.

257
15. My review of news accounts following President
Trump’s July 21 PM finds there was widespread coverage, particularly within Spanish-language news media.
Whether through television, print, or online outlets, the
message relayed by the media was that the PM singled
out immigrants through a process that invoked citizenship status, or a lack thereof, as part of the 2020 Census,
in an effort to exclude them from the apportionment
process. Spanish-language news journalists reported
that as a result of the PM there was confusion, fear, and
anxiety in immigrant communities about fully participating in the 2020 Census. According to a journalist
for Telemundo 1 who spoke with many people familiar
with the PM, “activists have already reported that this
attempt may have scared many people off from responding to the Census, which is particularly detrimental to
states with high immigrant populations such as California, Texas, and New York.” This sentiment was widely
reported across Spanish-language news in the days and
weeks following the July 21 PM.
16. Extensive research studies show Spanish-language media acts as a catalyst for engaging, informing
and mobilizing Latino and immigrant communities.
Spanish-language journalists and news anchors act as a
medium for the feelings and concerns prevalent within
Latino immigrant communities, specifically those who
are undocumented. Spanish-language media plays a
Telemundo. “Trump Ordena Al Censo Que No Incluya a Los Indocumentados En El Recuento Que Determina El Reparto De Escaños Del Congreso,” July 21, 2020. https://www.telemundo.com/
noticias/noticiastelemundo/inmigracion/trump-ordena-al-censo-queno-incluya-los-indocumentados-en-el-recuento-que-determinaeltmna3823616.
1

258
central role in mobilizing and educating the immigrant
community on immigration issues in particular. The
high levels of trust in Spanish-language media amongst
immigrants plays a key role when listening and learning
about the issues that matter most to them, in particular
those related to immigration policy. Research studies
have documented that many immigrants take direct
cues related to civic engagement and participation from
what they hear, read, and watch on Spanish-language
media.
17. Undocumented immigrants are deeply intertwined into the fabric of American communities. Research and statistical reports have repeatedly found
that undocumented immigrants see themselves as part
of American society and indeed have longstanding ties
in the cities and towns in which they permanently live.
A clear majority of undocumented immigrants have
lived in the United States for over five years and have
families, hold jobs, own houses, and are part of their
community. A survey of Latino undocumented immigrants 2 found that 89% had lived in the U.S. over five
years, that 74% have children living with them in the
U.S. and 85% have a family member in the U.S. who is a
U.S. citizen, and indeed that 87% of undocumented immigrants themselves said they hoped to one day become
U.S. citizens if legislation were passed to provide that
opportunity.
18. Following the June 2019 ruling by the U.S. Supreme Court blocking the inclusion of a citizenship ques-

https://latinodecisions.com/wp-content/uploads/2019/06/NALEO_
AV_Undoc_Results.pdf
2

259
tion, Census partners known as Trusted Voices conducted extensive outreach to undocumented immigrants
to assure them that the federal government would not
be monitoring their citizenship status as it relates to the
2020 Census. The new PM sends a signal of government monitoring citizenship status as it relates to the
2020 Census population count, significantly eroding
trust.
19. The published literature is quite clear: a critical
component to ensure an accurate response rate on any
survey, including the census, is trust between the public
and the survey administrator. The prior published
studies conclude that response rates will fall without a
high degree of trust. The new PM erodes the trust that
many community-based organizations with experience
serving immigrants had built up over the past year.
20. Trust is particularly important in communities
with undocumented populations as many prior reports
and publications by the Census Bureau have made clear.
The Census Bureau has identified vulnerable population
subgroups concerned about the potential misuse of personal information provided to the Census as at-risk for
low participation rates and for undercounts. From this
perspective, the new PM lowers trust and makes it much
harder to stimulate participation in the census from vulnerable populations such as immigrant 3 and minority
communities, if such communities do not trust the Census.

Here we mean persons who are foreign-born and emigrated to
the United States.
3

260
21. Far-ranging social science research documents
a phenomenon called “the chilling effect” in which immigrant communities withdraw and avoid interactions with
government officials or agencies if they believe there
could be a risk of adverse consequences for their own
immigration status or the status of others in the community. Specifically, some studies have found that Census participation rates drop in immigrant communities
when federal immigration enforcement is perceived to
be connected to the Census. In fact, the Census Bureau has published studies pointing to fears over the
federal government learning their about citizenship status as a major obstacle in some immigrant communities.
22. Social science research since the 1990s, but especially so in more recent years, is near consensus in
finding evidence of the “chilling effect,” i.e., strong patterns of avoidance, withdrawal, and exclusion during times
of increased immigration enforcement. This research is
often community-focused and highlights how increased
attention to immigration status or immigration monitoring by authorities, results in noticeable withdrawal in
that specific context. Immigrants, and often their children and others in their close network, will purposely
avoid or withdraw from an environment where they fear
potential immigration enforcement. The fear associated with detention, separation from their children or
family, and possible deportation is so paralyzing that
many immigrants—when faced with possible immigration enforcement—avoid even necessary public services
such as police protection, health services, going to work,
sending their children to school, or attending court to
defend their rights. The takeaway is clear—increased
negative attention to citizenship status issues decreases

261
trust in those specific agencies or actors and leads to immigrant withdrawal.
23. If trust is low, attempts to re-interview or recontact households will be far less successful either.
Census respondents must believe that there is no jeopardy or threat of disclosure to ensure their participation
in a survey, regardless of how many attempts one might
make to prompt their participation.
24. Already, a prior study from 2018 about perceptions of the 2020 Census found that levels of trust in immigrant and minority communities in the United States
were low as a result of concerns over citizenship. The
extensive media attention to the citizenship question resulted in high levels of fears among immigrants. When
asked about the protection of their and their family
members’ sensitive information, including citizenship
status, immigrant respondents were statistically less
likely to trust that the Trump administration will protect their information and not share it with other federal
agencies (just 35% were trusting). Among Latino respondents overall, just 31% trust the Trump administration to protect their personal information, which is statistically lower than among non-Latinos. While the
June 2019 SCOTUS decision may have alleviated these
fears by striking the citizenship question, the July 2020
PM effectively re-confirms those immigrant fears because it sends a signal to immigrant communities that
the Trump administration will be monitoring their citizenship status so they may subtract these participants
from the 2020 base population count for the apportionment base. In essence, Trump has returned the immigrant community to a condition of wariness similar to

262
when the citizenship question was to appear on the census.
They believe their participation is either no
longer safe, or not required due to the PM of July 2020
to specifically single out undocumented immigrants.
25. The survey also found that large percentages of
immigrants and minorities are concerned specifically
that their personal information reported on the census
will be shared with Immigration and Customs Enforcement (ICE). Overall, 41% of immigrants surveyed
state they are concerned about this, along with 40% of
Latinos.
26. When households do not initially self-respond to
the census, the Census relies on nonresponse follow up
(NRFU) to re-contact households to encourage them to
respond. In simulated re-contact, my research has demonstrated that a majority of non-responders to the 2020
census will not switch and become participants when
asked again to do so. In particular, research has found
that NRFU is less successful when immigrant communities have fears about information concerning their citizenship status being collected or revealed.
27. Larger households will be the most difficult to
successfully convert from nonparticipation to participation if there are fears about citizenship status data being
collected or monitored, further undermining an accurate
count. Existing research has found that among immigrants who would take the census upon NRFU recontact, their average household size is 2.91 compared to an
average household size of 3.94 for immigrants who
would not participate upon recontact, leaving them, and
their larger households uncounted.

263
28. One of the ways Census Bureau officials try to
account for people who refuse to respond to the census
is to mathematically account for non-responders through
statistical methods such as “substitution” or “imputation.” Both of these methods use information on responding households to estimate population information
on non-responding households. However, when there
are fears about citizenship status are introduced, nonresponding households are statistically different than
responding households on a variety of critical demographics, which violates an important assumption of
substitution or imputation. For these methods to serve
as viable alternatives, missing units and reported units
should be roughly equivalent. However, the existing
research reveals that when fears over citizenship status
emerge, non-responding households are more likely to
be larger in size, be foreign-born, and have different age
and educational outcomes than responding households.
This will make substitution and imputation inaccurate
and unreliable, and makes it highly likely that there will
be a net undercount of households refusing to respond
to the census due to the citizenship question.
IV. Literature Review and Research Findings
A. The July 21 Presidential Memorandum Received Wide Coverage in Spanish News Media
and Created Confusion and Fear About the
2020 Census

29. On July 21, 2020 President Trump issued a Presidential Memorandum declaring that undocumented immigrants will be excluded from the decennial census for

264
apportionment purposes.4 Specifically, following the
completion of the 2020 Census, the PM requires that individuals without lawful immigration status be excluded
from the apportionment base for the purpose of the reapportionment of the U.S. House of Representatives.
The PM refers to last year’s Executive Order 13880 5
which instructed executive departments and agencies to
share information with the Department of Commerce
. . . to obtain accurate data on the number of citizens,
non-citizens, and illegal aliens in the country.” This order signals to hard-to-count populations, such as undocumented immigrants and mixed status families, that the
federal administration is compiling citizenship related
data on them, and that they are to be excluded from the
2020 Census.6 While there are technicalities that an
undocumented immigrant may fill out the Census form,
and then be deducted later, this nuance is lost on a community that has been under constant attack and threat
from President Trump and his administration.
A
Memorandum on Excluding Illegal Aliens From the Apportionment Base Following the 2020 Census (July 21, 2020), https://www.
whitehouse.gov/presidential-actions/memorandum-excluding-illegalaliens-apportionment-base-following-2020-census/
5
Collecting Information About Citizenship Status in Connection
With the Decennial Census (July 11, 2019), https://www.whitehouse.
gov/presidential-actions/executive-order-collecting-informationcitizenship-status-connection-decennial-census/
6
Some point out that matching census and administrative data will
lead to matching errors and exclude millions of U.S. citizens from
the apportionment process. Randy Capps et al., Millions of U.S.
Citizens Could Be Excluded under Trump Plan to Remove Unauthorized Immigrants from Census Data, Migration Policy Institute
(July 2020), https://www.migrationpolicy.org/news/millions-us-citizenscould-be-excluded-under-plan-remove-unauthorized-immigrantscensus
4

265
memorandum issued by the President stating that undocumented immigrants will be identified in specific
communities and then excluded from the official Census
population count sends a clear message of exclusion.
30. In particular, the PM reverses recent progress
that has been made by community-based organizations
following the June 2019 Supreme Court ruling which
blocked the citizenship question from being added to the
2020 Census. In an effort to mitigate the challenge
posed by the citizenship question, outreach advocates
also sought to use the U.S. Supreme Court’s decision as
a starting point “to convince everyone to participate in
the census count” and emphasize the benefits of participating in the census. 7 Because the highest and definitive court in our country had struck down the citizenship
question, outreach to immigrant communities could emphasize this as a selling point to fill out the census without any fears about someone’s immigration status being
reported. For the Census Bureau’s part, they would enact a public outreach plan that involved “working with
local organizations to encourage census participation
among immigrants, communities of color and other groups
the bureau considers hard to count” to combat the mistrust by these communities. 8
31. The new PM undermines these efforts and implies the government is attempting to enumerate the undocumented immigrant population, which could undercut participation. Because of the 2019 Supreme Court

https://www.huffpost.com/entry/2020-census-citizenship-question
_n_5d2f378ce4b02fd71dddf974
8
https://www.npr.org/2019/07/31/746508182/push-for-a-full-2020count-ramps-up-after-census-citizenship-question-fight
7

266
decision, there is no direct mechanism for assessing
whether a Census response includes data from an undocumented immigrant using Census responses. If the
federal government is attempting to exclude undocumented immigrants from the Census count, immigrant
communities are likely to draw two conclusions. First,
undocumented immigrants, the people they live in the
same household with, and others in immigrant communities may be worried the government is attempting to
find out their legal status through other means. This is
not beyond the realm of possibility, given that the Trump
administration has instructed federal agencies to use existing state and federal records to determine citizenship
status (Levine, 2020) 9. This could generate a chilling
effect and incentivize households with undocumented
immigrants to provide no additional information to the
Federal Government that they feel would implicate their
immigration status.
Second, undocumented immigrants and those with ties with undocumented immigrants may think the government will use other means
to find them, such as their responses to questions asking
about nativity or ethnic/racial group. Therefore, they
will not fill out the Census form writ large since probabilistically, providing information on other characteristics might facilitate government efforts to track and
identify undocumented immigrants.
32. After the President announced the PM, widespread reports about how the PM would seek to exclude
undocumented immigrant populations from the reap-

For instance, Nebraska, South Dakota, and South Carolina voluntarily agreed to transfer citizenship data from their state driver’s
license and state ID records to the U.S. Census Bureau (Wang, 2020)
9

267
portionment process were published by major news outlets throughout the U.S. 10 Major Spanish-language me-

Alex Daughery, Florida Could Lose Power in Washington if
Trump’s New Immigration Order is Enacted, MIAMI HERALD
(July 21, 2020), https://www.miamiherald.com/news/politicsgovernment/article244382462.html; Alexandra Alper and Nick
Brown, Trump Issues Memo To Stop Counting Undocumented
Migrants In Next Round Of Redistricting, HUFFINGTON POST
(July 21, 2020), https://www.huffpost.com/entry/trump-executiveorder-immigrants-redistricting_n_5f1709e0c5b615860bb7f415; Chris
Megerian, Trump Tries New Move to Restrict Census, Could Cut
California’s Seats in Congress, L.A. T IMES (July 21, 2020), https://
www.latimes.com/politics/story/2020-07-21/trump-new-tack-restrictimmigrants-census; David Jackson, Trump Tells Census to Not
Count Undocumented People for Purposes of Deciding House Apportionment, USA TODAY (July 21, 2020), https://www.usatoday.com/
story/news/politics/2020/07/21/trump-tell-census-not-countundocumented-immigrants/5459873002/; Jill Colvin and Kevin Freking, Trump to Exclude Those in US Illegally From Congressional
Reapportionment Count, Chicago Sun-Times (July 21, 2020), https://
chicago.suntimes.com/2020/7/21/21333076/trump-to-llegally-fromcongressional-reapportionment-count; Katie Rogers and Peter
Baker, Trump Seeks to Stop Counting Unauthorized Immigrants
in Drawing House Districts, N.Y. TIMES (July 21, 2020), https://www.
nytimes.com/2020/07/21/us/politics/trump-immigrants-censusredistricting.html; Kevin Freking and Mike Schneider, Trump’s
New Immigration Fight: How to Redraw House Districts, HOUSTON CHRONICLE (July 21, 2020), https://www.chron.com/news/
article/Trump-seeks-to-bar-illegalaliens-from-15423258.php; Kevin
Liptak et al., Trump Signs Order Targeting Undocumented Immigrants in the US Census, CNN (July 21, 2020), https://www.cnn.com/
2020/07/21/politics/white-house-census-undocumented-immigrants/
index.html; Tara Bahrampour, Trump Administration Seeks to
Bar Undocumented Immigrants From a Portion of the 2020 Census, SEATTLE TIMES (July 21, 2020), https://www.seattletimes.com/
nation-world/trump-administration-seeks-to-bar-undocumentedimmigrants-from-a-portion-of-the-2020-census/
10

268
dia and print news outlets throughout the nation also reported on the PM. They included Telemundo, 11 Univision, 12 Azteca America, 13 and Estrella TV 14—all major media sources for Spanish-speaking viewers with
hundreds of local television stations and affiliates throughout the U.S. 15 Newspapers and online media outlets for
Spanish-speaking readers also reported on the PM’s intention to leave out undocumented immigrants from the
Trump Ordena Al Censo Que No Incluya a Los Indocumentados En El Recuento Que Determina El Reparto De Escaños Del
Congreso, TELEMUNDO (July 21, 2020), https://www.telemundo.com/
noticias/noticiastelemundo/inmigracion/trump-ordena-al-censo-queno-incluya-los-indocumentados-en-el-recuento-que-determinaeltmna3823616; Trump Firma Decreto Para Excluir a Indocumentados del Censo 2020, TELEMUNDO SAN ANTONIO (July 21, 2020),
https://www.telemundosanantonio.com/noticias/la-casa-blanca/
presidente-trump-decretoindocumentados-censo-2020/2068275/.
12
Trump Ordena al Censo No Contar a Los Indocumentados en
un Memo de Dudosa Legalidad y Difícil de Cumplir, UNIVISION
(July 21, 2020), https://www.univision.com/noticias/eleccionesen-eeuu-2020/trump-ordena-alcenso-no-contar-a-los-indocumentados-en-un-memo-de-dudosa-legalidad-y-dificil-de-cumplir.
13
Ju Carpy, Trump Firma Memo Para Excluir a Migrantes del
Censo, AZTECA AMERICA (July 21, 2020), https://aztecaamerica.com/
2020/07/21/trump-firma-memo-para-excluir-a-migrantes-del-censo/
14
Maria Teresa Sarabia, Inmigrantes Indocumentados No Serán
Contados, ESTRELLA TV (July 21, 2020), http://noticiero.estrellatv.com/
noticias/inmigrantes-indocumentados-no-seran-contados-noticieroestrella-tv/
15
Owned Stations, TELEMUNDO, https://www.nbcumv.com/ownedstations/telemundo-stationgroup/about?network=5266626 (last visited July 31, 2020); Local Media, UNIVISION COMMUNICATIONS
INC., https://corporate.univision.com/partner-with-us/local/ (last visited July 31, 2020); TV, ESTRELLA TV, http://www.estrellamedia.
com/programming/tv (last visited July 31, 2020); Azteca America,
GRUPO SALINAS, https://www.gruposalinas.com/en/aztecaUS (last
visited July 31, 2020).
11

269
reapportionment process. 16 Whether through television, print, or online mediums, the message relayed by
the media was that the order singled out immigrants
through a process that invoked citizenship status, or a
lack thereof, as part of the 2020 Census, in an effort to
exclude them from the apportionment process. Since
the PM was signed, it has prompted discussion by Spanishlanguage news segments on its implications for the immigrant community.17 These reports have conveyed to
16
Jesús García, Trump Firma Memorando Para Excluir a Inmigrantes Indocumentados del Censo, La Opinion (July 21, 2020), https://
laopinion.com/2020/07/21/trump-firma-memorando-para-excluira-inmigrantes-indocumentadosdel-censo/; Jesús García, Trump
Firma Memorando Para Excluir a Inmigrantes Indocumentados del
Censo, El Diario (July 21, 2020), https://eldiariony.com/2020/07/21/
trump-firma-memorando-para-excluir-a-inmigrantesindocumentadosdel-censo/; Kevin Freking and Mike Schneider, Trump Firma Memo
Que Afectaría Conteo de Migrantes, El Nuevo Herald (July 21,
2020), https://www.elnuevoherald.com/noticias/estadosunidos/article
244382772.html; https://www.msn.com/es-mx/noticias/mundo/ordenatrump-excluir-a-indocumentados-del-censo-en-eu/ar-BB171eMI; https://
cnnespanol.cnn.com/video/censo-eleccionesindocumentados-migrantestrump-memorando-constitucion-estados-unidos-dusa-vo/; https://
cnnespanol.cnn.com/2020/07/21/trump-firma-orden-para-excluirinmigrantes-indocumentados-en-el-censo-2020/; https://es-us.noticias.
yahoo.com/trump-firma-memorándum-excluir-indocumentados193912301.html; https://www.dallasnews.com/espanol/al-dia/estadosunidos/2020/07/21/donald-trump-pedira-al-censo-2020-que-no-cuentea-los-indocumentados-segun-funcionario-de-la-casa-blanca/; https://
laoferta.com/2020/07/21/trump-ordena-excluir-a-indocumentados-dedistribucion-electoral-tras-censo/; https://www.lavanguardiahoy.com/
trump-firma-memorandum-que-busca-excluir-a-indocumentados-delcenso-2020/; https://www.excelsiorcalifornia.com/2020/07/22/trumpabre-nueva-polemica-al-ordenar-enxcluir-aindocumentados-de-censo/
17
https://www.telemundo62.com/videos/videos-noticias/implicacionesde-remover-a-los-indocumentados-del-censo-2020/2063236/;https://
www.univision.com/local/los-angeles-kmex/que-implicaciones-tiene-

270
Spanish-speaking audiences that millions of undocumented immigrants living in the U.S. would not be counted
when deciding how to apportion congressional seats because of the PM, affecting states such as California,
Florida, and Texas, each of which includes large undocumented immigrant populations within their communities. 18
33. Across these news accounts, immigrants, as well
as individuals who worked with community-based organizations that serve immigrants, and even journalists,
all stated that they believed the July 21 PM was an effort to sow confusion and distrust, and to reduce the
count of Latinos and immigrants on the 2020 Census.
Examples of some of the direct quotations from these
news sources include:
a.

“Este memo obviamente causa miedo entre esta
población en particular, te pregunto, ¿podría
ser el miedo una de las razones por la que la comunidad hispana no participe en el Censo 2020
o se siente que su participación sea baja?
Lamentablemente no es la primera ves que el
Presidente Trump amenaza y amedrenta nuestra comunidad inmigrante indocumentada

la-orden-de-trump-que-busca-excluir-a-los-indocumentados-del-censo2020-video; https://www.univision.com/local/philadelphia-wuvp/
lideres-reaccionan-ante-peticion-de-trump-para-excluir-a-personas-indocumentadas-del-censo-2020-video
18
https://www.chron.com/news/article/Orden-de-Trump-afecta-censoen-California-15434405.php; https://eldiariony.com/2020/07/21/enormeoposicion-a-orden-de-trump-que-afectaria-a-millones-de-inmigrantesy-que-califican-de-ilegal/; Mike Schneider, Orden de Trump afecta
censo en California, Florida y Texas, El Nuevo Herald (July 25,
2020), https://www.elnuevoherald.com/article244496782.html

271
. . . y si, fomenta el miedo en nuestras comunidades. Una ves más, le dice a nuestra comunidad inmigrante, no se cuenten, no los necesitamos.” “This memo obviously causes fear
among this particular population, I ask you,
could fear be one of the reasons why the Hispanic community does not participate in the 2020
Census or feels that their participation is low?
Unfortunately, this is not the first time that
President Trump has threatened and intimidated our undocumented immigrant community
. . . and yes, he has fostered fear in our communities. Once again, he tells our immigrant
community, don’t count yourselves, we don’t
need you.” 19
b.

“Hay varias organizaciones que están reaccionando y no están de acuerdo con esta movida
de la casa blanca porque ya llevan más de un
año tratando de incentivar a la comunidad de
indocumentados para que participen del censo,
para que no tenga miedo y hagan escuchar su
voz, ahora esta acción prácticamente se convierte en un golpe bajo para la comunidad de
inmigrantes indocumentados en este país.”
“There are several organizations that are reacting and do not agree with this move by the White
House because they have been trying for more
than a year to encourage the undocumented
community to participate in the census, so that

Telemundo 62. “Implicaciones De Remover a Los Indocumentados Del Censo 2020.” Telemundo 62. Telemundo 62, July 22, 2020.
https://www.telemundo62.com/videos/videos-noticias/implicacionesde-remover-a-los-indocumentados-del-censo-2020/2063236/.
19

272
they are not afraid and make their voice heard,
now this action practically becomes a low blow to
the undocumented immigrant community in this
country.” 20
c.

“Además, afirman que el anuncio del presidente
“claramente” tiene la intención de promover el
miedo y disuadir la participación en el censo de
inmigrantes y sus familias, ya que se produce
solo unas semanas antes de que los enumeradores estén programados para salir y alentar a los hogares a responder al censo.” “In addition, it claims that the president’s announcement is “clearly” intended to promote fear and
discourage participation in the census by immigrants and their families, since it comes just
weeks before enumerators are scheduled to
leave and encourage households to respond to
the census.” 21

d.

“Algunos oponentes afirman que es un intento
para suprimir el creciente poder político de los
latinos en Estados Unidos y discriminar a las
comunidades inmigrantes de otras minorías no
blancas.” “Some opponents claim it is an attempt to suppress the growing political power of

Univision. “Líderes Reaccionan Ante Petición De Trump Para
Excluir a Personas Indocumentadas Del Censo 2020.” Univision,
July 22, 2020. https://www.univision.com/local/philadelphia-wuvp/
lideres-reaccionan-ante-peticion-de-trump-para-excluir-a-personasindocumentadas-del-censo-2020-video.
21
EFE, Agencia. “Coalición De Fiscales Demanda Al Presidente
Trump Por Su Acción Con El Censo.” Yahoo! Yahoo! Accessed July
29, 2020. https://es-us.noticias.yahoo.com/coalici%C3%B3n-fiscalesdemanda-presidente-trump-230425578.html.
20

273
Latinos in the United States and to discriminate
against other non-white, minority immigrant
communities” 22
e.

“Es una manera de tratar de eliminarnos numéricamente del mapa, borrarnos en cuanto a
números” “It is a way of trying to wipe us out
numerically, wipe us out in terms of numbers”

34. The PM has threatened to upend a year’s worth
of outreach efforts by groups focused on hard-to-count
populations. These groups now face a big challenge:
reach out to people who haven’t filled out their census
form yet who are now worried the federal administration will use whatever information they provide in the
2020 Census to target them. Solving this challenge is
now more urgent for these groups given the Census Bureau’s recent decision to shorten the period for collecting responses, including NRFU operations, by 31 days. 23
35. According to Arturo Vargas, the CEO of NALEO,
one of the nation’s top civic engagement organizations
in the Latino and immigrant community, the new PM is
a setback that creates fear in the immigrant community.
NALEO has been identified by the Census Bureau itself
as one of the most important “trusted voices” to earn
trust in the Latino community. Vargas stated on Twitter 24: “With a successful #NALEOVirtual Conference
Mike Schneider. “Orden De Trump Afecta Censo En California, Florida y Texas.” Houston Chronicle. Associated Press, July 29,
2020.
https://www.chron.com/news/article/Orden-de-Trump-afectacenso-en-California-15434405.php.
23
https://www.npr.org/2020/07/30/896656747/when-does-censuscounting-end-bureau-sends-alarming-mixed-signals
24
https://twitter.com/ArturoNALEO/status/12917643134058127
37?s=20
22

274
done, time now to refocus on #Census2020—which just
got even MORE DIFFICULT with @POTUS effort to
exclude immigrants from the apportionment numbers
and cutting short @uscensusbureau’s time to finish the
count. Our community is scared.” Vargas went further to note 25 that the new PM was undoing progress
made after striking the citizenship question, “#Census2020 is the most challenging to promote participation
I have seen in my career. After @SCOTUS stopped a
citizenship question, we had a fighting chance. Now
@POTUS has made it much harder by his July 21 memo
and by cutting off @uscensusbureau’s field work early.
@NALEO”
B. Spanish-Language News Media is a Trusted
Source for Immigrants

36. Studies show Spanish-language media acts as a
catalyst for engaging and mobilizing Latino and immigrant communities. Spanish-language journalists and
news anchors act as a medium for the feelings and concerns felt amongst Latino immigrant communities, in
particular among undocumented immigrants. GreenBarber discuss these trends in Spanish-speaking media. 26 She found that Spanish-speaking households
have high utilization of internet and Spanish TV and radio, indicating the large presence and critical role of the
Spanish-language media has in Spanish speaking homes.
She also found that the Spanish-speaking media plays a

https://twitter.com/ArturoNALEO/status/12917925603907297
28?s=20
26
Lindsay Green-Barber, Latinos and the media: Patterns, changes
and ideas for more connection, Center for Investigative Reporting.
25

275
central role in mobilizing and educating Latino communities on immigration issues in particular.
37. Research shows that households who more closely
follow Spanish-language news rely on that information
when it comes to civic and political engagement. 27 GarciaRios and Barreto (2016) investigated media habits of Latino immigrants and found that people with high rates
of Spanish-language news consumption were more informed and had high rates of immigrant identity, meaning that they were particularly aware and responsive to
immigration-related news and current affairs. 28 In
2012, a positive association between Spanish news coverage of President Obama’s DACA program and immigrant identity spurred naturalized citizens to vote at
higher rates. In other instances, exposure to negative
information can lead to withdrawal.
38. Research on Spanish-language media by Federico Subervi-Velez (2008) notes “the intersection between media and Latinos when assessing political socialization and mobilization of Latinos.” 29 To put simply,
Spanish-language media is a critical bridge that informs

Barreto, Matt. Garcia-Rios, Sergio. “Politicized Immigrant
Identity, Spanish-Language Media, and Political Mobilization in
2012.” RSF: The Russell Sage Foundation Journal of the Social
Sciences. January 06, 2016
28
Barreto, Matt. Garcia-Rios, Sergio. “Politicized Immigrant Identity, Spanish-Language Media, and Political Mobilization in 2012.”
RSF: The Russell Sage Foundation Journal of the Social Sciences.
January 06, 2016, p. 78.
29
Subervi-Vélez, Federico A., ed. 2008. The Mass Me- dia and Latino Politics: Studies of U.S. Media Content, Campaign Strategies
and Survey Re- search: 1984–2004. New York: Routledge.
27

276
and influences immigrants in politics and is often a direct reflection of Latino immigrant opinion in America.
One example is the reliance of Spanish-language radio
to share and spread information about anti-immigrant
legislation in the U.S. Congress (Felix et. al, 2008). Research found that Spanish media personalities such as
Almendarez Coello (El Cucuy), Eduardo Sotelo (El Piolin) and Christina Saralei presented and educated the
community on the anti-immigration rhetoric that was
becoming prominent in politics (Felix et al, 2008).
Coello and Sotelo’s provided daily updates and created
awareness about H.R. 4437, a bill that could negatively
impact immigrant communities.
In particular, research has found that the high levels of trust in Spanishlanguage media plays a key role when Latino immigrants read or hear about the issues that matter most to
them, like immigration policy.
C.

Trust and Socio-Political Context are Two Key
Factors That Impact Survey Response Rates and
Accuracy

39. The decennial census is a population survey.
There have been extensive studies across the social sciences documenting the best practices and potential pitfalls in collecting accurate survey data. With respect
to evaluating the 2020 Census there are two key takeaways that are quite clear in the published literature.
First, trust between the public and the survey administrator is crucial. Prior studies conclude that response
rates will fall without a high degree of trust, leading to
a biased survey project because it excludes people from
the data and is no longer representative. Second, the
social and political context during survey implementa-

277
tion can greatly impact trust, confidence, and participation rates. This is especially the case for vulnerable
populations when they perceive an unwelcoming environment or context. Of these key takeaways, the hallmark of cooperation in any survey is trust. Subjects
are more likely to participate in a survey, to complete
survey items accurately, and respond fully to survey
items when they trust the survey administrator. When
potential respondents are suspicious, uncertain, anxious
or untrusting, nonresponse rates significantly increase.
An early study on this topic framed the issue as how
much threat potential respondents perceive through the
source of the survey (Ball 1967; Bradburn et al. 1978).
When subjects identify the survey as being implemented on behalf of authorities who they perceive could
use their answers against them, they are likely to notrespond, or to respond untruthfully (Ball 1967). From
this perspective, newfound fears about citizenship status due to the July 21 PM will make securing participation of immigrant communities much harder than if the
PM had never been issued.
40. A research study by the U.S. Government Accountability Office in 2003 (GAO-03-605) laid out the
most appropriate approaches to surveying the Latino
population specifically. The report was commissioned
because prior government surveys, in particular the
Census, were characterized by high rates of non-response with Latino respondents. The report stated
that distrust—especially of those representing the government—was a leading factor in Latino immigrant nonresponse. To fix this, the report recommended increasing trust so that potential survey respondents are
not fearful of their participation, and not suspicious of

278
the census questions being asked, or the census enumerators visiting their community. The July 21 PM related to undocumented immigrants does precisely the
opposite, increasing distrust and, therefore, making it
substantially less likely that members of the Latino immigrant subgroups will respond to the census.
41. De la Puente (1995) examined issues related to
trust, confidentiality and fear among potential census
respondents in El Paso, Texas and found that fear and
apprehension on part of the sample area residents led to
concealment of information from the Census Bureau and
from the ethnographers, due to their belief that the government will not keep their information private or confidential when it comes to highly sensitive questions.
This research establishes that the Census Bureau already knows it has challenges with trust in some immigrant communities and attempts to overcome those
challenges by not asking sensitive questions that make
it very difficult to persuade communities with low trust.
While the threat of a citizenship question was dropped,
this brand new PM of July 21 instills a new sense of confusion and fear and will result in increased problems
with trust in such communities and a corresponding reduction in Census response.
42. In a follow-up study a decade later, de la Puente
(2004) concluded that individuals with unstable immigration statuses were much less likely to trust the government and specifically less likely to fill out the census
questionnaire.
Indeed, properly counting undocumented immigrants has long been a concern for the Census Bureau. De la Puente’s research demonstrated that
respondents with irregular immigration statuses are un-

279
likely to directly cooperate with the Census if they perceive their immigration status will be revealed. The
July 21 PM does precisely this,; it sends a strong signal
to undocumented immigrants that the federal government is collecting data about them, and will match various government records to find and exclude certain immigrants. One respondent in the de la Puente study,
who did have legal status as a student, was afraid to participate in the Census because she feared that at some
point in the future she may go out of status and that the
information she provided to the Census Bureau might
be used to track her down. According to de la Puente,
it is critical that immigrant respondents clearly understand that their immigration status is not associated
with the Census population count.
43. An important practice that ensures higher participation rates in surveys is respondent anonymity, particularly when there might be concerns over immigration status. The Census violates anonymity by requiring the respondent to list the names of all household
members. If respondents do not trust the survey administrator, and there is no anonymity, vulnerable respondents are far less likely to participate.
Tourangeau and Yan (2007) explain how the “threat of disclosure” can result in non-response. Generally, people
have concerns about the possible consequences of participating in a survey, or giving a truthful answer should
information become known to a third party with enforcement powers. The authors explain a survey may be
“sensitive” if it raises fears about the likelihood or consequences of disclosure of the answers to agencies or individuals directly, or not directly involved in the survey.
As an example, Tourangeau and Yan (2007) discuss ask-

280
ing a question about marijuana use to a group of teenagers. If the teens suspect that the answers could be
shared with their parents, they opt out of the survey or
lie. But if the survey is completely anonymous and implemented by their peers, they are much more likely to
participate and be truthful. The perceived threat of
disclosure to authorities is what matters. With the
July 21 PM, the federal government has clearly created
a perception of threat for immigrants and the 2020 Census.
44. A review of findings across different surveys
suggest that the likelihood of survey response largely
depends on timing and contextual factors, including the
respondent’s personal situation and the features of the
data collection, such as the degree of privacy it offers.
The exact same survey might be highly sensitive and
risk non-participation in one setting, but be acceptable
and proper in another. To this point, a comprehensive
review of survey environment research indicates that
highly sensitive surveys will be disruptive, produce nonresponse, or result in biased data when the respondent
is concerned that their answers could be known by authorities. However, if the respondent feels secure and
has total privacy and anonymity, they are likely to participate and provide truthful answers (Tourangeau and
Smith 1996). In particular, Krysan (1998) found evidence that respondents greatly modified their answers
to questions and issues related to views about race, ethnicity, and immigration based on how they felt the interviewer would perceive or judge their responses.
45. Concerns about confidentiality are likely to exacerbate the unwillingness of certain communities to re-

281
spond to the Census in the current socio-political context created by the July 21 PM. A study of immigrant
communities’ knowledge and awareness of the Census
found that one major concern was confidentiality of personal information (Raines 2001). Beyond the Latino
immigrant community, this study reported evidence that
immigrants from Laos, Somalia, Iraq, Bosnia, and Haiti
expressed concerns over anonymity and confidentiality.
The general takeaway is that as additional private, personal, or sensitive questions are added, the degree of
concern over anonymity and confidentiality raises considerably. Even if the Census Bureau provides assurances, many may not believe or trust those assurances.
In part, this might be due to the current social and political context (laid out above in paragraphs 29-34) or
could also be due to prior experiences in their home
country with authoritarian regimes and government
data collection. Thus, for a population survey to be accurate, it is critical that respondents truly believe their
answers to questions will always remain confidential and
not used against them. The July 21 PM opens the door
to that exact fear because the federal government plans
to use administrative data and records to exclude undocumented immigrants from the base population count.
D. The Threat of Non-Response is Real and
Immediate

46. The overall national sociopolitical environment
has raised awareness and alertness among immigrant
communities, but by itself, the national context does not
depress immigrant participation. Instead the published literature is clear that immigrants react to specific threats as they develop, and they engage fully when
those threats are removed. Indeed, in areas with low

282
levels of immigration enforcement and threat of deportation, or in so-called sanctuary cities, research does not
find evidence of a chilling effect or withdrawal (e.g. Garcia 2019). However, the national context does cause
immigrants to take more notice of their surroundings
and be aware of the potential for a negative interaction
with immigration officials. When immigration enforcement is heightened, the current (2017-2020) national sociopolitical climate can result in a more significant withdrawal. Put simply, President Trump has put the immigrant community on edge. In June of 2019, they had
the protection of the U.S. Supreme Court which gave assurances that their citizenship status could not be connected to the 2020 Census. The July 21 PM changed
the risk of threat in the minds of many immigrants who
hear Trump’s words as connecting a federal monitoring
program of undocumented immigrants to the 2020 Census. They may not do the full research to realize they
can still fill out the Census safely, because they hear the
news which is connecting the July 21 PM to Trump’s
longstanding desire to increase deportation of undocumented immigrants. Further, the July 21 PM sends
the signal to undocumented immigrants to avoid the
Census because they will not be counted. If the President issues a memorandum saying you will not be
counted on the Census base population count, and you
have a lingering fear over your citizenship status, there
is virtually no reason at all to transmit your entire
household’s personal information to the federal government. Existing research makes clear that when new
threats emerge due to changes in policy, immigrants
take note and withdraw.

283
47. Perhaps the best summary of how the combination of federal policies and political environments interact is found in a new book by Angela Garcia, Legal Passing: Navigating Undocumented Life and Local Immigration Law (2019). In this book, Garcia reviews a
plethora of data and research on how immigrant communities respond and react to both threatening and accommodating environments, and how a national climate
of hostility does not automatically create a chilling effect
for immigrants everywhere. Rather, Garcia showed
with extensive evidence that specific context and the
proximate threat of immigration enforcement versus accommodation is what matters the most. Instances with
the highest levels of threat produce the most withdrawal. In her study of more accommodating or welcoming environments, Garcia finds immigrants are able
to navigate life effectively, writing “At the same time,
this book also argues against the popular depictions of
undocumented immigrants being pushed underground,
their perception of threat so strong that they avoid engaging in public life . . . As compared to restrictive
destinations, the integrative outcomes of accommodating locales that I describe in this book are evident in undocumented Mexicans’ ease of physical navigation,
deeper willingness to interact with local police, and
place-based sense of belonging.” Of particular importance is the timing of when threat pop up or become
visible. Garcia describes “initial reactions immediately
after new clampdowns—sweeps, raids, and checkpoints”
being the most intense periods of avoidance. However
eventually immigrants learn how to navigate their communities, and to avoid locations of particular threat, but
otherwise effectively go about their day.

284
48. Thus, the literature demonstrates that the current era is a particularly anxiety-inducing period in
American history for undocumented immigrants, and
those concerned about immigration enforcement. However, this just serves to frame the environment, it does
not by itself lead to wholesale withdrawal. Rather, the
literature points to the importance of specific instances
of threat that result from new policies that create fear,
anxiety and avoidance.
49. Prior survey research in January 2020 30 assessed how Latinos in New York reacted to information
about whether or not ICE was present in and around
state courthouses. The question there was whether increased threat of immigration enforcement resulted in
immigrant withdrawal. ICE was sporadically conducting immigration-related searches in or near state courthouses across New York. In our survey experiment,
we randomly assigned one set of respondents to a condition in which we reminded them of ICE presence at state
courthouses, while other respondents were randomly
assigned to a condition without the information about
ICE presence.
50. Across the full sample of Latinos in New York,
the survey experiment results demonstrate that being
informed about ICE presence at state courthouses has
a strong, and statistically significant causal effect on increasing avoidance behavior and withdrawal. This effect is consistent across eight different types of engagement. When confronted with information about ICE
conducting arrests and detention at courts in New York,
Survey conducted as part of the expert declaration by Matthew
A. Barreto in NY v. ICE lawsuit.
30

285
Latino participants reduced their intention to attend
state court as a witness, as a defendant, to accompany a
family member, to protect their rights, or to testify
about a housing complaint. In addition, they were less
likely to go to the police as witness, or to call the local
police if they witness a crime, or to submit a police report as a victim. This suggests that when Latinos and
immigrants learn about a new threat, they respond immediately with reduced intention to participate or engage.
51. Because the overall sample size of the survey
was large (n=1,001) the New York courthouse research
included additional analyses on immigrant segments
within the main sample. The results of the subset analysis are consistent with the extant literature and expectations, with much stronger causal effects of avoidance
and withdrawal among the foreign-born Latinos, and
much stronger effects among non-citizens, and the
strongest causal evidence of the chilling effect among
Latinos are acquainted with an undocumented immigrant. These analyses provide very strong evidence
that is theoretically motivated and consistent with decades of social science research on the immediate chilling
effect of immigration enforcement.
52. A newer study conducted during the period of
Trump’s presidency finds similar results. The Violence
Against Women Act (VAWA) allows women who are victims of domestic violence to petition to change their immigration status and was used effectively when women
felt safe enough to call immigration officials. However,
in February 2017 the Trump administration reactivated
the Secure Communities program which coordinated lo-

286
cal police databases with ICE. As such, in areas of increased ICE presence, the study found that fewer and
fewer women initiate police reports of domestic violence.
The authors explain this is due to fears over being reported to, or detained by ICE. As the authors conclude, “intensified immigration enforcement might increase misreporting due to fear of being over scrutinized
and, potentially, placed in a position that jeopardizes the
possibility of staying in the country.”
(AmuedoDorantes and Arenas-Arroyo 2019). This is yet another example of a before/after study which finds direct
and immediate evidence of immigrant withdrawal after
a change in policy, in this case, by the Trump administration.
E. Extensive Research Confirms Fears About
Immigration Enforcement and The Chilling
Effect

53. Additional ethnographic research has revealed
that undocumented immigrants and mixed-status households are likely to avoid government contact when they
suspect it is not safe to participate (de la Puente 1995).
This is especially the case when sensitive topics will be
potentially discussed or revealed. Velasco (1992) maintains that undocumented immigrants in his sample area
in San Diego, CA avoided contact with government.
He argues that this avoidance was one of the important
contributing factors to census omission and estimates
that over half of the sample area residents were undocumented immigrants. Similar situations were also reported in the Miami, FL sample area (Stepick 1992) and
in the 26 rural Marion County, OR sample areas (Montoya 1992). However, the ethnographic research all
concludes that participation barriers can be overcome

287
by not including worrisome questions about citizenship
status and by working with community based organizations and cultural facilitators to increase trust and confidence in data privacy.
54. Levels of trust in immigrant and minority communities are very low with respect to issues related to
citizenship. In a prior national survey about the 2020
Census, when asked about protecting sensitive information, including citizenship of themselves and family
members, only 35% of immigrants expressed trust that
the Trump administration will protect their information
and not share it with other federal agencies. Among
Latino respondents overall, just 31% trust the Trump
administration to protect their personal information.
According to my prior survey research, a very large percent of immigrants and minorities believe the Trump administration will share their personal information with
other federal agencies.
55. Research related to the 2020 Census suggests
that the Census Bureau was well aware of potential issues related to non-response over immigration fears.
A comprehensive study by the Census Bureau’s Center
for Survey Measurement presented at the National Advisory Committee on Racial, Ethnic, and Other Populations Fall Meeting 2017 (Meyers 2017) reported an increase in respondents expressing concerns to researchers and field staff about confidentiality and data access
related to immigration, legal residency, and citizenship
status, and their perception that certain immigrant groups
are unwelcome. There was an observation of increased
rates of unusual respondent behaviors during pre-testing and production surveys, including item-nonresponse,
break-offs, and refusals, especially when the questions

288
involved citizenship status. The most commonly occurring finding was that respondents appeared visibly
nervous about disclosing their private information and
who would have access to such data. The current political climate was of concern to respondents: in one
Spanish interview, a respondent stated, “the possibility
that the Census could give my information to internal
security and immigration could come and arrest me for
not having documents terrifies me.”
56. As this finding makes clear, immigrant communities can be especially vulnerable to the social and political context surrounding the implementation of a survey. A study of immigrants in California and Texas
found that respondents’ fear over citizenship status correlated with their non-participation in the health sector
(Berk and Schur 2001). This study found strong evidence that a threatening context can lead immigrants to
withdraw and limit their access to public services, including access to medical care which they greatly needed.
Likewise, anxiety and fear over immigration status has
been found to reduce utilization of services related to
health care, law enforcement, and education (Pedraza
and Osorio 2017). In particular, research has identified the context of heightened “immigration policing” as
one that erodes trust in other public institutions and creates an environment in which immigrant communities
are very selective as to where, when, and how they engage with government agencies (Cruz Nichols, LeBrón
and Pedraza 2018). The finding is not just limited to
first-generation immigrants themselves; the research
also finds a strong spillover effect to U.S.-born Latinos
who have immigrant parents, or feel connected to the
immigrant community, and also demonstrates non-participation during times of threatening context.

289
57. Studies have shown that the political context after 2016 and the election of Donald Trump has significantly diminished Latinos’ trust of the federal government. For instance, Michelson and Monforti (2018)
find that Latinos, including those who are undocumented, were less trusting of government in 2016 than
in 2012. In 2012, trust amongst Latinos was strong
across all subgroups of Latino immigrants—citizens,
non-citizens with legal status, and undocumented immigrants. Four years later, Latinos registered lower levels of trust in government, with fewer than 1 in 20 Latinos in any subgroup responding that they trust the government “just about always.” In addition, Sanchez and
Gomez-Aguinaga (2017) report that an overwhelming
majority of Latinos described Trump and his policies as
scary (74%), dangerous (77%), hostile (78%), and unwelcoming (80%) and they conclude that the current context
is creating tension, anxiety, and nervousness among Latinos and immigrants. While the June 2019 Supreme
Court decision striking the citizenship question allowed
community outreach groups to push reset and create a
campaign that citizenship would not be associated with
the Census at all, the new PM reinjects concerns about
citizenship status into the 2020 population count.
58. Beyond the Latino and immigrant communities,
there is also reason to expect that increased fears about
citizenship could increase non-response rates among
Arab and Middle Eastern Americans. Research by Oskooii (2016) and Lajevardi and Oskooii (2018) demonstrates that American Muslims and those of Arab and
Middle Eastern ancestry currently perceive a high rate
of discrimination and an unwelcoming environment.
Oskooii (2016) explains how perceived social exclusion
can result in withdrawal and non-participation by these

290
communities and documents this fact empirically in his
published research. In research by the Center for Survey Measurement, focus groups conducted in Arabic
among immigrants from the Middle East revealed the
potential for Census non-response due to questions
about citizenship status in light of the current political
climate. (Meyers 2017). Some focus group participants referred to the “Muslim Ban” when expressing
why they would be nervous about reporting their immigration and citizenship status to the federal government.
59. This context is particularly important as it relates to the issues about citizenship status, because this
is the point of tension for many in the immigrant community today. That is, there is grave concern over
providing information to the federal government given
the perceived high rates of immigrant policing. And now
that newfound distrust and fear is directly related to citizenship status as a result of the July 21 PM, a considerable non-response is the likely outcome.
60. A clear implication identified in the relevant literature on surveys is that when respondents perceive a
threatening survey, and if trust is low, non-participation
will result in an inaccurate survey. Further, attempts
to re-interview or re-contact households will not be successful, and some re-contact may only serve to further
erode trust. Survey respondents must believe that
there is no potential jeopardy before participating.
Once a respondent believes that participation in the survey could bring them harm, and that the survey enumerator is acting on behalf of an official agency, attempts at
repeated re-contact typically do not result in a com-

291
pleted survey (Ball 1967). In interviews with the enumerators themselves, there is a sense that the issues related to citizenship status will make their jobs harder, if
not impossible (Meyers 2017).
61. Prior experiences with census data collection efforts that overlapped with anti-immigrant contexts provide evidence that non-response follow-up (NRFU) will
be much more difficult in 2020 given the political climate
and the PM. Terry et al. (2017) describe the connection between a threatening context and Census non-response in Arizona and Texas among immigrant communities: “the wider social context also had an important
role in enumeration. Just before the NRFU enumeration program started in 2010, Arizona passed a very
strong anti-immigration law that coincided with legal ordinances in two Dallas-area cities. These ordinances
were aimed at identifying illegal immigrants through
police stops or the reporting of immigration status of applicants wishing to rent apartments. The new law provoked heightened tensions around the country, particularly in the Dallas/Fort Worth-area Hispanic community.
As a result, these reports conclude that non-response
was high and that NRFU was less successful.
62. Undocumented immigrants may already fear
providing their information to the government. They
are a hard-to-reach population that is difficult for enumerators to gain access to and follow-up on in the event
of non-response. To overcome these difficulties, nongovernmental organizations and the Census Bureau have
engaged in targeted messaging toward immigrant communities that participation in the Census would help increase access to public resources, federal funding, and
political representation (Levine, 2020; Liptak et al.,

292
2020; Smith, 2020). However, the PM, by excluding the
count of undocumented immigrants from the apportionment base, completely undercuts this incentive to participate. If the government is going to remove them
from the base population count, why bother filling out
the 2020 Census at all? Undocumented immigrants are
likely to perceive that there is no benefit to participation, as the July 21 PM states they will not count, and
there is now an increased risk of their information being
linked to immigration records and facing immigration
enforcement.
63. It is important to note undocumented immigrants and their social ties are often risk-averse, assume
the worst-case scenario, and are highly suspicious about
whether their information would be shared with Federal
immigration authorities (Yoshikawa, 2011; Dreby, 2015;
Torres-Ardila, Bravo, and Ortiz, 2020). For example,
even U.S.-citizen Latinos reduced their participation in
Medicaid as a result of a punitive immigration enforcement environment (Watson, 2014; Vargas, 2015). It is
unlikely Medicaid service providers will use their records to find undocumented friends or family, but the perception of legibility to immigration authorities was sufficient to produce system- avoiding behaviors. In another research paper, U.S.-born children of undocumented immigrants avoided a variety of record-keeping
institutions (e.g. banking, formal employment, voter
registration) as a result of their social ties with an undocumented parent (Desai, Su, and Adelman, 2019).
64. Undercounting undocumented immigrants will
have spillover effects on effectively counting the broader
legal non-citizen and citizen population. Mixed-status
households are affected by the PM. The PM suggests

293
the government may be using various forms of information to identify undocumented immigrants. If undocumented immigrants are the head of the household
or if the head of household is responsible for undocumented immigrant friends and/or family members, they
may not respond or allow themselves to be contacted by
follow-up enumerators in order to protect the anonymity of their undocumented social ties. This means citizen children, documented spouses of undocumented immigrants, documented partners of undocumented immigrants, and/or documented family of undocumented immigrants will be less likely to be counted in the census.
65. One implication of the fear and unrest in the immigrant community is the increased mobility which could
render any attempt at imputation or substitution incomplete and inaccurate. For imputation to work, the missing unit household cannot be vacant, and likewise cannot
be a second home or vacation home of someone already
counted. The missing unit household should have someone living there as their primary residence. However,
as Frost notes that many undocumented immigrants
who receive government letters or notices may pick-up
and move their entire family, rather than wait around
and figure out a way to interact with public officials.
Similarly, this is documented by O’Hare (2017) who
notes that Latino children are especially susceptible to
being undercounted due to mobility. There is evidence
that if immigrants are fearful of attempts by the federal
government to obtain the personal information, identities, and citizenship statuses of all members of their household, they may vacate their homes and move to avoid being contacted again (Meyers 2017). To the extent this
happens, attempts at imputation or substitution will be

294
inaccurate, both on the national level, but especially on
state and local levels.
F. When Subsequent Official Action is Taken
to Remove Threats Related to Immigration
Status, Immigrants Respond with Participation

66. On January 9, 2018, a federal court in the Northern District of California issued a nationwide preliminary injunction against the Trump administration effort
to phase-out DACA. The January 2018 decision allowed existing DACA recipients to apply for renewals.
Later, on February 13, 2018 a second federal court in
the Eastern District of New York also issued a nationwide preliminary injunction to allow DACA renewals to
continue. When the court enjoined the effort by the
Trump administration to repeal DACA and allowed undocumented immigrants to begin applying for DACA,
there was an immediate rush of applications by undocumented immigrants who held DACA status, but were expired. According to data from the United States Customs and Immigrant Services (“USCIS”), 64,210 immigrants applied for renewal immediately after the January 2018 injunction, and 31,860 were approved by March
31, 2018 and 32,280 were pending, with only 70 having
been denied. 31 Over the course of 2018, USCIS reported
287,709 total requests for DACA renewal were made by

Approximate Count of DACA Receipts: Since January 10, 2018,
As of Mar. 31, 2018 https://www.uscis.gov/sites/default/files/document/
data/DACA_Receipts_Since_Injunction_Mar_31_2018.pdf
31

295
undocumented immigrants. 32 Despite additional legal
challenges, throughout 2019 the injunctions from Northern California and Eastern New York remained in place
nationwide and 406,586 persons applied for DACA renewals across 2019. 33 Despite the Trump administration’s continued legal challenges to DACA, public statements denigrating immigrants, once the courts issued
the injunctions to protect DACA, undocumented immigrants became trusting of this program,.
67. On July 2, 2015, the Priority Enforcement Program (PEP) was implemented by U.S. Immigration and
Customs Enforcement (ICE). It was announced by
then-DHS Secretary Jeh Johnson in a November 2014
memo, and was meant to replace the then-existing Secure Communities program, which coordinated local police databases with ICE. PEP implemented a series of
mandates that immigration enforcement should prioritize individuals who have engaged in serious criminal activity or who pose national security threats. In short,
it mandated that ICE cast a smaller net in identifying,
detaining, and deporting undocumented immigrants.
In addition, PEP made it more difficult for ICE to execute immigration detainers. ICE had to state probable
cause (via reference to the priorities) in order to execute
a detainer in addition to the local law enforcement agency

Number of Form I-821D,Consideration of Deferred Action for
Childhood Arrivals, Status, by Fiscal Year, Quarter, and Case Status: Aug. 15, 2012-Mar. 31, 2020 https://www.uscis.gov/sites/default/
files/document/data/DACA_performancedata_fy2020_qtr2.pdf
33
Number of Form I-821D,Consideration of Deferred Action for
Childhood Arrivals, Status, by Fiscal Year, Quarter, and Case Status: Aug. 15, 2012-Mar. 31, 2020 https://www.uscis.gov/sites/default/
files/document/data/DACA_performancedata_fy2020_qtr2.pdf
32

296
having to serve a copy of the detainer request on the individual in order for it to take effect. The intent of the
new policy was for police to collaborate less with ICE
and to only focus their detention efforts on serious criminals. The Dallas County Sheriff, which controls the
county jails and oversees the processing of immigrants
detained agreed to participate in the PEP program to
reduce the local prominence of ICE in Dallas. 34 A research paper analyzing Dallas Police Department
(DPD) police reports finds clear evidence that the implementation of PEP increased crime reporting to DPD
by Hispanic and immigrant subjects in Dallas. 35 The
data shows Hispanic and immigrant engagement with
police increased significantly in the immediate quarter
after PEP was implemented. And in the six quarters
following the change in policy, Hispanics and immigrants
voluntarily reported around 6,000 more incidents to the
police than they would have been if the enforcement priorities had not changed. Thus, reversals or limitations
imposed on executive actions may have measurable con-

Dallas county jails complied with the PEP. Dallas County
Sheriff Lupe Valdez formally agreed to participate in the program
after meeting with ICE representatives in July and August 2015.
In August 2015, Dallas County officials began reviewing ICE’s request prior to honoring them with the vetting guidelines being similar to PEP priorities, ensuring only individuals who posed a threat
to public safety were transferred to ICE’s custody. This is evidenced in data by Jacome (2018), who finds total detainers dropped
by roughly 1,000 by the end of 2015 due to decreases in detainers
issued for individuals convicted of misdemeanors and those with no
conviction.
35
Jacome, Elisa. “The Effect of Immigration Enforcement on
Crime Reporting: Evidence from the Priority Enforcement Program.” Available at SSRN 3263086 (2018).
34

297
sequences on promoting trust among immigrant communities and influencing behavioral interactions with
various aspects of government.
68. In prior survey research in 2018 to test the impact of a citizenship question being included or excluded
from the 2020 Census, there was a clear finding of increased Census participation after removing any fear of
immigration status being exposed. 36 Initially, after being told about the citizenship question, a sizable share of
respondents said they would not participate in the 2020
Census. Later in the survey, respondents were randomly assigned to a condition in which they were told
the government changed their mind and a citizenship
question would NOT be included after all. A second set
of participants were randomly assigned to a condition in
which it was reaffirmed that the government would in
fact include a citizenship question.

Among Latinos who said they would not participate in
the census with a citizenship question, 80 percent
changed their mind and said they would participate once
they learned that the citizenship question would be removed. The mechanism here is whether or not those in
the immigrant community believe their participation
See Tr. 687-89; Trial Ex. 677, NY v. Dep’t Commerce, 351 F. Supp.
3d 502 (S.D.N.Y. 2019), aff’d 139 S. Ct. 2551 (2019). Barreto expert
declaration NY v. Dept Commerce, September 7, 2018.
36

298
creates increased risk of exposing themselves to immigration enforcement. Members of immigrant communities are very concerned about their citizenship status
being monitored or revealed. When they believe the
threat is real, they will withdraw from the Census, and
when that threat has been removed, they reengage.
This provides very strong evidence that when fears
about citizenship status being revealed are removed, a
large share of Latinos will indeed increase their participation in Census 2020. 37
69. Across the wide-ranging literature, a key finding
is that immigrants are normally eager to engage in public life and with political institutions, but when there is a
threat of negative consequences for their immigration
status, avoidance behavior is likely. (e.g. Garcia 2019).
G.

Non-Response Follow-Up (NRFU) and Imputation of Non-Responding Households

70. The Census Bureau is aware that some households will not respond to the initial request for participation, and as such they have long had a program called
Non-Response Follow-Up (NRFU) which provides
follow-up contact with any households that do not initially respond. The Census Bureau estimates they conducted follow-up with around 50 million households in
2010 (Rao 2017). NRFU is critical for the Census Bureau to increase participation rates, but it is a costly and
difficult undertaking by their own admission. Any increased non-response at initial contact makes NRFU
much more difficult, especially if non-responding households come to not trust the survey questions that enumerators are attempting to ask. What’s more, NRFU
37

See id.

299
is now profoundly more difficult due to COVID-19 and
the time available has been shortened. As discussed in
this report, the PM increases the likelihood that Latinos, immigrants, and noncitizens are less likely to selfrespond to the 2020 census. These non-responding individuals are also unlikely to respond after household
visits by census enumerators because of fear of government interaction. (de la Puente 1995; 2004).
71. In fact, with the new focus on excluding undocumented immigrants directed by the PM, the Census outreach efforts after July 21, 2020 could actually create
more fear and anxiety in immigrant communities and
further drive down response rate and increase the net
undercount. For example, the Census Bureau plans to
send enumerators into non-responding communities on
behalf of the federal government, and if nobody is home,
they will leave a “Notice of Visit” from the federal government which includes a unique household “census
identification number.” Further, they inform the household that additional visits will be made back to their
house by enumerators on behalf of the federal government. This sends a clear signal of federal government
monitoring of the household and will result in increased
anxiety and concern over cooperating (e.g. Menjívar
2011; Szkupinski Quiroga et al. 2014). Research by Hagan et al. (2011) documents with clear evidence the extensive chilling effect of increased presence of government officials who appear to be monitoring immigrants
and checking on their status. They find immigrants
“withdrawing from the community” as well as “avoiding
public places” and that they “spend most of their nonworking hours in their homes because it is the safest
way to avoid detection.” (Hagan et al. 2011.) According to Abrego (2011), undocumented immigrants will go

300
to great lengths to reduce their visibility in society when
they perceive a potential threat of deportation. Her
research identifies withdrawal from interactions with
government agencies as awareness of immigration
checks increases. From the perspective of an anxious
immigrant, each additional household visit from a government Census worker, following a PM directing the
exclusion of undocumented people, is the exact environment that would produce withdrawal. According to
Abrego: “In effect, their well-being and stability are
perennially threatened because, as they are constantly
reminded, there may be an ICE raid . . . at any
time” (2011).
72. Research also finds that increased presence and
visibility of government officials who appear to be collecting immigration information creates withdrawal and
also misreporting on government forms (Rodriguez and
Hagan 2004). Increased presence of immigration officials in the community lead to a decline of student attendance in the nearby school to avoid any contact with
the government officials. However, in communities
without ICE presence, school attendance is not impacted. The research study observed this trend across
three different cities in Texas and attributed increased
withdrawal to an increased visibility and presence of
government officials asking about immigration status.
Further, the same study reported that Hispanics began
to change their racial identification to White on government forms at health clinics to avoid any risk of association with immigration officials (Rodriguez and Hagan
2004).
73. Another study specifically examined the willingness of immigrants to participate in surveys and data

301
collection efforts, in particular examining how fear of
deportation impacted response rates and general engagement with government services (Arbona et al.
2010). One of the most important findings of this study
was that if immigrants fear their participation could
somehow lead to their deportation, they will not participate unless they are fully comfortable and trusting of
the survey taker. As the research study progressed, Arbona et al. reported, through quantitative data, that fear
of deportation was a strong motivating factor for avoidance and that over 80% of immigrants in their sample
stated that they avoided activities such as “ask[ing] for
help from government agencies, report[ing] an infraction to the police, attend[ing] court if requested to do so,”
and other items. The more census enumerators visit immigrant communities to attempt household counts, following the July 21 PM to exclude undocumented immigrants,
the more likely they will be to not participate. That is,
the outreach itself will produce further non-response as
a result of the socio-political climate following the PM.
74. NRFU enumerators may not be able to make
contact with adult households. Enumerators may not
be sufficiently linguistically or culturally competent in
order to persuade undecided households to respond.
For example, they may not be able to effectively convince Latinos who may be concerned about immigration
issues or enforcement to respond. Many Latinos, in
the context of heightened immigration enforcement, are
told to not open the door to strangers due to commercial
scams and guidance from immigration legal advisors regarding ICE visits (Kissam et al., 2019). Moreover,
even if enumerators are able to convince members of immigrant communities to respond despite the existence

302
of a chilling effect, it may be logistically difficult for enumerators to make contact with adult householders. In
many immigrant communities, work hours are long and
weekend work is common, increasing the difficulty for
NRFU enumerators to conduct a direct interview of the
household (Kissam et al., 2019).
75. NRFU also cannot account for households omitted from the Master Address File as a result of “complex
households” in low-visibility unconventional and/or hidden housing units (Kissam, 2019). These complex households may be more likely to be made up of immigrants
and their direct social ties. Kissam (2019) notes in the
San Joaquin Valley, only 95% of the Latino immigrant
study population live in housing units included in the
Census Bureau’s Master Address File, resulting in a 5%
household omission rate. The only way these households can be counted in the Census is if they proactively
respond via online non-ID processing operations or by
phone. However, these alternative mechanisms may
not work if these complex households are concerned
about the prospect of providing information to a government seeking to identify their citizenship status or exclude them from the count for specific purposes, such as
apportionment, as required by the PM.
76. Even if NRFU results in data production, it may
be faulty data. High levels of nonresponse force the
Census Bureau to rely on alternative statistical procedures such as triangulation via administrative records,
proxy interviews with neighbors, and, imputation.
Some of these alternative efforts might fail in immigrant
communities. Proxy interviews may fail to resolve undercounting due to mistrust of Federal authorities and
lack of willingness to provide information on neighbors.

303
Indeed, only 17% of respondents in a survey of the San
Joaquin Valley immigrant community indicated they
were willing to provide an enumerator with information
about neighbors in the San Joaquin Valley (Kissam,
2019). It is important to note proxy interview efforts
are error-prone, since they are, at best, estimates by
neighbors of the number and characteristics of neighboring households. The same survey of immigrant
communities in the San Joaquin Valley indicates less
than half of potential Census respondents believe they
know enough about their neighbors to provide accurate
responses (Kissam, 2019).
77. Moreover, finding administrative records that
match households is likely to be more difficult for immigrant households, who may be less prone to providing
personal or household information to various aspects of
government and may not be eligible for a variety of government programs that keep records (Kissam, 2019;
Asad, 2020). While the Trump administration may assume they can rely on administrative records, the reality is that this creates major methodological problems
for NRFU and then imputation. The data is fraught
with errors and inconsistencies and will lead to lower
quality data and undercounts. Research by Bhaskar,
Fernandez, and Porter (2018), who are Census Bureau
researchers, indicates matching an administrative record to a household requires a Personal Identification
Key (PIK). They also find foreign-born households are
less likely to have a PIK than U.S.-born households.
Lack of having a PIK is associated with more people in
a household, living in a Census tract with a high density
of foreign-born individuals, Latino/Hispanic race/ethnicity, non-citizen status, limited English or no English

304
proficiency, and being a recent immigrant. IRS administrative records may not serve as effective proxies
for enumeration given not all undocumented immigrants
file income tax returns on a regular basis (Gee, Gardner,
and Wiehe, 2016). Social Security Administration (SSA)
records may be incomplete if immigrant workers have
only worked in the informal or underground economy.
Parents also may never apply for an SSN for foreignborn children without legal status. Foreign-born nonworking spouses may have never applied for an SSN
(Kissam, 2019). Often, the use of borrowed SSNs is
prevalent among immigrant workers, which may result
in potential undercounts or discrepancies in the count.
Moreover, employer reports of employee’s earnings do
not provide reliable or exhaustive information on household size.
78. Even if a match to an administrative record is
found for a specific address, it may not accurately enumerate household size and composition because the record may be out of date or exclude peripheral household
members who are not part of the primary core family
living in the housing unit (Kissam, 2019). There may
be discrepancies via administrative matching in neighborhoods where low-income renter households move often and administrative records may not update frequently in immigrant communities such that newly born
children will be disproportionately omitted (Kissam,
2019). If information via administrative records or
proxy interviews do not bear fruit, the Census Bureau
may attempt to use hot-deck imputation to determine
the characteristics of households that did not respond.
The problem is that nonresponding households in immigrant communities may be systematically larger than

305
those that do respond. Thus, each imputation will contribute to a differential undercut given that “donor”
households have less inhabitants (Kissam, 2019).
79. In addition to trying to match households to their
administrative records, the Census Bureau has indicated
that it may employ statistical imputation techniques to address nonresponse. During the collection of any survey, two types of nonresponse can emerge: unit nonresponse and item nonresponse. Unit nonresponse concerns an entire missing case resulting from either noncontact, refusal, or inability to participate. Item nonresponse concerns missing values on certain questions
in the survey. Bias, or incorrect and faulty data, can
emerge from nonresponse when the causes of the nonresponse are linked to the survey statistics being measured, which is referred to as nonignorable nonresponse
(Groves et al 2004). By way of illustration, public health
officials designed a survey to measure the prevalence of
HIV in the population during the early days of the HIV
epidemic. Despite incentives, cooperation rates among
those who were HIV-positive were extremely low because of the stigma of the disease. Thus, the key statistic sought—namely, the percentage of HIV-positive
people—was causally related to the likelihood of selfresponse; specifically, in that case, those who were HIVpositive did not want to participate in the study at all.
Non-ignorable nonresponse is particularly egregious
because even if the causal influence is known “there is
no way that the statistic among respondents can be
made free of nonresponse bias (without making heroic
assumptions about the status of the nonrespondents)”
(Groves et al. 2004). What this means is that if a factor
influencing the decision to not respond is correlated with

306
an important outcome variable, imputation is impractical because you cannot observe the existence of the precise variable you are trying to count. In the case of the
2020 Census, the key outcome variable is producing an
accurate count of total household size; yet, prior research establishes that larger households are more likely
to not respond when the responder’s citizenship status
may be implicated. Thus, the decision whether to respond is correlated with household size, a key outcome
variable of interest.
80. Some statistical tools are available to deal with
nonresponse. At one end of the spectrum, if every variable of interest is known for the nonrespondent, except
one, then we can use these variables to form an imputation model that will predict a value for the missing value
—for example, we may know the existence of the respondent and that person’s age, but may not know their
income level and can use predictive models to impute income for that respondent. At the other end of the spectrum we have entire missing cases (unit nonresponse),
where the existence of the person is unknown. Imputation for unit nonresponse, sometimes called “whole person imputation,” is used almost exclusively in longitudinal surveys where ample data from prior waves exists
for a missing respondent. It is extremely rare to impute for unit nonresponse if little is known about the
nonrespondent case (Groves and Couper 1998). Unit
nonresponse is typically dealt with by some form of poststratification or response rate weighting adjustment 38
After the survey data are collected, statisticians can use the
known universe of respondent demographics to apply weights and
possibly correct for non-response, however this only corrects the dataset for use in a data analysis project or academic research paper,
38

307
(Kalton 1983). While imputation can be useful for
missing values in an otherwise completed survey form
(item nonresponse), it is particularly problematic for imputing the existence of whole persons, and is especially
likely to end up with an undercount in vulnerable communities. This is part of the reason that social scientists and government statisticians want the decennial
census to be as non-burdensome and non-sensitive as
possible, to ensure an overall accurate count through
high rates of participation (Wines 2018).
81. In general, whole-person imputation itself relies
on a number of assumptions to work correctly. If data
is missing completely at random (MCAR) (Rubin 1976),
then non-response generally introduces less bias.
Models are of less help with non-ignorable nonresponse,
as noted above, where nonresponse depends on the values of a response variable. In this case, models can
help but never eliminate all nonresponse bias (Lohr
1999). Indeed, recent reviews of cutting edge imputation procedures like “hot deck imputation” argue that
“hot deck” methods for situations where nonresponse is
non-ignorable have not been well explored (Andridge
and Little 2010). Whole person imputation, then, has
its dangers. The Census Bureau currently acknowledges that “whole person substitutions and whole person imputations are not very accurate.” (See Abowd
30(b)(6) Deposition 2018)
82. With respect to the U.S. census and counts of
Latino and immigrant households, previous research

not necessarily population counts, which are supposed to serve as
the baseline universe estimate in the first place.

308
has shown that whole person imputation efforts are seriously error-prone. Because family arrangements,
housing styles and total household sizes vary considerably, attempts to impute the population of non-respondent households have been shown to undercount the population (Kissam 2017). First, many non-traditional
housing units are simply not included in the imputation,
leaving them as vacant when in reality they had tenants
or dwellers. Second, the household size of missing
units tends to be larger, on average, than of reported
units. Reports also document differences by socioeconomic status. The end result is that even with imputation, there can still be a significant undercount of the
Latino immigrant population.
83. Beyond the raw count being inaccurate, there is
also evidence of misattribution of those imputed, because they rely on higher acculturated units for which
there is data to make adjustments (i.e. substituting data
on U.S.-born, English-speaking and college educated
households when in fact missing cases are more likely to
be foreign-born, Spanish-speaker, less educated households), suggesting the imputed data do not accurately
describe the true population (Kissam 2017). The U.S.
Government Accountability Office has itself admitted
this is a problem with respect to getting a complete
count of Latinos. In the 2003 report on trying to improve the Latino count, they wrote “even with the Bureau’s guidelines and training, deciding whether a house
is unfit for habitation or merely unoccupied and boardedup can be very difficult. An incorrect decision on the
part of the census worker could have caused the dwelling and its occupants to get missed by the census.” U.S
GAO Report (2003) (GAO-03-605).

309
84. By examining data from a prior 2018 survey specifically about the Census, we can conclude that unit
non-response on the 2020 census will not be at random.
Households that do not respond and represent missing
units, are certain to have very different characteristics
and demographics than the households that do respond.
In this event, it makes it nearly impossible to impute or
infer the population totals or any other demographic information about missing units (e.g. missing households)
because we do not have enough reliable information on
“matched” or similar units. Further, it is quite likely
that unit non-response in 2020 will be clustered geographically, meaning that there will be fewer available
adjacent units for imputation, and that analysts will
have to rely on dissimilar households for imputation,
thus violating the most important assumption needed
for accurate imputation. In particular, non-responders
were found more likely in dense urban areas and locales
with high numbers of renters.
These factors are
known to be related to census undercounts and make
NRFU difficult and result in erroneous imputation (U.S.
GAO Report, 2003).
85. It is virtually certain that the reduced self-response caused by the July 21 PM related to citizenship
status will lead to a net undercount among those populations with lower rates of self-response. Previous census reports have documented that high rates of non-response to the initial questionnaire result in undercounts,
and that NRFU is not always successful in converting
those cases into respondents. In addition, matching
household to administrative records can be an unreliable
method of enumerating the household, particularly for
immigrant communities. Prior census reports have
also documented that errors are made in imputation and

310
that undercounts persist even after attempted imputation. Ultimately, the worse the initial non-response is,
the worse the initial undercount is, making it increasingly more difficult to convert those cases into responding cases, and increasing more difficult to impute missing units (US Census Bureau 2017b; National Research
Council 2002; 2004).
86. This problem has been documented to be worse
in Latino and immigrant communities where the Census
admits the undercount is problematic, and that their efforts at NRFU and imputation have errors (Ericksen
and Defonso 1993; O’Hare et al. 2016). One primary
reason is that issues related to trust of government officials significantly hampers the NRFU process, and in
2020 the citizenship question will greatly exacerbate issues of trust in immigrant communities (See section below “Perceptions of Trust and Confidentiality” at paragraph 96). In particular, young children in Latino households have been found to be regularly undercounted by
previous census efforts and that imputation methods do
not appropriately find or count this population. The
best assurance for an accurate count is high response
rates on the initial census request for participation,
which requires a high degree of trust (O’Hare et al. 2016;
Casey Foundation 2018). Previous self-reports by the
Census Bureau are clear: immigrant communities are
already at-risk of an undercount because of lower levels
of trust of government officials, and have particular anxiety over citizenship information being shared. What’s
more, these previous census reports have documented
that low self-participation on round one of invitations ultimately leads to an undercount that no amount of
NRFU, administrative-record matching, or imputation
can correct. In 2020, the PM will only create more

311
problems, more anxiety in immigrant communities, and
less self-participation on round one. With nearly 17
million people, including 6 million citizen children, living
in households with at least one person who is an undocumented immigrant (Casey Foundation 2018), there is
enormous potential for a massive non-response with a
newly created anxiety over citizenship status as a result
of the July PM.
87. After reviewing defendants report(s), I plan to
offer rebuttal opinions as requested by plaintiffs.
Executed on Aug. 7, 2020 at Agoura Hills, CA.
I declare under penalty of perjury that the foregoing
is true and correct.
/s/ MATTHEW A. BARRETO
MATTHEW A. BARRETO

312
References

Abrego, L. J. (2011). Legal consciousness of undocumented Latinos:
Fear and stigma as barriers to
claims‐making for first‐and 1.5‐generation immigrants.
Law & Society Review, 45(2), 337-370.
Amuedo-Dorantes, C., & Arenas-Arroyo, E. (2019).
Immigration enforcement, police trust, and domestic violence. Unpublished manuscript. Retreived on October,
28, 2019.
Arbona, C., Olvera, N., Rodrigues, N., Hagan, J., Linares, A., & Wiesner, M. (2010). Acculturative stress
among documented and undocumented Latino immigrants in the United States. Hispanic Journal of Behavioral Sciences, 32 (3), 362-384. doi:
10.1177/
0739986310373210
Asad, Asad L. (2020). “On the Radar: System Embeddedness and Latin American Immigrants’ Perceived
Risk of Deportation”. In: Law & Society Review 54.1.
Publisher: Wiley Online Library, pp. 133–167.
Bhaskar, Renuka, Leticia E. Fernandez, and Sonya R.
Porter (2018). “Assimilation and coverage of the foreign-born population in administrative records”. In:
Statistical Journal of the IAOS 34.2. Publisher: IOS
Press, pp. 191–201.
Desai, Sarah, Jessica Houston Su, and Robert M.
Adelman (2019). “Legacies of Marginalization: System Avoidance among the Adult Children of Unauthorized Immigrants in the United States”. In: International Migration Review. Publisher: SAGE Publications
Sage CA: Los Angeles, CA, p. 0197918319885640.

313
Dreby, Joanna (2015). Everyday illegal: When policies undermine immigrant families. University of California Press.
Félix, A., González, C., & Ramírez, R. (2008). Political
protest, ethnic media, and Latino naturalization.
American Behavioral Scientist, 52(4), 618-634.
Gee, Lisa Christensen, Matthew Gardner, and Meg
Wiehe (2016). “Undocumented immigrants’ state & local tax contributions”. In: The Institute on Taxation
and Economic Policy.
Kissam, Edward (Jan. 1, 2019). “How low response
among Latino immigrants will lead to differential undercount if the United States’ 2020 census includes a question on sensitive citizenship”. In: Statistical Journal
of the IAOS 35.2. Publisher: IOS Press, pp. 221–243.
issn: 1874-7655. doi: 10.3233/SJI-190505.
Kissam, Edward et al. (2019). “San Joaquin Valley Latino Immigrants: Implications of Survey Findings for
Census 2020”. In: San Joaquin Valley Health Fund.
Levine, Sam (2020). Trump orders undocumented immigrants excluded from key census count. the Guardian. Library Catalog: www.theguardian.com Section: US news.
Liptak, Kevin et al. (2020). Trump signs order targeting undocumented immigrants in the US census. CNN.
Library Catalog: www.cnn.com.url: https://www.cnn.com/
2020/07/21/politics/white-house-census-undocumentedimmigrants/index.html
Smith, Mike (2020). Community groups vow to help
undocumented immigrants count in 2020 census in New

314
Mexico. Carlsbad Current-Argus.
www.currentargus.com.

Library Catalog:

Torres-Ardila, Fabian, Daniela Bravo, and Franklin
Ortiz (2020). “Increasing Latino Participation Rates in
the 2020 Census in Chelsea, MA”.
Vargas, Edward D. (2015). “Immigration enforcement
and mixed-status families: the effects of risk of deportation on Medicaid use”. In: Children and youth services review 57. Publisher: Elsevier, pp. 83–89.
Wang, Hansi Lo (2020). Four States Are Sharing
Driver’s License Info To Help Find Out Who’s A Citizen. NPR.org. Library Catalog: www.npr.org.
Watson, Tara (2014). “Inside the refrigerator: Immigration enforcement and chilling effects in Medicaid
participation”.
In:
American Economic Journal:
Economic Policy 6.3, pp. 313-38.
Yoshikawa, Hirokazu (2011). Immigrants raising citizens:
Undocumented parents and their children.
Russell Sage Foundation.
Abowd, John, Depositions on August 15, 2018 (hereinafter Abowd Deposition) and August 29, 2018 (Abowd
30(b)(6).
Andridge, Rebecca R. and Little, Roderick J. 2010. “A
Review of Hot Deck Imputation for Survey NonResponse.”
International Statistical Review 78(1):
40-64.
Ball, John C. 1967. “The Reliability and Validity of Interview Data Obtained from 59 Narcotic Drug Addicts.”
American Journal of Sociology 72(6): 650-654.

315
Berk, Marc L., and Claudia L. Schur. 2001. “The Effect of Fear on Access to Care among Undocumented
Latino Immigrants.” Journal of immigrant health
3(3): 151-156.
Bradburn, Norman M., Seymour Sudman, Ed Blair, and
Carol Stocking. 1978. “Question Threat and Response
Bias.” Public Opinion Quarterly 42(2): 221-234.
Casey Foundation.
Book.”

2018.

“2018 Kids Count Data

Center for Survey Measurement. 2017. “MEMORANDUM FOR Associate Directorate for Research and
Methodology (ADRM).”
Claes-Magnus Cassell et al., 1977. Foundations of inference in survey sampling. De La Puente, Manuel.
1995. “Using Ethnography to Explain Why People
Are Missed or Erroneously Included by the Census:
Evidence from Small Area Ethnographic Studies.”
Center for Survey Methods Research, US Census Bureau.
———. 2004.
Census 2000 Ethnographic Studies.
Bureau of the Census.
Ericksen, Eugene P., and Teresa K. Defonso. 1993.
“Guest Commentary: Beyond the Net Undercount:
How to Measure Census Error.” Chance 6(4): 38-14.
Federal Committee on Statistical Methodology. 1990.
Statistical Working Paper 17—Survey Coverage. http://
www.fcsm.gov/working-papers/wp17.html
Frost, Amanda. 2017. “Can the Government Deport
Immigrants Using Information It Encouraged Them to
Provide?”

316
García, A. S. (2019). Legal passing: Navigating undocumented life and local immigration law. University of California Press.
Groves, Robert M. And Mick P. Couper. 1998. Nonresponse in Household Interview Surveys. New York,
NY: John Wiley and Sons
Groves, Robert.
Costs, 2nd ed.

2004.

Survey Errors and Survey

Groves, Robert, Floyd J. Fowler Jr., Mick P. Couper
James M. Lepkowski, Eleanor Singer, and Roger Tourangeau. 2004. Survey Methodology. New York,
NY: John Wiley and Sons. (Cites 3873)
Hagan, J. M., Rodriguez, N., & Castro, B. (2011). Social effects of mass deportations by the United States
government, 2000-10.
Ethnic and Racial Studies,
34(8), 1374-1391
Kalton, Graham. 1983. “Compensation for Missing
Survey Data.” University of Michigan Survey Research Center Research Report Series.
Lohr, Sharon L. 1999. Sampling: Design and Analysis. New York, NY: Brooks/Cole.
Kissam, Edward. 2017. “Differential Undercount of
Mexican Immigrant Families in the US Census.” Statistical Journal of the IAOS 33(3): 797-816.
Krysan, Maria. 1998. “Privacy and the Expression of
White Racial Attitudes: A Comparison across Three
Contexts.” Public Opinion Quarterly: 506-544.
Lajevardi, Nazita, and Kassra AR Oskooii. 2018. “OldFashioned Racism, Contemporary Islamophobia, and the

317
Isolation of Muslim Americans in the Age of Trump.”
Journal of Race, Ethnicity and Politics 3(1): 112-152.
National Research Council. 2002. The 2000 Census:
Interim Assessment. National Academies Press.
———. 2004. The 2000 Census: Counting under Adversity. National Academies Press.
Menjívar, C. (2011). The power of the law: Central
Americans’ legality and everyday life in Phoenix, Arizona. Latino Studies, 9(4), 377-395
Meyers, Mikelyn. 2017. “Respondent Confidentiality Concerns and Possible Effects on Response Rates
and Data Quality for the 2020 Census.”
Michelson, Melissa R., and Jessica L. Lavariega Monforti.
2018.
“Back in the Shadows, Back in the
Streets.” PS, Political Science & Politics 51(2): 282
Montoya, Martin. 1992. “Ethnographic Evaluation
of the Behavioral Causes of Undercount: Woodburn,
Oregon.” Ethnographic Evaluation of the 1990 Decennial Census Report #25. Prepared under Joint Statistical Agreement 90-06 with the University of Oregon.
Bureau of the Census, Washington D.C.
Cruz Nichols, Vanessa, Alana MW LeBrón, and Francisco I. Pedraza. 2018. “Spillover Effects: Immigrant Policing and Government Skepticism in Matters
of Health for Latinos.” Public Administration Review
78(3): 432-443.
O’Hare, William, Yeris Mayol-Garcia, Elizabeth
Wildsmith, and Alicia Torres. 2016. “The Invisible
Ones: How Latino Children Are Left Out of Our Nation’s Census Count.”

318
Oskooii, Kassra AR. 2016. “How Discrimination Impacts Sociopolitical Behavior:
A Multidimensional
Perspective.” Political Psychology 37(5): 613-640.
Pedraza, Francisco I., and Maricruz Ariana Osorio.
2017. “Courted and Deported: The Salience of Immigration Issues and Avoidance of Police, Health Care,
and Education Services among Latinos.” Aztlan: A
Journal of Chicano Studies 42(2): 249-266. Rubin,
Donald B. 1976. “Inference and Missing Data.” Biometrika 63(3): 581-592.
Raines, Marvin D. 2001. “Gaining Cooperation from a
Multi-Cultural Society of Respondents: A Review of
the US Census Bureau’s Efforts to Count the Newly Immigrated Population.” Statistical Journal of the United
Nations Economic Commission for Europe 18(2, 3):
217-226.
Rao, Krishna. 2017. “Discussion of 2018 End-to-End
Census Test: Nonresponse Follow-up” Census Scientific Advisory Committee. Fall 2017 Meeting.
Sanchez, Gabriel R., and Barbara Gomez-Aguinaga.
2017. “Latino Rejection of the Trump Campaign.”
Aztlán: A Journal of Chicano Studies 42(2).
Rodriguez, N., & Hagan, J. M. (2004). Fractured families and communities: Effects of immigration reform
in Texas, Mexico, and El Salvador. Latino Studies,
2(3), 328-351.
Stepick, Alex. 1992. “Ethnographic Evaluation of the
1990 Decennial Census Report Series.” Ethnographic
Evaluation of the 1990 Decennial Census Report #8.
Prepared under Joint Statistical Agreement #90-08
with Florida International University. Bureau of the
Census, Washington D.C.

319
Szkupinski Quiroga, S., Medina, D. M., & Glick, J.
(2014). In the belly of the beast: Effects of anti-immigration policy on Latino community members. American Behavioral Scientist, 58(13), 1723-1742
Terry, Rodney L. et al. 2017. “Exploring Inconsistent
Counts of Racial/Ethnic Minorities in a 2010 Census
Ethnographic Evaluation.” Bulletin of Sociological
Methodology/Bulletin de Méthodologie Sociologique
135(1): 32-49.
Tourangeau, Roger, and Tom W. Smith. 1996. “Asking Sensitive Questions: The Impact of Data Collection Mode, Question Format, and Question Context.”
The Public Opinion Quarterly 60(2): 275-304.
Tourangeau, Roger, and Ting Yan. 2007. “Sensitive
Questions in Surveys.” Psychological bulletin 133(5):
859.
U.S. Government Accountability Office. 2003. “Decennial Census: Lessons Learned for Locating and
Counting Migrant and Seasonal Farm Workers.”
(GAO-03-605).
https://www.gao.gov/products/GAO-03605 (April 18, 2018).
U.S. Census Bureau. 2013. “U.S. Census Bureau Statistical Quality Standards” July 2013. https://www.census.
gov/about/policies/quality/standards.html. 2017b. “Investigating the 2010 Undercount of Young Children—
Analysis of Census Coverage Measurement Results.”
Velasco, Alfredo. 1992. “Ethnographic Evaluation of
the Behavioral Causes of Undercount In The Community of Sherman Heights, San Diego, California.” Ethnographic Evaluation of the 1990 Decennial Census Report #22. Prepared under Joint Statistical Agreement

320
89-42 with the Chicano Federation of San Diego County.
Bureau of the Census, Washington, D.C.
Wines, Michael. 2018. “Census Bureau’s Own Expert
Panel Rebukes Decision to Add Citizenship Question.”
New York Times. March 30

321

Exhibit 57

322
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
EXPERT DECLARATION OF MR. JOHN THOMPSON
I.

1.

Introduction

On July 21, 2020 President Trump issued a Memorandum for the Secretary of Commerce on Excluding Illegal Aliens from the Apportionment Base
Following the 2020 Census (in the remainder of this
document I will use the term “Memorandum” to refer to this document). I am extremely concerned
that this action will adversely affect the quality and
accuracy of the 2020 Census.

323
2.

The 2020 Census results will be of great importance
to our nation. The Constitution requires that the
census be used for reapportioning the Congress of
the United States and the Electoral College. The
2020 Census will also be used for numerous other
functions to support good policymaking and economic growth including: redrawing congressional
and state legislative voting districts; allocating over
$1.5 trillion of federal funds annually; informing
sound policy development; providing critical information for state, local and tribal government planning; and supplying critical information to large and
small businesses to generate growth and job creation. Inaccuracies or errors in the 2020 Census
will have grave consequences on these uses for the
subsequent 10-year period.

3.

I have carefully reviewed the Memorandum instructing the Secretary of Commerce to provide information to exclude undocumented persons from
the Apportionment counts. I have also reviewed
the 2020 Census Operational Plans as well as the
documentation that the Census Bureau has issued
describing the actions it is taking in response to the
COVID-19 pandemic. I have two serious concerns
regarding the Memorandum: (1) it will significantly increase the risk of larger total and differential undercounts, relative to previous censuses, for
the hard-to-count populations, including immigrant
communities; and (2) it lacks transparency as required by law and the Census Bureau Statistical
Quality Standards that would allow for the assessment of the methodology that might be used in response to the direction to exclude undocumented

324
persons from the 2020 Census Apportionment
counts.
II.

Qualifications

4.

Below I briefly describe specific aspects of my qualifications and work experience that establishes my
credentials as an accomplished statistician and an
expert on the Census Bureau and Decennial Census. I have also attached a copy of my CV to this
declaration.

5.

I have served as both the Director of the U.S. Census Bureau and as the career senior executive in
charge of management of all aspects of the 2000 Decennial Census. I am also a distinguished professional in the area of statistics and survey design. I
have a deep understanding of the processes that are
necessary to achieve a complete and highly accurate
Decennial Census.

6.

I served as the Director of the U.S. Census Bureau
from August 2013 to June 2017. Prior to becoming
Director, I worked at the Census Bureau for 27
years (from 1975 to 2002). I started my career as
a mathematical statistician in 1975. I spent the
majority of my employment at the Census Bureau
focused on the Decennial Census and ultimately
served as the Associate Director for the 2000 Decennial Census, with management responsibility for
all phases of the 2000 Decennial Census.

7.

The Census Bureau is the largest Statistical Agency
and produces a wide range of demographic and economic statistics including: the Decennial Census;
the American Community Survey; the Current Population Survey; the National Crime Victimization

325
Survey, the National Health Interview Survey; the
Economic Census; the release of 13 principle key
economic indicators on a monthly or quarterly basis;
and conducts about 100 additional surveys. The
Director of the Census Bureau is appointed by the
President and confirmed by the Senate.
8.

My responsibilities as Director of the Census Bureau included overseeing the research and testing
that produced the design for the 2020 Census.
During my tenure, the original operational plan for
conducting the 2020 Census was released, as was an
updated version 2.0 of this plan. In addition, major
field tests were conducted in 2013, 2014, 2015 and
2016. The results of these tests informed the final
2020 Census Design that was tested in the 2018 endto-end test. During my service, the Census Bureau reviewed the residence criteria used to determine where to count the residents of the United
States. A preliminary proposal for the 2020 residence criteria was issued for public comment on
June 30, 2016. 1 In particular, the Census Bureau
was following the same principles that had guided
each previous Decennial Census—the Constitution
requires that everyone living in the United States
should be included in the enumeration, regardless
of immigration status, for all uses of the census, including Apportionment. The final 2020 Census
residence criteria were issued on February 5, 2018,
and again followed these same principles to count
everyone living in the United States at their usual

Federal Register, 81 FR 42577, Proposed 2020 Census Residence Rule and Residence Situations, June 30, 2016.
1

326
place of residence regardless of immigration status
for Apportionment and all other uses. 2
9.

Prior to being appointed Director of the Census Bureau I was at National Opinion Research Center
(NORC) at the University of Chicago, serving as
Executive Vice President from 2002 to 2008 and
President from 2008 to 2013. NORC is an objective, non-partisan independent research institution
that delivers reliable data and rigorous analysis to
guide critical programmatic, business, and policy
decisions. Clients include government, corporate,
and nonprofit organizations around the world who
partner with NORC to transform increasingly complex information into useful knowledge. NORC
conducts research in five main areas: Economics,
Markets, and the Workforce; Education, Training,
and Learning; Global Development; Health and
Well-Being; and Society, Media, and Public Affairs.
NORC services include designing and conducting
surveys (telephone, Internet, and in-person) as well
as analytical studies.

10. From July 2017 to August 2018, I served as the Executive Director of the Council of Professional Associations on Federal Statistics (COPAFS). COPAFS is an organization with a membership consisting of professional associations and research organizations that depend on and support high quality
federal statistics. The Executive Director of CO-

Albert E. Fontenot, Jr., 2020 Census Residence Criteria and Residence Situations, 2020 Census Program Memorandum Series:
2018.04, February 5, 2018.
2

327
PAFS must have a deep understanding of the Federal Statistical System and the wide range of data
products that are produced. Serving as the Executive Director of COPAFS reinforced my appreciation of the importance of high-quality Decennial
Census data to the entire Federal Statistical System.
11. In addition to the work experience described above,
I am an elected Fellow of the American Statistical
Association and was selected to serve on the National Academies of Science, Engineering, and Medicine Committee on National Statistics.
III. Concerns

A. Background on the Decennial Census
12. The uses of the data generated by the Decennial
Census are extremely important for all components
of our democracy and economy, including: the
constitutionally required reapportionment of the
Congress; redrawing congressional and state legislative voting districts; allocating over $1.5 trillion in
federal funds annually; supporting evidence based
policy making by state, local and tribal governments; and allowing informed decisions by large and
small business to generate economic growth and job
creation. Inaccuracies or undercounts in Decennial Census data will result in under-representation
of the affected population groups not just in the immediate term, but for ten subsequent years until the
next Decennial Census results are available.
B. The 2020 Census was already facing unprecedented challenges prior to the release of the
Memorandum.

328
13. The COVID-19 pandemic forced the delay of key operations out of concerns for the safety of both census workers and the general public. The in-person
components of the local partnership program to increase response rates of the traditionally hard-tocount populations were delayed, as was the operation to collect responses from those households that
do not self-respond. This operation is referred to
as nonresponse follow-up or NRFU. In my opinion, NRFU is the most critical operation to achieving a fair and accurate enumeration. Currently
the national self-response rate is 63 percent, which
means that over 37 percent or over 50 million housing units and their occupants must still be enumerated. 3 A successful NRFU is therefore essential to
achieving a complete enumeration for the 2020 Census.
14. The NRFU operation had been scheduled to start
on May 15, 2020 and run through July 31, 2020.
However, as a result of the COVID-19 pandemic,
the Census rescheduled it to start in most of the
United States on August 11, 2020 and initially
planned to complete it by October 30, 2020.
15. In order to accommodate this delay, the Census Bureau had requested, through the Department of
Commerce, a four-month extension of the legal
deadlines 4 to deliver Apportionment and redistricting data. For Apportionment this would extend

US Census Bureau 2020 Census daily response rate tracker,
https://2020census.gov/en/response-rates.html (last accessed August 6, 2020).
4
Title 13, US Code, Section 141, (b) and (c).
3

329
the current deadline of December 31, 2020 to April
30, 2021. For redistricting data, the requested extension was from March 31, 2021 to July 31, 2021.
16. However, the Census Bureau has announced that
the deadlines will not be extended, and that the
NRFU will now be completed by September 30,
2020. 5 The Census Bureau will have to take steps
to complete the NRFU more rapidly than they
planned.
17. In this situation the risk that the hard-to-count populations will be underrepresented increases greatly.
Cooperation on the part of the households in NRFU
is going to be essential. However, as I discuss below, the issuance of the Memorandum will most
likely decrease cooperation and willingness to participate further reducing the effectiveness of NRFU
in achieving a fair and accurate enumeration.
C. The confidence of respondents that the 2020
Census will be confidential will be significantly eroded leading to increased undercounts
18. The Census Bureau has made good progress since
the 1990 Decennial Census, and had great success
during both the 2000 and 2010 Decennial Censuses
in reducing undercounts. A key component of this
success has been the deployment of a combined national and local advertising and local partnership

Statement from U.S. Census Bureau Director Steven Dillingham:
Delivering a Complete and Accurate 2020 Census Count, https://
www.census.gov/newsroom/press-releases/2020/delivering-completeaccurate-count.html, August 3, 2020.
5

330
program to deliver a message to hard-to-count populations that the census is important to their community, and that the data collected through the census is completely confidential. No individual’s information is shared with any other organization or
law enforcement entities.
19. This messaging program was responsible for dramatic gains in the accuracy and coverage of the 2000
and 2010 Decennial Census relative to the 1990 Census, which did not include such a program. For example, the undercount of Black or African Americans dropped from 4.6 percent in 1990 to 2.1 percent
in 2010. 6 For the Hispanic population the undercount dropped from 5.0 percent to 1.5 percent. 7
20. Census Bureau research conducted in planning for
the 2020 Census has identified serious concerns that
potential respondents have with respect to the confidentiality of their information prior to the release
of the Memorandum. For example:
a. Census Bureau researchers conducted
qualitative research that was presented at
the 2018 American Association of Public
Opinion Research annual conference that
indicated that fear of government was

P. Cantwell, DSSD 2010 Census Coverage Measurement Memorandum Series # 2010-G-01, (May 22, 2012), https://www.census.gov/
coverage_measurement/pdfs/g01.pdf.
7
P. Cantwell, DSSD 2010 Census Coverage Measurement Memorandum Series # 2010-G-01, (May 22, 2012), https://www.census.gov/
coverage_measurement/pdfs/g01.pdf.
6

331
higher than had been experienced in prior
years. 8
b. The 2020 Census Barriers Attitudes and
Motivators Study was conducted to understand the concerns of potential respondents
to help shape the 2020 Census advertising
and communication program themes and
messages. The study found that the two
most significant barriers to participation in
the 2020 Census were: (1) concerns that
the Census Bureau would share information with other government agencies;
and (2) that the information that respondents provided would be used against them 9.
Non-White and Hispanic groups were much
more concerned than the White non-Hispanic group.
In addition, respondents
that were not proficient in English were
much more concerned than those who were
(39 percent compared to 23 percent).
c. The Census Bureau also conducted research on the potential effects of adding a
citizenship question to the 2020 Census
questionnaire. 10 This research indicated

AAPOR Panel on Changes in Respondent Privacy, Confidentiality, and Data Sharing Concerns, Meyers, Goerman, Harris-Kojetin,
Terry, and Fobia, Denver, Colorado, May 18, 2018
9
CBAMS report
10
J. David Brown, Misty L. Heggeness, Suzanne M. Dorinski,
Lawrence Warren, and Moises Yi Understanding the Quality of Alternative Citizenship Data Sources for the 2020 Census, August 6,
2018.
8

332
that the question would reduce self-response of the non-citizen population. Furthermore, the research found that it was
likely that households that refuse to respond to the census questionnaire because
of the citizenship question are also likely to
not respond to NRFU enumerators. It is
my opinion, based on my experience in implementing the 2000 Census and my work
in leading the design and planning for the
2020 Census, that the Memorandum is likely
to have similar effects on NRFU response.
21. In order to address these concerns, a cornerstone of
the 2020 Census advertising and partnership program, is a message that respondent information is
confidential. The Census Bureau will not share it
with any outside entities, including law and immigration enforcement. It is my opinion that the
Memorandum will reduce the effectiveness of the
2020 Census advertising and partnership program
in gaining the confidence of respondents in traditionally hard-to-count communities.
22. For example, a critical factor in underlying response and participation in the 2020 Census is the
macro environment under which the NRFU is being
conducted. While the 2020 Census advertising and
partnership program is designed to positively influence this environment, other factors such as the issuance of the Memorandum can have the opposite
effect. As Census Bureau Chief Scientist, Dr.

333
John Abowd, acknowledged during recent trial testimony 11 in the matter considering the potential effects of adding a citizenship question to the 2020
Census questionnaire, the macro environment was
likely to be affected by actions to add a citizenship
question. Furthermore, Dr. Abowd acknowledged
that the political environment around immigration
could amplify the effects of a citizenship question on
decreased response.
23. It is my opinion that the effects of the Memorandum
on the current macro environment are likely to be
as great if not greater than the addition of a citizenship question.
Therefore, immigrants and the
families of immigrants will be reluctant to participate in the NRFU and many will not be enumerated. It is also likely, in my opinion, that this reluctance to participate will extend to other hard-tocount populations as well. The issuance of the
Memorandum has significantly increased the risk of
larger total and differential undercounts, relative to
previous censuses.
D. Lack of transparency
24. At this point, little is known about the ultimate quality and accuracy of the 2020 Census. The location
and magnitude of errors caused by potential undercounts and overcounts has not been determined.
In addition, the level of inclusion of undocumented
persons in the 2020 Census is also unknown.

Trial Testimony of Dr. John Abowd, Nov. 13, 2018, New York
Immigration Coalition, et al. v. United States Department of Commerce, et al., 18-CV-5025-JMF (S.D.N.Y), at 926-27.
11

334
25. It will be very challenging for the Census Bureau to
determine the number of undocumented persons
that are included in the 2020 Census at the time
when Apportionment data is required to be reported. It is critical for the Census Bureau and the
Department of Commerce to describe the methodology that they intend to utilize to estimate the numbers of undocumented persons enumerated in the
2020 Census and what are appropriate measures of
accuracy that would support the usage of such
methodologies. The Memorandum does not provide any specific directions and the Census Bureau
has not described how it will comply with the Memorandum.
26. There are legal and statistical standards that the
Census Bureau has followed and should continue to
follow with respect to transparency:
a. The Census Bureau is a Federal Statistical
Agency and as Director Dillingham noted
in sworn testimony July 29, 2020, the Census Bureau intends to follow the principles
and practices identified by the Committee
on National Statistics for Federal Statistical Agencies. 12 Principle 2, Credibility
among Data Users, states: “Also essential to building credibility are for an agency
to be open and transparent about its data
sources and their limitations, demonstrate
understanding of users’ needs and priorities, fully document the processes used to
Committee on National Statistics, Principles and Practices for
a Federal Statistical Agency 2 (6th ed. 2017).
12

335
produce and disseminate statistical products, and take proactive steps to preserve
data for future use.”
b. The Office of Management and Budget issued a Memorandum on April 24, 2019 Improving Implementation of the Information Quality Act to the Heads of all Executive
Departments
and
Agencies
strengthening previous guidance in this
area. 13 This document states: “The IQA
requires agencies conduct pre-dissemination
review of their information products.
During this review, each agency should
consider the appropriate level of quality for
each of the products that it disseminates
based on the likely use of that information.”
27. In 2013 the Census Bureau issued Statistical Quality Standards that are currently guiding the conduct
of all their programs including the 2020 Census. 14
a. In particular: Statistical Quality Standard
F1, Releasing Information Products Requirement F1-6 states: “Information products must comply with the Census Bureau’s
statistical quality standards and must be
free of serious data quality issues in order
to be released outside the Census Bureau
without restrictions.” Statistical Quality
Standard F2, Providing Documentation to
Russel T. Vought, Acting Director OMB, Memorandum for the
Heads of Executive Departments and Agencies, Subject: Improving Implementation of the Information Quality Act (Apr. 24, 2019).
14
U.S. Census Bureau Statistical Quality Standards (Jul. 2013).
13

336
Support Transparency in Information
Products Requirement F2-2 states: “Documentation must be readily accessible in sufficient detail to allow qualified users to understand and analyze the information and
to reproduce (within the constraints of confidentiality requirements) and evaluate the
results.”
28. The most important information produced and released by the Census Bureau is the constitutionally
mandated Apportionment data. Because this information is so vital to our democracy, it is critically
important that the Department of Commerce and
the Census Bureau are transparent in their adherence to their legal and statistical standards. At a
minimum, the Census Bureau has an obligation to
assure the public and stakeholders that any methods it develops for determining the number of undocumented individuals is statistically sound.
VI. Conclusion

In conclusion, it is my opinion that the issuance of the
Memorandum will significantly increase the risk of
much larger undercounts for the 2020 Census than
measured in previous censuses, including undercounts of immigrant communities.
In addition,
there is no transparency or documentation of how the
quality and fitness for use of the Apportionment
counts will be determined, nor is there any documentation of how the number of undocumented persons
potentially included in the 2020 Census will be determined.
Executed on Aug. 6, 2020 at Bend, Oregon.

337
I declare under penalty of perjury that the foregoing is
true and correct.
/s/ JOHN THOMPSON
JOHN THOMPSON

338

Exhibit 58

339
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
EXPERT DECLARATION OF
DR. CHRISTOPHER WARSHAW
I.

Introduction

1.

My name is Christopher Warshaw. I have been an
Assistant Professor of Political Science at George
Washington University since August 2017. I was
recently awarded tenure, and will become a tenured
Associate Professor on September 1, 2020. Prior
to working at George Washington University, I was
an Associate Professor at the Massachusetts Institute of Technology from July 2016 - July 2017, and

340
an Assistant Professor at MIT from July 2012 - July
2016.
2.

I have been asked by counsel representing the
plaintiffs in New York Immigration Coalition v.
Trump and State of New York v. Trump to analyze
relevant data and provide my expert opinions.

3.

More specifically, I have been asked:
• To forecast the populations of every state in the
United States in 2020.
• To estimate the proportion of the population in
every state in the United States likely to be excluded if undocumented immigrants are not included in the Census enumeration used for apportionment.
• To analyze the likely effects of the exclusion of
undocumented immigrants on the apportionment of representatives across states for the U.S
House of Representatives.

4.

My opinions are based on the knowledge I have
amassed over my education, training and experience, including a detailed review of the relevant academic literature. They also follow from a statistical analysis that I describe in detail below.

A.

Qualifications and Publications

5.

My Ph.D. is in Political Science, from Stanford University, where my graduate training included
courses in political science and statistics. I also
have a J.D. from Stanford Law School. My academic research and teaching focuses on public opinion based on surveys and Census data, as well as the
study of representation, elections, and polarization

341
in American Politics.
statistical analysis.

I have also taught courses on

6.

My curriculum vitae is attached to this Declaration
at Appendix C. All publications that I have authored and published appear in my curriculum vitae. I have published 30 academic articles and
book chapters. My work is published or forthcoming in peer-reviewed journals such as: the American Political Science Review, the American Journal of Political Science, the Journal of Politics, Political Analysis, Political Science Research and
Methods, the British Journal of Political Science,
Political Behavior, the Annual Review of Political
Science, the Election Law Journal, Nature Energy,
Public Choice, and edited volumes from Cambridge
University Press and Oxford University Press.
My non-academic writing has been published in the
New York Times and the Washington Post.

7.

Most relevantly, I provided an expert report and
declaration in New York Immigration Coalition
et al v. United States Department of Commerce, No.
18-CV-2921-JMF (S.D. NY). In that report, I assessed the consequences of an undercount caused
by a potential citizenship question on the U.S. Census. Specifically, I examined the effects of a net
differential undercount of people who live in immigrant households on congressional apportionment.
I found that the inclusion of a citizenship question
on the Census would likely have led to substantial
effects on the population counts of each state, and
the apportionment of representatives across states
for the U.S House of Representatives. In that

342
case, the court found my analysis and findings
“credible and persuasive.”
8.

I have also previously provided expert reports in
League of Women Voters of Pennsylvania v. Commonwealth of Pennsylvania, No. 159 MM 2017 (PA
2018); League of Women Voters of Michigan v.
Johnson, No. 2:17-cv-14148 (E.D. 2019); and PRI
et al v. Smith et al., No. 18-cv-357 (S.D. Ohio 2018).

9.

The opinions in this declaration are my own, and do
not represent the views of George Washington University.

B.

Research Design

10. President Trump recently issued a presidential memorandum charging the Secretary of Commerce to
“exclude from the apportionment base aliens who
are not in a lawful immigration status under the Immigration and Nationality Act.” 1 In order to assess the consequences of excluding undocumented
immigrants from the count of people in the United
States used for apportionment, I conduct the following steps:
A. I estimate the baseline population of each
state in 2020 based on the Census Bureau’s
annual estimates of the population of each
state from the past three decades. 2 The
See https://www.whitehouse.gov/presidential-actions/memorandumexcluding-illegal-aliens-apportionment-base-following-2020-census/.
2
For the state populations from 2010-2019, I used the file ‘nstest2019-01.xlsx’ which I obtained from https://www.census.gov/newsroom/
press-kits/2019/national-state-estimates.html. For the populations
from 2000-2009, I used the file ‘st-est00int-01.xls’ from https://www.
census.gov/data/tables/time-series/demo/popest/intercensal-20001

343
populations used for apportionment also include overseas federal employees and their
dependents. Then, based on data from the
U.S. Military and the Census Bureau, I estimate the number of overseas federal employees and dependents that would be added
to the population of each state for apportionment.
B. I use data from the Pew Research Center to
estimate the number of undocumented immigrants in each state in 2020. These are
the most widely used data in the academic
literature on the undocumented immigrant
population. However, I reach very similar
conclusions using a variety of alternative
sources of data on the number of undocumented immigrants in each state.
C. Based on all of these data, I estimate the
proportion of each state’s population that
would be excluded from the enumeration
used for apportionment due to the presidential memorandum. I then use the official
apportionment table published by the U.S.
Census Bureau to estimate the number of
congressional seats that states would gain or
lose. Finally, I report the uncertainty in all
of my analyses.

2010-state.html. For the population counts from 1990-1999, I used
the data available at https://www.census.gov/data/tables/time-series/
demo/popest/intercensal-1990-2000-state-and-county-totals.html.

344
D. I evaluate the robustness of my findings to a
variety of alternative data sources and modeling strategies. I also compare my findings to four other independent reports from
different research groups. My findings are
robust to alternative modeling assumptions
and are similar to these other groups’ findings.
C.

Summary of Findings

11. Based on my analysis, I have reached the following
conclusions:
• The exclusion of undocumented immigrants from
the apportionment base (i.e., the population enumeration used for apportionment) is likely to
have substantial effects on the population counts
of each state, and the apportionment of representatives across states for the U.S House of
Representatives.
• It will almost certainly lead Texas to lose a seat
in Congress. It is likely to lead California and
New Jersey to lose a congressional seat. It also
could lead other states, such as Arizona, Florida,
New York, or Illinois, to lose seats. These conclusions are similar across multiple data sources
on the prevalence of undocumented immigrants.
They are also similar to the conclusions reached
by a variety of independent analysts and organizations.
• The exclusion of undocumented immigrants from
the apportionment base would affect political
representation in Congress. For instance, it is
likely to affect the distribution of federal funds

345
to each state, and the general power that each
state holds in Congress.
II. Projecting the State Populations in 2020

12. The first stage of my analysis is to develop baseline
projections of the population of each state in the
country in 2020. These projections are critical to
determining the likely effects of excluding undocumented immigrants from the apportionment base.
In order to develop these estimates, I use the Census Bureau’s official estimates of the population of
each state from 1990-2019. The Census Bureau
does not provide public estimates of each geographic unit’s populations in future years.
13. In this section, I first discuss several possible approaches for estimating future populations. I show
that my preferred approach performs as well or better at a similar modeling problem than alternative
approaches. I then discuss how I incorporate uncertainty into my population projections. Finally,
I present estimates of the 2020 populations in each
state in the country.
A.

Data

14. The Census Bureau’s Population Estimates Program (PEP) produces estimates of the population
for the United States, states, counties, cities, towns,
and other geographic areas. These aggregate estimates are based on the demographic components
of population change (births, deaths, and migration)

346
at each level of geography. 3 My population projections are based on these official population estimates for each state for the period from 1990-2019. 4
B.

Statistical Model for Population Projections

15. There are a number of potential options for forecasting the likely population of each state in 2020.
One possible forecasting option would be to allow
the forecasts to increase or decrease over time,
where the amount of change over time (called the
drift) is set to be the average change in the historical data (see Hyndman and Athanasopoulos 2018,
48-49). Some related methods in this family of
forecasting approaches are:
• Model 1: Linear trend between 2010-2019: One
approach would be to project forward based on
the linear trend in the population estimates since
the last Census (e.g., Election Data Services
2017). This approach assumes that each geographic unit’s population follows the same linear
I do not directly use the more detailed cohort-component method
used by the Census for my population projections because this information is unavailable for some geographic levels, particularly for the
2000-2010 period. It is also unclear whether the additional complexities associated with this approach would yield substantial gains
in predictive accuracy.
4
For the state populations from 2010-2019, I used the file ‘nstest2019-01.xlsx’ which I obtained from https://www.census.gov/
newsroom/press-kits/2019/national-state-estimates.html. For the
populations from 2000-2009, I used the file ‘st-est00int-01.xls’ from https://
www.census.gov/data/tables/time-series/demo/popest/intercensal2000-2010-state.html. For the population counts from 1990-1999, I
used the data available at https://www.census.gov/data/tables/timeseries/demo/popest/intercensal-1990-2000-state-and-county-totals.
html.
3

347
rate of change in the future that it has followed
over the past decade. This approach has the
benefit of using many years of data, but it could
yield biased estimates if the population trends
have changed over this period. I estimate linear trends using a simple linear regression
model in the software program R.
• Model 2:
Linear trend between 2016-2019:
Another possibility is to project forward based
on the linear trend in the population estimates
over the past 4 years. This approach assumes
that each geographic unit’s population follows
the same linear trend in the future that it has
followed over this shorter time period. This approach has the benefit of being sensitive to more
recent trends, but it could be noisier than estimates based on the longer time series. That is,
it could be overly sensitive to short-term trends.
I estimate linear trends using a simple linear regression model in R.
• Model 3: Change between two most recent years
(i.e., 2018 to 2019): A third possibility is to focus on the change between each geographic unit’s
populations in the two most recent years and assume that future years will follow this recent
trend. This approach has the benefit of being
based on the most recent changes in populations,
but it could also be overly sensitive to short-term
idiosyncratic trends. I estimate these shortterm trends using the software program R.
16. As Hyndman and Athanasopoulos (2018, 50) discusses: “Sometimes one of these simple methods
will be the best forecasting method available; but in

348
many cases, these methods will serve as benchmarks rather than the method of choice. That is,
any forecasting methods [] will be compared to these
simple methods to ensure that the new method is better than these simple alternatives. If not, the new
method is not worth considering.” I consider one
more complex approach against these benchmarks:
• Model 4: A state space model with exponential
smoothing: This approach uses an exponential
smoothing model that weights levels and trends
to an extent determined by the data (Hyndman
et al. 2008; Hyndman and Athanasopoulos 2018).
This model uses all of the available data, but it
gives more weight to the most recent years. I
estimate the exponential smoothing model using
the ets function in the forecast package in R.
C.

Validation of Population Projections

17. The accuracy of forecasting models can only be determined by considering how well a given model
performs on new data that were not used when fitting the original model (Hyndman and Athanasopoulos 2018, 62). In order to choose the best
model for this analysis, I evaluated each model using a benchmark that is similar to the challenge of
forecasting the 2020 populations. Specifically, I
forecasted the 2019 population estimates in each
state based on 1990-2018 population data. For
each analysis I used the following evaluation metrics (see Hyndman and Athanasopoulos 2018, 6465).

349
• The mean error across states (ME): This helps
assess whether a given metric has a systematic
bias in one direction or another.
• The root mean-squared error across states
(RMSE): This helps assess the accuracy of the
forecasts. It penalizes larger errors more than
smaller errors.
• The mean absolute error across states (MAE):
This helps assess the accuracy of the forecasts.
It penalizes all errors equally.
• The mean percentage error across states
(MPE): This helps assess whether a given metric has a systematic bias in one direction or another. It has the advantage of being unit-free
(i.e., the interpretation is similar in small and
large states).
• The mean absolute percentage error across
states (MAPE): This metric also helps assess
the accuracy of the forecasts. It has the advantage of being unit-free (i.e., the interpretation is similar in small and large states).

18. Table 1 shows the results. Overall, the state space
model (4) and delta model (3) perform the best in
this validation exercise. These models have much
less error than the other models across all the metrics. Other studies have shown that state space

350
models generally outperform other modeling approaches due to its flexibility (Hyndman et al. 2008;
Hyndman and Athanasopoulos 2018). It also provides measures of uncertainty. As a result, I use
this approach in my main analysis. I also show below, however, that I reach very similar findings using the delta model (3) (see Additional Scenario #6).
D.

Baseline estimates of 2020 populations

19. The next stage is to use the official Census population estimates to project each geographic unit’s population in 2020. Table 2 shows the results. 5 Note
that all of the analysis of apportionment that follow
fully incorporate the uncertainties in these projections.

The projections shown here do not include the overseas military
population, federal employees, and dependents. However, the apportionment projections in Table 6 do include these groups.
5

351

352
III. Estimating the Overseas Federal Population Allocated to each State

20. The population estimates above include all people
living in the United States. However, the populations used for apportionment also include overseas
federal employees and their dependents. 6 Thus, it
is necessary to estimate how overseas federal employees and dependents would be allocated for purposes of apportionment.
21. In the 2010 Census, the overseas military population were generally allocated to their “home of record” (the address provided when the service member entered the military) for purposes of apportionment. 7 For the 2020 Census, however, all overseas
federal personnel will be counted at their usual residential address in the United States. 8 In other
words, military personnel will typically be counted
as residing in or near the domestic base where they
are stationed. Unfortunately, there is no currently
available public estimate of how these overseas personnel will be allocated to individual states. The
Census Bureau has stated that it plans to count federal personnel living outside the United States, and
“Overseas” is defined as anywhere outside the 50 U.S. States
and the District of Columbia.
7
See the Census Bureau’s FAQ on Congressional Apportionment
in the 2010 Census. https://webcache.googleusercontent.com/search?
q=cache:WTXwriFql5AJ:https://www.census.gov/population/
apportionment/about/faq.html+&cd=2&hl=en&ct=clnk&gl=us&
client=safari and https://www.prb.org/how-does-the-u-s-censusbureau-count-people-who-have-more-than-one-address/.
8
See https://www.prb.org/how-does-the-u-s-census-bureau-countpeople-who-have-more-than-one-address/.
6

353
their dependents living with them outside the United
States, using administrative data provided by the
Department of Defense and the Department of
Homeland Security. 9
22. I used the following process to estimate the number
of overseas federal population that will be allocated
to each state for apportionment:
• First, I estimated the number of military personnel overseas in each branch using data from
the Department of Defense from March, 2020. 10
• Second, I allocated these personnel to each state
in proportion to the number of service members
in each branch based in each state. 11 This approach implicitly assumes that each member of
the military has an equal probability of being assigned abroad. While this is clearly a simplification, I believe it is the most reasonable analytical approach with currently available data.
• Third, I assumed that military personnel have
the same number of dependents (1.44) as they
did in the 2010 Census. 12

See https://www.doi.gov/sites/doi.gov/files/uploads/oia-02052020census-and-the-military.pdf.
10
I used the spreadsheet DMDC_Website_Location_Report_
2003.xlsx that is available from https://www.dmdc.osd.mil/appj/dwp/
dwp_reports.jsp.
11
I used the spreadsheet DMDC_Website_Location_Report_2003.
xlsx that is available from https://www.dmdc.osd.mil/appj/dwp/dwp_
reports.jsp.
12
I used the “2010 Census Federally Affiliated Overseas Count Operation Assessment Report” that is available at https://www.census.
9

354
• Finally, I assumed that the overseas federal civilian population is the same as in 2010 (39,674).
Since the majority of overseas federal civilian
employees are with the State Department, 13 I
assume these are all headquarters staff that
work in Washington DC. I use ACS Commuting Flows from the Census to allocate them between the District of Columbia, Virginia, and
Maryland. 14 I also assumed that these civilian
employees each have 1.44 dependents.
• Of course, this estimation method has considerable uncertainty. So I assumed that there is a
standard error associated with my estimates of
the overseas federal population for each state
that is equal to 10% of the size of the estimates.
23. Based on this methodology, I estimate that there
are about 230,000 overseas federal personnel. Including dependents, I estimate there are about
561,000 federal employees and dependents overseas
population will be included for purposes of apportionment for the 2020 Census. Table 3 shows the
state-by-state results. A copy of Table 3 is provided in Appendix A to this Declaration. My estimates indicate that California, North Carolina,
gov/2010census/pdf/2010_Census_Federally_Affiliated_Overseas_
Count_Operation_Assessment.pdf.
13
See the ‘2010 Census Federally Affiliated Overseas Count Operation Assessment Report’ that is available at https://www.census.
gov/2010census/pdf/2010_Census_Federally_Affiliated_Overseas_
Count_Operation_Assessment.pdf.
14
98% of people that work in Washington DC live in Maryland, Virginia, or Washington, DC. See https://www.census.gov/data/tables/
2015/demo/metro-micro/commuting-flows-2015.html.

355
Texas, and Virginia have the largest overseas federal populations. 15 It is important to note that the
federal overseas population is down by nearly 50%
since the 2010 Census. 16 This likely reflects the reduction in the nation’s military deployments in conflict areas over the past decade. 17
IV. Estimating the Number of Undocumented Immigrants in Each State

24. The President’s Memorandum charges the Secretary of Commerce to “exclude from the apportionment base aliens who are not in a lawful immigration
status under the Immigration and Nationality
Act.” 18 In order to assess the impact of this memorandum, we next need to estimate the number of
undocumented immigrants in each state.
25. There is no official estimate from the Census Bureau or any other federal government agency of the
number of undocumented immigrants in each state
that would be affected by the President’s memorandum. The most commonly used estimates of the

These estimates seem to be in-line with discussions in news coverage of apportionment. See https://www.rollcall.com/2020/02/26/
census-troop-counting-rules-could-tip-congressional-balance/.
16
I use information on these populations from the 2010 apportionment available at https://www.census.gov/data/tables/2010/dec/2010apportionment-data.html.
17
See Pew’s report on the number of overseas military personnel
at https://www.pewresearch.org/fact-tank/2017/08/22/u-s-active-dutymilitary-presence-overseas-is-at-its-smallest-in-decades/.
18
See https://www.whitehouse.gov/presidential-actions/memorandumexcluding-illegal-aliens-apportionment-base-following-2020-census/.
15

356
number of undocumented people have been developed by the Pew Research Center. 19 There are
hundreds of citations in Google Scholar for Pew’s
estimates of the number of undocumented immigrants in the United States. As a result, I use these
estimates in my main analysis. However later, I
also examine the estimates of the number of undocumented immigrants from a number of other organizations that use a variety of slightly different methodologies. Each of these analyses yields substantively similar conclusion as my main analysis using
Pew’s data.
26. Pew estimates the U.S. unauthorized immigrant
population from 1995-2017 in each state based on a
residual estimation methodology that compares a
demographic estimate of the number of immigrants
residing legally in the country with the total number
of immigrants as measured by either the American
Community Survey (ACS) or the March Supplement to the Current Population Survey (CPS). 20
The difference is assumed to be the number of unauthorized immigrants in the survey, a number that
later is adjusted for omissions from the survey (see
below). The basic estimate is:
Unauthorized Immigrants (U) = Survey, Total Foreign
Born (F) −
Estimated Lawful Immigrant Population (L)
See https://www.pewresearch.org/fact-tank/2019/06/12/usunauthorized-immigrant-population-2017/.
20
The next few paragraphs of this section are adapted from Pew’s
discussion of their methodology at https://www.pewresearch.org/
hispanic/2018/11/27/unauthorized-immigration-estimate-methodology/.
19

357
27. The lawful resident immigrant population was estimated by applying demographic methods to counts
of lawful admissions covering the period since 1980
obtained from the Department of Homeland Security’s Office of Immigration Statistics 21 and its predecessor at the Immigration and Naturalization
Service, with projections to current years, when
necessary. Initial estimates were calculated separately for age-gender groups in six states (California, Florida, Illinois, New Jersey, New York and
Texas) and the balance of the country. This residual method has been used in a wide variety of government reports and peer reviewed articles (e.g.,
Baker 2018; Warren and Warren 2013; Passel 2016).
28. The overall estimates for unauthorized immigrants
built on these residuals by adjusting for survey
omissions in these six states and the balance of the
country, subdivided for Mexican immigrants and
other groups of immigrants (balance of Latin America, South and East Asia, rest of world) depending
on sample size and state. Once the residual estimates were produced, Pew assigned individual
foreign- born respondents in the survey a specific
status (one option being unauthorized immigrant)
based on the individual’s demographic, social, economic, geographic and family characteristics in
numbers that agree with the initial residual estimates for the estimated lawful immigrant and unauthorized immigrant populations in the survey. A

21

See https://www.dhs.gov/immigration-statistics/yearbook/2016/.

358
last step in the weighting-estimation process involves developing state-level estimates that take
into account trends over time in the estimates.
29. Overall, Pew estimates there were about 10,481,000
undocumented immigrants in the United States in
2017. 22 They estimate that the states with the
most undocumented immigrants are California,
Texas, Florida, New York, and New Jersey. The
states with the fewest undocumented immigrants
are Maine, Montana, Vermont, and West Virginia.
30. Of course, Pew’s estimation process has substantial
uncertainties inherent in it. First, there is no way
to know that individual respondents to the ACS and
CPS are undocumented immigrants. Pew estimates undocumented status based on a variety of
pieces of information. 23 Second, the ACS and CPS
are themselves surveys, subject to sampling error.
There could also be misreporting of country of birth
on the ACS and/or unit non response by undocumented immigrants (Brown et al. 2018). In order
to characterize these uncertainties, Pew provides a
90% confidence interval for their estimates of the
number of undocumented people in each state.
31. Lastly, Pew’s data of the number of undocumented
immigrants in each state between 1995-2017 need to

These estimates seem plausible since the Department of Homeland Security estimated there were 12 million undocumented immigrants in the country in January 2015 (Baker 2018). They are also
similar to estimates of the number of undocumented immigrants developed by other think tanks (see below).
23
See https://www.pewresearch.org/hispanic/2018/11/27/unauthorizedimmigration-estimate-methodology/.
22

359
be projected 3 years forward to 2020. 24 To determine how to forecast the number of undocumented
immigrants in each state, I compared the same four
modeling strategies that I discussed earlier for the
state population projections. For each method, I
used data through 2014 to evaluate its performance
at predicting the number of undocumented immigrants three years forward in 2017.
32. All of the models generate significant levels of error
compared to the population forecasting validation
shown above in Table 4. However, the state space
model (4) and a linear time trend (2) using the previous four years of data perform somewhat better
than the other models. In my main analysis, I use
the state space model to project the number of undocumented immigrants in 2020. Moreover, I ensured that the state space model estimates fully incorporate the uncertainty in Pew’s estimates in the
number of undocumented immigrants (see Treier
and Jackman 2008; Caughey and Warshaw 2018). 25
I checked the robustness of my analysis by showing
Pew’s data are available at https://www.pewresearch.org/hispanic/
interactives/unauthorized-trends/.
25
Specifically, I used the following approach. First, I constructed
100 simulations of the number of undocumented immigrants in each
state from 2005-2017 using Pew’s estimates and the associated confidence intervals. For each simulation, I used the state space model
to forecast each state’s number of undocumented immigrants in
2020. I then constructed a bootstrap sample of the forecast of undocumented immigrants in each state based on the mean and confidence intervals in the state space model’s population forecast. Finally, I estimated the number of undocumented immigrants in each
state in 2020, and its associated standard error to represent uncertainty, based on these simulations.
24

360
that I reach similar substantive conclusions using
the linear time trend model (see Additional Scenario
#7).

33. Table 5 shows the estimates of the number of undocumented immigrants in each state (standard errors
that represent uncertainty are in parentheses). A
copy of Table 5 is provided in Appendix A to this
Declaration. Its shows that California, Florida, Illinois, New Jersey, New York, and Texas each have
at least 400,000 undocumented immigrants. 26
34. These final estimates take into account the uncertainty in Pew’s initial estimates of the number of undocumented immigrants from 2005-2017. They
also take into account the uncertainty in projecting
the trends in each state from 2017-2020. In general, the additional uncertainty associated with
forecasting to 2020 approximately triples the size of
Pew’s confidence intervals for their estimates of undocumented immigrants in each state in 2017.

These state-by-state figures are similar to those in a 2015 Department of Homeland Security report, which provided estimates of
the number of undocumented immigrants in several states (Baker
2018).
26

361
A.

Incorporating Uncertainty

35. All modeled estimates have uncertainty. My analyses uses bootstrap simulations to incorporate three
sources of uncertainty in all my models:
• The uncertainty in the population forecasts in
every state for 2020.
• The uncertainty in the estimates of the overseas
federal employees and dependents, and how
they are allocated to states.
• The uncertainty in the estimate of the number of
undocumented immigrants in each state in 2020.
V.

State-level Effects of Excluding Undocumented
Immigrants from Apportionment Base

36. Now that we have calculated population projections
and estimates of the number of undocumented immigrants in each state, we are in a position to estimate state-level impacts.
A.

Effect on State Population Enumerations

37. To begin, I analyzed the effects on the enumerated
population of each state in 2020. The results are
shown in Table 6. Column (1) of Table 6 shows the
baseline apportionment population projections for
each state (including the overseas military population, federal employees, and dependents). Column
(2) shows my estimate of the number of undocumented immigrants in each state in 2020. Column
(3) shows my estimate of the percentage of the apportionment population in each state that consists
of undocumented immigrants.

362

363
38. Overall, Table 6 indicates that each state would be
affected by an exclusion of undocumented immigrants. Figure 1 shows a map of the percentage of
people in each state that would be dropped from the
Census apportionment base if undocumented immigrants are excluded. Arizona, California, Colorado, Connecticut, Florida, Georgia, Hawaii, Mary
land, Massachusetts, Nevada, New Jersey, New
York, North Carolina, Rhode Island, Texas, Utah,
Virginia, and Washington would all lose at least 3%
of their population from their apportionment base.
Thus, they could be at risk of losing a congressional
seat during apportionment.

B.

Effect on Apportionment

39. Next, I used the population projections and estimates of undocumented immigrants in each state to
examine the likely effect of excluding undocumented
immigrants from the Census count on the apportionment of seats in the House of Representatives.
Article 1, Section 2, of the United States Constitution states: “Representatives and direct Taxes
shall be apportioned among the several States

364
which may be included within this Union, according
to their respective Numbers.”
40. Since the first census in 1790, five methods of apportionment have been used. The government currently
uses a method called the Method of Equal Proportions, which was adopted by Congress in 1941 following the census of 1940. This method first assigns
each state one seat. Then, additional seats in the
House of Representatives are assigned to a “priority” value. The priority value for each seat is determined by multiplying the population of a state by a
“multiplier.” The multiplier is
. So the
formula for calculating the multiplier for the second
seat is
or 0.70710678, the formula for
calculating the multiplier for the third seat is
or 0.40824829, and so on. The Census
provides an official table of these multipliers, which
I used for my calculations. 27
41. The next step is to multiply the multipliers by the
population total for each of the 50 states (the District of Columbia is not included in these calculations). The resulting numbers are the priority values. Multipliers and priority values must be calculated for the largest number of seats that could be
assigned to a state. In my analysis, I calculated
the priority values for each state for seats 2 through
60. The next step is to rank and number the resulting priority values starting with seat 51 until all
435 seats have been assigned. The final step is to
tally the number of seats for each state to arrive at
See https://www.census.gov/population/apportionment/about/
computing.html.
27

365
the total number of seats in the House of Representatives apportioned to each state.
42. I conducted these steps for 1,000 simulations of the
population projections and undocumented populations in each state. Table 7 shows the results. 28
Column (1) shows the rounded, baseline projections
for the number of seats that each state is likely to
receive in 2020 if there is a full population enumeration. Column (2) shows the rounded projections
for the number of seats that each state is likely to
receive in 2020 if undocumented immigrants are excluded from the apportionment base. Column (3)
shows the rounded, average change in the number
of congressional seats each state would gain or lose
due to the exclusion of undocumented immigrants.
Finally, column (4) shows the probability that each
state would lose at least one seat.

Table 12 in the Appendix A shows unrounded numbers for this
table.
28

366

367
43. My analysis indicates that there is a 98% chance
that Texas would lose a Congressional seat if undocumented immigrants are excluded from the apportionment base. It loses a seat in nearly every single one of my simulations. In addition, my analysis
indicates that there is a 72% chance that California
would lose a Congressional seat. On average, it
loses .83 seats across my simulations (i.e., in most
simulations it loses 1 seat, in some it loses 2 seats,
and in some it loses zero seats). My analysis also
indicates that there is a 70% chance that New Jersey would lose a Congressional seat if undocumented
immigrants are excluded from the apportionment
base. There are smaller chances that several other
states could lose seats, including Connecticut, Florida, Illinois, and New York. 29
44. The states that lose seats in Congress would likely
see decreases in their share of federal outlays due
to their reduction in voting power in Congress. A
number of economics and political science studies
have found that distributive spending is allocated in
part based on the number of seats that a geographic
area has in Congress (e.g., Ansolabehere, Gerber,
and Snyder 2002; Cascio and Washington 2014; Elis,
Malhotra, and Meredith 2009). For instance, Elis,
Malhotra, and Meredith (2009) find that a 10% increase in a state’s share of the U.S. House of Representatives equates to a 0.7% increase in a state’s
share of the federal budget. This implies that an
Note the rounded numbers in Table 7 imply that Florida and
New York would lose seats. The unrounded numbers in the Appendix (Table 12), however, show that there is a less 50% chance that
they would lose a seat.
29

368
extra congressional seat can gain a state as much as
$100 per capita in additional federal funding (360).
VI. Robustness Checks

45. It is always helpful to evaluate the robustness of any
analysis to alternative modeling assumptions. In
this section, I undertake four different robustness
checks. First, I evaluate the impact of using alternative sources of information on the number of undocumented immigrants in each state on my analysis. Second, I evaluate the impact of alternative
population forecasting methodologies. Third, I
evaluate whether my conclusions would differ if former Census Director John H. Thompson is correct
that the exclusion of undocumented immigrants
from the apportionment base would cause an undercount of immigrant populations. I used the foreignborn population in the United States to evaluate the
impact of an undercount of immigrants. Fourth, I
compare my results to the conclusions of various organizations’ reports on the impact of excluding undocumented immigrants on apportionment.
46. Overall, the analysis in this section shows that my
conclusions are robust to a wide variety of alternative data sources and modeling strategies. They
are also consistent with the findings of other organizations and analysts. All of these alternative data
sources, methodologies, and third-party reports indicate that Texas would lose a congressional seat if
undocumented immigrants are excluded from the
apportionment base. They nearly all indicate that
California would lose a seat. They also indicate
that some mix of Florida, New Jersey, and New
York could lose seats.

369
A.

Robustness to Alternative Estimates of the Number
of Un documented Immigrants

47. Due to the substantial uncertainties in Pew’s estimates of the number of undocumented people in
each state, I conducted a canvass of alternative
sources of estimates for the undocumented population. I identified several alternative sources of
data:
• Additional Scenario 1: The Migration Policy
Institution (MPI) has developed estimates of the
number of undocumented people in each state
based on the U.S. Census Bureau’s 2012-16
American Community Survey data. 30 They estimate there are about 11,300,000 undocumented
immigrants in the United States. Their national estimate is very similar to Pew’s estimate. 31 However, their estimates differ more
in some states. For instance, MPI estimates
that there are about 50% more undocumented
immigrants in California than Pew estimates.
They do not provide measures of uncertainty for
their estimates so I assume that each state has a
standard error that is 10% of the state’s point estimate.
• Additional Scenario 2: The Center for Migration Studies (CMS) has developed estimates of
the number of undocumented people in each

See https://www.migrationpolicy.org/programs/us-immigrationpolicy-program-datahub/unauthorized-immigrant-population-profiles.
31
MPI’s national estimate is about 8% higher than Pew’s estimate.
30

370
state in 2018. 32 Their methodology is described
in two articles that were published in the Journal of Migration and Security (Warren 2014,
2019). They estimate there are about 10,543,500
undocumented immigrants in the United States,
which is nearly identical to Pew’s national estimate. 33 They do not provide measures of uncertainty for their estimates so I assume that
each state has a standard error that is 10% of the
state’s point estimate.
• Additional Scenario 3: Third, I examine a scenario where the national estimates of the number of undocumented immigrants are somewhat
too high. To do this, I simply decrease all of my
main estimates using Pew’s data of the number
of undocumented immigrants in each state by
20% to examine the effects on apportionment if
the Pew, MPI, and CMS estimates of the total
number of undocumented immigrants in the
United States are all too high.
• Additional Scenario 4: Fourth, I examine a
scenario where the national estimates of the
number of undocumented immigrants are much
too high. To do this, I decrease all of my main
estimates using Pew’s data on the number of undocumented immigrants in each state by 40%.
• Additional Scenario 5: Finally, I examine a
scenario where the national estimates of the
Their estimates are available at http://data.cmsny.org/state.
html.
33
CMS’s national estimate is about 0.5% higher than Pew’s estimate.
32

371
number of undocumented immigrants are much
too low. To do this, I increase all of my main
estimates using Pew’s data on the number of undocumented immigrants in each state by 50%.
48. Table 8 compares my main findings (the “Main
Analysis” column) to analyses based on alternative
estimates of the number of undocumented immigrants. It shows each of the states that at least
one scenario (including my main analysis) finds has
a 33% chance or more of losing a seat if undocumented immigrants are excluded from the apportionment base. For each of these states, it shows
the probability that my analysis indicates the state
would lose a seat and the probability it would lose a
seat under the various alternative scenarios.
49. Overall, all of these analyses yield substantively
similar results as my main analysis. In each scenario, Texas has more than 95% chance of losing a
congressional seat if un documented immigrants are
excluded from the apportionment base. Moreover,
in all of the additional scenarios but one, California
has about a 50% chance or more of losing a congressional seat. There is also a significant chance that
Florida, New Jersey, and New York could lose a
seat in most of the scenarios.
B.

Robustness to Alternative Modeling Approaches

50. As I discussed above, there are a number of alternative approaches we could use to project the 2020
populations and estimates of undocumented immigrants in each state. In this section, I discuss alternative forecasting methodologies for each of
these:

372
• Additional Scenario 6: For the population forecasts of each state in 2020, I use a forecasting
methodology based on the deltas in the two most
recent years. In Table 1, I found that this approach was roughly equivalent to the state space
model. The state space model is preferable because it is more flexible and provides a measure
of uncertainty.
• Additional Scenario 7: For the forecasts of the
number of undocumented immigrants in each
state in 2020 based on Pew’s data, I use a methodology based on a linear time trends over the
four most recent years. In Table 4, I found that
this approach performed nearly as well as the
state space model. The state space model is
preferable because it is more flexible and requires fewer assumptions about future time
trends.
51. Both of these alternative-modeling strategies produce similar results as my main results (Table 9).
In each scenario, Texas is nearly certain to lose a
seat. California and New Jersey are likely to lose
seats in each scenario. Florida and New York also
have significant chances of losing a seat in each scenario.

373
C.

Robustness to a Possible Census Undercount

52. The testimony of the former U.S. Census Bureau
Director, John H. Thompson, to Congress on July
29, 2020 raises the possibility that the president’s
memorandum could lead to nonresponse to the Census by hard-to-count populations, including noncitizens and immigrants. 34 This, in turn, could lead
the Census to undercount foreign-born people. It
is possible that planned reductions in door-to-door
canvassing due to COVID-19 could lead to a further
undercount of foreign-born people. 35
53. In this section, I examine whether an undercount of
foreign-born people would affect my findings about
the effects of excluding undocumented immigrants
from the apportionment base. I use my estimates
from New York Immigration Coalition et al v. United
States Department of Commerce, No. 18-CV-2921JMF (S.D. NY) of the number of foreign-born people in each state. I then assess the consequences
of a scenario with a 10% undercount of foreign-born
people using the same methodology that I use in my
main analyses. I am adopting my declaration provided in that matter by reference and include a copy
in Appendix B.

See Statement of John H Thompson, Former Director U.S. Census Bureau (August 2013-June 2017), For the House Committee on
Oversight and Reform, U.S. House of Representatives, July 29, 2020
https://tinyurl.com/y67ojjqb.
35
See https://www.npr.org/2020/07/30/896656747/when-does-censuscounting-end-bureau-sends-alarming-mixed-signals and https://www.
nytimes.com/2020/08/04/us/2020-census-ending-early.html.
34

374

54. Table 10 compares my main findings to the results
of this undercount scenario. It shows each state
that my analysis indicates has a significant chance
of losing a seat if undocumented immigrants are excluded from the apportionment base. Once again,
in this scenario Texas is likely to lose a congressional seat if undocumented immigrants are excluded from the apportionment base. California
and New Jersey are also likely to lose congressional
seats.
D.

Comparison with Other Organizations’ Analyses

55. There have been a number of studies and reports by
various organizations estimating how excluding undocumented immigrants would affect apportionment. These include:
• The Pew Research Center 36
• The Center for Immigration Studies (CIS) 37
See https://www.pewresearch.org/fact-tank/2020/07/24/howremoving-unauthorized-immigrants-from-census-statistics-couldaffect-house-reapportionment/
37
See https://cis.org/sites/default/files/2019-12/camarotaapportionment-12-19_1.pdf.
36

375
• The Center for Politics at the University of Virginia (CfP) 38
• A peer reviewed academic study published in
2019 (Baumle and Poston Jr 2019).

56. Table 11 compares my main findings to the results
of these studies. It shows each state that at least
one study finds would lose a seat if undocumented
immigrants are excluded from the apportionment
base. For each of these states, it shows the probability that my analysis indicates the state would lose
a seat and an X for each of the other studies that
shows it would lose a seat.
57. Overall, each of these four other studies reaches
substantively similar conclusions as the ones in this
Declaration. They all conclude that California and
Texas would lose congressional seats if undocumented immigrants are excluded from the apportionment base. They also find a mix of other states

See http://centerforpolitics.org/crystalball/articles/excludingundocumented-immigrants-from-the-2020-u-s-house-apportionment/.
38

376
that might lose seats, including Arizona, Florida,
New Jersey, and New York.
VII. Conclusion

58. Based on the analyses in this Declaration, I conclude that failing to count undocumented immigrants for apportionment is likely to have effects on
the population counts of each state, and the apportionment of representatives across states for the
U.S. House. Texas is nearly certain to lose a congressional seat. California and New Jersey are
very likely to each lose a congressional seat. Other
states, such as Florida and New York could lose
seats as well. This would affect political representation in Congress. For instance, it is likely to affect the distribution of federal funds to each state,
and the general power that each state holds in Congress.
I reserve the right to amend or supplement my opinions
if additional information or materials become available.
I declare under penalty of perjury under the laws of the
United States that the forgoing is true and correct to the
best of my knowledge.
Executed on Aug. 7, 2020, in Bethesda, Maryland.
/s/ CHRISTOPHER WARSHAW
CHRISTOPHER WARSHAW

377
References

Ansolabehere, Stephen, Alan Gerber, and Jim Snyder.
2002. “Equal votes, equal money: Court-ordered redistricting and public expenditures in the American
states.” American Political Science Review 96 (4):
767-777.
Baker, Bryan. 2018. “Estimates of the Unauthorized
Immigrant Population Residing in the United States:
January 2015.” Department of Homeland Security,
December.
Baumle, Amanda K, and Dudley L Poston Jr. 2019.
“Apportionment of the US House of Representatives in
2020 under Alternative Immigration-Based Scenarios.”
Population and Development Review 45 (2): 379-400.
Brown, David J., Misty L. Heggeness, Suzanne M.
Dorinski, Lawrence Warren, and Moises Yi. 2018.
Understanding the Quality of Alternative Citizenship
Data Sources for the 2020 Census.
Cascio, Elizabeth U, and Ebonya Washington. 2014.
“Valuing the vote: The redistribution of voting rights
and state funds following the voting rights act of 1965.”
The Quarterly Journal of Economics 129 (1): 379-433.
Caughey, Devin, and Christopher Warshaw. 2018.
“Policy Preferences and Policy Change: Dynamic Responsiveness in the American States, 1936-2014.” The
American Political Science Review 112 (2): 249-266.
Election Data Services. 2017. Some Change in Apportionment Allocations With New 2017 Census Estimates,
But Greater Change Likely by 2020. Available at
https://www.electiondataservices.com/wpcontent/uploads/
2017/12/NR_Appor17c2wTablesMapsC1.pdf.

378
Elis, Roy, Neil Malhotra, and Marc Meredith. 2009.
“Apportionment cycles as natural experiments.” Political Analysis 17 (4): 358-376.
Hyndman, Rob J, and George Athanasopoulos. 2018.
Forecasting: principles and practice. O-Texts.
Hyndman, Rob, Anne B Koehler, J Keith Ord, and
Ralph D Snyder. 2008. Forecasting with exponential
smoothing: the state space approach. Springer Science & Business Media.
Passel, Jeffrey S. 2016. Overall Number of US Unauthorized Immigrants Holds Steady Since 2009: Decline in Share From Mexico Mostly Offset by Growth
From Asia, Central America and Sub-Saharan African.
Pew Research Center.
Treier, Shawn, and Simon Jackman. 2008. “Democracy as a latent variable.” American Journal of Political Science 52 (1): 201-217.
Warren, Robert. 2014. “Democratizing data about unauthorized residents in the United States: estimates
and public-use data, 2010 to 2013.” Journal on Migration and Human Security 2 (4): 305-328.
Warren, Robert. 2019. “US undocumented population
continued to fall from 2016 to 2017 and visa overstays
significantly exceeded illegal crossings for the seventh
consecutive year.” Journal on Migration and Human
Security 7 (1): 19-22.
Warren, Robert, and John Robert Warren. 2013. “Unauthorized immigration to the United States: Annual
estimates and components of change, by state, 1990 to
2010.” International Migration Review 47 (2): 296329.

379
Appendix A
1.

Estimates of Overseas Federal Personnel

380
2.

Estimates of Undocumented Immigrants

381
3.

Unrounded Main Results for Congressional Apportionment

382
Appendix B

383
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

Civil Action No. 18-CV-2921-JMF
NEW YORK IMMIGRATION COALITION, ET AL.
v.
UNITED STATES DEPARTMENT OF COMMERCE, ET AL.,
DEFENDANT

DECLARATION OF DR. CHRISTOPHER WARSHAW
I.

Qualifications

1.

I have been asked by counsel representing the plaintiffs in New York Immigration Coalition v. U.S.
Dept of Commerce and State of New York v. U.S.
Dept of Commerce to analyze relevant data and provide my expert opinions. More specifically, I have
been asked: to forecast the populations of every
state, county, and city in the United States in 2020;
given the assumption that various demographic
groups are likely to be undercounted due to the inclusion of a citizenship question on the Census, to
estimate the proportion of the population that belongs to those groups; to estimate the proportion of
the population in every state, county, and city in the
United States that belongs to those demographic
groups assumed to be likely to be undercounted in
2020 due to the inclusion of a citizenship question on
the Census; to analyze the likely effects of an undercount caused by the citizenship question affecting
those same demographic groups on the apportionment of representatives across states for the U.S.

384
House of Representatives; and to examine the likely
consequences of an undercount caused by the citizenship question affecting those demographic groups
on the distribution of people in urban and rural
counties. My expert report is PX-32 and the errata to that report is PX-323.
2.

I have been an Assistant Professor of Political Science at George Washington University since August
2017. Prior to that, I was an Associate Professor
at the Massachusetts Institute of Technology from
July 2016 - July 2017, and an Assistant Professor at
MIT from July 2012 - July 2016.

3.

My Ph.D. is in Political Science, from Stanford University, where my graduate training included courses
in political science and statistics. I also have a J.D.
from Stanford Law School.

4.

My academic research focuses on public opinion
based on surveys and census data, as well as the
study of representation, elections, and polarization
in American Politics. I have also taught courses
on statistical analysis. My curriculum vitae is PX323. All publications that I have authored and
published appear in my curriculum vitae. My work
is published or forthcoming in peer-reviewed journals such as: American Political Science Review, the
American Journal of Political Sciences, the Journal of
Politics, Political Analysis, Political Science Research and Methods, the British Journal of Political
Science, Political Behavior, the Election Law Journal, Nature Energy, Public Choice and edited volumes from Cambridge University Press and Oxford
University.

385
5.

I am also on the Editorial Board of the Journal of
Politics. I have previously provided expert reports in League of Women Voters of Pennsylvania
v. Commonwealth of Pennsylvania and League of
Women Voters of Michigan v. Johnson. My nonacademic writing has been published in the New
York Times Upshot.

6.

The opinions in this declaration are my own, and do
not represent the views of George Washington University.

7.

I offer these opinions with a strong degree of professional certainty based on the knowledge I have
amassed over my education, training and experience, and through a detailed review of the relevant
academic literature.

II. Projecting Future Populations

8.

The first stage of my analysis is to develop baseline
projections of the population of each state, county,
and city in the country in 2020. These projections
are critical to determining the likely effects of an
undercount in the Census due to the inclusion of a
citizenship question. In order to develop these estimates, I use the Census’s official estimates of the
population of each state, county, and city from 20002017. The Census does not provide public estimates of each geographic unit’s populations in future years.
A.

9.

Data

The Census Bureau’s Population Estimates Program (PEP) produces estimates of the population
for the United States, states, counties, cities, towns,

386
and other geographic areas. These aggregate estimates are based on the demographic components
of population change (births, deaths, and migration)
at each level of geography. 1
10. My population projections are based on these official population estimates for each state, county, and
city for the period from 2000-2017.
11. For the state populations from 2010-2017, I used the
file ‘nst-est2017-01.xlsx’ which I obtained from https://
www.census.gov/data/tables/2017/demo/popest/statetotal.html. For the populations from 2000-2009, I
used the file ‘st-est00int-01.xls’ from https://www.
census.gov/data/tables/time-series/demo/popest/
intercensal-2000-2010-state.html.
12. For the county populations from 2010-2017, I used
the file ‘co-est2017-alldata.csv’ from https://www.
census.gov/data/tables/2017/demo/popest/countiestotal.html. For the populations from 2000-2009, I
used the file ‘co-est00int-tot.csv’ from https://www.
census.gov/data/tables/time-series/demo/popest/
intercensal-2000-2010-counties.html.
13. For the county populations from 2010-2017, I used
the file ‘co-est2017-alldata.csv’ from https://www.
census.gov/data/tables/2017/demo/popest/countiestotal.html. For the populations from 2000-2009, I
used the file ‘co-est00int-tot.csv’ from https://www.
I do not directly use the more detailed cohort-component method
used by the Census for my population projections because this information is unavailable for some geographic levels, particularly for the
2000-2010 period. It is also unclear whether the additional complexities associated with this approach would yield substantial gains in
predictive accuracy.
1

387
census.gov/data/tables/time-series/demo/popest/
intercensal-2000-2010-counties.html.
14. For the city populations from 2010-2017, I used the
data in Factfinder available from https://www.census.
gov/data/tables/2017/demo/popest/total-cities-andtowns.html. For the populations from 2000-2009, I
used the file ‘sub-est00int.csv’ from https://www.
census.gov/data/datasets/time-series/demo/popest/
intercensal-2000-2010-cities-and-towns.html.
B. Statistical Model for Population Projections

15. There are a number of potential options for forecasting the likely population of a geographic unit
(e.g., states) in 2020. One possible forecasting option would be to allow the forecasts to increase or
decrease over time, where the amount of change
over time (called the drift) is set to be the average
change in the historical data. See Hyndman and
Athanasopoulos 2018, at 48-49.
Some related
methods in this family of forecasting approaches
are:
a. Linear trend between 2010-2017: One
possibility is to project forward based on
the linear trend in the population estimates since the last Census (e.g., Election
Data Services 2017). This approach assumes that each geographic unit’s population follows the same linear rate of change
in the future that it has followed over the
past decade. This approach has the benefit of using many years of data, but it
could yield biased estimates if the population trends have changed over this period.

388
I estimate linear trends using a simple linear regression model in the software program R.
b. Linear trend between 2014-2017:
Another possibility is to project forward
based on the linear trend in the population
estimates over the past 4 years. This approach assumes that each geographic unit’s
population follows the same linear trend in
the future that it has followed over this
shorter time period. This approach has
the benefit of being sensitive to more recent trends, but it could be noisier than estimates based on the longer time series.
That is, it could be overly sensitive to
short-term trends.
I estimate linear
trends using a simple linear regression
model in R.
c. Change between two most recent years
(i.e., 2016 to 2017): A third possibility is
to focus on the change between each geographic unit’s populations in the two most
recent years, and assume that future years
will follow this recent trend. This approach has the benefit of being based on
the most recent changes in populations, but
it could also be overly sensitive to shortterm idiosyncratic trends.
I estimate
these short-term trends using the software program R.
16. As Hyndman and Athanasopoulos discuss, “Sometimes one of these simple methods will be the best
forecasting method available; but in many cases,

389
these methods will serve as benchmarks rather than
the method of choice. That is, any forecasting
methods . . . will be compared to these simple
methods to ensure that the new method is better
than these simple alternatives. If not, the new
method is not worth considering.” Id. at 50.
17. I consider one more complex approach against these
benchmarks, a state space model with exponential
smoothing: This approach uses an exponential
smoothing model that weights levels and trends to
an extent determined by the data. See Hyndman
and Athanasopoulos. This model uses all of the
available data, but it gives more weight to the most
recent years. I estimate the exponential smoothing model using the ets function in the forecast
package in R. 2
C.

Validation of Population Projections

18. The accuracy of forecasting models can only be determined by considering how well a given model
performs on new data that were not used when fitting the original model. Id. at 62. In order to
choose the best model for this analysis, I evaluated
each model using two benchmarks that are similar
to the challenge of forecasting the 2020 populations.
For my state-level population projections, I used the default parameters for the ets function in R, which allowed the function to
choose the exponential smoothing state space model that best fit the
data in each state. The best model was usually an ‘MAN’ or ‘AAN’
model. For the population projections for cities and counties, I estimated an ‘MAN’ state space model using the ets function. The details of the state space model specification, however, do not affect
any of my substantive conclusions. All of the state space models
yield very similar results.
2

390
First, I forecasted the Census 2010 population in
each state based on 2000-2007 population estimates
data. Second, I forecasted the 2017 population estimates in each state based on 2007-2014 population
data. For each analysis, I used the following evaluation metrics. Id. at 64-65.
a. The mean error across states: This helps
assess whether a given metric has a systematic bias in one direction or another.
b. The mean absolute error across states:
This helps assess the accuracy of the forecasts.
c. The mean absolute proportional error
across states: This metric also helps assess the accuracy of the forecasts. It has
the advantage of being unit-free (i.e., the
interpretation is similar in small and large
states).
19. Table 1 shows the results. For the forecast of the
2010 population, the state space model performs the
best, with the lowest error, the second lowest mean
absolute error, and the lowest absolute proportional
errors. The two linear trend models perform the
worst on this forecasting exercise. For the forecast of the 2017 population, the state space model
and the linear trend model using data from 20102017 perform the best. The state space model has
slightly lower mean errors, and the two models have
similar mean absolute errors and absolute proportional errors.

391

20. Overall, the state space model performs the best
across the two validation exercises. It has an average absolute proportional error of only .8% and an
average absolute error of only about 40,000 people
in each state. As a result, I use the state space model
as my main forecasting model to generate population projections. However, the results of all the
analyses that follow would be substantively similar
using any of these population forecasting approaches.
D. Incorporating Uncertainty

21. All modeled estimates have uncertainty. My analyses use bootstrap simulations to incorporate two
sources of uncertainty in all my models:
•

The uncertainty in the population forecasts in
every geographic unit

•

Where available, uncertainty in the undercount estimates for each group

E. Baseline estimates of 2020 populations with no
undercount

22. I used the official Census population estimates to
project each geographic unit’s population in 2020.
Table 2 shows the population projections for a selec-

392
tion of cities and counties involved in lawsuits regarding the citizenship question. Table 3 shows
the population projections for each state. 3 All of
the analysis of apportionment that follows fully incorporates the uncertainties in the projections discussed above.
But for simplicity, the tables
themselves do not show the uncertainties.

The projections shown here do not include the overseas military
population, federal employees, and dependents. However, the apportionment projections in Table 5 do include these groups.
3

393

394
III. Estimating Proportion of People Likely to be Undercounted Due to Citizenship Question

23. I was not asked to and I did not attempt to calculate
the specific undercount that the addition of the citizenship question might cause. However, I evaluated a range of potential undercounts of individuals
who live in households with at least one non-citizen,
Hispanics or foreign-born member to demonstrate
the potential effects that the addition of the citizenship question might have. Theory indicates that
the addition of a citizenship question could lead to
unit non-response, which occurs when a household
does not respond to the Census, thereby depressing
response rates among non-citizens and immigrant
communities. Indeed, the Census acknowledges
that it is “a reasonable inference that a question on
citizenship would lead to some decline in overall
self-response because it would make the 2020 Census modestly more burdensome in the direct sense,
and potentially much more burdensome in the indirect sense that it would lead to a larger decline in
self-response for noncitizen households.” (Abowd
2018, Section B2, p. AR 001281)
24. In my analysis, I use this information to look at
three potential undercount scenarios:
a. First, I used a 5.8% undercount estimate
based on the results of the Census Bureau’s internal study of the effect of a citizenship question on self-response rates.
For these analyses, I assumed that respondents that do not self-respond would
not be enumerated.

395
b. Second, I was asked by legal counsel to examine a potential 10% undercount for the
analysis of state-level apportionment as an
outer bound for the potential effects of the
citizenship question on population enumerations and apportionment. This higher
number reflects the Census’s finding that
the differences between citizen and noncitizen response rates and data quality are
likely to be “amplified” compared to historical levels (Abowd 2018, Section B4, p. AR
001282). The Chief Scientist at the Census has acknowledged that the 5.8% estimate of the effect of the citizenship question on self-response rates is “a conservative estimate of the differential impact of
the citizenship question on the self-response rates of noncitizens compared to
citizens” (Abowd, J. Dep., Aug. 15, 2018, p.
202).
c. Third, I was asked by legal counsel to examine a potential 2% undercount as a
lower bound for the potential effects of the
citizenship question on population enumerations. My report shows the results
for cities and counties, and the calculations
for a 2% undercount in states are PX-324.
I was not asked to and I did not do any
analysis of the impact of the Census Bureau’s Non-Response Follow-Up (“NRFU”)
on non-response rates, but note that the
2% scenario could be viewed as taking into
account some NRFU success after an initial larger nonresponse rate.

396
25. The recent Census Bureau studies discussed above
focus largely on the effects of a citizenship question
on self-response rates in non-citizen households.
As a result, the first set of analyses I conducted for
each of these undercount scenarios focuses on people in households with a non-citizen in them. Beyond the effects on non-citizen households, there
are also strong theoretical reasons to believe that
citizen Hispanics would also be less likely to respond to the Census if a citizenship question is included. Citizen Hispanics in immigrant communities could fear deportation due to their Census responses. 4 Moreover, a large fraction of citizen Hispanics are likely to know non-citizens or even people
that have been deported. The Census’s internal
analysis has shown that citizenship-related questions are likely to be more sensitive for Hispanics
(Brown et al. 2018, p. 10). Indeed, the Census has
found clear evidence there are likely to be differential impacts on self-response rates among Hispanics
from the addition of a citizenship question. Hispanics have a greater breakoff rate (i.e., item nonresponse) on the citizenship question on the American Community Survey (ACS) than other demographic groups. 5 There is also evidence of growing
unit nonresponse rates among Hispanics on the
ACS (Brown et al. 2018, p. 12). For these reasons,

Title 13, U.S.C. prohibits the use of Census data for enforcement
purposes, but respondents may still have this concern (Brown et al.
2018).
5
See Abowd (2018, Section b3) and Brown et al. (2018, 7).
4

397
I analyzed the effect of all three undercount scenarios (2%, 5.8% and 10%) on both people in noncitizen
households and citizen Hispanics.
A.

Undercount Estimate Based on Original Survey Experiment

26. An empirical approach to determine the potential
undercount caused by a citizenship question is through
a randomized control trial (RCT). The Census Bureau suggests that an appropriate RCT could compare self-response rates between households “randomly chosen to have [] a citizenship question (the
treated group), and a randomly chosen set of control
households [that] receive a [] Census questionnaire
without citizenship” (Brown et al. 2018, p. 39)
27. We were unable to conduct a real-world RCT. A
similar approach, however, is to conduct an experiment that mimics an RCT on a nationally representative survey of Americans. As part of this
case, the State of New York and other plaintiffs
funded a nationally representative survey that included an experiment along these lines to examine
whether the inclusion of a citizenship question
would reduce the likelihood that people would complete the Census. 6 This survey was designed by

As part of my work as an expert in this matter, I reviewed Professor Barreto’s expert report that describes the survey methodology and his analysis of the results. However, I ran all of the analyses of the survey used in this report myself. I did not directly use
any of Professor Barreto’s findings for my report.
6

398
Dr. Matt Barreto and conducted by Pacific Market
Research. 7
1. Design of Survey

28. This survey included a probability sample of 6,309
people, including over-samples of Hispanics, Californians, and people in several cities and counties
(San Jose, CA, Cameron County, TX, and Hidalgo
County, TX). 8 It was conducted via phone by Pacific Research Group to both landlines and cell
phones using live interviews and random digit dialing. The survey asked a number of questions
about the Census and assessed reactions to the inclusion of a citizenship question. The survey did
not include a question about the citizenship of respondents. But it did include a question about
whether respondents were born in the United States
or a foreign country.
29. In my analysis, I focus on an experiment embedded
in the survey that mimics the RCT approach suggested by Brown et al. (2018). This enables us to
estimate the causal effect of the citizenship question
on the likelihood that various demographic subgroups will complete the Census.
30. In the experiment on our survey, the control group
received a vignette stating that the government had
decided not to include a citizenship question on the
census, while the treatment group received a vignette stating that the government had decided to
Data and statistical code to replicate my analysis of this survey is
available in my replication materials.
8
The survey includes sampling weights that incorporate these oversamples and make the results representative at the national-level.
7

399
include a citizenship question on the census. Then
the survey asked whether respondents would ‘participate and fill out the 2020 Census form, or not?’
Control Group: Now that you’ve heard a little bit
about the 2020 Census let me ask you one final question
about how likely you are to participate. If the government decides in 2020 to NOT include a question about
citizenship status, and instead only asks you to report
the race, ethnic background, gender of people living in
your household, and the government provides assurances that your information will be kept confidential and
ONLY used for purposes of counting the total population and nothing more, would you participate and fill out
the 2020 Census form, or not?
Treatment Group: Now that you’ve heard a little bit
about the 2020 Census let me ask you one final question
about how likely you are to participate. If the government decides in 2020 to include a question about citizenship status, and asks you to report the race, ethnic background, gender and citizenship status of people living in
your household, and the government provides assurances that your information will be kept confidential and
ONLY used for purposes of counting the total population and nothing more, would you participate and fill out
the 2020 Census form, or not?
31. This experimental design is a strong one for assessing the causal effect of the citizenship question
on the likelihood that people will complete the Census. However, it does have limitations. First, the
experiment on the survey imperfectly captures the
actual experience of completing the Census. Second, many respondents are probably already aware
of the potential inclusion of the citizenship question

400
on the Census, which could lead to Stable Unit
Treatment Value Assumption (SUTVA) violations.
These SUTVA violations could attenuate the effects
we detect in the experiment by artificially reducing
the differences between the treatment and control
groups. Overall, I think these limitations mean the
survey-based analysis is conservative in its estimates of the citizenship question on self-response
rates on the Census.
2. Results of Survey

32. My primary analyses focus on two immigrant communities that theory indicates are particularly
likely to be impacted by the citizenship question.
First, I analyze the impact on Latinos. 9 This analysis is helpful because there is little publicly available Census analysis of the potential effects of the
citizenship question on this group. Second, I analyze the impact on non-Latino people that are not
born in the United States. 10
33. I ran three sets of analyses that are shown in Table
4. My primary analysis of the effect of the citizenship question on each group is a weighted regression that evaluates the treatment effect of the citizenship question. In other words, it evaluates
whether people in the treatment group, that were
told the Census would include a citizenship question, are less likely to indicate they would respond
Note that I use the terms Hispanic and Latino interchangeably
throughout this declaration.
10
I include in this group both people that explicitly stated they
were born in a foreign country and the small number of people that
refused to answer the nativity question on the survey.
9

401
to the Census than people in the control group that
were told it would not include a citizenship question.
34. As robustness checks, I also ran two additional models. The middle column of Table 4 for each group
is a weighted regression model that includes control
variables for other factors that might affect respondents’ willingness to complete the Census, including their age, race, and state of residence. The
third column of Table 4 for each group is an unweighted regression model that includes this same
set of control variables for other factors that might
affect respondents’ willingness to complete the Census. All of my main analyses in the results below
are based on linear probability models. However,
logistic regression models yield similar results.
35. Overall, Table 4 shows that the citizenship question
makes both Latinos and Foreign-born non-Latinos
less likely to respond to the Census. The weighted
regression model in column (1) indicates that Latinos are about 5.9% less likely to complete the Census if it includes a citizenship question. The results are similar in the other two models shown in
columns (2) and (3). For foreign-born, non-Latinos,
the weighted regression in column (4) indicates that
they are about 11.3% less likely to complete the
Census if it includes a citizenship question. The
results are substantively similar, though more statistically significant, in the other two models shown
in columns (5) and (6).

402

IV. Baseline Estimates of Proportion of Population in
Immigrant Communities Vulnerable to Undercount

36. In order to analyze the effects of an undercount of
individuals that live in households with at least one
non-citizen and Hispanic on total population enumerations, I used the American Community Survey
(ACS) to generate baseline estimates of the proportion of the 2020 population in each state, county, and
large city in the following groups that are vulnerable to an undercount:
• Non-citizen households (based on whether any
member of a household in the ACS self-reports
that they are a noncitizen) 11
It is important to note that the Census has found that the ACS
might be drastically undercounting the number of households with
noncitizens. The ACS implies that about 10% of people live in households with a noncitizen in them. However, Census Bureau found
that many people may be misreporting their citizenship status on the
11

403
• All Hispanics and citizen Hispanics
• Foreign-born, non-Hispanics
37. To forecast the population margins of each group
within each state (e.g., percent Hispanic), I used the
individual-level data in the American Community
Survey (ACS) from 2007-2016 to forecast the 2020
population distributions using the same approach
that I used to forecast state populations. Individuallevel data in the ACS is not readily available below
the state-level (e.g., for counties and cities). As a
result, I used population tables published by the
Census based on the five-year ACS samples (20122016) to estimate the demographic distributions
within counties and cities. 12 I did not attempt to
estimate how these substate population distributions are likely to change between 2016 and 2020.
Thus, my estimates of the percentage of county and
city population that are members of immigrant communities are probably low due to the general growth
of these populations.

ACS. Based on administrative records, they estimate that 28.6 percent of all households could potentially contain at least one noncitizen. So my estimate of the percentage of people that reside in
households with a noncitizen based on the ACS is likely conservative.
12
For the selection of cities and counties in Tables 2, 7, and 8, I
converted the number of non-citizens to the number of people in
households with a non-citizen using the ratio of these groups in the
individual- level 5-year ACS sample (2012-16) for people in the PUMAs that overlapped each city and county. This analysis is necessarily approximate since PUMAs in the ACS micro-data contain
multiple cities and counties.

404
A.

State-level Effects of Undercount—Effect of
Undercount on State Population Enumerations

38. I analyzed the effects of each undercount scenario
on the enumerated population of each state in 2020.
The results are shown in Table 5. Column (1) shows
the baseline apportionment population projections
for each state. Column (2) shows the average change
in the enumerated population if 5.8% of people in
non-citizen households are not counted due to the
citizenship question. Column (3) shows the average
change in the enumerated population if 5.8% of noncitizen households and Hispanics are not counted
due to the citizenship question. Column (4) shows
the average change in the enumerated population if
10% of people in non-citizen households are not
counted due to the citizenship question. Column
(5) shows the average change in the enumerated
population if 10% of non-citizen households and Hispanics are not counted due to the citizenship question. Column (6) shows the average change in the
enumerated population in each state based on the
results of the survey experiment. Specifically, this
scenario assumes that 5.9% of Hispanics and 11.3%
of foreign-born, non-Latinos are not counted in the
enumerated population.
39. For the analysis of apportionment, I also incorporated estimates of the overseas military population
and federal employees, and their dependents living
with them. Specifically, I used the 2010 population
figures for the overseas military population and federal employees, and their dependents living with
them, for each state, and divided this number by

405
half to approximately reflect the reduction in the nation’s military deployments over the past decade.
See https://www.census.gov/data/tables/2010/dec/2010apportionment-data.html, for 2010 population figures. See also Pew Foundation study, http://www.
pewresearch.org/fact-tank/2017/08/22/u-s-active-dutymilitary-presence-overseas-is-at-its-smallest-indecades/, for more information on the reduction in
the number of overseas military personnel over the
past decade.

406
40. Overall, Table 5 indicates that each state would be
affected by an undercount on the Census. The
largest impacts would be in states with large numbers of Hispanics, non-Citizens, and foreign-born
residents. For example, California would be undercounted by 1.7-5.0% in these scenarios; Florida
would be undercounted by 1-3.4%; New Jersey
would be undercounted by 1.2-3.3%, New York
would be undercounted by 1.2-3.2%; and Texas
would be undercounted by 1.3-4.6%.
41. Figure 1 shows a map of the results from the survey
experiment (column 6 in Table 5).
This map
graphically shows that heavily Latino states on the
southern border have the largest impacts from an
undercount. States in the northeast, such as New
York, New Jersey, and Massachusetts, with significant foreign-born populations also have significant
impacts.

407
42. I used the population projections and estimated effects of the various undercount scenarios on the
enumerated population of each state to examine the
likely effect of the citizenship question on the apportionment of seats in the House of Representatives.
Article 1, Section 2, of the United States Constitution states: “Representatives and direct Taxes
shall be apportioned among the several States
which may be included within this Union, according
to their respective Numbers.”
43. Since the first census in 1790, five methods of apportionment have been used. The government currently uses a method called the Method of Equal Proportions, which was adopted by Congress in 1941
following the census of 1940. This method first assigns each state one seat. Then, additional seats in
the House of Representatives are signed to a “priority” value. The priority value for each seat is determined by multiplying the population of a state by
a “multiplier.” The multiplier is
. So
the formula for calculating the multiplier for the
second seat is
or
0.70710678,
the
formula for calculating the multiplier for the third
seat
is
or 0.40824829, and so on.
The Census provides an official table of these multipliers, which I used for my calculations. 13
44. The next step is to multiply the multipliers by the
population total for each of the 50 states (the District of Columbia is not included in these calcula-

See https://www.census.gov/population/apportionment/about/
computing.html.
13

408
tions). The resulting numbers are the priority values. Multipliers and priority values must be calculated for the largest number of seats that could be
assigned to a state. In my analysis, I calculated
the priority values for each state for seats 2 through
60. The next step is to rank and number the resulting priority values starting with seat 51 until all
435 seats have been assigned. The final step is to
tally the number of seats for each state to arrive at
the total number of seats in the House of Representatives apportioned to each state.
45. I conducted these steps for 500 simulations of the
population projections and undercount scenarios in
each state. Table 6 shows the results. Column
(1) shows the baseline projections for the number of
seats that each state is likely to receive in 2020 if
there is a full population enumeration. Column (2)
shows the average change in the number of congressional seats if 5.8% of people in non-citizen households are not counted due to the citizenship question. Column (3) shows the average change in
seats if 5.8% of non-citizen households and Hispanics are not counted due to the citizenship question.
Column (4) shows the average change in seats if 10%
of people in non-citizen households are not counted
due to the citizenship question. Column (5) shows
the average change if 10% of non-citizen households
and Hispanics are not counted due to the citizenship
question. Column (6) shows the average change in
seats in each state based on the results of the survey
experiment. Specifically, this scenario assumes
that 5.9% of Hispanics and 11.3% of foreign-born,
non-Latinos are not counted in the enumerated pop-

409
ulations. Also, each column includes 95% confidence intervals for the seat projections in parentheses. This means that there is a 95% chance that
the true number of seats gained or lost in each scenario will be in this range.
46. First, we can examine Columns (2) and (3) of Table
6, which show the effects of a 5.8% undercount of
people in non-citizens households and Hispanics.
In these scenarios, California is extremely likely to
lose a seat. Additionally, if there is an undercount
of 5.8% of both people in non-citizen households and
Hispanics, there is more than a 51% chance that
Texas will lose a seat. There is also a risk that Arizona, Florida, Illinois, and New York could lose
seats in some simulations.
47. Columns (4) and (5) of Table 6 show the effects of a
10% undercount of non-citizen households and Hispanics. If only people in non-citizen households
are undercounted, California and Texas would be
more likely than not to lose a seat. Arizona, Florida, Illinois, and New York would also be at risk of
losing seats. If both non-citizens and Hispanics
are undercounted, Arizona, California, Florida, and
Texas would be likely to lose seats. Illinois and
New York would also be at risk of losing a seat.

410

411
48. Column (6) shows the effects of the undercount of
Hispanics and foreign-born residents found in the
survey experiment. In this scenario, California,
Florida, and Texas would most likely all lose seats.
Arizona, Illinois, and New York could lose a seat as
well.
49. The states that lose seats in Congress would likely
see decreases in their share of outlays of federal
funding due to their reduction in voting power in
Congress. See Elis, Malhotra, and Meredith 2009
(PX-325). The Elis article attached here is just an
example. It is a well-established finding in political science and political economy that the loss of political power as a result of the loss of representation
leads to the loss of funding. This finding is based
on a body of research showing that counties in areas
of states that were underrepresented in state legislatures or Congress due to malapportionment received substantially lower shares of distributive
spending. In the wake of the Baker v. Carr family
of Supreme Court cases that required one-person,
one-vote, counties that were underrepresented due
to malapportionment saw both their representation
in legislatures and their share of spending increase
substantially when the equal populace district requirement was implemented. See Ansolabehere,
Gerber, and Snyder 2002 (PX-326). Additionally,
it is also based on another body of research comparing states that barely gain or lose Representatives
in Congress. See PX-325. The census thresholds
sometimes are quite close where a state could gain
or lose seats. So this research compares those states
that are just above and below the population thresholds to gain or lose a seat, and it has found that the

412
states that just barely gain a seat receive more
money than the states that barely lose a seat.
B. City and County Effects of Undercount

50. I also examined the effects of the various undercount scenarios for cities and counties. Irrespective of state-level impacts on apportionment, the
enumeration of subnational areas is crucially important for a number of purposes. It affects the
distribution of federal and state funds that are tied
to population formulas. In addition, it affects the
allocation of legislative seats within states since legislative districts are required to be equipopulous.
51. This allocation of voting power within states, in
turn, affects distributive spending programs influenced by the legislature. See PX-326. Areas with
greater population enumerations, and thus more
voting power, are likely to receive more funding.
This article is just another example of this well-established finding in political science. There is a
large body of political science research concluding
that vote dilution due to malapportionment leads to
a reduction in voting power and less distributive
spending.
52. It is reasonable to assume that undercounts like
those addressed in my report will more likely than
not impact intrastate redistricting because there is
no reason to think that a state legislature would correct an undercount on the Census. I think it’s a reasonable assumption that state governments would not
consciously try to remedy an undercount.

413
53. Table 7 shows the impact on the counties and cities
that are involved in the lawsuits regarding the citizenship question. The left column shows the baseline 2020 population projection. It also shows the
absolute change in population and percentage change
in the geographic unit’s population due to three undercount scenarios. First, I examine a 2% undercount scenario. Second, I examine a 5.8% undercount scenario. For each of these scenarios, I examine undercounts among people in non-citizen
households and among noncitizens households +
Hispanics. Finally, I examine a scenario based on
the results of the survey experiment.
54. Table 7 shows the effects on a selection of cities and
counties involved in the lawsuits regarding the citizenship question. All of these local governments
would most likely face smaller population enumerations due to an undercount from the addition of a
citizenship question. Some of the largest effects
would be in Miami, FL, New York, NY, Central
Falls, RI, and Providence RI. In the survey experiment scenario (right-hand column), each of these
cities could see a reduction of around 4% or more in
their enumerated populations.

414

55. The three Texas counties would also face particularly negative impacts. Each of these heavily Latino counties could have a reduction in their enumerated populations of over 5%.
56. Figure 2 shows the reduction in the enumerated
population for every county in the country based on
the survey experiment (last column of Table 7). It
shows that the largest effects are in counties on the
southern border, the California coast, and in the region around New York City. The counties and cities that are plaintiffs in this suit are labeled on the
graph. All of these geographic units are in the
most heavily impacted areas of the country.

415

57. Table 8 shows the change in each area’s share of its
state population due to the undercount. This statistic is important for estimating the potential effects of the undercount on state-level formula grants,
as well as on the relative voting power of each geographic area in congressional and state legislative
elections. Geographic areas that see a reduction in
their share of the state population are likely to get
less representation in Congress and their state legislature. This reduction in voting power is likely to
lead to less distributive spending. See PX-326.
As stated before, this article is just an example.
There is a large body of political science research
that finds localities have their vote diluted because
they are malapportioned. This implies that if the
enumerated populations used for redistricting are
smaller than their actual populations, then this reduction in voting power is very likely to lead to less
distributive spending.

416

58. Table 8 shows the relative change in each area’s population using three undercount scenarios. First, I
examine a 2% undercount scenario. Second, I examine a 5.8% undercount assumption. For each of
these scenarios, I examine undercounts among people in non-citizen households and among non-citizens households + Hispanics. Finally, I examine a
scenario based on the results of the survey I discussed in depth above.
59. Under nearly every scenario, each of the cities and
counties would face declines in their share of their
respective state populations due to an undercount
from the citizenship question. Once again, some of
the largest effects would be in Miami, FL, New
York, NY, Central Falls, RI, Providence RI, and the
three Texas counties. Each of these areas would
have a reduction in their ‘relative populations’ (i.e.,

417
share of the state population) of several percentage
points based on the survey experiment.
V.

Aggregate Effects on Share of Population in Different Types of Counties

60. I examined the macro effects of an undercount due
to the addition of a citizenship question on the distribution of the enumerated population across urban and rural areas. For simplicity, I use the survey estimates on foreign-born people and Hispanics.
But the results are broadly similar for other undercount scenarios. 14 The best available definition of
urban and rural areas is based on a classification
system developed by the National Center for Health
Statistics (NCHS). 15 This classification system is
often used to study the associations between the urbanization level of residence and health and to monitor the health of urban and rural residents. NCHS
has developed a six-level urban-rural classification
scheme for U.S. counties and county-equivalent entities. The most urban category consists of “central” counties of large metropolitan areas and the
most rural category consists of nonmetropolitan
“noncore” counties. Figure 3 shows a map of the
NCHS classification scheme.

For confidentiality reasons, it is not possible to match the ACS
micro-data to smaller cities and counties. So, for this analysis, I calculated the ratio of people in non-citizen households to individual
non-citizens for each state in the 2016 ACS. I then multiplied these
ratios by the estimates of the number of non-citizens in each city and
county to estimate the number of people in households with a noncitizen.
15
See https://www.cdc.gov/nchs/data_access/urban_rural.htm.
14

418

61. Figure 3 shows that an undercount due to a citizenship question would have the most substantial impact in large metropolitan counties with major cities. Based on the survey experiment, these counties would have a reduction in their enumerated population of 2.9%. 16 This group of counties would also
have a reduction in their share of the national population of 1.1%. This reduction in urban areas’ relative population would likely lead to dilution in their
voting power and a reduction in their representation
in Congress and state legislatures. At the other end
of the continuum, noncore rural counties would only
have a reduction in their enumerated population of
.5%. Moreover, they would actually see a sizable

16

The patterns are broadly similar in the other scenarios.

419
1.4% increase in their share of the national population. This would lead to an increase in their representation in the legislature. Thus, the undercount
caused by a citizenship question on the Census
would lead to a redistribution of political power in
America. It would reduce the representation of
urban counties, and increase the voting power of
rural counties.

VI. Conclusion

62. I have reached the following conclusions:
a. The undercount caused by the inclusion of
a citizenship question on the Census is likely
to have effects on the population counts of
each state, and the apportionment of representatives across states for the U.S
House. There is a very high probability
that California will lose a congressional
seat, and it is more likely than not that
Texas will lose a congressional seat.
There is also a substantial risk that Arizona, Florida, Illinois, and New York could
lose a seat.
b. The citizenship question is also likely to
have effects on the population counts of

420
large counties and cities within each state.
This will affect the distribution of voting
power within states, and lead to the dilution of the voting power of New York, NY,
Miami, FL, Providence, RI, and other
large cities with substantial immigrant
populations.
c. Overall, the citizenship question will lead
to a large-scale shift in the distribution of
political power in the United States. It
would dilute the voting power of urban
counties, and increase the voting power of
rural counties.
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on: [Oct 26], 2018
Washington, DC
/s/ CHRISTOPHER WARSHAW
CHRISTOPHER WARSHAW

421
Appendix

422
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
EXPERT DECLARATION OF JOHN M. ABOWD, Ph.D.

I, John M. Abowd, make the following Declaration
pursuant to 28 U.S.C. § 1746, and state that under penalty of perjury the following is true and correct to the
best of my knowledge and belief:
Qualifications

1.

I am the Chief Scientist and Associate Director
for Research and Methodology at the United
States Census Bureau. I have served in that
capacity since June 2016. The following statements are based on my personal knowledge or

423
on information supplied to me in the course of
my professional responsibilities. These statements are provided in support of the Defendants’ opposition to the Plaintiffs’ motion for partial summary judgment or in the alternative for
a preliminary injunction.
2.

In 1977, I received my Ph.D. in economics from
the University of Chicago with specializations in
econometrics and labor economics. My B.A. in
economics is from the University of Notre Dame.

3.

I have been a university professor since 1976.
My first appointment was assistant professor of
economics at Princeton University. I was also
assistant and associate professor of econometrics and industrial relations at the University of
Chicago Graduate School of Business. In 1987,
I was appointed associate professor of industrial
and labor relations with indefinite tenure at Cornell University. I am currently on unpaid leave
from Cornell University to work in my current
position at the Census Bureau as part of the Career Senior Executive Service.

4.

I am a member and fellow of the American Statistical Association, Econometric Society, and Society of Labor Economists (president 2014). I
am an elected member of the International Statistical Institute. I am also a member of the
American Economic Association, International
Association for Official Statistics, National Association for Business Economists, American Association for Public Opinion Research, Association for Computing Machinery, American Asso-

424
ciation for the Advancement of Science, and American Association of Wine Economists. I regularly attend and present papers at the meetings
of all of these organizations.
5.

I have served on the American Economic Association Committee on Economic Statistics. I have
also served on the National Academy of Sciences
Committee on National Statistics, the Conference on Research in Income and Wealth Executive Committee, and the Bureau of Labor Statistics Technical Advisory Board for the National
Longitudinal Surveys (chair: 1999-2001).

Relevant professional experience

6.

In 1998, the Census Bureau and Cornell University entered into the first of a sequence of IPAs
and other contracts under which I served continuously as Distinguished Senior Research Fellow
at the Census Bureau until I assumed my current position in 2016, under a new IPA contract.
Since March 29, 2020, I have been in the Associate Director position at the Census Bureau as a
career Senior Executive Service employee.
While I was a senior re-search fellow, I worked
with numerous senior executives. This includes
Directors (Martha Riche, Kenneth Prewitt, C.
Louis Kincannon, Stephen Murdoch, Robert
Groves, and John Thompson), Deputy Directors
(Hermann Habermann, Thomas Mesenbourg,
and Nancy Potok), Chief Scientists (Roderick
Little and Thomas Louis), and numerous other
associate directors, assistant directors, and division chiefs. I also worked with Chief Economists John Haltiwanger, J. Bradford Jensen,

425
Daniel Weinberg, and Lucia Foster, and researchers in all program areas.
7.

I was one of three senior researchers who
founded the Longitudinal Employer-Household
Dynamics (LEHD) program at the Census Bureau. This program produces detailed publicuse statistical data on the characteristics of
workers and employers in local labor markets
using large-scale linked administrative, census
and survey data from many different sources.
The program is acknowledged as the Census Bureau’s first 21st Century data product: built to
the specifications of local labor market specialists without additional survey burden, and published using state-of-the-art confidentiality protection. In addition to very substantial financial support from the Census Bureau, this project was supported by a $4.1 million grant from
the National Science Foundation (NSF) on
which I was the lead Principal Investigator.

8.

From 2004 through 2009, I was the lead Principal Investigator on the $3.3 million NSFsupported collaborative project with the Census
Bureau to modernize secure access to confidential social science data. This project led to the
first production implementation worldwide of
differential privacy1 for OnTheMap—a product
of the LEHD program. It also produced prototype confidential data access systems with public-use synthetic micro-data supported by direct
analysis of the confidential data on validation
servers. These projects were the precursors to

426
the Census Bureau’s current program to implement central differential privacy for all publications from the 2020 Census of Population and
Housing, which will be the first large-scale production implementation worldwide.
9.

From 2011 until I assumed my position as Chief
Scientist at the Census Bureau in 2016, I was the
Principal Investigator of the Cornell University
node of the NSF-Census Research Network
(NCRN), one of eight such nodes that worked
collaboratively with the Census Bureau and other
federal statistical agencies to identify important
theoretical and applied re-search projects of direct programmatic importance to the agencies.
The Cornell node produced the fundamental science explaining the distinct roles of statistical
policymakers and computer scientists in the design and implementation of differential privacy
systems at statistical agencies.

10. I have published more than 100 scholarly books,
monographs, and articles in the disciplines of economics, econometrics, statistics, computer science, and information science. I have been the
principal investigator or co-principal investigator on 35 sponsored research projects. My full
professional resume is attached to this report.
Scope of work

11. I have been asked to provide expert opinion responding to the expert report submitted in this
case by Dr. Matthew H. Barreto.

427
Expert opinion

12. The most significant challenge to the quality of
2020 Census data is the COVID-19 pandemic.
The effects of the pandemic and the multiple reprograms of the field operations of the 2020 Census make it nearly impossible to predict with any
certainty whether any groups will be differentially disadvantaged in the final count. There
are no natural or field experiments that speak to
disruptions on this scale.
13. The Census Bureau’s randomized controlled trial
of a census questionnaire with and without a citizenship question, in June 2019, showed no statistically significant difference in the selfresponse rates with and without a citizenship question. With a sample of 480,000 housing units, capable of detecting differences as small as 0.5 percentage points (see https://www.census.gov/programssurveys/decennial-census/2020-census/researchtesting/testing-activities/2019-census-test/2019census-test-report.html), this test was largescale and properly designed to measure the differential self-response rates using the 2020 Census contact and self-response protocols. The
June 2019 Census Test did not inform the question of whether overall self-response might have
been lower because of the possibility of receiving
a question about citizenship (the macro environment), nor did it inform the quality of the overall
census procedures, including and especially nonresponse follow-up (NRFU).
14. An overview of the changes to the 2020 Census
field and post-processing operations because of

428
the COVID-19 pandemic and the shortened time
window for the NRFU operation are detailed in
the declaration of Albert E. Fontenot, Jr., Associate Director of the Decennial Census Programs for Census Bureau.
15. Pursuant to the President’s July 21, 2020 Memorandum on Excluding Illegal Aliens From the
Apportionment Base Following the 2020 Census
(“the PM”), and based on information currently
available to it, the Census Bureau is in the process of determining the appropriate methodologies and finalizing, to the extent possible, how it
may exclude illegal aliens in keeping with the
stated purpose of the PM to use the data for apportionment. At this time, the Census Bureau
does not know exactly what numbers the Secretary may report to the President, and it is therefore impossible to assess precisely the effects of
the PM on apportionment. The Census Bureau
is remaining consistent with best practices for a
federal statistical agency.
Comments on Dr. Barreto’s report

16. With regard to Dr. Barreto’s paragraph 14 (in
which he concludes that the PM will reduce participation in the 2020 Census and reduce the accuracy of the 2020 census), paragraph 19 (in
which he concludes that the PM erodes trust
that many community-based organizations with
experience serving immigrants built up over the
past year), and paragraph 21 (in which he cites
studies finding that Census participation drops
in immigrant communities when federal immi-

429
gration enforcement is perceived to be connected with the Census): As stated above in paragraph 12, the most significant challenge to the
quality of 2020 Census data is the COVID-19
pandemic. The effects of the pandemic and the
coinciding multiple repro-grams of the field operations of the 2020 Census required to adapt to
the circumstances of the COVID-19 pandemic
make it nearly impossible to predict with any
certainty whether any groups will be differentially disadvantaged in the final count. There
are no natural or field experiments that speak to
disruptions on this scale. Additionally, as demonstrated in paragraph 13 above, a randomized
trial of the actual protocol used would be the best
evidence to properly draw any conclusions.
17. With regard to Dr. Baretto’s paragraph 68, in
which he references 2018 survey research that
he conducted in relation to the citizenship question on the 2020 decennial, and his conclusions
that participation in the Census would increase
after removing any fear of immigration status
being exposed: The best way to accurately develop such conclusions is to conduct a randomized trial of the actual protocol being used in the
2020 Census, as referenced in paragraph 13
above. His research failed to do this making
his conclusions as set out in paragraph 68 less
reliable.
18. With regard to Dr. Baretto’s paragraph 77, in
which he concludes that administrative records
are less useful than direct responses: More
field visits by enumerators are still scheduled to

430
occur. After some number of visit attempts,
the enumerator will only try to get a population
count, which does not have any associated characteristics (like Hispanic ethnic origins). Such
a population count does not present the same incentives to avoid responding nor to misrepresent
the number of people in the household. As long
as the NRFU reaches comparable levels of completeness in getting population counts for address identifiers (MAFIDs), the differential effects of administrative record linkage with respect to apportionment are controlled.
19. With respect to Dr. Baretto’s paragraph 79, his
assertions that the count imputation process is
biased by non-ignorable non-response are speculative. In the presence of the pandemic, it is
very difficult to predict which neighborhoods
will have larger count imputation rates and
which will have smaller ones.
20. With respect to Dr. Baretto’s paragraph 81, he
misuses Rubin’s missing data definitions. MCAR
means that no variables-measured or unmeasured can predict which units are missing. Ignorable missing data (the standard assumption
used by statistical agencies) means that the observed responses can be reliably used to predict
the unobserved ones. Since the observed responses are all the agency typically has (including data in the sampling frame), that is all the
data it can use for imputation. Non-ignorable
missing data means that some unobserved information on the non-respondents is required to accurately predict their missing responses. Such

431
information comes from extra-survey sources.
The quote from my previous testimony was taken
out of context. As I have previously explained,
accuracy has at least two dimensions. These
are commonly called bias—the statistic’s tendency
to systematically over-count or undercount its
target—and variance—the statistic’s tendency
to fluctuate around its target. Count imputation is a statistical measure not based on sampling that has both of these accuracy components. I was commenting on the variance of imputations not the bias. The Census Bureau’s
count imputation procedure is tested for unbiasedness before use.
/s/ JOHN M. ABOWD, Ph.D.
JOHN M. ABOWD, PH.D.

432
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
DECLARATION OF ALBERT E. FONTENOT, JR.

I, Albert E. Fontenot, Jr., make the following Declaration pursuant to 28 U.S.C. § 1746, and state that under
penalty of perjury the following is true and correct to
the best of my knowledge and belief:
1. I am the Associate Director for Decennial Census
Programs, in which capacity I serve as adviser to the director and deputy director on decennial programs. In
this role, I provide counsel as to the scope, quality, management and methodology of the decennial programs;
provide executive and professional leadership to the di-

433
visions and central offices of the Decennial Census Programs Directorate; and participate with other executives in the formulation and implementation of broad
policies, which govern the diverse programs of the Census Bureau. I have served in this capacity since November 12, 2017.
2. The following statements are based on my personal
knowledge or on information supplied to me in the course
of my professional responsibilities. These statements
are provided in support of the Defendants’ opposition to
the Plaintiffs’ motion for partial summary judgment or
in the alternative for a preliminary injunction.
3. Since March 2020, the Census Bureau has been required to make a number of adjustments to its plans for
field data collection for the decennial census as a result
of the COVID-19 pandemic, and in order to comply with
the statutory deadline of December 31, 2020 to deliver
the apportionment count.
4. A statutory deadline under 13 U.S.C. § 141(b) requires that the tabulation of total population by States
as required for the apportionment of Representatives in
Congress among the several States shall be completed
within nine months after the official start of the census
and reported by the Secretary to the President of the
United States. That date is December 31, 2020.
5. To meet that deadline in light of the delays caused
by the Covid-19 pandemic, the Census Bureau, (as reflected in the Census Bureau Director’s August 3, 2020
Statement), has updated its operations plan. Specifically, the Census Bureau intends to improve the speed
of the count without sacrificing completeness. As part

434
of its revised plan, the Census Bureau will conduct additional training sessions to increase the number of enumerators in the field Additionally we will be providing
monetary awards to existing enumerators in recognition
of those who maximize hours worked, as well as retention bonuses for those enumerators who serve for multiple weeks. The Census Bureau will also keep phone
and tablet computer devices for enumeration in use for
the maximum time possible.
The Census Bureau will end field data collection by
September 30, 2020. Self-response options will also
close on that date to permit the commencement of data
processing. Under the revised plan, the Census Bureau intends to meet a similar level of household responses
as collected in prior censuses, including outreach to hardto-count communities. Once the Census Bureau has
the data from self-response and field data collection in
our secure systems, the Bureau plans to review the data
for completeness and accuracy, streamline processing of
the data, and prioritize apportionment counts to meet
the statutory deadline.
6. Between the time field operations are completed
and the statutory deadline, the Census Bureau must engage in post-data collection processing in order to produce the Census Unedited File (CUF), which will then
be used to produce the apportionment numbers to be delivered to the Secretary.
7. As of August 18, 2020, over 94 million households,
64 percent of all households in the Nation, have self responded to the 2020 Census. The initial Non-Response
Followup field work has begun and combined with the
self response numbers approximately 71 percent of all
the households in the nation have been enumerated.

435
Building on our successful and innovative internet response option, the dedicated women and men of the Census Bureau, including our temporary workforce deploying in communities across the country in recent and upcoming weeks, will work diligently to achieve an accurate count.
8. The Census Bureau has responded to the shortened
calendar period for Non-Response Follow-Up (NRFU)
operations by taking steps to increase and enhance the
ability of its employees in the field to work as efficiently
as possible, all in an effort to put in as many hours of
work, spread across the total workforce, into field operations as would have been done under the original time
frame. We have aimed to improve the speed of our
count by continuing to maintain an optimal number of
active field enumerators by conducting additional training sessions, providing awards to enumerators in recognition of those who maximize hours worked and retention awards to those who continue on staff for successive
weeks. Additionally, we are keeping phone and tablet
computer devices for enumeration in use for the maximum time possible.
9. As the Director stated on August 3, 2020, under the
revised plan discussed above, the Census Bureau intends
to meet a similar level of household responses as collected in prior censuses, including outreach to hard-tocount communities.
10. The Census Bureau will continue to protect and
keep confidential respondents’ private and personallyidentifying information, as is required by law under Title 13.

436
11. The Census Bureau will continue to comply with the
Census Bureau’s 2018 Residence Criteria, Final 2020
Census Residence Criteria and Residence Situations,
83 Fed. Reg. 5525 (February 8, 2018), which, as in past
decennial censuses, requires each person to be counted
in their usual place of residence, as defined in the Residence Criteria.
12. The Presidential Memorandum issued on July 21,
2020, Memorandum on Excluding Illegal Aliens From
the Apportionment Base Following the 2020 Census,
has had no impact on the design of field operations for
decennial census, or on the Census Bureau’s commitment to count each person in their usual place of residence, as defined in the Residence Criteria.
/s/

ALBERT E. FONTENOT
ALBERT E. FONTENOT

437
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
Filed: Aug. 19, 2020
DEFENDANTS’ RESPONSE TO PLAINTIFFS’
LOCAL RULE 56.1 STATEMENT

Pursuant to Local Civil Rule 56.1, Defendants submit
the following responses to Plaintiffs’ Local Rule 56.1
Statement of Material Facts as to Which There is No
Genuine Issue to Be Tried.
1.

Defendants do not dispute this statement.

2.

Defendants do not dispute this statement.

438
3. Defendants state that the cited DHS document
provides estimates that as of 2015, California and Texas
are the two states with the two largest populations of
illegal aliens. See Office of Immigration Statistics,
U.S. Dep’t of Homeland Sec., Population Estimates:
Illegal Alien Population Residing in the United States:
January 2015 at 2 (Dec. 2018).
4. Defendants state that the cited DHS document
provides estimates that as of 2015, California had an illegal alien population of 2.9 million and Texas had an illegal alien population of 1.9 million. Id. at 4.
5.

Defendants do not dispute this statement.

6.

Defendants do not dispute this statement.

7.

Defendants do not dispute this statement.

8. Defendants do not dispute that that the quoted
language appears in the Memorandum.
9. Defendants do not dispute that that the quoted
language appears in the Memorandum.
10. Defendants do not dispute this statement.
11. Defendants do not dispute this statement.
12. Defendants state that the Census Bureau’s total
estimated population of the State of California as of July
1, 2019 was 39,512,223. U.S. Census Bureau, Annual Estimates of the Resident Population for the United States,
Regions, States, and Puerto Rico: Apr. 1, 2010 to July
1, 2019 (NST-EST2019-02), https://www.census.gov/data/
tables/timeseries/demo/popest/2010s-state-total.html
(last visited August 17, 2020).
13. Defendants do not dispute this statement.

439
14. Defendants do not dispute this statement.
15. Defendants state that the Census Bureau’s total
estimated population of the State of Texas as of July 1,
2019 was 28,995,881. Id.
16. Defendants do not dispute that Florida is the
third most populous State after California and Texas,
and do not dispute that according to the Census Bureau
Florida has a total population of 18,801,310 as of April 1,
2010. Id. Defendants state that the Census Bureau’s
total estimated population of the State of Florida as of
July 1, 2019 was 21,477,737. Id
17. Defendants do not dispute this statement.
18. Defendants do not dispute this statement.
19. Defendants dispute Plaintiffs’ characterization
of the Memorandum anticipating any particular outcome
of apportionment. Defendants refer the Court to the
cited page of the Memorandum for a full and accurate
statement of its contents. See 85 Fed. Reg. at 44,680.
20. Defendants dispute that Dr. Christopher Warshaw could have performed any modeling based on “the
population count used to calculate Congressional apportionment after the 2020 Census” because that count is
not yet known. See Fontenot Decl. ¶¶ 4-8.
21. Defendants do not dispute that Table 7 of Dr.
Warshaw’s Expert Declaration contains the stated probability. Defendants dispute the premise underlying Dr.
Warshaw’s stated probability insofar as Dr. Warshaw
assumes that all illegal aliens will be excluded from the
apportionment base, a hypothetical proposition that is
not yet known. Abowd Decl. ¶ 15. Defendants also

440
dispute that Dr. Warshaw used a reliable method to
reach his stated probabilities.
22. Defendants do not dispute that Table 7 of Dr.
Warshaw’s Expert Declaration contains the stated
probability. But Defendants dispute the premise underlying Dr. Warshaw’s stated probability insofar as Dr.
Warshaw assumes that all illegal aliens will be excluded
from the apportionment base, a hypothetical proposition
that is not yet known. Abowd Decl. ¶ 15. Defendants
also dispute that Dr. Warshaw used a reliable method to
reach his stated probabilities.
23. Defendants do not dispute this statement.
24. Defendants dispute that residents of the City
and County of San Francisco will lose political power because it is not yet known whether California will lose any
seats in the House of Representatives, or whether all illegal aliens will be excluded from the apportionment
base. Abowd Decl. ¶ 15.
25. Defendants do not dispute this statement.
26. Defendants dispute that residents of Monterey
County will lose political power because it is not yet
known whether California will lose any seats in the
House of Representatives, or whether all illegal aliens
will be excluded from the apportionment base. Abowd
Decl. ¶ 15.
27. Defendants do not dispute this statement.
28. Defendants dispute that residents of Cameron
County will lose political power because it is not yet known
whether Texas will lose any seats in the House of Representatives, or whether all illegal aliens will be

441
excluded from the apportionment base.
¶ 15.

Abowd Decl.

29. Defendants do not dispute this statement.
30. Defendants dispute that residents of El Paso
County will lose political power because it is not yet
known whether Texas will lose any seats in the House of
Representatives, or whether all illegal aliens will be
excluded from the apportionment base. Abowd Decl.
¶ 15.
31. Defendants do not dispute this statement.
32. Defendants dispute that residents of Hidalgo
County will lose political power because it is not yet
known whether Texas will lose any seats in the House of
Representatives, or whether all illegal aliens will be
excluded from the apportionment base. Abowd Decl.
¶ 15.
33. Defendants do not dispute this statement.
34. Defendants do not dispute this statement.
35. Defendants do not dispute this statement.
36. Defendants do not dispute this statement.
37. Defendants dispute that Dr. Toubia and Mr.
Khoury will lose political power because it is not yet
known whether California will lose any seats in the
House of Representatives, or whether all illegal aliens
will be excluded from the apportionment base. Abowd
Decl. ¶ 15.
38. Defendants do not dispute this statement.
39. Defendants dispute that Dr. Toubia and Mr.
Khoury will lose political power because it is not yet

442
known whether California will lose any seats in the
House of Representatives, or whether all illegal aliens
will be excluded from the apportionment base. Abowd
Decl. ¶ 15. Defendants also dispute that Dr. Toubia
and Mr. Khoury will lose political power because it is not
yet known whether Dr. Toubia and Mr. Khoury will reside in California after apportionment.
40. Defendants do not dispute this statement.
41. Defendants do not dispute this statement.
42. Defendants do not dispute this statement.
43. Defendants dispute that Ms. Palacios will lose
political power because it is not yet known whether
Texas will lose any seats in the House of Representatives, or whether all illegal aliens will be excluded from
the apportionment base. Abowd Decl. ¶ 15. Defendants also dispute that Ms. Palacios will lose political
power because it is not yet known whether Ms. Palacios
will reside in Texas after apportionment.
44. Defendants do not dispute this statement.
45. Defendants dispute that Ms. Ramos will lose political power because it is not yet known whether Texas
will lose any seats in the House of Representatives, or
whether all illegal aliens will be excluded from the apportionment base. Abowd Decl. ¶ 15. Defendants
also dispute that Ms. Ramos will lose political power because it is not yet known whether Ms. Ramos will reside
in Texas after apportionment.
46. Defendants do not dispute this statement.
47. Defendants do not dispute this statement.
48. Defendants do not dispute this statement.

443
49. Defendants dispute that Ms. Kim will lose political power because it is not yet known whether California will lose any seats in the House of Representatives,
or whether all illegal aliens will be excluded from the apportionment base. Abowd Decl. ¶ 15. Defendants
also dispute that Ms. Kim will lose political power because it is not yet known whether Ms. Kim will reside in
California after apportionment.
50. Defendants do not dispute this statement.
51. Defendants dispute that Mr. Lee will lose political power because it is not yet known whether California
will lose any seats in the House of Representatives, or
whether all illegal aliens will be excluded from the apportionment base. Abowd Decl. ¶ 15. Defendants
also dispute that Mr. Lee will lose political power because it is not yet known whether Mr. Lee will reside in
California after apportionment.
Dated:

Aug. 19, 2020
Respectfully submitted,
ETHAN P. DAVIS
Acting Assistant Attorney General
AUDREY STRAUSS
Acting United States Attorney for the
Southern District of New York
DAVID MORRELL
Deputy Assistant Attorney General
ALEXANDER K. HAAS
Branch Director

444
DIANE KELLEHER
BRAD ROSENBERG
Assistant Branch Directors
/s/ ELLIOTT M. DAVIS
ELLIOTT M. DAVIS
DANIEL D. MAULER (VA Bar No. 73190)
ELLIOTT M. DAVIS (NY Reg. No. 4596755)
Trial Attorneys
Civil Division, Federal Programs Branch
U.S. Department of Justice
1100 L St. NW
Washington, DC 20005
Phone: (202) 353-5639
Fax: (202) 616-8470
E-mail: elliott.m.davis@usdoj.gov
Counsel for Defendants

445

Exhibit 62

446
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
SUPPLEMENTAL DECLARATION OF
CESAR ESPINOSA

Cesar Espinosa, pursuant to the provisions of 28
U.S.C. § 1746 declares under penalty of perjury as follows:
1. I am the Executive Director of FIEL Houston, Inc.
(“FIEL”). I am over 18 years of age. I have personal
knowledge of the facts stated in this declaration.
2. This declaration supplements my declaration dated
August 6, 2020 in this case.

447
3. Obtaining court relief to clarify that every person,
including undocumented immigrants will count in the
census to determine congressional apportionment will
allow FIEL to do meaningful outreach to our constituents. Every single day available for FIEL to spread
this message to the community will help to our outreach
efforts. Specifically, a court order that stops the exclusion of undocumented immigrants from the census would
make FIEL’s efforts to encourage census participation
easier by allowing us to clarify the current confusion and
help ease the fear caused by the Presidential Memorandum, and it would take FIEL less time and fewer resources to convince members of the communities we
serve to participate in the census.
4. As stated in my prior declaration, the Presidential
Memorandum is deterring Census participation in the
communities FIEL serves and burdening our outreach
efforts. This is evident when we provide services to our
community at our physical office. Since approximately
mid­June of this year FIEL started opening our physical office to provide services by appointment three days
a week, while taking extra health and safety precautions. We had previously closed our physical office
temporarily and operated remotely due to the ongoing
pandemic in Houston. While providing our normal
range of immigration legal services during client appointments, we also inform our clients about other services and programs we offer to make our engagement
with our clients more impactful, given the limited amount
of time available. For example, in the limited time we
have per appointment, we also inform our clients about
our census outreach and Get Out The Vote (GOTV) efforts. Recently, we have begun organizing people around
COVID relief efforts, because the COVID pandemic has

448
hit the communities we serve severely and disproportionately. In addition to our advocacy for greater assistance from state and local authorities , we use the limited time in our client appointments to also promote
COVID-related safety protocols and provide free masks
if needed and share information on rent assistance programs during the pandemic.
5. Further, in the course of providing legal services,
we inform our clients about other legal work we are involved in, including serving as plaintiffs in the present
case. As noted above, during appointments we educate
our clients about the census and encourage them to participate. As a result of the recent Memorandum, I have
witnessed that about half of the individuals we serve express apathy or fear about engaging in the census understanding that the President wants to exclude undocumented immigrant.
Some individuals simply ask,
“what’s the point?” Other say they would rather not
participate because they come from mixed-status families and fear that one or more family members could be
subjected to negative consequences if the government
determines their status. This complicates and extends
the time we engage in census education.
6. The fear and apathy we witness about participating
in the census is not limited to clients to whom we provide
direct services. On August 8, 2020, FIEL participated
in a car parade in the Greenspoint community of northern Houston organized by local agents of the Cen us Bureau. Greenspoint is comprised of a large and growing
Latino population with a significant African American
population. More affordable rent in Greenspoint compared to other Houston communities has allowed for
growing numbers of immigrants to move into the area,

449
including many mixed-status families. The Census Bureau had reached out to FIEL last year to ask if we
could be part of their community outreach efforts. We
also had meetings about doing joint outreach efforts
with the Census Bureau this year prior to the pandemic
and they posted official Census Bureau signs at our offices. As part of that relationship, the Census Bureau
invited FIEL and various grassroots organizations, in
partnership with local pastors and community leaders,
to participate in the car parade to encourage census participation in the midst of a pandemic. FIEL was the
only Spanish-speaking organization participating in the
parade. FIEL members, including myself, took part in
the parade and drove through Greenspoint neighborhoods raising awareness about the census through vocal
outreach to residents in Spanish and English. We
talked to a gathering of community members and various individuals from our vehicles. During the course of
the hour and a half long parade I estimated based on my
experience in organizing that FIEL members spoke to
about 200 individuals, encouraging them to participate
in the census and reach out to us for questions about the
process. While some individuals were receptive to our
messages, about half of the people we engaged with
were apathetic. Unfortunately, of all the individuals
we personally engaged with, only one person said to us
they already filled out census. By my estimation,
about 85% of the individuals who expressed apathy
about the census were Latino. Based on my knowledge
of and experience working with the Greenspoint community, many Latinos in Greenspoint come from mixed-status families who are afraid to engage in the census due
to their perception that undocumented individuals could
be targeted by the government through the census.

450
7. If FIEL did not have to expend extra efforts to encourage, reiterate or persuade people about the importance of census participation especially individuals
who genuinely fear or have apathy about it due to their
perception that undocumented individuals will not be
counted and could be targeted for immigration purposes
by the census it would free up a significant amount of
time and resources for FIEL. As noted previously
many of the individuals we serve as well as many of
our members, come from mixed-status families where
one or more family members may be undocumented.
Although it normally takes a few minutes to educate and
inform each individual about census participation, the
amount of time and personnel resources collectively
used by our organization to overcome the confusion and
fear caused by the Presidential Memorandum is significant for a nonprofit organization like FIEL. We could
otherwise use that time to promote our other services,
like our COVID relief and GOTV efforts. For example,
we would be able to provide other services and information to our clients during our time-limited appointments at our physical office, or we would be able to serve
more people during our office hours. We would be
more productive in our mission.
8. Even with only a limited amount of time left before
the end of the count, having a legal mandate to reassure
people they will be counted for the purpose of determining Texas’ congressional seats and electoral vote would
help us encourage census responses among the community we serve through our public communications. Every
additional day to engage in census outreach without having to fight the misinformation of the Presidential Memorandum would allow FIEL to engage in more efficient

451
and effective outreach, if not in person through our communication streams. FIEL would be able to employ conventional media, such as press releases, press conferences, and press statements, given our relationships
with TV and radio media within both Spanish language
and English language networks. We would also be able
to employ our large social media network through platforms such as Facebook, Twitter and Instagram. All
of these avenues of communication would be available to
us, even for last minute pushes to amplify our census
outreach and encourage our community and constituents to fill out the census.
I, Cesar Espinosa , declare under penalty of perjury
that the foregoing is true and correct to the best of my
knowledge and recollection.
Dated: Houston, Texas
Aug. 23, 2020
/s/ CESAR ESPINOSA
CESAR ESPINOSA

452

Exhibit 63

453
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
SUPPLEMENTAL DECLARATION THEO OSHIRO

THEO OSHIRO, pursuant to the provisions of 28
U.S.C. § 1746, declares under penalty of perjury as follows:
1. As explained in my August 6, 2020 Declaration, I
am the Deputy Director at Make the Road New York
(“MRNY”) and in my capacity as Deputy Director, I am
responsible for overseeing our census work and our services teams, which include our legal, health, and adult
education departments. I am also part of the Executive Leadership Team of MRNY and am responsible for
fundraising and shaping many of MRNY’s organizational

454
priorities. Throughout my tenure with MRNY, I have
been in regular contact with MRNY members and I frequently meet with members in the communities in which
they reside where I learn about their neighborhoods,
their needs, and their concerns to inform communications, organizing, and civic engagement programs for
MRNY. During my 15 years at MRNY, I have also familiarized myself with MRNY’s internal records and
processes; our staff and their responsibilities; our programs and program areas; and our members, and their
needs.
2. As discussed in my August 6, 2020 Declaration,
the Presidential Memorandum has required MRNY to
make additional investments to achieve Census participation rates comparable to what we what would have
achieved absent the decision to exclude undocumented
immigrants from the apportionment base.
3. Since executing my August 6 declaration, I have
received further information from the staff conducting
our outreach to the Spanish-speaking immigrant community concerning the impact of the Presidential Memorandum on census response rates. One staff member
reported that a Spanish-speaking community member
asked her about the President’s memo and said that the
announcement of a plan to exclude undocumented immigrants from apportionment made them afraid to fill out
the census. Another staff member reported that she
had spoken to three Spanish-speaking people who said
they were afraid to fill out the census because of the
President’s announcement about excluding undocumented
immigrants from apportionment. The same staff member reported that during her follow-up census outreach
calls since early August, she had noticed an appreciable

455
decline in the number of Spanish-speaking individuals
answering their phones, which she attributed to a desire
not to talk about the census. A third staff member reported that during census outreach, she encountered a
Spanish-speaking family who told her that they were convinced by the President’s statements that undocumented
people should not be included in the Census and therefore decided not to participate in it. This staff member
tried to explain that undocumented people should still be
counted in the Census; however, the call was upsetting
for her and took up time that could have been spent encouraging other households to fill out the census.
4. Overall, MRNY is continuing to divert resources
to combat the misinformation, confusion, and feelings of
exclusion that have resulted from the Presidential Memorandum.
5. If the court were to issue an injunction against the
policy in the Presidential Memorandum or to declare it
unlawful, it would help MRNY conduct more efficient
and effective census outreach to our members and the
community we serve, and allow us to reach more people
and to divert some resources back to other mission critical priorities during the pandemic, including ensuring
that there is adequate employment, education, housing
and health support for our members and their families
I, Theo Oshiro, declare under penalty of perjury that
the foregoing is true and correct to the best of my knowledge and recollection.
Dated: Aug. 24, 2020
Croton-on-Hudson, N.Y.
/s/ THEO OSHIRO
THEO OSHIRO

456

Exhibit 64

457
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
SUPPLEMENTAL DECLARATION JENNY SEON

Jenny Seon, pursuant to the provisions of 28 U.S.C.
§ 1746, declares under penalty of perjury as follows:
1. I am the Legal Service Director for Plaintiff Ahri
for Justice (“Ahri”). I am a founding member of Ahri
and have been on staff since December 2019. I am over
18 years of age. I have personal knowledge of the facts
stated in this declaration.
2. This declaration supplements my declaration dated
August 5, 2020 in this case.

458
3. Ahri provides legal services, has a hotline to address
community concerns, and conducts civic engagement
work, including census-related outreach. As part of
our census outreach, we have a goal to contact at least
10,000 individual households to encourage them to fill
out the census. We also provide information about the
census to our legal services clients and to individuals
who call our hotline. After news of the July 21, 2020,
Presidential Memorandum to the Secretary of Commerce (“Presidential Memorandum”), we began to hear
concerns from the community concerning the impact of
the Presidential Memorandum on the census. Households that already responded to the census are concerned that they improperly responded, while households that have not yet responded to the census are hesitant to respond because they either believe they are not
permitted to respond, or because they fear identifying
their household to the federal government.
4. Although our team has continued to encourage
households to respond to the census by highlighting its
importance to funding and redistricting, the Presidential Memorandum makes messaging difficult. We have
informed our clients and constituents that we are now
involved in a lawsuit to challenge the Presidential Memorandum, but the fact remains that the Memorandum is
still in effect. For this reason, we are spending a longer
amount of time trying to convince households to respond
to the census, time that could be spent contacting additional households and on our other program areas.
With the September 30 deadline quickly approaching, a
court order invalidating the Presidential Memorandum
would make our census outreach efforts more efficient
and effective. Our messaging to our community would
change from “we are trying to stop the Presidential

459
Memorandum but are not there yet,” to “a federal court
has halted the Presidential Memorandum.” Every single day that we can tell our constituents that they will
count for apportionment purposes and that the federal
government is not permitted to identify the immigration
status of individuals or households to exclude them from
apportionment is valuable and will help with outreach.
5. We know this kind of messaging works. We often
get questions like, “Do I have to reveal my status on the
census?” We immediately quell this concern by pointing to the citizenship question injunctions. We believe
that similar messaging that the Court has enjoined the
Presidential Memorandum will help to immediately quell
community concerns about the Memorandum, making
conversations shorter to allow Ahri to reach a larger number of households.
6. Getting relief from the Presidential Memorandum
as soon as possible is also key to ensuring that census
door knockers have success. With relief from the Memorandum, we can publicize the Court’s order to encourage
our community to open their doors to census outreach
workers, rather than hiding out of confusion or fear and
avoiding the census completely.
7. Ahri is already preparing to shift our messaging as
soon as the Court grants relief. Since our communications team first learned that Plaintiffs had filed a motion
for a preliminary injunction, they have continued to followup for updates so that so we can start doing outreach.
If the Court issues an order granting Plaintiffs relief, we
plan to immediately contact Korean news media, issue
press releases, and do social media to let our community
know about the order and encourage the community to
respond to the census.

460
I, Jenny Seon, declare under penalty of perjury that
the foregoing is true and correct to the best of my knowledge and recollection.
Dated:

Aug. 24, 2020 in Los Angeles, California
/s/ JENNY SEON
JENNY SEON

461

Exhibit 65

462
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
EXPERT REPLY DECLARATION OF
MATTHEW A. BARRETO, Ph.D.
I.

Overview

1. I submitted a declaration in this case on August
7, 2020 (“Declaration”). I have read the expert disclosures by Dr. John M. Abowd, dated August 19, 2020
(“Abowd Decl.”) and Albert E. Fontenot, Jr., dated August 19, 2020 (“Fontenot Decl.”) as well as the Memorandum of Law in Support of Defendants’ Motion to Dismiss and in Opposition to Plaintiffs’ Motion for Partial
Summary Judgment or Preliminary Injunction, dated

463
August 19, 2020 (“Defendants’ Brief ”) and am prepared
to offer rebuttal points on behalf of the Plaintiffs.
2. Below, I address comments directed at, or related to my report from the Abowd Decl., Fontenot
Decl., and Defendants’ Brief. Where there is overlap,
I have made clear which document I am referring to and
attempted to use paragraph and page numbers where
appropriate.
II.

Abowd Declaration

3. Dr. Abowd begins his expert opinion in paragraph 12 by noting that the 2020 Census data collection
has been hampered by COVID-19. There is no doubt
that COVID-19 has presented many challenges to
American life and for 2020 Census outreach. However,
these challenges are completely distinct from the effect
the Presidential Memorandum (“PM”) is having and will
continue to have on efforts by the Census Bureau and its
partners to encourage immigrant communities to respond
to the 2020 Census. Indeed, while COVID-19 has contributed to a challenging environment for the enumeration, the PM adds new, significant challenges to an accurate and high-quality count because it sends a signal
of exclusion and threat to the immigrant community
which discourages them from responding to the Census.
The PM’s negative signal is an added and unnecessary
one to send to the immigrant community while the Census Bureau is in a critical stage of the enumeration.
4. At any moment, a survey instrument such as the
Census may face a variety of challenges to response
rates; however, the existence of a greater or more broadly
applicable threat to the response rate, such as COVID19, does not negate the independent effect that a more

464
targeted threat, such as the PM, may have a particular
subgroup of respondents. Dr. Abowd does not account
for this distinction. The Decennial Census is a singularly large survey instrument and, according to Mr.
Fontenot (Fontenot Decl. ¶ 7), as of August 18, approximately 36% of U.S. households, amounting to over 50
million households, have yet to respond. The impact
that any specific threat may have on response rates remains significant. For example, a potential respondent,
such as a grocery store employee or farmworker who
has reported to work in-person every day of the pandemic, may be undeterred from responding to the Census due to COVID-19; however, they may be deterred
by the PM’s signal of threat and exclusion based on their
own immigration status or the status of other household
members. Although COVID-19 may have significant
negative effects on outreach efforts and response rates,
response rates can still suffer additional reductions as a
result of new threats against immigrant communities
that create more fear and confusion over their participation in the Census.
5. In paragraph 13 of his declaration, Dr. Abowd
opines that the Census Bureau’s own pilot study of the
citizenship question in June-August 2019 (“2019 Census
Test”) did not return statistically significant evidence of
reduced response rates due to the inclusion of a citizenship question on the questionnaire. However, this opinion is not entirely accurate. Dr. Abowd’s opinion focuses
solely on the overall response rate and fails to mention
that the Census Bureau’s 2019 Census Test did show
statistically significant decreases in response rates in
areas with significant non-citizen, Hispanic, and Asian
populations. In an article summarizing the results of
the 2019 Census Test published on the Census Bureau’s

465
web site, Dr. Victoria A. Velkoff, the Census Bureau’s
Associate Director for Demographic Programs, wrote
“there was a statistically significant difference in the
proportion of respondents who identified as Hispanic
between the forms” 1 with the form including a citizenship question reducing Hispanic participation. Thus,
even in the preliminary analysis of the 2019 Census
Test, the Census Bureau found that there were significantly disparate response rates by different communities when the Census implicated citizenship status.
The full report issued by Census Bureau in January
2020, revealed further, and more significant differences.
The Census Bureau wrote: “in some areas and for some
subgroups, there were statistically significant lower
self-response rates for the test questionnaire with the
citizenship question than for the test questionnaire
without the citizenship question.” 2 In particular, the
2019 Census Test report found lower response rates due
to the citizenship questions in areas designated bilingual, high numbers of noncitizens, high density Hispanic
and higher density Asian. Additionally, the Census
study found statistically higher rates of disconnect, and
discontinuing responses in the Internet sample for the
version containing the citizenship question, noting that
“breakoffs occurred during the collection of person demographics at a higher rate for the treatment with the
Victoria A. Velkoff, 2019 Census Test Preliminary Results, U.S.
Census Bureau, Oct. 31, 2019, https://www.census.gov/newsroom/
blogs/random-samplings/2019/10/2019_census_testpre.html.
2
Poehler, Elizabeth A., Dorothy A. Barth., Lindsay Longsine, Sarah K Heimel, 2019 Census Test Report, U.S. Census Bureau, at ixx, Jan. 3, 2020, https://www2.census.gov/programs-surveys/decennial/
2020/program-management/census-tests/2019/2019-census-test-report.
pdf (2019 Census Test Report).
1

466
citizenship question.” Thus, it is clear that the 2019
Census Test indicates that increasing threat over immigration status leads to withdrawal and declining participation for immigrant communities.
6. Further, the 2019 Census Test only examined
self-response rate—it did not investigate how inquiring
into citizenship status affects the success of NRFU nor
did the Test examine imputation. These are both items
the Test could have studied if the Census Bureau wanted
to fully understand the impact of linking the Census to
citizenship issues, but it did not. As the 2019 Census
Test report readily admits, the study was designed to
understand staffing needs for the 2020 Census, not to
scientifically evaluate the full and total response and
non-response rates by race, ethnicity and immigration
status.
7. The 2019 Census Test cited by Dr. Abowd cannot
account for the more direct targeting of undocumented
immigrants by the PM. The study Dr. Abowd cites
cannot provide a complete picture of the immigrant response rate in the presence of an official Presidential
policy statement targeting the removal of undocumented
persons from the census count. While the citizenship
status question would have been threatening (as reflected in the reduced participation reported in the 2019
Census Test), the PM is more explicit in calling for “excluding these illegal aliens.” To this point, the Census
Bureau wrote that “the environment in which [the 2019
Census Test] was conducted will differ from the 2020
Census environment in terms of advertising and media
attention.” 3 Indeed, they are correct, there has been
3

2019 Census Test Report, at 12.

467
widespread media attention to the PM which will reduce
participation in immigrant communities.
8. Finally, the 2019 Census Test was conducted to
analyze participation during the self-response period of
the census, not during the NRFU period. The PM was
issued during the NRFU period of the 2020 Census, in
which the deterrent effects of the PM are likely to be
magnified compared to the self-response period. The
result is that the conclusions about response rates during the initial self-response period that Dr. Abowd relies
upon are less relevant in understanding the effect of the
PM at this juncture of the enumeration during NRFU.
The Census Bureau writes of its 2019 Census Test:
“The focus of this analysis is to understand how the citizenship question affects self-response rates prior to the
NRFU operation. As such, the results of this test are
limited to the self-response timeframe prior to the start
of NRFU. The self-response rates discussed in this
analysis do not try to mimic the final overall self-response of a census, which includes self-response received during NRFU and other field operations.” 4
9. However, the single most important takeaway
from the 2019 Census Test is what Dr. Abowd neglected
to mention, i.e., the 2019 Census Test found that the citizenship question did result in statistically lower response rates for Latinos, Asians, non-English speakers
and noncitizens. The largest gap reported was in highdensity Hispanic areas where the 2019 Census Test reported a drop-off of 1.1 percent which would reduce the
Hispanic count by over 670,000 according to the Census
Bureau’s data.
4

2019 Census Test Report, at 12.

468
10. Original Table 12 from 2019 Census Test Report 5

11. Original Table 9 from 2019 Census Test Report

Tables 12, 9, 8 all from: https://www2.census.gov/programs-surveys/
decennial/2020/programmanagement/census-tests/2019/2019-censustest-report.pdf
5

469
12. Original Table 8 from 2019 Census Test Report

13. Moreover, because the 2019 Census Test only
examined self-response rate, it did not investigate the
success of NRFU, nor did it examine imputation. 6 As
the Census Bureau report readily admits, the pilot study
was designed to understand staffing needs for the Census, not to scientifically evaluate the full and total response and non-response rate by race, ethnicity and immigration status. 7
14. The PM is potentially even more disruptive than
a citizenship question because of its timing. When taking a survey, the researcher generally wants to avoid introducing any unnecessary, extraneous conditions during the response period that may bias respondents or
harm response rates. The Census Bureau began its promotion of the 2020 Census in July 2019, inviting most U.S.
households to respond to the Census starting on March
12, 2020 and, as of the date the PM was published on
According to the report, at p. x, “Note that this test did not include the Nonresponse Followup operation, so we are not able to
measure the impact of a citizenship question for the completeness
and accuracy of 2020 Census overall.”
7
See 2019 Census Test Report, at x, 30-31.
6

470
July 21, 2020, the Census Bureau planned to continue
the response period until October 31. That means that
the PM was introduced 131 days from the start of the
count and 102 days from the end of the count—and only
days before the start of critical Non-Response FollowUp (“NRFU”) operations. The PM remains in effect
while Census enumerators are in the field, visiting households for in-person interviews as well as ongoing NRFU.
Given the PM’s explicit connection to the 2020 Census
and its direct contradiction of the core messaging of the
outreach efforts conducted by the Census Bureau itself
and the nongovernmental organizations, particularly in
immigrant communities and communities of color, it
would be anathema to sound survey research to publish
such a document during the response period. Notwithstanding that the PM only purports to affect the count
after the close of the enumeration period, the timing of
the PM’s release will likely lead to significant declines
in Census response rates because households in immigrant communities will be deterred from responding
now, and will not wait to find out whether they are actually excluded from the apportionment count later on.
15. As I note in my Declaration at page 4, paragraph
15 “there was widespread coverage, particularly within
Spanish-language news media,” of the July 21 PM, which
is to be expected given such a major announcement by
the President. 8 Despite extensive news coverage, the

Telemundo. “Trump Ordena Al Censo Que No Incluya a Los Indocumentados En El Recuento Que Determina El Reparto De Escaños Del Congreso,” July 21, 2020. https://www.telemundo.com/noticias/
noticias-telemundo/inmigracion/trump-ordena-al-censoque-no-incluyalos-indocumentados-en-el-recuento-que-determina-el-tmna3823616.
8

471
Census has no plans to change its field outreach to reassure immigrants of their participation. According to
Mr. Fontenot, at paragraph 12 of his declaration, the
PM has had “no impact on the design of field operations
for decennial census, or on the Census Bureau’s commitment to count each person in their usual place of residence.”
16. In paragraph 15 of his report, Dr. Abowd states
that the Census Bureau was not currently prepared to
assess how the PM would be implemented and coordinated with data teams at the Census Bureau. Dr.
Abowd’s statement is consistent with testimony from
the Director of the Census Bureau that he was entirely
unaware of the PM prior to its release. 9 The failure to
notify the Census Bureau or test the effect of the PM on
Census response rates, notwithstanding the PM’s relationship to the 2020 Census, shows that the announcement of the PM on July 21, 2020, in the heart of the enumeration period, was not done in accordance with the
Census Bureau’s practices and may have been timed to
contravene those practices. Dr. Abowd opines that it
is impossible to predict the effects of the PM on apportionment at this time; however, he does not dispute that
Tara Bahrampour, House Democrats grill Census director on
Trump order to exclude undocumented immigrants from apportionment, Wash. Post, July 29, 2020, https://www.washingtonpost.com/
local/social-issues/house-democrats-grill-census-director-ontrumporder-to-exclude-undocumented-immigrants-from-apportionment/
2020/07/29/9c7da852-d1e1-11ea-8c55-61e7fa5e82ab_story.html (“Bureau Director Steven Dillingham told the House Oversight Committee that he had no advance notice of President Trump’s memorandum, which directs the Commerce Department to exclude undocumented immigrants from being counted next year when Congress
reapportions a decade’s division of House seats.”).
9

472
the PM will have a chilling-effect on Latino and immigrant participation right now, during the response period and during NRFU.
17. With respect to whether media coverage related
to the Census can impact response rates, the Census Bureau agrees that media coverage of Census news can and
does impact the general public—including coverage of
court decisions related to the Census. The 2019 Census Test was conducted between June 13 and August 15.
The U.S. Supreme Court decision concerning the validity of the citizenship question was issued on June 27 and
there was media coverage of the issue both before and
after the decision. In the full report on the 2019 Census Test, the Census Bureau wrote that “media coverage related to the Supreme Court decision on whether
or not to include a citizenship question on the 2020 Census questionnaire may have affected respondent behavior during this test. There was media coverage on the
citizenship question both before and after the Supreme
Court decision was made public on June 27, 2019. Public opinion on the topic may have influenced response
behavior for this test. The degree to which public
awareness and public opinion is different between this
test and the 2020 Census may influence how applicable
the results of this test are to the 2020 Census. The impact of media coverage may have also affected the treatments differently.” 10
18. In paragraph 16 of his declaration, Dr. Abowd
reiterates his concerns about the impact of COVID-19.
I have responded to this above, however, it bears reiter-

10

2019 Census Test Report, at 12 (emphasis added).

473
ating that there is no evidence that the significant challenge of conducting the Census during the pandemic
subsumes entirely the negative effect on response rates
of the PM or any other phenomena. Dr. Abowd does
not address decades of published research, including
Census Bureau studies, that find reduced participation
by immigrant communities in the face of new threats,
which the PM represents.
19. In paragraph 17 of his declaration, Dr. Abowd
opines that a randomized trial would be the best way to
assess the effects of removing threats to immigration
status on response rates. First, in our 2018 study—for
which Dr. Abowd does not dispute the substantive
results—we did rely on randomization and experimental
survey research to assess the effect of including or excluding a citizenship question. 11 Survey respondents
were randomized and one-half were given a condition in
which they were told a citizenship question would in fact
be included on the census; while the second-half of respondents was randomly assigned to a condition in which
they were told the citizenship question would not be included. This follows the exact same principle of randomized control trials that Dr. Abowd recommends.
In that 2018 study, as described in paragraph 68 on page
11 of my Declaration, we observed a large and statistically significant increase in response rate in the condition without the citizenship question. In particular,
Latino respondents who had previously indicated a desire to not respond, registered a 41.2 point increase in

Barreto, Matt 2018. “Expert Report of Matthew A. Barreto,
Ph.D” in State of New York v. U.S. Dep’t of Commerce (Sept. 7,
2018).
11

474
response rate once the citizenship question was removed. While the sample size of our 2018 study is not
as large as the 2019 Census Test, the results of our 2018
study are significant and the patterns are consistent
with the Census Bureau’s own research from their 2019
pilot study.
20. Dr. Abowd has offered no such randomized trial
study to demonstrate that the PM will not cause response rates to decline. Instead, the only randomized
control trial that Dr. Abowd cites shows the opposite,
i.e., A) media coverage of census citizenship issues can
affect response rates; and B) the citizenship question
significantly reduced immigrant and Latino response
rates. Indeed, in my August 7 Declaration, I cite dozens of published academic and Census Bureau studies
on the topic of perceived threat and participation among
immigrants which point to a chilling effect and withdrawal (Montoya 1992; Stepick 1992; Velasco 1992; De
La Puente 1995; Berk & Schur 2001; Arbona 2010;
Abrego 2011; Menjivar 2011; Yoshikawa 2011; Szkupinski et al 2014; Watson 2014; Dreby 2015; Vargas 2015;
O’Hare et al 2016; Kissam 2017; Pedraza and Osorio
2017; Terry et al 2017; Cruz-Nichols, LeBrón, and
Pedraza 2018; Michelson and Montforti 2018; AmuedoDorantes & Arenas-Arroyo 2019; Desai 2019; Garcia
2019; Kissam 2019; Asad 2020). Without exception,
every single research study finds that when a new threat
emerges, immigrants, especially the most vulnerable,
will withdraw and reduce civic participation. I am
aware of no rigorous published social science research
that finds increased threat has no debilitating effect.
21. In paragraph 18 of his declaration, Dr. Abowd
explains that later in the NRFU process, enumerators

475
may seek to get a simple total person count of a household, and not full characteristics of each household member, and suggests that during such interactions, households do not have the same incentives to avoid responding or misrepresenting the number of people in the
household. However, Dr. Abowd’s opinion misses three
key points. First, the PM provides household members
in undocumented or mixed-status households with a reduced incentive to give federal Census enumerators any
information at all because the President has just declared that their numbers will be not counted for the
core purpose of the Census—apportionment. As a result, they will be less likely to open the door in the first
place to cooperate with any interview. While the enumerator might only be looking for a population count,
the household member does not know this. Instead,
the only relevant recent information they may have is
news about the PM attempting to exclude certain immigrant communities from the Census count. This is consistent with decades of research including de la Puente,
the Census’s own ethnographer, who has clear and consistent findings about how undocumented communities
avoid the Census when they have concerns about immigration status (de la Puente 1995, 2004). According to
de la Puente (2004): “individuals with an insecure immigration status were much less likely to trust the government and specifically less likely to fill out the Census
questionnaire. Undocumented immigrants have long
been a concern for the Census Bureau. This research
demonstrated that respondents with irregular immigration statuses are unlikely to directly cooperate with the
Census.”
22. Second, research by Kissam (2019) is clear that
immigrant households under-report non-immediate

476
family members who may not be documented. Even
when a simple count is requested, the immigrant household is far more likely to misreport household size when
they believe the government is monitoring or checking
about immigration status. The PM reinforces this concern. Finally, Dr. Abowd predicates an opinion on the
assumption that NRFU will be full and complete as originally planned and not impacted by the PM; however,
Dr. Abowd’s point is speculative, and based on no empirical evidence that NRFU will reach the required level of
completeness.
23. In paragraphs 19 and 20 of his declaration, Dr.
Abowd discusses imputation and opines that COVID-19
pandemic will make it very difficult to predict which
neighborhoods will need more, or less imputation. However, the unpredictability reinforces the point about imputation being prone to problems when there is a low or
unequal response rate to the Census. Extensive published literature discusses the difficulty of accurate imputation when response rates are low and uneven. Again,
while acknowledging the significant and widespread difficulty that COVID-19 presents, the pandemic does not
subsume and/or negate the impact of all other factors on
the enumeration. The PM will make the enumeration
even more difficult, with increasing nonresponse in specific communities—not at random—and the imputation
models will not be able to see inside invisible households.
It is clear that non-responding households are larger in
size and more likely to be immigrant (Kissam 2019).
Thus, when imputation models—which are based on responding households—are applied, they will under-count
the number of people who live in non-responding households. Research indicated the inclusion of a citizenship
question was also likely to have a negative impact on the

477
accuracy of imputation, and the logical effect of the PM
on imputation is the same. The new PM introduces a
perceived threat in the immigrant community which
leads to differential non-response which greatly undermines imputation. In effect, the PM serves to weaken
the imputation model, because in the final phase of
NRFU, households that may have responded pre-PM
are not responding because of immigration concerns,
and at differential rates than the general public. While
the challenge of COVID-19 may affect Census participation regardless of the race or immigration status of a
household, it is Latino and immigrant households which
face the new and additional challenge presented by the
PM, which has targeted the immigrants from being excluded from the Census apportionment.
III. Fontenot Declaration

24. Albert E. Fontenot, Jr. is Associate Director for
Decennial Census Programs and primarily offered information about operations in his report. Mr. Fontenot
did not directly respond to any of the claims or evidence
in my Declaration. However, some of Mr. Fontenot’s
points support the conclusion that the PM introduces a
new variable into the equation which the Census Bureau
is not taking into account.
25. In paragraph 5 of his declaration, Mr. Fontenot
describes the current plans for the Census in the final
critical weeks of field data collection. He states that
the Census Bureau will send more enumerators into the
field during the remaining response period; however, in
paragraph 12, he states that the PM “has had no impact
on the design of field operations for decennial census.”
Thus, Mr. Fontenot indicates that the Census Bureau
will not be adding any new training related to discussing

478
concerns in the immigrant community related to the
PM. In prior census research, Census Bureau ethnographer de la Puente has explained that it is important to
a successful enumeration to understand immigrant community concerns about responding to the census, and to
equip Census enumerators with information to reassure
vulnerable populations that their participation is safe.
In this case, the PM creates a new reason for concern in
immigrant communities, yet Mr. Fontenot makes clear
that the Census Bureau has made no changes to their outreach to account for the PM and its effects. The decision not to make any changes to field operations to address the PM is a major shortcoming, and not consistent
with best practices recommended by their own internal
published research.
26. In paragraph 7 of his declaration, Mr. Fontenot
states that the initial phase of the Census returned a 64
percent self-response rate. To date, the initial NRFU
increased response rate to 71 percent of all households.
These data indicate that among the 36 percent of households that did not respond, 7 percent did respond to
NRFU (64+7=71) and that 29 percent of households
have not responded to NRFU to date. These results indicate a very low response rate during initial NRFU of
19.4 percent (7 / 36 = 19.4). While COVID-19 is again
cited as a difficulty, the introduction of the new PM adds
even more difficulty, particularly in immigrant communities. There is no indication in Mr. Fontenot’s declaration that the Census Bureau is prepared to improve
their outreach to vulnerable populations in response to
the PM.
27. In paragraph 8 of his declaration, Mr. Fontenot
states that the Census Bureau will increase the number

479
of employees and work hours to increase field operations, in light of a shortened calendar period. However, increasing the presence of federal Census enumerators into high density non-citizen communities actually
runs the risk of further reducing participation in the
face of fear and threat. In my Declaration, I outline
clear findings from published social science research reporting that increased perceptions of monitoring leads
to reduced participation among immigrants (Berk and
Schur 2001; Cruz-Nichols, LeBrón and Pedraza 2018;
Kissam 2019; Asad 2020). The PM sends a clear signal
of monitoring because it states it is using government
administrative records to locate and identify where undocumented immigrants live, and to merge those records with Census data to exclude undocumented immigrants from the final count for purposes of apportionment. While increased enumerators might have helped
in an environment without the PM, the new PM changes
things by sending a new signal of threat to immigrant
communities.
28. In paragraph 10 of his declaration, Mr. Fontenot
states that the Census Bureau will keep personallyidentifying information confidential. However, when
immigrants have concerns over immigration enforcement, even providing those assurances does not help.
Extensive social science research documents that immigrants will attempt to conceal their identity, even misidentify their race on government forms when they have
concerns that it could be connected to immigration enforcement (Rodriguez and Hagan 2004). What matters
is how immigrant communities perceive the threatening
environment, not that Mr. Fontenot understands that
the law requires the Census Bureau to keep respondent
information confidential—he is not the target of the PM.

480
The PM has deteriorated the trust that Census workers
and the Census Bureau’s partners—the organizations
relied upon to be trusted messengers to immigrant communities and communities of color—have built up since
the 2019 Supreme Court ruling which blocked the inclusion of a citizenship question from the 2020 Census questionnaire.
29. In paragraph 35 of my Declaration, I identified
reports from the non-governmental organizations who
are working in partnership with the Census Bureau to
act as trusted messengers for census outreach in the immigrant community which stated that the new PM
changes the landscape for encouraging census response
for the worse:
35. According to Arturo Vargas, the CEO of NALEO,
one of the nation’s top civic engagement organizations in the Latino and immigrant community, the
new PM is a setback that creates fear in the immigrant community. NALEO has been identified by
the Census Bureau itself as one of the most important
“trusted voices” to earn trust in the Latino community. Vargas stated on Twitter: “With a successful #NALEOVirtual Conference done, time now to
refocus on #Census2020—which just got even
MORE DIFFICULT with @POTUS effort to exclude immigrants from the apportionment numbers
and cutting short @uscensusbureau’s time to finish
the count. Our community is scared.” Vargas
went further to note that the new PM was undoing
progress made after striking the citizenship question, “#Census2020 is the most challenging to
promote participation I have seen in my career. After @SCOTUS stopped a citizenship question, we

481
had a fighting chance. Now @POTUS has made it
much harder by his July 21 memo and by cutting off
@uscensusbureau’s field work early. @NALEO”
Given that NALEO has been aligned with the Census
Bureau in terms of the importance of encouraging census response by immigrants and Latinos, Mr. Vargas’
comment indicates that the PM is actively undermining
the Census Bureau’s collaborative outreach efforts with
its trusted messengers.
30. However, Mr. Fontenot makes clear that the Census Bureau has made no attempt to change its approach
and incorporate new training, or new outreach to alleviate fears in the immigrant community as a result of the
PM. The overwhelming finding in the published research is that new threats result in new withdrawal and
the Census Bureau is not prepared for that.
IV. Defendants’ Brief

31. Finally, while the Defendants make reference to
the points above by Dr. Abowd and Mr. Fontenot, there
are additional criticisms they raise—unsupported by
any evidence of their own—which I will address in this
section.
32. On pages 12-13 of their brief, Defendants claim
that the extensive evidence and published studies which
I rely upon in part to conclude that the PM will create a
chilling effect on census participation are not specific to
the PM. Designing, testing, conducting and analyzing
a randomized control field trial on the effect of the PM
on census participation within a month of the PM’s publication is an insurmountable task. However, the expansive social science literature, much of which are my

482
own studies and published research, addresses conditions remarkably similar to the PM and is specific to new
instances of perceived threat. Tellingly, while demanding an impossible type of new research, neither Defendants, nor Dr. Abowd, nor Mr. Fontenot, cite any studies
indicating that the PM will not negatively impact participation. In instances such as this, when we are asked
to assess the impact of a new policy without the time required to conduct field research, the best practice in the
social sciences is to A) closely examine the policy and
place it within the context of other similar policies; and
B) to review what happened when other similar policies
were enacted. Based on the extensive research I have
conducted, I am confident that the research reviewed in
my Declaration, which all points to increased perceived
threat and withdrawal or decline in participation in immigrant communities, is applicable to the PM.
33. On page 13, Defendants state that I did not consider the results of the 2019 Census Test on the citizenship question. As I reviewed above in paragraphs 5-13
above, findings concerning participation by subgroup in
the 2019 Census Test show clear evidence of reduced
participation in Latino and immigrant communities.
34. On page 16, Defendants state that my analysis of
media coverage of the PM is misguided because “the media, and the community activists they feature, are independent actors,” and not part of the Census Bureau.
However, the Census Bureau has made clear on several
instances that A) they have a formal partnership with
Spanish-language media and Latino community groups;
and B) they need close cooperation and cooperation with
Spanish-language media and Latino community groups

483
to implement an accurate 2020 Census. Raul E. Cisneros, director of national partnerships for the U.S. Census Bureau wrote on a census.gov website 12 that the
Census was planning a “massive effort, a collaboration
between Univision and two Census Bureau programs,”
which included not only Spanish-language media, but
also “representatives from major advocacy groups, from
the National Association of Latino Elected and Appointed Officials to the League of United Latin American Citizens, along with representatives from Univision
affiliates in California.” The Census has described
Spanish-language media and Latino community groups
as “national partners during the 2020 Census.” Defendants’ cognitive dissonance is astounding; stating on the
one hand that Spanish-language media and community
groups are the “trusted voices” whose cooperation is integral to their field operations to encourage census participation, and then also claiming that those groups are
independent actors with no connection to the Census
who are simply fearmongering in their concerns about
the PM. As recently as March 2020, the Census Bureau continued to partner with Spanish-language media
to promote information about the Census. They are
not “independent actors” as Defendants suggest. In
fact, the Census Bureau continues to feature its partnership with Univision on its web site. 13

Raul E. Cisneros, Univision Hosts Meeting to Discuss Challenges,
Solutions, U.S. Census Bureau, Oct. 16, 2018, https://www.census.gov/
library/stories/2018/10/tv-network-advocacy-groups-support-completecensus-count.html.
13
U.S. Census Bureau, Partner Spotlight: Univision, https://
2020census.gov/en/partners/partnerspotlight-archive/univision-tv.
html.
12

484
35. Additionally, with respect to the organizations
that Defendants derisively call “community activists,”
the official field operations plan for the 2020 Census
highlights the necessity of working with these “trusted
voices” in order to gain trust in the community and improve the likelihood of an accurate count. In his deposition during N.Y. v. Department of Commerce, Dr.
Abowd stated that part of the Census Bureau’s effort to
communicate and convince the public to fill out the Census included “recruiting partner organizations” and
later described community organizations as “a source of
advice and outreach to many of the populations that we
—that it’s important to have partnerships with when
you collect the data.” 14
Importantly, Dr. Abowd stated these trusted partnerships are important during field operations (i.e.,
“when you collect the data”), and the Census is currently
in field collecting data, which means now is the key time
to shore up community partnerships with Latino organizations. In his own expert report submitted in the citizenship question case, Dr. Abowd explained on page 15
that trust can be a barrier in communities with low response rates and that having the so-called trusted voices
is critical to getting an accurate final count. 15 In this
very section of his September 2018 expert report, Dr.
Abowd mentions the National Association of Latino
Elected Officials (NALEO) as one of the “major organizations” they will need to work with as a trusted voice.
The Census Bureau’s “trusted voices” in the Latino
Deposition of Dr. John Abowd in State of New York v. U.S. Dep’t
of Commerce, at 298 (Aug. 29, 2018).
15
Expert Report of Dr. John Abowd in State of New York v. U.S.
Dep’t of Commerce, at 15 (Sept. 21, 2018).
14

485
community, including Spanish-language media and organizations such as NALEO, state clearly that the PM
will make data collection more difficult, as explained
clearly in paragraph 23 above and paragraph 35 of my
August 7 declaration. Indeed, this is consistent with extensive research by Census ethnographer de la Puente
(2004) who writes that: “based on this research it appears that Immigrant centered community-based organizations could be important conduits that attract distrustful and growing undocumented populations.”
36. I reserve the right to amend or supplement my
opinions if additional information or materials become
available. I declare under penalty of perjury that the
foregoing is true and correct to the best of my knowledge.
Executed on Aug. 25, 2020 in Los Angeles, CA.
/s/

Matthew A. Barreto
MATTHEW A. BARRETO

486
References

Abrego, L. J. (2011). Legal consciousness of undocumented Latinos:
Fear and stigma as barriers to
claims-making for first-and 1.5-generation immigrants.
Law & Society Review, 45(2), 337-370.
Amuedo-Dorantes, C., & Arenas-Arroyo, E. (2019).
Immigration enforcement, police trust, and domestic violence. Unpublished manuscript. Retreived on October, 28, 2019.
Arbona, C., Olvera, N., Rodrigues, N., Hagan, J., Linares, A., & Wiesner, M. (2010). Acculturative stress among
documented and undocumented Latino immigrants in
the United States. Hispanic Journal of Behavioral Sciences, 32 (3), 362-384. doi: 10.1177/0739986310373210
Asad, Asad L. (2020). “On the Radar: System Embeddedness and Latin American Immigrants’ Perceived
Risk of Deportation”. In: Law & Society Review
54.1. Publisher: Wiley Online Library, pp. 133–167
Berk, Marc L., and Claudia L. Schur. 2001. “The Effect of Fear on Access to Care among Undocumented
Latino Immigrants.” Journal of immigrant health
3(3): 151-156.
Cruz Nichols, Vanessa, Alana MW LeBrón, and Francisco I. Pedraza. 2018. “Spillover Effects: Immigrant Policing and Government Skepticism in Matters
of Health for Latinos.” Public Administration Review
78(3): 432–443.
De La Puente, Manuel. 1995. “Using Ethnography to
Explain Why People Are Missed or Erroneously In-

487
cluded by the Census: Evidence from Small Area Ethnographic Studies.” Center for Survey Methods Research, US Census Bureau.
De La Puente, Manuel. Census 2000 Ethnographic
Studies. Bureau of the Census, 2004.
Desai, Sarah, Jessica Houston Su, and Robert M.
Adelman (2019). “Legacies of Marginalization: System Avoidance among the Adult Children of Unauthorized Immigrants in the United States”. In: International Migration Review. Publisher: SAGE Publications
Sage CA: Los Angeles, CA, p. 0197918319885640.
Dreby, Joanna (2015). Everyday illegal: When policies undermine immigrant families. University of California Press.
García, A. S. (2019). Legal passing: Navigating undocumented life and local immigration law. University of California Press.
Kissam, Edward. 2017. “Differential Undercount of
Mexican Immigrant Families in the US Census.” Statistical Journal of the IAOS 33(3): 797-816.
Kissam, Edward et al. (2019). “San Joaquin Valley Latino Immigrants: Implications of Survey Findings for
Census 2020”. In: San Joaquin Valley Health Fund.
Menjívar, C. (2011). The power of the law: Central
Americans’ legality and everyday life in Phoenix, Arizona. Latino Studies, 9(4), 377-395
Michelson, Melissa R., and Jessica L. Lavariega Monforti.
2018.
“Back in the Shadows, Back in the
Streets.” PS, Political Science & Politics 51(2): 282

488
Montoya, Martin. 1992. “Ethnographic Evaluation
of the Behavioral Causes of Undercount: Woodburn,
Oregon.” Ethnographic Evaluation of the 1990 Decennial Census Report #25. Prepared under Joint Statistical Agreement 90-06 with the University of Oregon.
Bureau of the Census, Washington D.C.
O’Hare, William, Yeris Mayol-Garcia, Elizabeth Wildsmith, and Alicia Torres. 2016. “The Invisible Ones:
How Latino Children Are Left Out of Our Nation’s Census Count.”
Pedraza, Francisco I., and Maricruz Ariana Osorio.
2017. “Courted and Deported: The Salience of Immigration Issues and Avoidance of Police, Health Care,
and Education Services among Latinos.” Aztlan: A
Journal of Chicano Studies 42(2): 249-266.
Rodriguez, N., & Hagan, J. M. (2004). Fractured families and communities: Effects of immigration reform
in Texas, Mexico, and El Salvador. Latino Studies,
2(3), 328-351.
Stepick, Alex. 1992. “Ethnographic Evaluation of the
1990 Decennial Census Report Series.” Ethnographic
Evaluation of the 1990 Decennial Census Report #8.
Prepared under Joint Statistical Agreement #90-08
with Florida International University. Bureau of the
Census, Washington D.C.
Terry, Rodney L. et al. 2017. “Exploring Inconsistent
Counts of Racial/Ethnic Minorities in a 2010 Census
Ethnographic Evaluation.” Bulletin of Sociological
Methodology/Bulletin de Méthodologie Sociologique
135(1): 32-49.

489
Vargas, Edward D. (2015). “Immigration enforcement
and mixed-status families: the effects of risk of deportation on Medicaid use”. In: Children and youth services review 57. Publisher: Elsevier, pp. 83-89.
Velasco, Alfredo. 1992. “Ethnographic Evaluation of
the Behavioral Causes of Undercount In The Community of Sherman Heights, San Diego, California.” Ethnographic Evaluation of the 1990 Decennial Census Report #22. Prepared under Joint Statistical Agreement
89-42 with the Chicano Federation of San Diego County.
Bureau of the Census, Washington, D.C.
Yoshikawa, Hirokazu (2011). Immigrants raising citizens:
Undocumented parents and their children.
Russell Sage Foundation.
Szkupinski Quiroga, S., Medina, D. M., & Glick, J.
(2014). In the belly of the beast: Effects of anti-immigration policy on Latino community members.
American Behavioral Scientist, 58(13), 1723-1742
Watson, Tara (2014). “Inside the refrigerator: Immigration enforcement and chilling effects in Medicaid participation”. In: American Economic Journal: Economic Policy 6.3, pp. 313–38.

490

Exhibit 66

491
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
20-CV-5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
EXPERT REPLY DECLARATION OF MR. JOHN
THOMPSON
I.

Introduction

1.

On July 21, 2020, President Trump issued a
Memorandum for the Secretary of Commerce on
Excluding Illegal Aliens from the Apportionment Base Following the 2020 Census (in the remainder of my statement, I will use the term
“Memorandum” to refer to this document).

492
2.

I prepared and executed a declaration for this
case on August 6, 2020 (“Declaration”). 1 In my
Declaration, I stated: “It is my opinion that the
effects of the Memorandum on the current macro
environment are likely to be as great if not greater
than the addition of a citizenship question.
Therefore, immigrants and the families of immigrants will be reluctant to participate in the
Nonresponse Followup (“NRFU”) and many will
not be enumerated. It is also likely, in my opinion, that this reluctance to participate will extend to other hard-to-count populations as well.
The issuance of the Memorandum has significantly increased the risk of larger total and differential undercounts, relative to previous censuses.”

3.

The Census Bureau conducted the 2019 Census
Test, a nationally representative randomized experiment designed to study the potential impact
on self-response of including a citizenship question on the 2020 Census questionnaire. 2 This
was a well-designed randomized control test that
compared the effects of adding a citizenship
question to the 2020 Census questionnaire. I
have carefully read the final report for this test,
and the results are consistent with and, in fact,
bolster the opinion that I expressed in my Declaration.

See State of New York, et al. v. Trump, et al., 20-CV-5770 (JMF),
and New York Immigration Coalition, et al. v. Trump, et al.,
20-CV-5781 (JMF), Doc. 57.
2
US Census Bureau, 2019 Census Test, Final Report, December
30, 2019.
1

493
4.

Because the test found that there was no statistically significant difference in overall selfresponse rates between households that received a questionnaire with the citizenship question and those that received a questionnaire
without the citizenship question, the Census Bureau concluded that the addition of a citizenship
question would not have affected staffing needs
for NRFU. However, the Census Bureau, by
design, did not investigate what effect the inclusion of the citizenship question would have on increasing undercounts of immigrant and hard-tocount communities. Furthermore, as I will discuss below, adequately staffing NRFU is not
sufficient to obtain a complete and accurate enumeration of the traditionally hard-to-count populations. 3

5.

Importantly, the 2019 Census Test contained additional findings that I believe are relevant to
understanding the likelihood that the Memorandum will negatively impact response rates, and
the potential for the Memorandum to significantly increase the risk of larger and total undercounts relative to previous censuses.

6.

In particular, the 2019 Census Test found that in
some areas and for some subgroups, there were
statistically significant lower self-response rates
for the test questionnaire with the citizenship
question than for the test questionnaire without

It should be noted that if the Census Bureau fails to meet its hiring goals for NRFU, then undercounts would most likely follow.
3

494
the citizenship question.
These differences
were observed for the following:
•

Mail respondents.

•

Tracts designated to receive bilingual
materials.

•

Tracts with greater than 4.9 percent
noncitizens.

•

Tracts with greater than 49.1 percent
Hispanic residents.

•

Tracts with between 5.0-20.0 percent
Asian residents.

•

Housing units within the Los Angeles
Regional Census Center and New York
Regional Census Center boundaries.

7.

In addition, the proportion of those who identified as Hispanic (and were listed as the first person on the questionnaire) was statistically significantly lower for the treatment with the citizenship question.

8.

These results indicate that the citizenship question would have seriously affected the propensity of many of the hard-to-count communities to
self-respond to the 2020 Census. As I discussed in my Declaration, it would follow that
they would also be less likely to participate in
NRFU resulting in undercounts of immigrants
and the families of immigrants, as well as all of
the traditionally hard-to-count communities.
Accordingly, there would be a significant risk
that these undercounts would be larger than
were observed in previous censuses.

495
9.

In conclusion, the 2019 test further demonstrates that the addition of a citizenship question
to the 2020 Census questionnaire would lower selfresponse for populations at risk of being undercounted. This bolsters my opinion that the Memorandum will have a similar, if not greater, effect
on the macro environment in which the 2020
Census is being conducted, particularly for
NRFU.

10. The Census Bureau must do a lot more than
simply hire enough enumerators to meet their
staffing goals for NRFU in order to achieve a
fair and accurate count of all populations and areas. They and their partners 4 must create the
kind of macro environment that convinces the
traditionally hard-to-count populations to fully
participate in the 2020 Census, and importantly
to accurately respond in NRFU.
11. The Memorandum is a major barrier preventing
the Census Bureau and its partners from creating such a macro environment. Furthermore,
it is my opinion, that a timely ruling from a court
enjoining the Memorandum would greatly help
the Census Bureau and its trusted partners in
In my original Declaration, I discussed the Census Bureau’s partnership program. These partners include advocacy organizations,
local governments, religious leaders, and many other community organizations. The Census Bureau recruits these partners to help deliver messages to the communities that they work with about the importance of responding to the census and the confidentiality of these
responses. A critical component of the message from trusted voices
is that the Census Bureau does not share any identifiable information with any outside entities including law or immigration enforcement.
4

496
their efforts to convince hard-to-count populations, such as immigrant populations, that they
can trust the Census Bureau and should respond
to the census.
12. As explained in my Declaration, the role of
trusted partners was developed during my tenure at the Census Bureau before the 2000 Census, and used to great effect in both the 2000 and
2010 Censuses to help reach hard-to-count populations. The Memorandum is limiting what
has previously proven to be a very effective program to help increase census responses because
it undermines the message that the Census Bureau is trustworthy and is not seeking to single
out immigrants or individuals without legal status.
13. A court order enjoining the Memorandum would
mitigate the damage because it would allow
trusted partners to better explain during their
outreach that all individuals will in fact be counted
for apportionment, and bolster the advocacy that
these partners do within their communities
about the trustworthiness of the Census Bureau
—supporting the point that the Census Bureau
is not singling out immigrants and individuals
who do not have legal status. Messaging refuting
the proposal in the Memorandum would help improve the effectiveness of efforts by the Census
Bureau and its trusted partners to convince individuals to respond to the 2020 Census during
NRFU. And it would help the Census Bureau
better carry out its mission to conduct a fair and
accurate enumeration in the 2020 Census.

497
Executed on Aug. 24, 2020 at Bend, Oregon.
I declare under penalty of perjury that the foregoing
is true and correct.
/s/ JOHN THOMPSON
JOHN THOMPSON

498
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (RCW) (PWH) (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS
ORDER

Before: RICHARD C. WESLEY, United States Circuit
Judge, PETER W. HALL, United States Circuit Judge,
JESSE M. FURMAN, United States District Judge
At the oral argument scheduled for September 3,
2020 at 10:00 a.m., the parties should be prepared to address the following topics and questions:
• Standing, specifically the components of traceability and redressability. The parties should
be sure to differentiate between the two theories of harm that Plaintiffs allege—the “apportionment harm” and the “Census count harm,”
see ECF No. 150, at 29—and whether or how
each harm relates to, and would be redressable
by, the requested relief.
• More specifically, assuming Plaintiffs are correct that the Presidential Memorandum has a
chilling effect on Census participation, whether
and how would the requested relief redress
that injury? How effective must a remedy be

499
to meet the redressability requirement? To
the extent that the NGO Plaintiffs have diverted,
or will divert, resources to address the Presidential Memorandum, would the requested relief redress that harm?
• Additionally, to the extent that the NGO Plaintiffs have diverted, or will divert, resources to
address the Presidential Memorandum, in
light of Clapper v. Amnesty International USA,
568 U.S. 398 (2013), must those expenditures
be made in response to injuries that are themselves sufficiently imminent and impending to
satisfy Article III to constitute cognizable injury?
• Ripeness, both constitutional and prudential,
and particularly with respect to the apportionment harm.
• If the Court agrees with Plaintiffs on both the
threshold issues of jurisdiction and justiciability and the merits of their statutory or constitutional claims, should it enter a preliminary
injunction or grant summary judgment? Does
Plaintiffs’ showing of harm bear on that question and, if so, how?
• If the Court rules in Plaintiffs’ favor, can it grant
effective relief without granting relief against
the President himself ?
Each side should anticipate having 20-30 minutes for
its oral argument. Only one lawyer from each side will
be permitted to speak on a given issue.

500
SO ORDERED.
Dated: Aug. 31, 2020
New York, New York
_______________/s/_________________
RICHARD C. WESLEY
United States Circuit Judge
_______________/s/_________________
PETER W. HALL
United States Circuit Judge
_______________/s/_________________
JESSE M. FURMAN
United States District Judge

